<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-429]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-429
 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2009

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION


                               __________

                    Department of Homeland Security
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
41-254 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        TED STEVENS, Alaska
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
PATTY MURRAY, Washington             PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
FRANK R. LAUTENBERG, New Jersey      LARRY CRAIG, Idaho
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                           Professional Staff
                            Charles Kieffer
                              Chip Walgren
                            Drenan E. Dudley
                              Tad Gallion
                            Christa Thompson
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)
                         Katie Batte (Minority)

                            C O N T E N T S

                              ----------                              

                         Tuesday, March 4, 2008

                                                                   Page
Department of Homeland Security..................................     1
Nondepartmental Witnesses........................................   159


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         TUESDAY, MARCH 4, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye presiding.
    Present: Senators Inouye, Leahy, Murray, Lautenberg, 
Nelson, Cochran, Stevens, Specter, Craig, and Alexander.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. MICHAEL CHERTOFF, SECRETARY


             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE


    Senator Inouye. Mr. Secretary, welcome, sir. Chairman Byrd 
plans to be back here in the Senate on Thursday, and he has 
asked me to chair this hearing today.
    This week, as you may know, Mr. Secretary, marks the fifth 
anniversary of the establishment of your Department. Since the 
Department was created, Senator Byrd and other members of this 
Committee have pressed the President and the Congress to 
provide the Department with the resources it needs to fulfill 
its critical mission.
    Mr. Secretary, thank you for appearing before the 
subcommittee today. You manage a Department that employs more 
than 195,000 dedicated men and women. These workers serve on 
the frontlines, securing our ports, our waterways, securing our 
borders, enforcing our immigration laws, protecting over 700 
million airline passengers using our airports each year, and 
responding to disasters.
    And on behalf of the committee, I wish to commend them for 
their dedication and their service to preserving our freedoms 
and securing our homeland.
    While we have had many issues with the administration over 
its commitment to providing the resources necessary to get the 
job done, I hope you will work with the committee to find a way 
to properly fund the Department's efforts to achieve this 
primary mission.
    Last month, as you are well aware, the Director of National 
Intelligence released the Annual Threat Assessment. The 
Director confirmed that al-Qaeda has regrouped in Pakistan, and 
that terrorists continue to pose significant threats to the 
United States. According to this assessment, terrorists are 
likely to continue to focus on prominent infrastructure 
targets, with a goal of producing mass casualties and 
significant economic aftershocks. In addition, the Department 
continues to believe that the aviation sector is at a high risk 
of attack.
    Based on this assessment, I believe I speak for the 
committee in saying that we are disappointed that the President 
proposed a flat budget for your Department. The President seeks 
discretionary funding of $37.6 billion, the same as fiscal year 
2008. I'm also disappointed that funding approved by the 
Congress 9 months ago for hiring air cargo inspectors, 
deploying more K-9 teams, and purchasing explosive-detection 
systems remains unspent, sitting in the Treasury.
    In your testimony, Mr. Secretary, you assert that the 
President proposes an increase of 7 percent in fiscal year 
2009. However, in this calculation, you exclude the $2.7 
billion in the emergency funding for border security that the 
Senate passed by a vote of 76 to 17, and the President signed 
into law.
    Most of this funding was not one-time funding. Your own 
budget for 2009 assumes that most of the emergency funding was 
not one-time funding. Securing our borders is a requirement 
that is not going away.
    Mr. Secretary, in light of the administration's latest 
threat assessment, a flat budget simply is not satisfactory. 
Senator Byrd related to me that he is particularly troubled by 
the President's proposal to cut first-responder grants by $2 
billion, or 48 percent.
    Hurricane Katrina proved that our communities are not 
prepared to respond to a major disaster. Dramatically cutting 
funds for police, fire, and emergency medical personnel, and 
for emergency planning, is not a solution.
    It is equally troubling that the Department has not 
requested sufficient resources to fully implement 9/11 act 
requirements, such as expansion of the Surface Transportation 
Security Program, and increase screening of air cargo. Further, 
the Port Security Grant Program is cut by $190 million, and 
there are no funds requested to develop interagency operation 
command centers for the maritime domain, as mandated under the 
Safe Port Act.
    When the Senate Appropriations Committee, under Chairman 
Byrd's leadership, marks up the Homeland bill, I'm certain we 
will restore the ill-considered cuts in this first responder 
funding, while providing a robust budget for border security, 
for the Coast Guard, for aviation security, and for other 
efforts to respond to an evolving threat.
    The President has already stated that he will veto any 
appropriation bill that exceeds his request. When we send such 
a bill to the President, I urge you to put the security of the 
American people above the President's agenda.
    And without objection, I will insert the full statement of 
Chairman Byrd in the record.
    [The statement follows:]

              Prepared Statement of Senator Robert C. Byrd

    Welcome Secretary Chertoff. This week marks the fifth anniversary 
of the establishment of the Department of Homeland Security. As you 
know, I opposed creating the Department. But, since it was created, I 
have pressed the President and the Congress to provide the Department 
with the resources that it needs to fulfill its critical missions.
    Mr. Secretary, I thank you for appearing before the subcommittee 
today. You manage a department that employs over 195,000 dedicated men 
and women. These workers serve on the front lines, securing our ports 
and waterways, securing our borders, enforcing our immigration laws, 
protecting the 700 million flyers using our airports each year, and 
responding to disasters. I commend them for their dedication and their 
service to preserving our freedoms and securing our homeland.
    While I have had many issues with the administration over its 
commitment to providing the resources necessary to secure the homeland, 
I have appreciated working with you in support of your agencies' 
missions. I thank you for your dedication and your service.
    Last month, the Director of National Intelligence released the 
Annual Threat Assessment. The Director confirmed that al-Qaeda has 
regrouped in Pakistan and that terrorists continue to pose significant 
threats to the United States. According to the threat assessment, 
terrorists are likely to continue to focus on prominent infrastructure 
targets with the goal of producing mass casualties and significant 
economic aftershocks. The Department continues to believe that the 
aviation sector is at a high risk of attack.
    Based on this assessment, I am disappointed that the President 
proposes a flat budget for your Department. The President seeks 
discretionary funding of $37.6 billion, the same as fiscal year 2008. I 
am also disappointed that funding that Congress approved 9 months ago 
for hiring air cargo inspectors, deploying more canine teams, and 
purchasing explosives detection systems remains unspent, sitting in the 
Treasury.
    In your testimony, you assert that the President proposes an 
increase of 7 percent for fiscal year 2009. However, in this 
calculation, you exclude the $2.7 billion of emergency funding for 
border security that passed the Senate by a vote of 76-17 and was 
signed into law by the President. Most of this funding was not one-time 
funding. Your own budget for 2009 assumes that most of the emergency 
funding was not one-time funding. Securing our borders is a requirement 
that is not going away.
    Mr. Secretary, in light of the administration's latest threat 
assessment, a flat budget is simply not satisfactory. I am particularly 
troubled by the President's proposal to cut first responder grants by 
$2 billion or 48 percent. Hurricane Katrina proved that our communities 
are not prepared to respond to a major disaster. Dramatically cutting 
funds for our police, fire, and emergency medical personnel and for 
emergency planning is not a solution.
    When we mark up our bill, we will restore ill-considered cuts in 
first responder funding, while providing a robust budget for border 
security, for the Coast Guard, for aviation security, and for other 
efforts to respond to an evolving threat. The President has already 
stated that he will veto any appropriations bill that exceeds his 
request. When we send such a bill to the President, I challenge you to 
put the security of the American people above the President's apparent 
political agenda.

    Senator Inouye. And now, I wish to turn to my good friend 
and able colleague, Senator Thad Cochran, following any remarks 
that Senator Cochran may have. We look forward to your 
testimony. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
convening this hearing, and we appreciate very much the 
attendance of the Secretary of Homeland Security to discuss the 
budget request submitted by the President.
    Mr. Secretary, we appreciate you're being here and sharing 
your insights with us about how the Department of Homeland 
Security will continue to deal with the threats to the security 
of our homeland.
    The fiscal year 2009 budget has a total discretionary 
appropriations request for the Department of $37.6 billion. 
It's roughly the same as the Department's appropriations level 
for this fiscal year, including an additional $2.7 billion in 
emergency appropriations for border security. And, we are 
pleased to see that the Department is on track now to meet the 
hiring targets that were funded in the last 3 years, in regular 
and supplemental appropriations bills.
    It's been a big challenge, we know, and we commend you for 
the hard work that's been done by the Department to achieve 
these goals. I think it's important to note that the budget 
request proposes resources to pay for the border initiatives 
that were funded over the past 3 years as well.
    Approval of this request will enable us to meet the goal of 
having 20,000 agents at the border by the end of fiscal year 
2009.
    Senator Inouye. May I recognize Senator Specter.

                   STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    I would like to focus this morning on the high cost of 
illegal aliens who have been convicted of serious crimes of 
violence, high cost in terms of public welfare, national 
security, and a drain on the budgets of the Federal, State, and 
local levels.
    We have, at the present time in the United States, 74,000 
illegal aliens in local jails, 49,000 criminal aliens in State 
facilities, at a total cost in the range of $2.6 billion. The 
most serious aspect of the problem is that once they have been 
convicted and are released to be deported to their native 
country, they are not deported. And that under court rulings, 
they are released in 180 days, and pose an enormous problem in 
public safety, with a recidivism rate showing that they are 
likely to commit as many as eight additional crimes.
    There are procedures which could be used to deport them to 
their native country, if the native country would take them 
back. I've written to you about this, and there are statutes 
which would require the Secretary of State not to grant visas 
to countries which do not take back illegal aliens.
    But when the countries do not take back illegal aliens, and 
they are on the street, it is a problem of overwhelming 
significance. Under our system of laws, once the jail sentence 
has been served, you can't detain them any further. And if the 
native country will not take them back, they are left to roam 
the streets of the United States as dangerous criminals--
something you and I know something special about, having been 
prosecutors of violent crime.
    And I believe we have to move in a number of directions to 
find ways to deport these illegal aliens who are violent 
criminals, or to find some way legally, constitutionally, to 
detain them.
    Thank you, Mr. Chairman.
    Senator Inouye. I thank you very much. And may I now 
recognize Senator Nelson.

                    STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Thank you, Mr. Chairman. Welcome, again, 
Mr. Secretary.
    We already spoke this morning. Thanks for the call. And I 
appreciate you're responding to my correspondence relating to 
the question of the disallowance or ignoring of a statutory 
requirement for the homeland security process for the 100 
largest metropolitan areas. I appreciate you're stepping in and 
keeping the bureaucracy of the Department of Homeland Security 
from thinking it's the fourth branch of government, and I 
appreciate very much you're doing that. We look forward to 
continuing to work with you on this project, as well as others.
    Securing our borders has become one of the most important 
things to the people of our country, because they recognize 
that it's not simply about protecting our borders from people 
who want to come across for a better opportunity of life, but 
it also has been open to those who would come across to do 
harm, whether it's the meth scourge that we see today, or the 
drug dealers coming across the border, or passing their drugs 
across the border, or whether it's the criminals or members of 
gangs that come across for their own purposes.
    I know you've worked very diligently to get border security 
in place. Obviously, part of the border security is hard and 
concrete, but otherwise a fence wall approach that is a 
hardened barrier. I know there are other areas that are open 
to, if you will, a softer approach in terms of surveillance, 
but nevertheless, something that can also be effective, and 
that is the technology that we are seeking to have for certain 
areas, the whole purpose being not to prevent people from 
coming across the border, but to slow them down to the point 
where they get caught and are returned.
    But I am very concerned about what Senator Specter has 
pointed out, and that is the challenge that we have with those 
who are here, who have violated the law, that we are unable to 
return. And I would hope that we would work very diligently, 
whether it's denying visas or whether it's working with our 
Government at some other level to overcome that.
    I cannot imagine that the United States would not accept 
back a citizen from another country who would be in the process 
of being deported. That's unacceptable. And I hope that, as we 
move forward, your office can come up with some suggestions as 
to how we might go about doing that, because it's something 
that we are going to have to face at some point.
    The whole question about amnesty or legalization or what do 
you do with the people who are here begs for an answer, but 
part of that answer is going to be, ``What do you do with the 
people who have violated the laws who are here and continue to 
do us harm?'' If we can't solve that question, it seems to me 
the other questions go begging, as well. So thank you, Mr. 
Chairman, I appreciate this opportunity.
    Senator Inouye. Thank you very much. And I recognize 
Senator Stevens.
    Senator Stevens. Mr. Chairman, I'm here to hear the 
Secretary, and I don't have an opening statement.
    Senator Inouye. Thank you, sir. Senator Lautenberg.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Yeah. Secretary Chertoff and I come 
from the same State. It's a small State, but it has enormous 
security concerns. And I welcome the Secretary. I hear he's 
done a fantastic job since being sworn into this position, with 
crowding homeland's 160,000 people in various departments. And 
I think that time has, thank goodness, been on our side, and 
you've had a chance, Mr. Secretary, to mold the departments 
into the operating units as you want to see them functioning.
    My concern is--and this by way of a statement, not really 
my first question--but the cuts that are in the various of the 
grants, and not the least of which is State homeland security, 
which is cut $750 million from a top of $950 million last year. 
So the 2009 request is down to $200 million--port security cut 
in half, rail security cut by more than half, and emergency 
management cut by a third.
    All of these, even assistance to firefighters, Mr. 
Secretary, is painful, because as it is, most of the 
communities have problems financing their firefighting needs, 
and a lot of them have volunteers where they'd like to have 
professionals. That's cut $415 million.
    So while I pat you on the back for a job well done, Mr. 
Secretary, as you know, around here, you never take a 
compliment until the last word has been said, and we'll have 
more to talk about in a few minutes.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. If I leave, I am 
going to be leaving questions. I know the GAO report says that 
the Custom and Border Protection staffing allocation needs up 
to several thousand additional CBP officers. Of course, the 
budget that Secretary Chertoff is backing allows for only 234 
additional officers at land borders, and 295 for radiation 
monitoring.
    We have, I saw in Vermont, where they say we need 60, 
Assistant Commissioner Thomas Winkowski said that, ``Well, we 
get eight. We won't get the 60, but we'll get 8.'' Of course, 
we haven't even gotten those.
    So it's a concern. You go--it's almost as though it doesn't 
make a difference whether they say we need 50, 60, 70, if we're 
not going to get any, anyways. It's a nice study to read, but 
while we have all of that shortage, DHS established a temporary 
checkpoint on Interstate 91 in Hartford, Vermont in December 
2003 to May 2005.
    I wondered how you could spend this kind of money so far 
from the border. Even people like former Republican Speaker of 
the House Newt Gingrich said this is unnecessary government 
intrusion. If it made us safer, it'd be one thing. But, of 
course, there are about 20 parallel two-lane roads that go down 
there. And the checkpoint picked up a couple of lazy people 
with drugs, but mostly just ticked off everybody.
    So I'd asked about that at my last hearing, because we'd 
heard that the parliament is quietly conducting a feasibility 
study to see whether they would build a permanent checkpoint 
there, 100 miles from the border. I finally got a response 5 
months after I'd asked the question. You said the results of 
the study--any decisions on project advancement would be shared 
with your office through the Office of Congressional Relations.
    Well, then, now I see in the President's budget, we have a 
$4 million request installation of permanent border 
checkpoints--and that's plural--in Vermont. Again, all on 
interstate highways where everybody knows they're there, all of 
them with dozens of roads that parallel the interstate highway.
    So while I was told we would hear if there's going to be 
more, obviously that was Form Letter 12, because we never heard 
until we saw the President's budget. And I'm worried only 
because we don't have the adequate number of people on the 
border. We sometimes have hours--hours' wait just for tourists 
to go across that border. And it'll become worse once they 
start having to require more paperwork, because many of the 
lanes aren't open. They're short of people there, but somehow 
we can put symbolic checkpoints 100 miles from the border.
    It's interesting. I went through one of those symbolic 
checkpoints in the State of New York, driving back here. It was 
about 125 miles from the border. And a car with license plate 
``1'' on it, from Vermont, and little letters underneath that 
says, ``U.S. Senate,'' stopped, ordered to get out of the car, 
and prove my citizenship.
    I said, ``What authority are you acting on?'' And they--one 
of your agents points to his gun, and he says, ``That's all the 
authority I need.'' An encouraging way to enter our country.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for being here. With a Department as big as yours, 
there's always probably something to fix every hour, so I want 
to make two comments, but the first falls under the category of 
``find the good and praise it,'' which my late friend, Alex 
Hailey, always used to say.
    I refer specifically to the February 5 and 6 storms and 
tornadoes in Tennessee, and the reaction to it by FEMA, by the 
Tennessee Emergency Management Agency, by the President, by the 
Governor, by the local officials. I've been involved with 
various disasters and tragedies over the last 30 years in our 
State, as Governor and the university president, and now having 
been here, and living there.
    And I've never seen a more effective response to a major 
tragedy or disaster than I saw on February 5 and 6 by our local 
officials, by Governor Bredesen, and by President Bush and his 
team.
    I've visited in the Macon County area, north of Nashville, 
where a tornado hit the ground and stayed on the ground for 21 
miles, causing many deaths, tearing up house after house down 
in Jackson, which is better known because of the Union 
University problems there. I was there.
    What I was impressed was--just a few of the things--one, 
for example, the local planning--and some funding is important 
in this--the local planning efforts in Jackson, Tennessee 
permitted the local agencies not only to warn people hours 
ahead of time that a storm might be coming, it was as specific 
as saying over the television that, ``10 minutes from now, if 
you live on the north side of I-40, you should expect a Level 3 
tornado.''
    And it came in 10 minutes, and as a result of that warning, 
Union University--which has over 3,000 students--didn't lose a 
single life, even though most of the dormitories were 
destroyed. So that local planning money for local agencies, as 
I heard from the local people, is being used pretty well to 
make sure they can respond to that. That was very helpful.
    Then, in the case of Macon County, the tornado hit at about 
9:30 at night, and you had people from the Atlanta office, and 
Chattanooga on the Tennessee border, by midnight of the same 
night, and disaster recovery centers open the next day at dawn, 
when the people came out with nothing to eat.
    And within days, everybody had a phone number, people were 
beginning to get money. I won't go into all the details, but I 
think the bottom--we hear so much about Katrina that I think it 
may infect our view of everything else. On a scale of zero to 
10, this was a 10-plus.
    So your staff played a big role in that, as well as 
Governor Bredesen's staff, and I think when that happens, it 
needs to be pointed out.
    Now, let me shift gears a little bit. Something I'm not as 
pleased about, and not really your fault, when the REAL ID 
legislation passed, I objected to it. I thought it was 
inappropriate for Congress to create a de facto national 
identification card without the Senate even holding a hearing, 
and especially because it would seek to impose huge amounts of 
costs on States' governments.
    And, as a former Governor, I hate nothing more than 
unfunded Federal mandate where somebody in Washington comes up 
with a big idea, makes it a law, and then sends the bill to the 
Governors. And then, usually, that politician goes home and 
makes a speech at the Lincoln or Jackson Day Dinner about local 
control.
    So I'm sort of conditioned to be opposed to unfunded 
mandates, and this is a very serious one. I object really to 
the law itself, because while I've come reluctantly to the 
conclusion that we need a national ID card, I prefer that we 
would think about what ID card. I would prefer a secure work 
card, for example, which I think would be more appropriate, and 
which we could have figured out if we'd had a hearing about all 
this.
    But we didn't. They just sort of stuck the REAL ID card 
into a must-pass appropriations bill, and we all--and the 
Senate voted for it. I said at the time, and I still believe, 
that--well, let me put it this way. There are now 46 States who 
have responded to what I think is a sensible and commendable 
effort by you to give a waiver to states, so that by May of 
this year, when they're supposed to have all of this ready, 
they don't have to have it ready. They've got another 3 years.
    But there are still four States--Maine, Montana, New 
Hampshire, and South Carolina--that haven't asked for a waiver. 
And we're in sort of a game of chicken between those four 
States and the Federal Government. And I think what we ought to 
do is send the home phone number of every Senator and 
Congressman who voted for the REAL ID law to everybody in 
Maine, Montana, New Hampshire, and South Carolina.
    And when they're not allowed to board an airplane, they can 
call us and tell us what they think about it. But in the 
meantime, I plan to offer an amendment that prevents--at least 
for the 1 year of the appropriations bill, if it should pass--
your Department from enforcing REAL ID mandates until the 
Federal Government provides full funding for the 
implementation.
    I'll wrap up my comments with this, Mr. Chairman. The 
overall estimated cost to States is about $4 billion. We're 
talking about 245 million drivers in this country who are going 
to have to go one way or another and get new identification. So 
far, $90 million has been appropriated by Congress of the $4 
billion that it's expected to cost, and $6 million has been 
distributed to States.
    So there is at least one other former Governor on this 
subcommittee, and what I am suggesting here is that without 
arguing whether this is a good law or a bad law, the second 
question is, should we have a big unfunded Federal mandate? And 
I don't think the States should be required to implement the 
REAL ID law until Congress demonstrates that it's willing to 
reimburse the States for the cost of this mandate.
    So that will be the point of my amendment when the time 
comes. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much, sir. And now, Mr. 
Secretary.

                     STATEMENT OF MICHAEL CHERTOFF

    Secretary Chertoff. Thank you. Thank you, Senator Inouye. 
Thank you, Senator Cochran, and other members of the 
subcommittee, for the opportunity to appear to discuss the 
President's 2009 budget.
    I believe this is my fourth appearance at a budget hearing 
since I came onboard in 2005. As you've observed, this is the 
fifth anniversary of the Department's existence, and I'm happy 
to say that the budget the President has proposed for fiscal 
year 2009 is, I think, a sound budget.
    I think it's fiscally responsible. I think it does advance 
the Department's critical priorities, although like with any 
other budget, it does require some tradeoffs. I think it 
focuses resources on the greatest risks and gives our 208,000 
employees the tools that they need in order to serve and 
protect the American people.
    I would echo the observations of the Director of National 
Intelligence concerning the strategic threat that we face. In 
some ways, we have had concerning developments from a strategic 
standpoint. In some ways, we've seen some positive 
developments.
    As you noted, Senator, the developments in the frontier 
area of Pakistan and the creation of some safe havens there is 
a concerning element in terms of the strategic picture. At the 
same time, I'd have to say that what is going on in Iraq, with 
al-Qaeda in Iraq being repudiated by the Sunni population that 
I believe al-Qaeda hoped would be supportive, I think that 
repudiation and the losses that al-Qaeda in Iraq have suffered 
are a positive development, and I suggest that there are some 
hopeful signs in the future.
    I would say this, of course, with respect to the budget in 
general. The security of the American people is, in fact, the 
President's agenda, and it's number one on his agenda. And to 
that end, if we look at our total funding proposed for fiscal 
year 2009, we're requesting $50.5 billion, which is a 6.8 
percent increase over the previous year's base budget, and a 62 
percent increase since the Department's creation over 5 years 
ago.
    Now, I know that those of you experienced in budget matters 
are also well aware there was emergency funding in the 2008 
budget. Of course, emergency funding by definition is not 
supposed to be base funding. It's supposed to be emergency 
funding. So when we make our comparisons, we compare with the 
base.
    Obviously, you have a lot of individual questions, but I'd 
like to focus on a few key elements of the budget in the time 
that I have allotted to me.
    First, let me begin with the issue of protecting our 
country at the borders. That is a critical element of this 
Department's mission, and it's one that's pursued by most of 
our components, whether it be Customs and Border Protection, 
ICE, the Coast Guard, or TSA.
    Let me start with the border between the ports of entry. As 
of February 21, we have constructed approximately 303 miles of 
pedestrian and vehicle fencing. Senator Nelson and I have 
actually constructed a little bit of that fencing ourselves. We 
welded at the border last year.
    And we are on track to hit our objective of 670 miles of 
fencing along the Southwest border by the end of this calendar 
year. We currently have over 15,500 Border Patrol agents sworn 
into duty, compared to about 9,000-some-odd agents when the 
President took office. That includes a dramatic increase in the 
last 18 months, and again, we are on pace to hit our goal of 
18,000 by the end of the calendar year.
    About a 1\1/2\ ago, we announced that we were going to end 
what was the pernicious practice of catch-and-release at the 
border, where people were caught at the border entering 
illegally but were released because we did not have the 
capability to remove them in a timely way or to detain them.
    And we sustain--we did end that 18 months ago, and we 
sustained that moving away from catch-and-release up to the 
present day. We currently have a policy of catch, detain, and 
return along the border.
    I agree with the observation of Senator Specter that a key 
element of that is the ability to repatriate illegal aliens to 
their home countries. The good news is many countries work with 
us on that. The countries of Latin America and Central America, 
for example, have by and large been very cooperative with us in 
expediting the process of removing people who are here 
illegally, including criminal aliens.
    Some countries--a minority, but some countries--are not 
cooperative with us. In some instances, we have had to threaten 
sanctions, and I would be eager to work with this committee to 
come up with alternative ways we might continue to press 
countries that do not accept their illegal aliens back.
    China happens to, frankly, be the worst offender in this 
regard. We have probably around 50,000 people who are under 
orders of removal that we cannot remove, because the pace of 
processing them back to China is volatile, if I can use that 
word.
    Nevertheless, if you look at the entire picture, what we've 
done with tactical infrastructure, what we've done with 
interior enforcement, we have seen positive developments and a 
decrease in flow across the borders, measured not only by a 
drop in apprehensions, but by other metrics, such as 
stabilization or a drop in remittances, increased costs for 
coyotes smuggling across the border, and measures of activity 
south of the border.
    For fiscal year 2009, we're requesting $3.5 billion for the 
Border Patrol, which includes about a $500 million increase 
that by the end of next September 2009 would get us to over 
20,000 agents. We are also requesting $775 million, which would 
get us to a--for SBI, sorry--the Secure Border Initiative 
Technology Program, which would provide over $2 billion in 
fiscal year--total in fiscal year 2009.
    That would be used not only for tactical infrastructure, 
like fencing, but for things like unmanned aerial system 
sensors, cameras, and other important tools such as that.
    Let me take the opportunity to address an issue that has 
been subject of, I would say, some inaccurate reporting in the 
news, and that is the so-called mothballing or demise of 
SBInet. To paraphrase Mark Twain--and I'm always very careful 
when I quote or paraphrase to credit the source--so this is 
Mark Twain's original thought, the reports of the death of SBI 
are grossly exaggerated.
    Let me explain what SBInet is, for the record, and let me 
explain what we have done and what we intend to do. SBInet is a 
total technology program that is designed to deploy technology 
across the southwest border, and ultimately the northern 
border.
    It is not a one-size-fits-all program. It does not envision 
the same lay down of technology in every square mile of the 
border. It includes, among other things, unmanned aerial 
vehicles, and we have just taken delivery of the fourth 
unmanned aerial vehicle in the last couple of weeks.
    It includes ground-based mobile radar sensing systems. I've 
seen them myself. We have about a half a dozen now. We are 
planning to have about 40 by the end of the year. It includes 
individual sensors laid down across various parts of the 
border, and we expect to be at 7,500 of those by the end of the 
year.
    One element of SBInet, but only one element, is what we 
call P28 or Project 28. This was a prototype project contract 
for $20 million that was awarded to Boeing to actually road 
test an integrated system of radar and cameras along 28 miles 
of Tucson Sector in Arizona.
    The purpose of the program was to determine whether it is 
possible to integrate a system like that in a workable fashion. 
This program is one element of the total strategy of SBInet. It 
is not, however, all of SBInet. I liken it to the fact that you 
may have a cruiser in the Navy, but the cruiser is not the 
entire fleet. It is merely one element of the fleet.
    Now, what is the report on SBInet? Last summer, we were 
disappointed in the performance of some of the individual 
equipment items which Boeing had laid down at the border, and 
which Boeing had attempted to integrate at the border.
    I had what I would describe as a candid and unvarnished 
conversation with the CEO of Boeing, in which I explained that 
I was unhappy with what they had produced for us, and in which 
I made it very clear to him that I was not wedded to this 
particular approach, because we were pursuing other approaches 
as well.
    To his credit, he changed the team that was working on the 
program, and a lot of progress was made by the end of last year 
in correcting virtually all of the technical problems that had 
arisen at the P28 prototype site. Accordingly, we conditionally 
accepted the P28 lay down, and we then began to work with it 
operationally as a precondition to final acceptance, which 
occurred in the last couple of weeks.
    With respect to any remaining defects, they were either 
immaterial, and therefore resulted in a credit to the United 
States Government, or they were fixed before we did final 
acceptance. I might also say that whatever the additional cost 
of fixing the problem was eaten by Boeing, as it should have 
been.
    So the bottom line is we were tough consumers. I think we 
did a good job about being critical. And now, we're at the 
stage of taking what we have accepted and moving it to the next 
level, in terms of operational value and optimizing its value.
    I look at the members of the Border Patrol who were 
involved in the project: the Project Manager, the Border Patrol 
Chief, the head of Customs. I looked them in the eye.
    And I said to them, ``The bottom-line question for me is, 
does this particular approach here on this 28 miles, does this 
add value? If it doesn't add value, I'm perfectly happy to go 
to use the other tools that we're using. If it does add value, 
then I want to work to increase the value that it adds.''
    And the uniform response which I got is that it does add 
value, and that the Border Patrol does want to move to it now. 
You might call it ``P28-1.5'' to take it to the next level. I 
want to emphasize, as I've said consistently, this will not be 
applied across border uniformly. It was never intended to be 
applied uniformly.
    My expectation is that it will be applied in other places--
in Tucson, Yuma, and El Paso sectors--and that we will begin 
some of these other applications during this year, 2008.
    Having addressed that issue, let me talk briefly about the 
other element of border security, which is progress in the 
interior. Last year, fiscal year 2007, we had a record 863 
criminal arrests as a result of our Work Site Enforcement 
Operations, including 92 people who were in the supervisory 
chain of the employers.
    We are requesting this year $1.8 billion--an increase of 
about a $250 million--to help ICE expand its custody 
operations, adding beds to a total of 33,000 beds, which will 
be a 78 percent increase from where we were just a couple of 
years ago.
    We're asking for a $300 million increase, for a total of $3 
billion, for ICE interior enforcement-related activities. I 
might observe to you that, last year, we had 140 percent 
increase in our criminal alien removal program. That is the 
program that Senator Specter mentioned that takes criminal 
illegal aliens and makes sure they are returned to their own 
country.
    In 2006, we removed about 70,000. Last year, it was about 
164,000. And using 2-year money that was appropriated last 
year, we are building a strategy that will allow us to remove 
even more on an annualized basis.
    We're requesting $100 million for our E-Verify automated 
system, so that we can keep pace with employer demand for this 
very important tool for verifying the legal status of 
employees. We now have about 53,000 employers who are using the 
system, and it's increased by between 1,000 and 2,000 new users 
every single week. That is a very positive development.
    Let me turn to a second issue I know that concerns the 
committee. That is protecting our Nation from dangerous goods. 
Five years ago, we scanned none of the containers that came 
into this country for radiation.
    Currently, as--after last year, we are at the point that we 
scan 100 percent of containers that enter our southern border, 
virtually 100 percent of those that come in at our maritime 
border, and over 90 percent at our northern border. And we will 
be close to 100 percent at our northern border at the end of 
this calendar year.
    We've expanded our Overseas Container Security Initiative 
to 58 foreign ports, and we've begun overseas radiation 
scanning in the ports with this Congress's Safe Ports Act at 
three pilot ports, including one in Pakistan.
    To continue to build upon this radiation scanning 
capability, we're requesting $67 million in additional funding, 
for a total of $157 million for our Domestic Nuclear Detection 
Office to allow us to continue to deploy very important 
technology.
    And for protecting our critical infrastructure, we're 
requesting $1.3 billion in total--that's an increase of $359 
million--for Department-wide efforts to counter IED threats. 
This includes over a billion dollars for TSA Explosives 
Detection Technology, $50 million for science and technology 
development, $30 million for training transportation security 
officers, and $9 million for our Office of Bombing Prevention.
    We have, as you know, issued our final regulations with 
respect to chemical security. We have hired and are continuing 
to build on our program of behavioral detection officers. We 
have increased money that we're requesting for our mobile 
detection and response teams that we put into train stations 
and airports all over the country, with dogs, in order to help 
us detect explosives.
    And we've also requested $293 million for our National 
Cyber Security Division, as part of the President's new cyber 
security strategy, which we have recently unveiled. All of 
these are positive developments, building on an enormous amount 
of investment already made in protecting our critical 
infrastructure.
    With respect to emergency response, I want to thank Senator 
Alexander for his kind words about FEMA's response in Tennessee 
and other parts of the Midwest. I happened to be there at Union 
University. I saw the devastation. I also saw the remarkable 
cooperation at all levels, which happily led to no loss of life 
in that institute of higher education.
    I think FEMA also has performed commendably with respect, 
for example, to the wildfires that we had last year in 
California, the floods we had in the Midwest, and a host of 
other national disasters.
    This is not an accident. It reflects very hard work that 
was undertaken by the leadership of FEMA, and by the Department 
as a whole, to make sure that we built capabilities we've never 
had before to deal with natural disasters.
    We want to continue to build on that, by requesting $164 
million in 2009, an increase of $64 million, for FEMA's Vision 
initiatives. That will among other things build upon its 
ability to use information technology to track and deploy 
emergency supplies, and will convert what was a part-time 
reserve disaster assistance workforce into a permanent 
workforce that is fulltime on the job, fulltime trained, and 
can be a much more effective cadre in terms of supporting our 
disaster relief when we do have to surge.
    Finally, with respect to FEMA, I'm quite sure we'll have an 
opportunity to address the issue of grants. But I will say 
this. The grants we have requested this year equal or exceed 
the grants that the administration asked for last year.
    I've been around long enough to know that there's a little 
bit of a tennis match that occurs where Congress always ups the 
number of grants, and we come in at the prior request. We have 
taken note of Congress' actions in a number of respects.
    We continue, for example, our proposal in last year's 
budget to break out separately port security grants, rail 
transportation security grants, and other transit grants, as 
opposed to lumping them in a single infrastructure program.
    We are seeking an increase in urban-area security 
initiative grants, which are risk-based funds. What I said when 
I testified before the authorizers, I will say here as well. No 
doubt one can always come up with viable ways to spend 
additional grant money, and I know at a time that States are 
feeling their own budget pinch, it would be welcomed if we 
could pick up a lot of the responsibility.
    But the money has to come from somewhere. And there are 
some things that only the Federal Government can do. And if we 
take the money out of those functions and give it to the States 
as part of the grants, we will not be doing the jobs we have to 
do with the Coast Guard or with Customs and Border Protection 
or ICE.
    So I think we've made some tough tradeoffs. I think those 
of you who have been Governors understand what that's like when 
you have to balance your own budgets. But I do think we are--we 
have built a disciplined and effective investment in our State 
and local governments, totaling $23 billion over the life of 
this Department. That is a lot of money.
    Finally, let me conclude by making one request. Last year, 
the one disappointment we had in the Consolidated 
Appropriations Act was the denial of any money for the 
consolidation of Coast Guard headquarters, DHS headquarters, 
and component mission functions in one campus at St. 
Elizabeth's.
    This year, we're going to request $120 million, and GSA 
will make a cognate request so that we can begin the process of 
consolidating the Department. This is an investment which will 
yield dividends in the future, in terms of morale, in terms of 
efficiency, and in terms of better management.
    Sometimes bricks and mortar investments are not as popular 
as investments in grants or investments in new equipment. But 
in the long run, if we want to avoid some of the problems we 
have with acquisition management or IT that are the source of 
recurrent complaints, we have to invest in the basic guts of 
the Department and allow it to be managed and operated 
effectively.

                           PREPARED STATEMENT

    So with that, I want to thank this committee for its 
support. I look forward to constructively engaging on this 
budget and the whole issue of homeland security. Much of what 
we have accomplished over the last 5 years is a tribute to our 
good working relationship with Congress, and the importance 
that we all place on the issue of securing our homeland against 
all threats, whether they be manmade or natural.
    [The statement follows:]

                 Prepared Statement of Michael Chertoff

    Mr. Chairman, Senator Cochran, and Members of the Subcommittee: Let 
me begin by saying thank you for the strong support you have 
consistently shown the Department, and I look forward to working with 
you to make certain that we make the most effective and efficient use 
of our resources and capabilities to protect the homeland and the 
American People. While we have had many successes, there are numerous 
challenges that still remain. I am here today to ask for your 
partnership and support as we face these challenges. We may not see eye 
to eye on all issues, but we certainly agree that our interests are 
best served when we work together to achieve our common goal of 
securing this great Nation.
    I am pleased to appear before the Subcommittee today to highlight 
some of our key accomplishments of the last year and to present 
President Bush's fiscal year 2009 Budget Request for the Department of 
Homeland Security (DHS).
    This year, as DHS embarks on our 5 year anniversary, we continue to 
protect the Nation from dangerous people and goods; to protect critical 
infrastructure; to build a nimble, effective emergency response system 
and a culture of preparedness; and to strengthen the Department's 
operations and management. The Department has made tremendous progress 
in achieving effective control of the border, screening passengers, 
protecting critical infrastructure, responding to emergencies, and 
enforcing our immigration laws. In fiscal year 2007, we invested 
significant time and effort to implement the requirements of the Post-
Katrina Emergency Management Reform Act, to focus our efforts on the 
greatest risks, to be nimble in our response to changing threats, and 
to be disciplined in our use of resources as we build a Department 
ready to meet future challenges seamlessly with State and local 
leadership, first responders, the private sector, our international 
partners, and most certainly, the public.
    It is no accident that we have not suffered a major terrorist 
attack on U.S. soil since September 11, 2001. It is the result of the 
President's leadership, the support of Congress, and the hard work and 
constant vigilance of hundreds of thousands of men and women--including 
the employees at DHS--who are working tirelessly both at home and 
overseas to protect our country. Under the
    President's leadership, the Department will continue to effectively 
carry out its critical mission and will leave a strong foundation for 
the future.
                    fiscal year 2009 budget request
    Six years after September 11, 2001, we are moving beyond operating 
as an organization in transition to a Department diligently working to 
protect our borders and critical infrastructure, prevent dangerous 
people and goods from entering our country, and recover from natural 
disasters effectively. The total fiscal year 2009 budget request for 
DHS is $50.5 billion in funding, a 7 percent increase over the fiscal 
year 2008 enacted level excluding emergency funding. The Department's 
fiscal year 2009 gross discretionary budget request is $40.7 billion, 
an increase of 8 percent over the fiscal year 2008 enacted level 
excluding emergency funding. Gross discretionary funding does not 
include mandatory funding such as the Coast Guard's retirement pay 
accounts and fees paid for immigration benefits. The Department's 
fiscal year 2009 net discretionary budget request is $37.6 billion, 
which does not include fee collections such as funding for the Federal 
Protective Service and aviation security passenger and carrier fees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In pursuit of the five priorities we established in 2007, the 
Department continues to efficiently align resources to lead a unified 
national effort in securing America. Those five priorities are:
    Goal 1.--Protect our Nation from Dangerous People
    Goal 2.--Protect our Nation from Dangerous Goods
    Goal 3.--Protect Critical Infrastructure
    Goal 4.--Build a Nimble, Effective Emergency Response System and a 
Culture of Preparedness
    Goal 5.--Strengthen and Unify DHS Operations and Management
    We have made great progress in each of these areas, and with the 
fiscal year 2009 Budget, we will continue that momentum. Let me 
highlight some of our key accomplishments along with initiatives and 
ongoing programs in our fiscal year 2009 Budget Request.

            GOAL 1: PROTECT OUR NATION FROM DANGEROUS PEOPLE

    We will continue to protect our Nation from dangerous people by 
strengthening our border security efforts and continuing our efforts to 
gain effective control of our borders. The Department's main priority 
is to prevent additional terrorist attacks against our country. DHS has 
worked to prevent the entry of terrorists while facilitating the 
legitimate flow of people.
Key Accomplishments
  --More Fencing at the Border.--By the end of calendar year 2007, 287 
        miles of pedestrian and vehicular fencing was in place at the 
        border. By the end of 2008, U.S. Customs and Border Protection 
        (CBP) will have constructed a total of 670 miles of fencing, 
        which will include roughly 370 miles of pedestrian fencing and 
        300 miles of vehicular fencing. CBP also took conditional 
        possession of the prototype Project 28 development of nine 
        towers equipped with radar and communications systems and 
        automated ground sensors linked to a command and control center 
        and border patrol vehicles. A new task order was issued to 
        design, develop and test upgraded Common Operating Picture 
        software for the systems.
  --Increased Air and Marine Support.--CBP opened its fourth new air 
        branch in North Dakota this past September and is on track to 
        begin operations at the last northern border air branch in 
        Michigan this spring. Delivery of a fourth DHS Unmanned 
        Aircraft System (UAS) will enable the Department to operate 
        three UASs along the southwest border and to deploy one UAS to 
        the northern border this spring. The fiscal year 2009 request 
        supports the hiring and training of 24 new UAS pilots and the 
        establishment of a joint CBP/U.S. Coast Guard (USCG) UAS 
        program office for the development of a maritime variant of the 
        Predator B. It also supports the continuation of an aggressive 
        service life extension program for the Department's P-3 
        maritime patrol aircraft that are so critical to intercepting 
        drug traffic in the Caribbean and eastern Pacific and 
        countering the increasing threat posed by the cartels' use of 
        semi-submersible vessels.
  --Secure Documentation Standards.--Compliance with secure 
        identification requirements for air travel under the Western 
        Hemisphere Travel Initiative (WHTI) has exceeded 99 percent 
        since implementation in January 2007. A Notice of Proposed 
        Rulemaking for WHTI land and sea requirements was issued in 
        June 2007 and final rule implementation is expected in June 
        2009.
  --Enhanced Driver's Licenses.--The Department signed agreements with 
        the States of Washington, Vermont, New York, and Arizona to 
        enhance the security of their State driver's licenses and to 
        potentially satisfy REAL ID requirements or serve as 
        alternatives for entry at land and sea borders.
  --Better Biometrics.--Ten-fingerprint collection from international 
        visitors has been deployed by CBP at nine ports of entry, and 
        will be implemented at 278 other ports of entry by the end of 
        2008. This upgrade from two- to ten-fingerprint collection will 
        enhance security and fingerprint matching accuracy, improving 
        the ability to compare visitors' fingerprints against latent 
        fingerprints collected from known and unknown terrorists around 
        the world. US-VISIT, the Science and Technology Directorate 
        (S&T) and the Coast Guard have partnered on a pilot fingerprint 
        collection at sea program near Puerto Rico, resulting in 114 
        prosecutions and a 53 percent reduction in migrant flow.
  --Record-Breaking Law Enforcement.--U.S. Immigration and Customs 
        Enforcement (ICE) removed roughly 240,000 illegal aliens, and 
        made 863 criminal arrests and fined or seized more than $30 
        million following worksite investigations. Its Border 
        Enforcement Security Task Forces made more than 500 criminal 
        arrests and 1,000 administrative arrests, and seized roughly 
        $2.5 million in cash as well as significant amounts of 
        narcotics and weapons. Further, ICE ACCESS was launched to 
        foster collaboration between its agents and State and local 
        leaders to identify crime-fighting priorities.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Enhanced Aviation Security.--The Transportation Security 
        Administration (TSA) increased by more than 175 percent the 
        number of personnel trained in techniques to identify 
        potentially high-risk passengers in airports. Furthermore, TSA 
        required that holders of airport-issued identification 
        credentials be subjected to regular vetting against the 
        Terrorist Screening Database. It also harmonized the 3-1-1 
        Liquids Rule with the European Union and many other countries, 
        and published a Notice of Proposed Rulemaking in August to take 
        over watch-list checks from the airlines under the Secure 
        Flight program in 2010.
  --Connecting the Dots.--The Department renewed a Passenger Name 
        Record (PNR) agreement with the European Union to share advance 
        information on passengers arriving in and departing from the 
        United States. PNR data has helped frontline personnel to 
        identify scores of dangerous people and deny them entry into 
        the country.
  --Protecting United States and World Leaders.--The U.S. Secret 
        Service (USSS) continues to meet unprecedented challenges of 
        protecting domestic and world leaders. In addition, protection 
        of presidential candidates has resumed and comprehensive plans 
        for securing the 2008 presidential campaign are being 
        implemented.
Fiscal Year 2009 Budget Request
  --Border Patrol Agents.--Funding of $442.4 million is requested in 
        the President's Budget to hire, train and equip 2,200 new 
        Border Patrol Agents and appropriate support. The additional 
        agents represent the fiscal year 2009 increment of the 
        President's goal of adding 6,000 new Border Patrol Agents by 
        the end of the first quarter of fiscal year 2009. This request 
        would increase the Border Patrol to over 20,000 agents by the 
        end of September 2009, more than double the amount in 2001.
  --Western Hemisphere Travel Initiative.--A total of $140.0 million is 
        requested for CBP's implementation of infrastructure and 
        technology in support of the Western Hemisphere Travel 
        Initiative (WHTI). These funds will complete the infrastructure 
        improvements at the top 39 Land Ports of Entry, covering 95 
        percent of the land border arrivals.
  --E-Verify.--Total funding of $100 million is requested for E-Verify. 
        This U.S. Citizenship and Immigration Services (USCIS) program 
        allows employers to use an automated system to verify name, 
        date of birth, and Social Security Number, along with 
        immigration information for non-citizens, against Federal 
        databases to confirm the employment eligibility of both citizen 
        and non-citizen new hires. USCIS will deploy additional staff 
        covering information status verification, compliance, and 
        monitoring. It is important that Congress reauthorize the 
        program so that these employers can continue to benefit from E-
        Verify and not have to play detective when hiring new 
        employees.
  --Vetting Infrastructure Improvements.--An increase of $30 million is 
        requested to support TSA's Vetting Infrastructure Improvements, 
        providing screening and credentialing of individuals requiring 
        special access to U.S. transportation and other critical 
        infrastructure. These funds will enhance and stabilize the 
        infrastructure necessary to perform vetting operations on 
        populations that access our most critical infrastructure.
  --Secure Flight.--The Budget requests an increase of $32 million that 
        will accelerate the Secure Flight Program by replacing the 
        current airline managed passenger vetting program with a 
        government-operated program in 2010. In addition to using 
        improved technology, the Secure Flight Program will alleviate 
        the variability in performance of the current system and reduce 
        the risk for compromised watch list data.
  --Additional Bedspace and Staffing.--An increase of $46 million is 
        requested to help provide 1,000 additional beds, staffing, and 
        associated removal costs required to meet current demand and 
        demand generated by increased immigration enforcement 
        activities. Of the 1,000 beds, the addition of 275 will be 
        funded through projected increases in collections.
  --Automation Modernization of Information Technology Systems.--The 
        Budget includes $57 million for ICE to acquire secure and 
        interoperable tactical communications equipment, a biometric 
        detainee location tracking module, and to develop and integrate 
        an enhanced Investigative Case Management system. These 
        improvements promote officer safety, emergency response 
        coordination, and case management efficiencies.
  --Federal Law Enforcement Training.--An increase of $10 million is 
        requested for the Federal Law Enforcement Training Center 
        (FLETC) to provide training to meet increases in border 
        security and law enforcement hiring levels.
  --US-VISIT.--A total of $390.3 million is requested for US-VISIT. 
        This funding will complete the transition from two-print to 
        ten-print collection. Taking all ten fingerprints will improve 
        accuracy and allow us to increase the number of matches from 
        latent prints captured all over the world. This funding also 
        allows US-VISIT to continue to provide biometric identity 
        services to law enforcement and intelligence, and it will help 
        complete interoperability between US-VISIT and FBI databases.
  --Command 21 and Situation Unit Watchstanders.--The Budget includes 
        $7.3 million to support continued development of Command 21 and 
        additional watchstanders at USCG Command Centers to meet 
        increasing operational demands and support additional vessel 
        monitoring, information collection, and interagency 
        coordination capability provided by Command 21. These 
        initiatives will provide information sharing and situational 
        awareness tools required to close the gap between current port 
        and coastal surveillance capabilities and the need for greater 
        Maritime Domain Awareness in an all-hazards, all-threats 
        operating environment.

            GOAL 2: PROTECT OUR NATION FROM DANGEROUS GOODS

    We have also made much progress in protecting our Nation from 
dangerous goods. As a part of its risk-based approach, the Department 
is expanding its programs to identify, track, and intercept nuclear and 
radiological components and systems at ports of entry and in 
transportation systems within U.S. borders. We are intensifying our 
efforts to bolster capabilities to reduce the risk of a biological 
attack in the United States.
Key Accomplishments
  --Overseas Radiation Scanning.--100 percent of shipping containers 
        bound for the United States from three foreign ports--Port 
        Qasim (Pakistan), Port Cortes (Honduras), and Port Southampton 
        (United Kingdom)--are now scanned for radiological and nuclear 
        materials prior to departure. Scanning equipment is also being 
        deployed to Port Busan (South Korea), Singapore, Hong Kong, and 
        Salalah (Oman).
  --Comprehensive Radiation Detection.--The Department has deployed 
        more than 1,000 radiation detection devices to the Nation's 
        land and sea ports of entry. Today, 100 percent of cargo 
        containers crossing the southern border are scanned for 
        radiation, 91 percent at the northern border, and more than 98 
        percent of cargo containers are scanned at our seaports.
  --Improving Import Safety.--The Office of Health Affairs (OHA) 
        engaged in the President's Import Safety Working Group to 
        develop a comprehensive action plan with short- and long-term 
        recommendations that better protect consumers and enhance the 
        safety of imported goods.
  --Expanded Container Security Initiative.--CBP expanded the Container 
        Security Initiative to 58 ports screening 86 percent of 
        maritime containers bound for the United States.
  --Record-Breaking Narcotics Seizures.--USCG seized more than 350,000 
        pounds of cocaine at sea this year--a record-breaking 160 
        metric tons--worth an estimated street value of more than $4.7 
        billion. CBP frontline personnel seized more than 3.2 million 
        pounds of narcotics at and between ports of entry.
  --Southwest Border Drug Strategy.--The Office of Counternarcotics 
        Enforcement co-chaired the creation of the first-ever National 
        Southwest Border Counternarcotics Strategy and Implementation 
        Plan, which identifies major goals, objectives, and resource 
        requirements for closing gaps in U.S.-Mexico counternarcotics 
        capabilities at the southwest border.
  --Reducing Risk from Small Vessels.--USCG worked with small boat 
        manufacturers, industry groups and the public on mitigating the 
        security risks posed by small vessels. Thirteen Maritime Safety 
        and Security Teams, part of a 3,000 person Specialized Deployed 
        Forces Command, are stationed at strategic ports nationwide 
        with unique training to counter the small boats threat. The 
        Coast Guard and the Domestic Nuclear Detection Office (DNDO) 
        are collaborating with local authorities on a pilot program in 
        Puget Sound and San Diego waterways on small vessel radiation 
        detection.
Fiscal Year 2009 Budget Request
  --Nuclear Detection Research, Development, and Operations.--The 
        Budget Request includes $334.2 million to support DNDO's 
        Research, Development and Operations program which provides 
        resources for the development and evolution of the global 
        nuclear detection architecture. Included in this research are 
        development of an Advanced Spectroscopic Portal (ASP) suitable 
        for examining cargo containers, trucks and privately-owned 
        vehicles, and development of Human Portable Radiation Detection 
        Systems (HPRDS) to provide handheld and `relocatable' equipment 
        to be used as primary detection tools by Customs Officers, 
        Border Patrol agents, and USCG personnel.
  --Next Generation BioWatch.--The Budget includes $111.6 million, an 
        increase of $34.5 million, for OHA's Next Generation BioWatch. 
        Funding will begin to procure BioWatch automated detection 
        sensors and initiate deployment activities of the automated 
        sensor system to existing BioWatch jurisdictions. Automated 
        detection will enhance the capabilities of the BioWatch 
        environmental monitoring system designed for early warning of 
        bioterrorism incidents.
  --Aviation Security.--The Budget addresses the need to upgrade 
        checked baggage screening equipment deployed immediately after 
        September 11, which is exceeding its useful life. The screening 
        equipment is used to screen 100 percent of the 1.8 million 
        checked bags passengers travel with every day. The Budget also 
        speeds the rollout of inline systems at all major airports in 6 
        years by allowing a more flexible approach to funding these 
        projects. To support this activity, legislative authorization 
        is required for a temporary surcharge to the current $2.50 
        passenger fee--$0.50 added to each leg of a trip capped at 
        $1.00. The surcharge is proposed to begin in fiscal year 2009 
        and sunset in fiscal year 2012. It will generate an additional 
        $426 million in revenue in fiscal year 2009 and approximately 
        $1.7 billion over 4 years, nearly doubling previously planned 
        annual resources for checked baggage explosive detection 
        systems. The increased revenue will be added to the existing 
        $250 million annual Aviation Security Capital Fund which is 
        targeted exclusively for checked baggage explosive detection 
        systems.

                GOAL 3: PROTECT CRITICAL INFRASTRUCTURE

    The Department aims to protect critical infrastructure and key 
resources, essential government operations, public health and welfare, 
and the country's economic and national security interests. Efforts to 
bolster the resiliency and protection of our Nation's critical 
infrastructure and key resources helps to mitigate potential 
vulnerabilities and to ensure terrorist plans are not successful.
Key Accomplishments
  --Setting Chemical Security Standards.--NPPD established national 
        guidelines for chemical facility security in a comprehensive 
        set of regulations to protect chemical facilities from attack 
        and prevent theft of chemicals that could be used as weapons.
  --Assessed Impacts of Chemical Attacks.--S&T conducted the first 
        comprehensive chemical threat risk assessment across a broad 
        range of toxic chemicals that better focuses interagency 
        priorities accordingly to risk.
  --Released Sector Specific Plans.--NPPD released 17 sector-specific 
        infrastructure protection plans, creating a comprehensive risk 
        management framework of national priorities, goals, and 
        requirements to protect critical infrastructure and key 
        resources.
  --Launched Improvised Explosives Device Awareness Campaign.--DHS has 
        undertaken a national Improvised Explosives Device (IED) 
        Prevention and Awareness Campaign, working with Federal, State 
        and local agencies and stakeholders to boost participation in 
        the TRIPwire and National Capabilities Analysis Database 
        information-sharing portals.
  --Increasing Cyber Security.--NPPD continued deploying EINSTEIN 
        systems, which find malicious patterns in Federal computer 
        network traffic, and will expand systems this year. The United 
        States Computer Emergency Readiness Team (US-CERT) issued over 
        200 actionable alerts on cyber security vulnerabilities or 
        incidents in fiscal year 2007 from its 24-hour watch center. 
        Finally, the Secret Service currently maintains 24 Electronic 
        Crimes Task Forces to prevent, detect, mitigate and 
        aggressively investigate cyber attacks on our Nation's 
        financial and critical infrastructures.
  --Greater Information Sharing.--The Office of Intelligence and 
        Analysis (I&A) has deployed 22 personnel to State and Local 
        Fusion Centers across the country. DHS has also deployed 
        networks such as the Homeland Secure Data Network, a system for 
        securely communicating classified information, to 18 centers 
        and anticipates deploying to many more centers this year.
  --Credentialing Port Workers.--Since October more than 70,000 port 
        workers have enrolled in the Transportation Worker 
        Identification Credential (TWIC) biometric credential program. 
        More than 750,000 longshoremen, truck drivers, port employees 
        and others requiring unescorted access to secure areas of ports 
        will also be required to obtain a TWIC card.
Fiscal Year 2009 Budget Request
  --Protective Terrorist Countermeasures.--Total funding of $19 million 
        is requested for USSS Protective Terrorist Countermeasures. 
        This program provides the latest state-of-the-art equipment 
        that will be used in the event of an explosive, chemical, 
        biological, or radiological attack. As new threats evolve and 
        are identified, it is critical the Secret Service has the means 
        to address them.
  --Chemical Security Compliance Project.--An increase of $13 million 
        is included for NPPD's Chemical Security Compliance Project. 
        The Department issued regulations establishing risk based 
        performance standard for security of chemical facilities. 
        Additional funding is requested to increase the staff of this 
        regulatory program and to provide tools and systems to collect 
        and analyze vulnerability information, review plans, support 
        and manage inspections activity, issue decisions, address 
        appeals, and support compliance enforcement.
  --Explosives Research.--$96 million is requested to support S&T in 
        developing the technical capabilities to detect, interdict, and 
        lessen the impacts of non-nuclear explosives used in terrorist 
        attacks against mass transit, civil aviation and critical 
        infrastructure. Of these funds, $50 million will address 
        critical capability gaps in the areas of deterring, predicting, 
        detecting, defeating, and mitigating the use of IEDs in the 
        United States. The Vehicle Borne Improvised Explosive Device/
        Suicide Bomber Improvised Explosive Device (VBIED/SBIED) 
        program will allow S&T to improve large threat mass detection 
        in such areas as the transit environment, special events and 
        other large areas.

   GOAL 4: BUILD A NIMBLE, EFFECTIVE EMERGENCY RESPONSE SYSTEM AND A 
                        CULTURE OF PREPAREDNESS

    Improving our Nation's ability to respond to disasters, man-made or 
natural, is a top priority for the Department. Incorporating lessons 
learned from Hurricane Katrina, other disasters, and the 9/11 
Commission Recommendations, the Department is improving its 
capabilities and preparing those who respond to acts of terror and 
other emergencies.
Key Accomplishments
  --Responded to 68 Major Disasters.--During fiscal year 2007, Federal 
        Emergency Management Agency (FEMA) responded to over 130 events 
        that resulted in 68 Major Disaster Declarations, 9/11 Emergency 
        Declarations, and 54 Fire Management Assistance Declarations, 
        including tornadoes in Florida and Kansas, floods in the 
        Midwest and Tropical Storm Erin.
  --Supporting Local Security Plans.--The Office of Infrastructure 
        Protection's Protective Security Advisors worked in State and 
        local Emergency Operations Centers providing expertise and 
        support to local authorities, the Principal Federal Official 
        and the Federal Coordinating Officer during major domestic 
        incidents including the Virginia Tech shootings in Blacksburg, 
        Virginia; the Chevron Refinery Fire in Pascagoula, Mississippi; 
        the I-3 5W bridge collapse in Minneapolis, Minnesota; and the 
        Florida and California Wildfires.
  --Improved Interagency Coordination.--The Office of Operations 
        Coordination (OP S) led Federal prevention, protection, and 
        response activities to all-hazard threats during several 
        incidents in 2007, specifically the recent outbreaks of Foot 
        and Mouth Disease in the United Kingdom and the vehicle-borne 
        improvised explosive device attacks in the United Kingdom.
  --Building Stronger Response Partnerships.--DHS engaged State and 
        local leadership, first responders and stakeholders on 
        developing the National Response Framework, which outlines how 
        our Nation responds to all-hazard disasters across all levels 
        of government and community sectors.
  --New Operations Capabilities.--USCG established the Deployable 
        Operations Group which aligns all deployable, specialized USCG 
        forces under a single, unified command in adaptive, tailored 
        force packages for rapid response to national threats.
  --Saved Over One Million Lives.--The Coast Guard reached a remarkable 
        milestone this year, saving more than 1 million lives 
        throughout its 217-year history.
  --Awarded Public Safety Interoperable Communications Grants.--DHS 
        administered over $968 million in Public Safety Interoperable 
        Communications Grants which will help support the establishment 
        of Statewide Communications Interoperability Plans for improved 
        first responder communication during major disasters, and fund 
        State and local projects aligned with those plans.
  --Realizing Interoperable Communications.--S&T published results of 
        the National Interoperability Baseline Survey--a nationwide 
        survey of first responders across all jurisdictions and 
        disciplines that assesses progress in achieving interoperable 
        communications. By providing a clear representation of national 
        capacities, these survey findings are helping emergency 
        response leaders and policy makers make informed decisions 
        about strategies for improving interoperability. The Department 
        also established the Office of Emergency Communications (OEC) 
        to consolidate several interoperability programs and address 
        new responsibilities including the development of the National 
        Emergency Communications Plan.
  --Strategic Planning for Catastrophic Disasters.--The Incident 
        Management Planning Team continued to draft Federal interagency 
        strategic plans that coordinate resources and capabilities to 
        prevent, protect against, respond to and recover from major 
        disasters and other catastrophic emergencies.
Fiscal Year 2009 Budget Request
  --Grant Programs.--The Budget requests $2.2 billion to support FEMA's 
        State and Local Programs and Assistance to Firefighters Grants, 
        just above the amount provided in the President's fiscal year 
        2008 Budget Request. These important grant programs help 
        prepare State and local governments to prevent, protect 
        against, or respond to threats or incidents of terrorism and 
        other catastrophic events. The Budget will support the existing 
        Homeland Security Grant Program, Port and Transit Security 
        Grants, and Emergency Management Performance Grants, and also 
        proposes a new discretionary grant program targeted towards 
        high priority security initiatives including REAL ID 
        implementation.
    While Congress chose to provide an additional $2 billion in the 
fiscal year 2008 Consolidated Appropriations Act, the Department is 
requesting approximately the same level as the fiscal year 2008 Budget 
Request.
    The fiscal year 2009 Budget requests $200 million for the State 
Homeland Security Grants and increases funding for the Urban Area 
Security Initiative to $825 million. The $300 million funding request 
for the Assistance to Firefighter grants is identical to the 
President's fiscal year 2008 Budget Request.
    Over a 6-year period from fiscal year 2002 through fiscal year 
2007, grant recipients have drawn down $12.7 billion of the $19.8 
billion made available since the Department's inception. On February 1, 
2008, the Department announced an additional $3.0 billion in grants to 
be provided this year. Including Congressional approval of the fiscal 
year 2009 request, a total of $13.0 billion would be in the pipeline 
for State and local homeland security needs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  --FEMA Vision--Phase II.--The Budget requests a total of $164.5 
        million to support FEMA's Vision--Shape the Workforce program. 
        Phase II of FEMA's transformation will strengthen that agency's 
        ability to marshal an effective national response, deliver 
        service of value to the public, reduce vulnerability to life 
        and property, and instill public confidence. The Budget also 
        requests a total of $209 million to support FEMA's disaster 
        workforce, including transitioning 4-year Cadre On-Call 
        Response Employees (CORE) from temporary to permanent full-time 
        personnel to achieve the level of readiness and response 
        capability required in response to Presidentially declared 
        major disasters and emergencies.
  --Disaster Readiness and Support.--The Budget includes $200 million 
        in a new Disaster Readiness and Support Activities account. 
        This account will fund advanced readiness initiatives that 
        assist FEMA in preparing for future disasters and will allow 
        FEMA to perform critical administrative functions that support 
        the timely delivery of services during disasters.

       GOAL 5: STRENGTHEN AND UNIFY DHS OPERATIONS AND MANAGEMENT

    A cohesive and operationally efficient organization is essential to 
the rapid implementation of homeland security priorities, policies, and 
objectives. As such, the Department has aligned its resources into 
areas that will most effectively accomplish its mission. Successful 
mission performance is driven by human capital development, executing 
efficient procurement operations,
    and possessing state-of-the-art information technology resources. 
We continue to improve systems for intelligence and information 
sharing.
Key Accomplishments
  --Continued Integration.--DHS was created 5 years ago to serve as the 
        unifying core for the vast national network of organizations 
        and institutions involved in securing our nation. Over the past 
        year, DHS has further integrated core management functions and 
        systems throughout headquarters and the components, achieving a 
        more cohesive and unified Department.
  --Enhanced Privacy, Civil Rights, and Civil Liberties.--The Privacy 
        Office and the Office for Civil Rights and Civil Liberties have 
        worked to enhance privacy and civil rights and civil liberties 
        through the Department's work in cyber security, the use of 
        satellite technology, airport screening protocols, and 
        partnerships with Muslim-American communities.
  --Increased Responsiveness to Congressional Inquiries.--DHS improved 
        responsiveness and adherence to Congressional deadlines. This 
        included the on-time submission of over 3,000 Congressional 
        Questions for the Record (QFR). Average response time to 
        Congressional correspondence has dropped from 5-6 weeks to an 
        average of 2.5 weeks, and average response time to 
        Authorization QFRs has dropped from 6 months or more to an 
        average of 35 business days.
  --Consolidation of Information Technology Network Sites.--The 
        Department has consolidated more than 1,780 IT network sites 
        into a single network that allows transparent monitoring of 
        system performance and activity, prioritization of traffic, and 
        vastly improved security posture.
  --Strengthened Business Processes and Technology.--USCIS launched a 
        new fee schedule designed to bring decades-old systems into the 
        21st century and improve customer service.
  --Record-Setting Levels of Federal Law Enforcement Training.--FLETC 
        trained a record-setting 60,458 students from all three 
        branches of the Federal Government, as well as international, 
        State, local, campus, and tribal law enforcement agencies.
  --Improved Recruitment and Hiring.--DHS decreased the average time it 
        takes to hire new DHS employees, 4 days shorter than the Office 
        of Personnel Management targets. DHS also exceeded targeted 
        goals by hiring more than 2,300 protection officers; 11,200 
        transportation security officers; and 412 immigration 
        enforcement agents.
  --Record FEMA Staffing Levels.--For the first time in a decade, FEMA 
        attained a 95 percent staffing level and strengthened regional 
        capability through the creation of over 100 new positions in 
        FEMA's ten regional offices.
  --Enhanced Employee Training and Communication Tools.--DHS recently 
        launched new training and communications tools including 
        DHSCovery, a state-of-the-art online training system.
  --Increased Border Patrol and Field Operations Staffing.--CBP 
        increased Border Patrol agent staffing by an unprecedented 21 
        percent since its inception in March, 2003, growing to 14,923 
        agents at the end of fiscal year 2007. In addition, CBP Office 
        of Field Operations hired 2,156 new officers and 340 
        agriculture specialists.
  --Streamlined Acquisition Processes.--The Coast Guard created an 
        innovative and centralized acquisition directorate in July 
        2007, significantly improving program execution, contracting 
        practices, research and development, and industry oversight.
  --Enhanced Training to Prevent and Investigate Cyber-related 
        Crimes.--The Secret Service developed a National Computer 
        Forensics Institute in Hoover, Alabama. This cyber crimes 
        training facility provides State and local law enforcement 
        officers, prosecutors, and judges with training, equipment, and 
        expertise in computer forensics and digital evidence analysis.
Fiscal year 2009 Budget Request
  --Quadrennial Homeland Security Review.--A total of $1.65 million is 
        requested for the first ever Quadrennial Homeland Security 
        Review (QHSR). Funding is required to research, organize, 
        analyze, and develop the QHSR. This document will recommend 
        long-term strategy and priorities of the Nation for homeland 
        security and comprehensively examine programs, assets, budget, 
        policies, and authorities required to provide the United States 
        with strong, sound and effective homeland security capabilities 
        in the decades ahead. The Office of Policy requests $1.5 
        million and the remaining $0.1 50 million is requested in the 
        Office of the Chief Financial Officer (OCFO).
  --Transformation and Systems Consolidation.--An increase of $15.5 
        million is requested for OCFO to continue implementation of the 
        Transformation and Systems Consolidation (TASC) project. One of 
        the main objectives of DHS at its formation was to consolidate 
        the support systems of the component agencies to realize cost 
        savings and operational efficiencies. OCFO aims to reduce the 
        number of DHS financial systems, and ensure the manual 
        processes for internal controls are integrated with these 
        financial systems. DHS will begin migrating OHA, S&T, DHS 
        Headquarters, NPPD, CIS, and ICE's financial systems to the TSA 
        Oracle Shared Baseline.
  --DHS- Wide Acquisition Workforce Intern Program.--The Budget 
        includes an increase of $3.1 million for the Office of the 
        Chief Procurement Officer. DHS will enhance the Acquisition 
        Intern Program which recruits, trains, certifies, and retains 
        an appropriate workforce of acquisition professionals. In 
        fiscal year 2009 the intern cohort will be raised to 100 
        people.
  --Office of the Inspector General Auditors.--An increase of $6.4 
        million is requested for the Office of the Inspector General 
        (OIG) to expand staff oversight of DHS preparedness programs, 
        through audits of preparedness grant programs, science and 
        technology programs, and Department-wide programs that 
        establish the Department's baseline preparedness efforts. The 
        additional funds will strengthen OIG oversight of DHS border 
        security and enforcement programs through a proactive program 
        of audits and on-going oversight of the policies, initiatives 
        and funds to secure the Nation's borders.
  --State and Local Fusion Center Program.--Funding for I&A's State and 
        Local Fusion Center program is to create a web of 
        interconnected information nodes across the country ensuring 
        information is gathered from all relevant operations and fused 
        with information from the Homeland Security Stakeholder 
        Community. The Budget requests funds to assist in producing 
        accurate, timely, and relevant actionable intelligence products 
        and services in support of the Department's homeland security 
        missions.
  --Vigilant Watch Over America.--OPS carries out its unified mission 
        to secure America by maintaining the National Operations Center 
        (NOC) and by providing 365/24/7 incident management 
        capabilities to ensure seamless integration of threat 
        monitoring and information flow. To improve technological 
        capabilities within the NOC, the Budget requests funding to 
        provide improved data infusion, the auto-ingestion of data from 
        multiple sources, and the creation of a consolidated, 
        centralized data repository. In addition, funds are requested 
        for the Principal Federal Official (PFO) program. As mandated 
        by Presidential directive, the Secretary of Homeland Security 
        is the Principal Federal Official responsible for coordination 
        of all domestic incidents requiring multi-agency Federal 
        response. Funding will provide a standing organizational 
        structure to plan, train, exercise, deploy and support the PFO 
        program.
  --Create DHS Counterintelligence Program.--Under the leadership of 
        the Chief Intelligence Officer, I&A and the Office of Security 
        will develop a new DHS-wide counterintelligence program to 
        analyze threats posed by foreign intelligence entities 
        collecting against the Department, support risk management 
        decisions, and enhance operations and implement strategies and 
        policies to unify the Department's counterintelligence mission.

                               CONCLUSION

    I am sure you will recognize that with the support of Congress, the 
Department has had many successes. I have outlined many of them in my 
testimony today and how they relate to the Department's five priority 
goals. As we move forward to face the many challenges ahead, we are 
keeping in mind past experiences and lessons learned that will be at 
the core of our planning and implementation efforts.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
fiscal year 2009 Budget Request and other issues.

                               PROJECT 28

    Senator Inouye. Thank you very much, Secretary Chertoff, 
for your excellent statement. You spoke much on the P28 Virtual 
Fence Project. I'm asking this question on behalf of Senator 
Byrd.
    Based on your experience with the P28 Pilot Program, do you 
have any estimate as to how long it will take to test and 
deploy this improved version of the new system?
    Secretary Chertoff. I think our expectation is that we will 
begin the next phase of deployment, which involves both 
retooling and improving what we are currently doing in this 28 
miles, and then moving to the next part of the Tucson sector 
that we're going to deploy in.
    We're going to begin that process this year, 2008, and that 
phase ought to be done in 2009. I think we will begin Yuma 
sector probably in 2009. And I would expect that to be finished 
in about a year. And then, I would expect the next phase, which 
is what we have in our current plan, to begin maybe in--to be 
deployed maybe in 2010.
    Here, I have to be a little more hesitant, because we 
continue to reserve the right to modify the plan. If it turns 
out that the value add counts as for doing a little bit less, 
we might wind up doing a little bit less. We may wind up 
substituting more in terms of some of the other tools. But I 
would say that we should be underway in all the places we 
currently envision by 2010. That's my estimate.
    Senator Inouye. I thank you very much, sir. I will be 
submitting, on behalf of Senator Byrd, several questions that 
he would want you to respond to. And we'll place it in the 
record.

                             TSA SURCHARGE

    The administration's proposed fee increase to fund the so-
called Explosive Detective System. Now, I'm certain you're well 
aware that Congress has rejected similar proposals in the past. 
Doesn't your department have unobligated funds that can carry 
this project out?
    Secretary Chertoff. Well, Senator, I am aware, having lived 
through this with a couple of earlier budget cycles, that using 
fees to plug our operating budget needs has been frowned upon 
by Congress. We have abandoned that kind of approach.
    This is a very specific and narrow request with respect to 
fees. It is for a particular capital investment that would 
allow us to begin the process of moving: (a), to a better level 
of technology at the airport, which would be more efficient and 
more, frankly, customer friendly; and (b), to begin the process 
of replacing equipment that is really now becoming obsolete.
    I think in talking about it, particularly with the 
airports, there was a fair amount of sentiment supporting this, 
and it's simply a way to accelerate the process of getting this 
equipment in. If we were not to have a fee dedicated to this 
particular function, and the idea is that it would be dedicated 
specifically to this function, we would have to fund the 
retooling process through the ordinary budget process.
    That is going to wind up, frankly, making it a longer 
process. I think it's part of a larger set of challenges that 
we have when we deal with very substantial investments in high 
technology, and it raises the question as to whether our whole 
method for financing this kind of approach ought to be looked 
at carefully.
    You know, whether the Federal Government ought to buy 
equipment that becomes obsolete in a number of years, as 
opposed to leasing it or contracting for a service in which the 
service provider has to provide the equipment, I think that is 
a subject that we might profitably spend some time talking 
about.
    But the bottom line is that this is meant to be a dedicated 
fee for a particular purpose that will actually benefit the 
airports by making their processes more efficient, and 
ultimately, therefore, should be in their interest.
    Senator Inouye. Several airports have funded the 
installation of this system on the assumption that they would 
receive funding through a letter of intent arrangement. Would 
these airports be eligible to receive accelerated funding that 
you are proposing?
    Secretary Chertoff. It's hard, Senator, for me to answer 
that question without knowing specifically what the facts and 
circumstances of the airport's position would be. I don't know 
that we're envisioning this as a retroactive repayment. There 
was a letter of intent program that I--if I'm not mistaken, has 
expired.
    What would be covered by funding under this fee or not, I'm 
not sure I can answer you right now without having some 
specific knowledge of exactly what an airport's application 
would be. We'd certainly look at the applications if Congress 
approves this fee, and that idea is that we would begin a 
forward-moving replacement and enhancement program.

                             USCG WORKFORCE

    Senator Inouye. Mr. Secretary, I understand the Coast 
Guard's active duty personnel is roughly the size of the New 
York City Police Department, and has not had a significant 
increase in 50 years. Do you think this is an appropriately 
sized workforce, to adequately enforce maritime security and 
safety along 95,000 miles of coastline, and 3.36 million miles 
of U.S. exclusive economic zone, not to mention the force 
protection in Operation Iraqi Freedom?
    Secretary Chertoff. Well, let me say, first, I don't know 
how big the New York City Police Force is. No question that the 
Coast Guard's mission has expanded in the wake of 9/11. The 
issue of force protection remains really a much more urgent 
requirement now than it was prior to 9/11.
    We do have some forces deployed over in Iraq, and I was 
privileged to visit them last year. What we're trying to do, 
obviously, and again, to manage the budget, is to equip the 
existing Coast Guard with the best possible tools to leverage 
their mission. That's why we do have money in this budget for 
continuing with the National Security Cutters, and for other 
essential retooling elements that the Commandant advised me is 
important in order to make sure that the men and women of the 
Coast Guard have the best possible tools.
    Again, difficult tradeoffs. You can always benefit from 
having additional personnel. We also need additional personnel 
at the border. We have other missions. And within a budget that 
is expanded, but is nevertheless finite, I think we've struck a 
good balance in terms of these various missions.
    Senator Inouye. Do you believe that the funds are 
sufficient?
    Secretary Chertoff. Having consulted with the Commandant, I 
do believe they're sufficient.
    Senator Inouye. I thank you, Mr. Secretary. I have a whole 
bundle of questions I'd like to submit for your consideration.
    And now, may I recognize Senator Cochran?

                      GULF COAST RECOVERY EFFORTS

    Senator Cochran. Mr. Chairman, thank you very much. Mr. 
Secretary, I've noticed that today's New Orleans Times-Picayune 
newspaper carries an editorial praising Donald Powell for the 
great job he has done as the Gulf Coast Recovery Coordinator 
since November of 2005.
    He has been one of the most diligent and thoughtful 
coordinators or people serving in a position like this that I 
have encountered, and I wanted to add publicly my personal 
appreciation for the good job he did coming down to Mississippi 
and Louisiana and the other areas devastated by Hurricane 
Katrina to help coordinate and communicate with the local 
officials, the Governors, and all of us who were involved in 
trying to deal with that terrible disaster.
    And I know that you worked closely with him, and he was in 
touch with you all along the way, too. Again, I don't think 
anybody can express sufficiently the heartfelt appreciation 
that we had in our State for the response we received from the 
Federal officials in key positions like yours and Don Powell's, 
and many others. But, thank you, and I want to be sure that Don 
Powell hears about compliments, as well.
    He tried to call people the other day. I know I was out of 
town and didn't receive his call, but I've called him back, and 
I will talk to him personally.
    Secretary Chertoff. I'll convey your remarks. He did a 
magnificent job, and a difficult job, and I think he richly 
deserves the thanks that he got in the newspaper.
    Senator Cochran. We're still in the process of recovering 
and rebuilding, as you well know, and I was pleased to attend 
an event this weekend where the Administrator of the General 
Services Administration was personally there, with the Under 
Secretary of the Department, to participate in a groundbreaking 
ceremony for the retirement home and facilities for retired 
military persons, which was virtually destroyed in Hurricane 
Katrina.
    And to see that that facility is going to be rebuilt, a 
modern facility there in the Gulf Port area, is very 
reassuring, not only to the retired servicemen and women who 
will be able to come and live there and take advantage of that 
retirement community, but to the general population, which is 
pleased to be a host site for a facility of that kind.
    There are many other things that are going on still, 
through FEMA and other agencies, and with your Department, to 
deal with problems that exist as a result of that tragic 
disaster. Contamination in some of the trailers has been 
identified as formaldehyde. People are worried that if they've 
been in those trailers, are they going to have illnesses. What 
can they do about it? Looking for alternative facilities for 
housing continues to be a problem. And, the support of the 
Department of Homeland Security for all of these efforts is 
deeply appreciated.

                 NATIONAL BIO AND AGRODEFENSE FACILITY

    I also wanted to mention that we have a new facility that's 
going to be built, the National Bio and Agrodefense Facility. 
It's a facility designed to protect the country's agriculture 
and public health interests. It's a replacement for the Plum 
Island Animal Disease Center that will have to be selected and 
fully funded. It will be designed, we are told, to be a state-
of-the-art biological and agriculture defense facility, to 
carry out the complementary missions of the Department of 
Homeland Security and Agriculture.
    I hope that our committee will approve the request that's 
included in this budget. For fiscal year 2008, there was $11 
million approved for this facility. For fiscal year 2009, the 
budget request includes $35.3 million for initial design. Is 
that facility still on track? And is it the intention of the 
Department to proceed with the construction of a facility to 
replace the Plum Island facility?
    Secretary Chertoff. Yes. It is on track, and we have 
narrowed down the final lists, and we're in the process over 
the next few months of having the experts do the site visits 
and the final analysis. And we envision an award or a decision 
by the end of the year.

                             DEBRIS REMOVAL

    Senator Cochran. We note, also, in connection with debris 
removal, issues regarding public assistance funds from the 
disaster relief fund available for debris clearance, removal, 
and disposal operations that continue to be needed as a result 
of Hurricane Katrina.
    This is being handled by the Federal Emergency Management 
Agency. We hope we can work with you and your officials in the 
Department to be sure that this is resolved at an early date.
    Secretary Chertoff. We look forward to doing that. Also, if 
I, Senator Inouye, if I can just come back to your Coast Guard 
question, I omitted to mention--I'm reminded--that our 2009 
budget does seek 658 additional FTEs for the Coast Guard, so we 
are actually seeking--it'll be an increase, not just a level, 
and will get us up to about almost 49,000 FTEs.

                            DHS HEADQUARTERS

    Senator Cochran. And I remember in earlier discussions that 
we have had about the Department's responsibilities, the 
headquarters remains a problem that needs to be addressed, and 
I hope that our committee can respond to the request the 
administration has made for $120 million.
    That sounds like an awful lot of money, but it needs to be 
done. We know you've got people scattered all around 
Washington, DC, in different buildings, and that's inefficient 
and is a big problem and a big challenge, and I hope the 
committee will be responsive to your request on that.
    Secretary Chertoff. I appreciate that. And, of course, it 
should not go without notice that while we are occupying other 
buildings, we're paying rent. So it's not like that's cost-
free. I think, in the long run, the money for St. Elizabeths 
would be a wise investment.
    Senator Cochran. Okay. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Specter.

                          IMMIGRATION CONTROL

    Senator Specter. Thank you, Mr. Chairman. Mr. Secretary, at 
the outset, I compliment you on the tremendous work you did, 
and Secretary Gutierrez, on our effort for comprehensive 
immigration reform. A group of Senators will be introducing 
legislation tomorrow, which will be focusing on the priorities 
of border control and employer verification. And whatever we 
may ultimately seek to do with the 12 to 20 million 
undocumented immigrants, I think there is a unanimity that 
violent criminals who are here illegally ought to be deported 
to their home countries.
    I'd like to reference three letters for a moment or two 
before going on to the core question which I want to deal with 
you.
    I wrote to you on February 15 of this year, relating to the 
matter of the visas, to deny another country having their 
citizens come here on visas if they do not repatriate the 
convicted criminals. These statistics that I have, as of 
February 11, eight countries alone are refusing to repatriate a 
total of over 139,000 aliens. And I know you haven't had a 
chance to look at it so far, but take a look at the letter, and 
examine the asylum procedure or the visa procedure, and see if 
there are other items which we could utilize.
    I now want to reference the letter which I am sending to 
the Egyptian President Mubarak about a particularly troublesome 
Egyptian national who is in a Pennsylvania prison at a cost of 
$250,000 a year, because he has to be force-fed. And it's 
complicated to establish whether he is an Egyptian, but we 
think the evidence points that way, and I'm asking President 
Mubarak to cooperate with us on this.
    And what I'd like you to consider, whether there are any 
circumstances where you would recommend withholding foreign 
aid, or utilizing some other remedy available to the United 
States in addition to the visa matter, to try to get these 
convicted criminals repatriated.
    The third item that I want to call to your attention is a 
letter that I sent to you just a few days ago on February 28, 
which involves a provision in Article 3 of the U.N. Convention 
against torture, which obligates the United States not to 
return a person to another State where there are substantial 
grounds for believing that he would be in danger of being 
subjected to torture.
    But the Congress, in enacting this matter, specified that 
``to the maximum extent consistent with Article 3, the 
regulation shall exclude from the protection of such 
regulations aliens who are security risks, such as terrorists 
or those who have been convicted of a particularly serious 
crime, such as an aggravated felony carrying a 5 year prison 
sentence.''
    Ninety-six percent of these petitions are rejected, but 
they take an enormous amount of time. And I ask you to take a 
look at the regulation and see if you can, in the first 
instance, deal with it within your Department.

                    REPATRIATION OF CRIMINAL ALIENS

    Now, I want to come to what I consider to be the really 
serious problem. And that is the projection that in 2007 some 
300,000 illegal aliens convicted of crimes will be released 
without going back to their native country. They just can't be 
sent back there for one reason or another. And the Supreme 
Court has created a presumption that 180 days is the maximum 
amount of time you can hold someone.
    Well, these alien criminals, violent criminals, are 
recidivous an average of six to eight repeat crimes. Now, we 
know the basic principles of criminal law. Someone has served a 
sentence, a maximum, and you can't keep them in jail any 
longer.
    The person is a danger and a menace, based upon the 
individual's prior record. We can't send them back to their 
native country, because the native country won't accept them. 
And there are hundreds of thousands of them on the streets of 
America, posing a much greater problem for this country on 
public safety and the $2.5 billion it costs, and also a 
national security problem.
    If you have mentally ill people, and you can show in court 
on an appropriate petition that the individual is a danger to 
himself or herself, or to the community, they can be detained. 
We have preventative detention provisions, under circumstances 
notwithstanding a presumption of innocence, where there's a 
preliminary finding of danger that people can be held without 
bail.
    And what I'm candidly struggling for, and would ask your 
assistance, we're doing research to see if there are some legal 
constitutional way we can detain these convicted alien 
criminals, who are recidivous, who are released on our streets.
    Secretary Chertoff. Well, I think it's a very important 
issue to address. I should just mention in passing, it's not 
unique to this country. When I go overseas to Europe, one of 
the burning issues that my counterparts in Europe is the same 
problem. They are--people come into their countries, they 
commit crimes, they're violent, they're dangerous, and you 
can't return them, because the country from which they come 
doesn't want to take them back, understandably, because they're 
dangerous and bad people.
    And so, then you wind up in the worst of all worlds, which 
is releasing them. I would be very happy to work with you and 
the Senate to see whether there is legislation that would 
enable us, with appropriate safeguards--if there is somebody 
who is in the country illegally and they cannot be returned--to 
detain them for a longer period than the 6 months currently 
allowed.
    If I remember the Supreme Court case in question correctly, 
it didn't quite shut the door on that, particularly when you're 
dealing with violent offenders and terrorists. I'd certainly be 
willing to give it as good a try as I could, because I agree, 
everybody is dismayed at the notion of the worst of the worst 
getting released because we can't get them back, they've served 
their terms, they're here illegally, but we're not allowed to 
detain them anymore. So I'd be happy to work on that with you.
    Senator Specter. Thank you, Mr. Secretary. Mr. Chairman, I 
ask that the correspondence that I referred to be included in 
the record.
    Senator Inouye. Without objection, so ordered.
    Senator Stevens.

                   Letter From Senator Arlen Specter

                                               U.S. Senate,
                                                    Washington, DC.
Hon. Michael Chertoff,
Secretary, U.S. Department of Homeland Security, 3801 Nebraska Ave. NW,
Washington, DC 20528.
    Dear Secretary Chertoff: I am troubled that thousands of deportable 
criminal aliens who have been convicted of crimes in the United States, 
sometimes violent crimes, remain in the United States because their 
native countries refuse to repatriate them. Moreover, most of these 
aliens are released back into the population, as extended detention is 
untenable due to a lack of resources and the Supreme Court's Zadvydas 
decision.
    Many of these recalcitrant nations receive substantial U.S. aid, 
and their citizens are regularly issued U.S. visas. The Congress has 
already attempted to address this problem, in section 243(d) of the 
Immigration and Naturalization Act, and I am curious as to why it is 
not utilized to greater effect. According to the statute, upon 
notification from the Attorney General that a country denies or 
unreasonably delays repatriation (such notification is now provided by 
the Secretary of Homeland Security), the Secretary of State ``shall'' 
suspend visa issuances until notified by the Attorney General that the 
country has accepted the alien.
    This tactic is potent in theory, and was successful in practice 
when applied against Guyana several years ago. While I appreciate that 
foreign relations is a delicate affair involving balancing numerous 
interests, surely public safety in the United States is a priority of 
the highest order. Not only does refusal to repatriate often put 
convicted criminals with no right to be here back on the street, but 
drawn out repatriation negotiations divert scarce Federal resources 
away from identifying and deporting other criminal aliens--as many as 
300,000 of whom were incarcerated in 2007 and will be released rather 
than deported at the conclusion of their sentences.
    It seems incongruous for the United States to continue admitting 
the citizens of an uncooperative country that refuses to take back 
those who are convicted criminals. Why then are we not more aggressive 
in our use of section 243(d) to ensure prompt repatriation, 
particularly of criminal undocumented aliens? I would appreciate your 
views on the efficacy of this provision and any obstacles to its 
utilization.
    In a related development, this week, DHS noticed a proposed rule to 
prohibit H-2A visas for nationals of countries which refuse to 
repatriate. This is a welcome step, but why did DHS not instead 
dispense with time consuming rulemaking, which ultimately will provide 
only limited leverage, and simply notify the State Department 
immediately of the non-cooperating countries?
    I look forward to your response and your thoughts on this important 
issue. To aid the analysis, I would appreciate it if you could include 
a list of the notifications you have forwarded to the State Department 
pursuant to section 243(d) in the last 5 years, any actions upon them 
(e.g., suspension of non-immigrant visas), and whether they were 
ultimately successful in securing repatriation.
            Sincerely,
                                             Arlen Specter,
                                                      U.S. Senator.
                                 S6621_
                                 

                   Letter From Senator Arlen Specter

                                               U.S. Senate,
                                                    Washington, DC.
Hon. Michael Chertoff,
Secretary, U.S. Department of Homeland Security, 3801 Nebraska Ave. NW,
Washington, DC 20528.
    Dear Secretary Chertoff: I am informed that large numbers of 
removable criminal aliens, particularly aggravated felons for whom 
there is no other reprieve, invoke without justification Article 3 of 
the U.N. Convention Against Torture (UNCAT) in order to obstruct 
removal proceedings. I am curious as to whether UNCAT necessarily 
condones such dilatory tactics.
    Article 3 of UNCAT obligates the United States not to ``return . . 
. a person to another State where there are substantial grounds for 
believing that he would be in danger of being subjected to torture.'' 
However, in implementing UNCAT, Congress specified that, ``[t]o the 
maximum extent consistent with'' UNCAT obligations, ``the regulations . 
. . shall exclude from the protection of such regulations'' aliens who 
are security risks, such as terrorists, or those who have been 
convicted of ``a particularly serious crime,'' such as an ``aggravated 
felony'' carrying a 5-year prison term. (See INA  241(b)(3)(B).)
    Notwithstanding this clear exclusion, DHS's regulations currently 
reflect no such exception for very dangerous aliens, and thus appear to 
leave aggravated felons eligible for deferral of removal. In contrast, 
Canada, another UNCAT signatory with a proud human rights record, 
maintains just such an exception in section 115(2) of its Immigration 
and Refugee Protection Act.
    Without this exception, dangerous criminal aliens in the United 
States are able to abuse the laudable protections offered by UNCAT, 
burying worthy cases beneath a mountain of meritless claims. Even 
though 96 percent of UNCAT petitions are ultimately denied, the 
litigation can take years, during which time limited resources and 
decisions such as Zadvydas and Nadarajah may require release. 
Protracted UNCAT litigation puts convicted criminals with no right to 
be in the U.S. back on our streets. It also diverts scarce Federal 
resources away from identifying and deporting other criminal aliens--as 
many as 300,000 of whom were incarcerated in 2007 and will be released 
rather than deported at the conclusion of their sentence.
    I would like to know if DHS has issued or plans to issue any 
regulations to implement the express Congressional intent to exclude 
certain dangerous aliens from UNCAT protection. If not, I would 
appreciate your view of what the obstacles are and what might be done 
to remove them.
            Sincerely,
                                             Arlen Specter,
                                                      U.S. Senator.
                                 ______
                                 

                   Letter From Senator Arlen Specter

                                               U.S. Senate,
                                                     Washington DC.
His Excellency Mohammed Hosni Mubarak
President of the Arab Republic of Egypt, Cairo, Egypt.
    Dear President Mubarak: I seek your assistance in repatriating a 
criminal alien currently in custody in my home State of Pennsylvania. I 
recognize that, as a rule, Egypt is quite cooperative in repatriation 
efforts and that, in this case, the source of the problem is the 
prisoner's refusal to cooperate in obtaining travel documents. 
Nevertheless, I am hopeful we might work together to overcome the 
obstacles and secure his prompt return.
    Mr. Abdel Fattah entered the United States on a fraudulent 
Portuguese passport. He was convicted in 2002 of an aggravated felony 
and is now serving his sentence at the Pennsylvania State Correctional 
Facility in Camp Hill. Because he has already served the required 
minimum sentence, he is now eligible for repatriation. Accordingly, the 
administrative body responsible for overseeing repatriation, 
Immigration and Customs Enforcement (ICE), requested travel documents 
from the Egyptian consulate in New York in early October of 2005. That 
request included form I-217, which contained substantial biographical 
information. In 2006, ICE augmented the filing with formal proof that 
Mr. Fattah's Portuguese passport was fake.
    However, as part of the repatriation process and because Mr. Fattah 
does not have an Egyptian passport, he was required to fill out a 
passport request form in Arabic. In 2006, the Egyptian consulate 
advised ICE that the information Mr. Fattah provided in his passport 
request was insufficient. Mr. Fattah was asked to correct the problems 
and after some further communication, the final version was resubmitted 
on June 28, 2007. In August, the consulate informed ICE that Mr. Fattah 
had again improperly completed the form, filling it instead with 
gibberish and expletives, and that consequently travel documents would 
not issue unless ICE could produce an existing Egyptian passport 
belonging to Mr. Fattah.
    Based on its research, ICE is confident that Mr. Fattah is an 
Egyptian national. Indeed, in a 2001 letter from prison, Mr. Fattah 
asked immigration authorities to let him ``serve the time in my country 
Egypt.'' Nevertheless, I fully understand Egypt's desire to satisfy 
itself of that fact before it repatriates him. Although the ordinary 
methods of confirming nationality--either via an existing passport or a 
valid passport application--are not feasible in this case, I am hopeful 
we may find an alternative way to verify Mr. Fattah's status.
    I could, for example, arrange for a visit to the prison by Egyptian 
experts who could then conduct an extensive background interview of Mr. 
Fattah in Arabic. If that is inconvenient, the prison has video 
conferencing equipment and could make Mr. Fattah available for remote 
interviews by your officials in New York, Washington or Egypt. 
Alternatively, if there is another arrangement your government would 
prefer I stand ready to assist.
    Ordinarily, I might not intervene in such a matter, especially 
given Egypt's well-established cooperation in repatriation, but Mr. 
Fattah's detention cost over $250,000 last year and is draining scarce 
local resources. I would appreciate anything you can do to speed his 
return. You can reach me in my office at 202-224-9011 and my staff is 
prepared to assist you. Thank you very much.
            Sincerely,
                                             Arlen Specter,
                                             United States Senator.

                              ICEBREAKERS

    Senator Stevens. Thank you, Mr. Chairman. Mr. Secretary, I 
have several questions to ask you, but I would ask that you 
respond to the questions that I'm going to submit for the 
record.
    And the first question pertains to the Coast Guard. We're 
hearing all sorts of rumors about predictions that the ice in 
the Arctic disappear in the summertime. We are really behind 
the curve as far as icebreakers. As a matter of fact, we've had 
to lease some from foreign countries lately.
    I note that you do not have money to construct a new 
icebreaker. We thought there would be one.
    Secretary Chertoff. I believe that there--I think that the 
budget for icebreakers is in the National Science Foundation.
    Senator Stevens. I know that. But if you've got the Coast 
Guard and the National----
    Secretary Chertoff. Yeah.
    Senator Stevens [continuing]. Science Foundation has the 
vessels, then they're not going to request it, because they 
don't like them there in the first place.
    Secretary Chertoff. Yeah.
    Senator Stevens. So I would hope that you would take a look 
at that, because we're just going to be--if the predictions are 
true, we should have more icebreakers, and we should have them 
very quickly, and I don't see--we'll ask them, too, but I don't 
see any indication that they have any interest at all in the 
management of those icebreakers.
    They didn't want them, and I don't think we should have 
given them to them.
    Secretary Chertoff. Well, I'm just saying, Senator, as I 
think I mentioned to you, I'm actually going to go up this 
summer and look at the Arctic. I've talked to the Commandant 
about this issue, and I do think that the whole question of 
whether we are adequately protecting our interests in the 
Arctic--particularly as we may find other countries now seeking 
to expand their exploration for petroleum resources, I think we 
have to take a serious, strategic look at that. So I agree with 
you about it.
    Senator Stevens. Well, people have the feeling that this is 
all going to--well, they're talking about summer ice, in the 
first place. I hope you'll take the time to go to the 
International Arctic Research Center in Fairbanks. It has a 
different view than the IPCC on the question of this ice.

                     DISASTER ASSISTANCE FOR ALASKA

    So let me shift to FEMA. About the time that Katrina 
happened, there was a typhoon up off of the northwest coast of 
Alaska, and the net result was a whole series of villages on 
barrier islands were very seriously damaged. That's 4 years 
ago.
    We're still making plans now to try and help them. FEMA has 
really poured hundreds of millions of dollars into the Katrina 
area. We have seen very little assistance of FEMA in terms of 
any recovery. I note there's $200 million in this budget 
disaster readiness and support activities account. Now, I take 
it that's to prepare for new disasters. What are you going to 
do about the disasters that have already occurred in Alaska?
    Secretary Chertoff. Well, you know, that is usually covered 
through Disaster Relief Fund. I don't know--frankly, I don't 
know right now exactly what the status is in terms of whether a 
Disaster Declaration was requested or whether it was granted. 
I'll find out about it, though.
    Senator Stevens. Well, I had an interesting meeting several 
weeks ago when I was at home, with the State and with FEMA and 
with the various echelons of the Federal and State government 
to try and help these people. They are Alaska Natives. They're 
on barrier islands. They've been there for centuries. They 
don't want to move, but--they don't want to move, but they may 
have to move, but there's very little help forthcoming from the 
Federal Government for them.
    And I think it's one of the national shames, because 
they're out there on those islands, there's not many of them, 
they're not in a voting center like New Orleans, but they've 
been just completely ignored. And I hope that you'll take time 
to go to the barrier islands, and not just go look where the 
ice isn't.

                   PASSENGER VESSELS SERVICE ACT RULE

    Thirdly, let me ask you about the matter of the Bureau of 
Customs and Border Protection, in terms of the interpretation 
of the Passenger Vessels Services Act, and I've raised this 
with you before. That publication in the Federal Register was 
under the heading of ``Hawaii Coast Wise Cruisers.'' It's under 
the Vessels Services Act that came out of a Congress Committee 
that Senator Inouye and I have been on for so long.
    We were very surprised when it was published that it 
applied to cruisers along the Alaska coast, originating in 
Seattle. As a matter of fact, if that regulation is adopted, 
none of the cruisers this summer can go to Alaska, because they 
all stay in Alaska waters for longer than 48 hours. The net 
result would be that all of the cruise ships would move to 
Vancouver, where they could stay in Alaska as much as they 
want.
    Now, this is getting very close. It's 2 months ago, now, 
that I raised this with your people, when you first published 
it. When is the Department going to make a decision on whether 
or not they made an error in publishing that with regard to 
Alaska Coast Wise Cruisers?
    Secretary Chertoff. I can tell you that after our 
discussion, I spoke to the Commissioner of Customs and Border 
Protection about this. I have to be a little careful, because 
we're in a regulatory process, and if I say the wrong thing, 
we're going to wind up getting sued.
    But we've certainly seriously taken onboard the issues that 
you pointed out. I believe that a final version of this is 
being presented to the Commissioner for him to review and make 
a judgment on it. I will personally look at it before it goes 
out.
    Senator Stevens. Well----
    Secretary Chertoff. I can't tell you what we're going to 
do, because if I do it, I might as well just show up in the 
courthouse and----
    Senator Stevens. Well, respectfully, all you need to do is 
tell them to withdraw that proposed rule.
    Secretary Chertoff. I----
    Senator Stevens. It's not necessary for Hawaii. Hawaii 
doesn't need any ruling for over there. The act was meant to 
apply to Hawaii only, and yet these proposed rules are out 
there, scaring the death out of all these people.
    Secretary Chertoff. I--I----
    Senator Stevens. Reservations are not being made on the 
cruise lines, because this is a common known thing, all the way 
along the west coast.
    Secretary Chertoff. I will make sure this thing gets out 
quickly. I think we've taken--as I said, I took onboard your 
view on this. I've communicated that to the Commissioner. I 
think we will get this resolved very quickly.
    Senator Stevens. All right. I hope so, because I think that 
the bell is tolling on cruise ship activity for Alaska. That is 
substantially what's left of our economy in southeastern 
Alaska. The government closed down all harvesting of timber. 
The mines have been protested by extreme environmentalists. 
There is no economy left in Southeastern Alaska except tourism.
    And they all come in on these cruise ships. I can't think 
of anything--but my last comment----
    Senator Inouye. Well, Senator, you----
    Senator Stevens. Yes?
    Senator Inouye. I just wanted the record to show I support 
you.
    Senator Stevens. Thank you. I support Hawaii's coverage on 
this, and we had--did in the committee.
    Secretary Chertoff. My understanding is that you're----

                           FEMA GRANT FUNDING

    Senator Stevens. I'm about ready to run over--let me just 
mention to you this. I note that there's a State and local 
program reduction of $1.46 billion, Assistance to Firefighters 
Grant $450 million--it looks like we're nationalizing 
national--all this concept of security. And not using the 
people who are in the local governments, and particularly State 
governments, the way we should.
    Why would the budget be reduced there?
    Secretary Chertoff. I think that if you look at what we do 
on the first responder grants, we have generally kept our 
requests at the same level. Actually, I think the position that 
we take is precisely what you're saying, that the Federal 
Government should not generally be in the business of paying 
salaries for local firefighters. That would truly nationalize 
local firefighting. What we----
    Senator Stevens. Well, you're--no. You're bringing all the 
authority into Washington when you don't help them.
    Secretary Chertoff. Oh, actually, we're trying to do quite 
the reverse. We don't want to actually run local fire 
departments or have the authority. We do propose money for----
    Senator Stevens. Well, respectfully, Mr. Secretary, the 
local governments are not going to put up money for national 
security. They will help you, if you give them the money to 
help you.
    Secretary Chertoff. Well, and that's why I say for--we do 
have----
    Senator Stevens. Help them, I mean. To help them.
    Secretary Chertoff. We do have $300 million we're 
requesting for fire grants, which are for equipment and the 
kinds of capabilities that would have national significance. 
Where we typically have not requested money, although Congress 
has granted it, is on the SAFER grants, which are basically 
payroll. It's individual salaries.
    We view that as principally a local firefighting function. 
And I agree with you, we do not want to nationalize that. Local 
firefighters, whether they be volunteer or professional, ought 
to be hired, trained, and paid for by local governments. That's 
the way we did it when I grew up, and that's what we want to 
continue to do.
    Senator Stevens. Well, respectfully, again, I'm over time, 
but that's not what that money was spent for. That money was 
spent to help them get equipment, to help them train, to make 
them able to help you, not to put them--the firefighters are 
going to be paid locally. What this is, is training, equipment, 
and integration of their systems into yours.
    Instead, you're bringing all that money into Washington. 
Sorry, Mr. President--Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. I noted that the 
Senator from Alaska just gave you an increase in stature here 
to Mr. President.
    Senator Stevens. What did I call him?
    Senator Lautenberg. Mr. President.
    Senator Stevens. Well, that fits with him.
    Senator Lautenberg. All right. Should we vote it here, and 
get done with the--no time. This is no time for humor.
    Senator Stevens. I would appreciate it. Thank you very 
much. A little humor would be good in my life right now.

                         AMTRAK SECURITY FUNDS

    Senator Lautenberg. I can't help, but I'd like to--Mr. 
Secretary, we look at the budget for the recommendations for 
2009 for the grants programs, and the cuts are enormous. It 
comes down to almost $2 billion worth of cuts, and the most 
important areas, State homeland security, port security, rail 
transit security.
    And these are going to be very, very difficult for the 
communities to absorb. And, for one thing, in fiscal year 2008, 
Congress appropriated $25 million for Amtrak security needs. 
Now, FEMA and TSA are now requiring that Amtrak provides a non-
Federal match in order to use this money.
    Now, I don't know where the authority was granted to do 
that, but when we're looking at Amtrak carrying more than 26 
million people a year right now, and initially the funds 
weren't that great, but now to cut it further and impose a 
restriction that causes Amtrak to furnish double the money that 
it used to have--that it would have had.
    So what can we do about that, Mr. Secretary?
    Secretary Chertoff. I have to say, I don't--as I sit here, 
I don't know exactly what that decision relates to. I'll find 
out what the Amtrak----
    Senator Lautenberg. If you would see, because Amtrak needs 
$60 million for security, it's estimated, in fiscal year 2009, 
and yet there's no money for this in the budget. And while 
you're looking at the question of Amtrak, please try to find 
out for me why the President eliminated that kind of funding. 
Isn't the rail security a high priority at this time?
    Secretary Chertoff. Well, it is, and let me say in addition 
to requesting $175 million, which is what we requested last 
year, we put additional what I would call in-kind assets into 
rail transportation. We've asked for an increase in our TSA 
budget to put these mobile teams that actually go into the 
train stations and actually do patrolling. They have dogs so 
that they can do explosive detection.
    So our support for rail transportation security is not 
limited to grants. It also includes in-kind contributions that 
we use by deploying our personnel.

                   AIRPORT SCREENING PROCESSING TIME

    Senator Lautenberg. If they were only more kind, Mr. 
Secretary, we'd be better off. I saw a story in the New Jersey 
paper about the airport screeners being told to speed it up, 
push for 18 second searches, and it concerned some security 
experts. Now, I led the fight in Congress to remove the 
artificial cap of the number of screeners that could be hired 
by the agency. It was set at 45,000.
    And currently, there's just about that number. Now, the 
law, which passed as part of the 9/11 recommendations bill last 
year, specifically allowed TSA to hire as many screeners as 
needed for safe operations. So why would we now ask for a 
faster review, and not be concerned about the fact that it 
might not be sufficient when we are looking for 18 second 
searches? It doesn't sound like a long time.
    The 200-person-per-hour goal has never been widely 
publicized, and it was a surprise to contend that 18 seconds of 
screening just isn't enough time. So may I have your thoughts 
on that?
    Secretary Chertoff. Sure. I don't know--I didn't see the 
story. I don't--I can't vouch for the story. The issue for 
screening, of course, reflects a balance between doing a proper 
job and also making sure that we try to make it as efficient as 
possible. We are seeking additional money to hire behavior 
detection officers, travel document checkers, and we do 
appreciate the removal of the cap, which did it make it tougher 
for us to manage the workforce.
    We have some other constraints we operate under. The 
architecture of an airport sometimes influences things. In 
other words, no matter how many screeners you have, if 
everything funnels down into a narrow portal, it's going to 
create a clog-up in terms of passengers moving through.
    I will say that I've asked the head of TSA over the next 30 
to 45 days to come to me with some what I would call out-of-
the-box ideas for how we might reengineer what we do with TSA, 
in terms of airport screening. We have elevated the security 
measures in a lot of respects, and that always causes me to ask 
the question, ``Now is there something that we've done in the 
past that we might eliminate or modify?'' Because now we've 
reduced the risk, and something that originally had a purpose 
may no longer have a purpose.
    So I can tell you that TSA is constantly looking at a way 
to increase--at ways to increase efficiency. But they always 
treat the issue of security as the paramount priority, and it 
doesn't get subordinated to just moving the traffic through.
    Senator Lautenberg. You know, there has been talk in the 
past about giving additional modern screening equipment to the 
TSA staff, so that they could do a more thorough job. Now, 
Newark, which is one of the busiest airports in the country, 
doesn't have the most modern screening equipment. So are you 
aware of any shortages in that, or things that you would prefer 
that we get into place at the airports to help speed the 
process?
    Secretary Chertoff. I'd say a couple of things. First, one 
of these goes to the issue of this fee, which would allow us to 
dedicate additional money to the process of actually getting 
and deploying more of this equipment, which I think in the long 
run would actually be a positive thing for the airlines and the 
airports.
    We are currently testing technology that will be better and 
more efficient than what we currently have deployed in most 
airports. There's something called millimeter-wave, which we 
are testing, I think, in Phoenix. And if that turns out to be 
good, then that's the kind of equipment we're going to start to 
deploy elsewhere.
    We are also doing some non-equipment changes, including 
behavioral detection officers and travel document checkers, 
which add additional layers of security. And I think some of 
those are operating in Newark, as well as in other airports.
    Senator Lautenberg. Mr. Chairman, just one last record 
request, and that is, Mr. Secretary, can you furnish me with a 
report on the number of items recovered over the last 5 years, 
let's say, that represent some risk or some danger there? And 
if it's embargoed, will it acknowledge that?
    Secretary Chertoff. I'll do my best. Yeah.
    [The information follows:]

                                                            TOTAL PROHIBITED ITEMS: 2002-2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Prohibited Item Type                 2002            2003            2004            2005            2006            2007         Grand Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Ammunition and gunpowder................  ..............          10,729          25,672          24,404          16,052          14,185          91,042
Box cutters.............................           3,992          21,348          22,430          21,319          15,999          11,908          96,996
Clubs, bats, and bludgeons..............           3,521          25,522          28,998          20,531          12,296           9,443         100,311
Dangerous objects.......................           6,957          29,225          28,293          14,099          13,146           7,708          99,428
Disabling Chemicals and Other Dangerous   ..............           8,133          34,013          40,989          25,985          22,473         131,593
 Items..................................
Explosive Materials.....................  ..............           3,808          14,298           6,950           5,145           3,089          33,290
Explosives..............................             358           1,088             335           2,776           1,768             505           6,830
Firearms................................             153             638             254  ..............  ..............           1,416           2,461
Fireworks...............................  ..............           3,828           9,336           8,195           3,551           1,768          26,678
Flammable Items.........................              13          44,772         301,819         443,290         335,164         250,161       1,375,219
Flammables/Irritants....................          62,853         485,055         697,271         371,711          92,329          73,165       1,782,384
Knives and blades (3 inches or more)....             143         142,565          64,608          57,963          56,902          51,171         373,352
Knives and blades (less than 3 inches)..         320,673       1,822,457       1,990,796       1,764,929       1,550,221       1,005,491       8,454,567
Lighters................................           1,551              62             178       9,420,991      11,616,688       5,124,344      26,163,814
Loose Ammunition........................  ..............  ..............          28,497          27,701          18,748          16,600          91,546
Replica Weapons.........................          20,057          27,990          17,260          12,641           8,473           6,719          93,140
Sharp objects...........................         540,298       3,020,984       3,409,888       3,276,941         163,419         101,386      10,512,916
Tools...................................          67,516         560,957         808,776         889,904         158,838         106,786       2,592,777
                                         ---------------------------------------------------------------------------------------------------------------
      Grand Total.......................       1,028,085       6,209,161       7,482,722      16,405,334      14,094,724       6,808,318      52,028,344
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Lautenberg. Thank you very much. Thanks, Mr. 
Chairman.
    Senator Inouye. Thank you very much. Senator Leahy.

                        CBP STAFFING ALLOCATION

    Senator Leahy. Mr. Secretary, we discussed--I discussed a 
couple of these things earlier, and I'd like to go back to the 
GAO Report. It says that Customs and Border Protection staffing 
allocation needs several thousand additional CBP officers and 
agriculture specialists at ports of entries. Your budget 
includes not a budget for the several thousand, but 234 at land 
borders and 295 positions for radiation portal monitoring 
staff.
    That's about two additional officers at each air and land 
seaport. When Assistant Commissioner Thomas Winkowski came to 
Vermont last August, he said at least eight new agents would be 
assigned to Vermont. We're somewhat disappointed, because the 
estimate was we needed 60. But I guess it doesn't make an awful 
lot of difference, since we didn't get any.
    Any chance we might get any by the--anywhere between one--
or anywhere between none and the 60 that's been requested?
    Secretary Chertoff. I will certainly--I'll get back you 
specifically with respect to Vermont. I can tell you that in 
fiscal year 2007, we budgeted and we received money for 1,131 
additional CBP officers. This fiscal year, we got money for 679 
additional ones, and we're asking for 539 next year. So that 
would get us up to about 2,300.
    Senator Leahy. Yeah. Well, that's all well and good, but--
--
    Secretary Chertoff. That's all----
    Senator Leahy [continuing]. What about Vermont?
    Secretary Chertoff. Right. I will get back to you 
specifically----
    Senator Leahy. We've been promised--we need 60. We've been 
promised eight. We've gotten none.
    Secretary Chertoff. I'll find out exactly what the plan for 
Vermont is.
    [The information follows:]

           Planned Customs Officer Staffing--State of Vermont

    The U.S. Customs and Border Patrol (CBP) plans to deploy 
seven new CBP officers to Vermont ports of entry (POE) and 15 
CBP officers to the Williston Vetting Center in Williston, VT, 
in fiscal year 2008.
    In addition, there are six new CBP officers planned to be 
deployed to POEs in Vermont with funding from the fiscal year 
2009 President's Budget. The fiscal year 2009 plans are 
preliminary and will be reassessed at the time of funding 
distribution to ensure operational needs are met.
    CBP monitors and tracks the ever-evolving staffing needs at 
ports of entry and facilities to adequately carry out its 
diverse mission. CBP determines the appropriate staffing level 
at ports of entry by analyzing a variety of criteria such as: 
volume, processing times, facility constraints and expansions, 
number of terminals and booths, as well as an assessment of 
various threat and risk factors. CBP continues to assess its 
staffing needs throughout the year, based in part upon 
information that obtained from CBP Field Offices. These 
submissions, combined with national and local initiatives, all 
play a role in how personnel is allocated throughout the 
country within CBP's financial resources.
    Three employee town hall meetings were conducted by the 
Director of Field Operations, Boston at the Port of Derby Line 
and the Williston Vetting Center on September 26 and 27, 2007, 
to discuss with CBP employees the staffing needs at POEs in 
Vermont and to address other employee concerns.

                            NORTHERN BORDER

    Senator Leahy. And what about on the northern border? DHS 
promised a target of Border Patrol agents on the northern 
border by--what they promised, they missed it by about 100. How 
are we doing on that?
    Secretary Chertoff. I think what we're requesting in the 
budget, we expect to have 1,500 in fiscal year 2009, which is I 
think what we committed to doing.
    Senator Leahy. Are we going to get them?
    Secretary Chertoff. Pardon?
    Senator Leahy. Are we going to get them?
    Secretary Chertoff. Well, if we get the budget request, we 
will get them.
    Senator Leahy. Well, that----
    Secretary Chertoff. I mean, that is what is built into the 
budget for fiscal year 2009.
    Senator Leahy. All right.
    Secretary Chertoff. It would get us up to 1,500.
    Senator Leahy. All right. But we put money in for these in 
the past, and nothing's ever happened. That's why I asked.
    Let's go about this temporary checkpoint, so-called 
temporary checkpoint. And you said that, when I'd asked this, 
100 miles from the border, along a road that's paralleled by 
dozens of other roads that people could take if they wanted to 
avoid the checkpoint. I realize that it would keep our fear 
factor going, and it doesn't seem to stop anybody.
    You said you would let me know about this, and yet we now 
have it in the budget. Is this going to be a case of building 
them, and then you tell us?
    Secretary Chertoff. Let me say this. First of all, Senator, 
let me----
    Senator Leahy. Invite us to a ribbon-cutting or something?
    Secretary Chertoff. Let me first correct one thing. We're 
going to be at 1,500 Border Patrol agents in the northern 
border by the end of this fiscal year. So it'll be by the end 
of September.
    Senator Leahy. All right.
    Secretary Chertoff. So we have that funded already.
    Senator Leahy. That's good news.

                              CHECKPOINTS

    Secretary Chertoff. On the issue of the checkpoints, I 
don't know as we sit here what the plans are with respect to 
the checkpoint in Vermont. I can tell you generally----
    Senator Leahy. But you've got a $4 million----
    Secretary Chertoff. For the northern border----
    Senator Leahy [continuing]. Request for----
    Secretary Chertoff [continuing]. Checkpoints.
    Senator Leahy [continuing]. The Vermont checkpoints. And 
this is in the so-called Swanton sector, which is the northwest 
part of our State. The other one is in the northeastern part of 
the State. Actually, they're getting down to the southern part 
of the State.
    Secretary Chertoff. Yeah.
    Senator Leahy. Are we going to have permanent checkpoints 
or not?
    Secretary Chertoff. In terms of the specific plan for 
Vermont, I can't tell you as I sit here. I can tell you in 
general what our view on checkpoints is, and to be honest, I'm 
probably most familiar with it in the southern border, but the 
concept is the same.
    Checkpoints do serve a valuable function in intersecting--
--
    Senator Leahy. Well, wait a minute. The concept is the 
same? Are you saying that the situation on crossing our 
northern border is the same as our southern border?
    Secretary Chertoff. No. I'm saying that concept----
    Senator Leahy. I know you've got that----
    Secretary Chertoff. No. I'm----
    Senator Leahy [continuing]. Millions of dollars being spent 
on a virtual fence that doesn't work on the southern border----
    Secretary Chertoff. I'm saying----
    Senator Leahy [continuing]. But are we doing the same thing 
here on the northern border?
    Secretary Chertoff. No. I'm saying the concept of using a 
checkpoint that is not at the border is basically the same 
concept. It's the recognition that there will be people who 
will get through the border that you can stop secondarily at a 
checkpoint.
    Senator Leahy. Well, of course you can, but when you've got 
this thing sitting out there, and you've got a whole lot of 
roads that go around, and we are not talking about a border 
where there's that much of a need to come across it. I mean, 
the Canadians, their dollar--because our dollar has slipped so 
badly, their economy is booming, they've got their dollar's 
worth, some days, more than ours.
    They're not rushing across to get jobs. It's not the----
    Secretary Chertoff. I don't think it--I agree. It's not 
illegal--the issue in the Canadian border is not a big flow of 
illegal migrants. I----
    Senator Leahy. Well, the reason I ask is you got border--
Derby Line that stands at Quebec. This is a town that--it's two 
different names, but----
    Secretary Chertoff. Yeah.
    Senator Leahy [continuing]. It's one town. Half is in the 
province of Quebec, but half is in Vermont. They want to put 
barriers up so that if the person in Vermont wants to ask the 
high school kid who lives across the street to come and baby 
sit for 3 hours, they can't do it. We don't--and we're told 
that we don't have the Border Patrol--enough people to do that.
    And we're going to start sticking people 100 miles away?
    Secretary Chertoff. Well, let me just make it clear. The 
purpose of having the checkpoints in the northern border isn't 
that we think there's a large flow of illegal migrants. It's 
other kinds of smuggling that we worry about, drug smuggling 
and things of that sort.
    I mean, I've asked the Border Patrol about this. Their 
experience is--and I have to credit their experience, because 
they have the years on the ground--is that the checkpoint 
serves as an additional layer of protection against smuggling. 
Now, I agree with you, we need to----
    Senator Leahy. Okay. You get an occasional smuggler. You 
get an occasional--some kid with pot in his car. And that's 
great. And you're stopping all these law-abiding people going 
back and forth. I mean, I mentioned the thing with--where I'm 
told by an officer pointing to his gun, ``That's all the 
authority I need.''
    Secretary Chertoff. Yeah. And that's improper. So, I mean, 
certainly I don't--I'm not going to condone an officer saying 
that to anyone.
    Senator Leahy. I understand. But I mean--and that's fine. I 
can--when the superior officer walked up and saw me there, he--
I don't pretend to be a lip-reader, but I'm certain of what I 
could understand when they saw the situation.
    But it should be the same if it was Patrick Jones.
    Secretary Chertoff. Oh, sure. Absolutely. It's completely--
--
    Senator Leahy. I mean, it's just--it----
    Secretary Chertoff. Let me be really----
    Senator Leahy. You get the impression sometimes, and I hear 
this from foreign visitors all the time, that we treat 
everybody as an enemy, and we start treating our own people as 
an enemy. Mr. Secretary, if I had any hair, I'd be tearing it 
out. I'm sure that's something you can appreciate.
    But, I mean, this is crazy.
    Secretary Chertoff. Well, let me say this. First, let me 
say that on the checkpoint, I gather we have not completed a 
site selection assessment for the permanent checkpoint yet. So 
that still hasn't been decided.
    On the border issue you raised, I'm in violent agreement 
with you. I periodically hear complaints, at the airport or 
whatever it is, about people who have been treated rudely or 
mistreated by somebody in the Government. You know, I have----
    Senator Leahy. I've seen it done. I've seen it.
    Secretary Chertoff. Right. I have 208,000 employees in this 
Department. The people at the ports of entry process millions 
of people a year. I have no doubt, statistically, that some 
small number are rude and inconsiderate. I wish I could root it 
out.
    I've spoken to the head of Customs and Border Protection. 
They are working hard to send a message that courtesy is an 
important element of the job. My experience with human nature, 
including a lot of years--and you were a prosecutor, too--is 
that you will always get some small number of people who when 
you give them a badge and a gun will take it as a license to be 
discourteous and rude.
    All I can tell you is, to the very best of our abilities, 
our policy is to send a message that everybody, whether they're 
a foreigner or an American citizen, ought to be treated 
politely at port of entry or during any interaction.
    And to the extent that people violate that stricture, I 
regret it and I apologize for it. You know, I wish I could make 
everybody be courteous. I haven't yet found the magic key to 
doing that, but we'll continue to try.

        CBP CUSTOMS OFFICER LAW ENFORCEMENT OFFICER (LEO) STATUS

    Senator Leahy. And I will submit for the record a question 
on whether you're going to bring into effect the Custom and 
Border Protection agents LEO, the CVP, which is supposed to go 
in effect on July 6, 2008, and this is one I'm not asking you 
to comment on. But we'll submit it for the record.
    But it is granting Federal law enforcement status to 
Customs and Border Protection agents, something we put in to 
try to stem the number who are retiring. And you and I should 
chat about these checkpoints.
    Secretary Chertoff. All right.

                              CHECKPOINTS

    Senator Leahy. Maybe come up and take a ride with me in 
Vermont, and I'll show how to--how easy it is to just avoid 
that.
    Secretary Chertoff. I'm happy to chat with you about it, 
but I mean, we've got the same argument that was presented to 
us in Arizona. But I have to tell you, it shouldn't just be me. 
I should bring----
    Senator Leahy. Those are different situations. We don't 
suddenly--we don't have thousands of Canadians rushing down 
here----
    Secretary Chertoff. Senator----
    Senator Leahy [continuing]. Because they like our 
healthcare system or our economy better than theirs.
    Secretary Chertoff. I should bring--if we're going to do 
that, I'll bring the Border Patrol up with me, so they can tell 
you what their own experience is. I mean, I've----
    Senator Leahy. Yes.
    Secretary Chertoff [continuing]. I have not been a border 
agent, but I've talked to them and----
    Senator Leahy. I have, too.
    Secretary Chertoff [continuing]. And they have----
    Senator Leahy. I have, too.
    Secretary Chertoff. It's not--I don't have a--I'm not--I 
don't have a kind of--I'm not wedded to it in any particular 
place. I'm open-minded. But I do--I am wedded to the idea that 
if the Chief of the Border Patrol looks me in the eye and says, 
``I need this,'' I'm inclined to defer to him.
    But I'm happy to pursue the discussion with you.
    Senator Leahy. Thank you. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Craig.

                             SECURE BORDERS

    Senator Craig. Mr. Chairman, thank you very much. Secretary 
Chertoff, let me join with Senator Specter in thanking you once 
again, along with Secretary Gutierrez, as we spent a lot of 
quality time together last year. And I must tell this 
committee, in the 28 years I've been here, I don't know of any 
other two Secretaries who spent as much time on the Hill, 
trying to effectively design and work with us in the design of 
a comprehensive immigration bill.
    We failed. One of the reasons we failed is in part because 
of America's concern about secure borders. There's no doubt 
about that. It's a total package of issues out there, as we now 
understand it probably a little better than we did a year ago. 
And there are a combination of factors that cause people to 
react, as it relates to the security of our borders and 
illegals, and the immigration issue.
    And as we struggle to get it all right, our borders are 
going to be critical in being able to say to the American 
public, ``Now that we've got this corrected, will you work with 
us in building the second boundary, if you will, and that's 
good law that denies illegals access to the labor market in our 
country.''

                   NATIONAL GUARD AT SOUTHERN BORDER

    Having said that, I was one of the early advocates of 
taking our National Guard to our southern border, or 
southwestern border, to supplement and do all of that as it 
related to just these phenomenal distances that we border 
States. Senator Leahy is one, obviously. Senator Murray is 
another border State. I'm a border State.
    My question of you, Mr. Secretary, how much longer do you 
envision us needing to have the National Guard at our southern 
boundary?
    Secretary Chertoff. I think the plan--first of all, 
Senator, thank you for your comments, and it was a pleasure 
working with you and the other Members of the Senate on the 
bill, which I do think, even though it didn't pass, I think 
it's a very constructive----
    Senator Craig. We all learned a lot.
    Secretary Chertoff. I think we did.
    Senator Craig. Didn't we?
    Secretary Chertoff. And I think people will return to it.
    Senator Craig. Yes.
    Secretary Chertoff. On the issue of the National Guard, I 
think the plan is this summer to have them all back to their 
original missions. We have always traditionally had some 
National Guard training at the border, even prior to this 
operation, but we will draw down to the traditional level this 
summer, because we have now added a lot of Border Patrol.
    Senator Craig. Okay. I know you're doing that. You're 
hiring out in our area, and I've also been an advocate. And I 
think I have told you that once you put Guard on the border, 
one of your natural points to go recruit, the people have 
already had experience and some training, is right there.
    Young men and women who served their time in the Guard that 
might find life as a Border Patrol as an extension of their 
presence, so I hope your recruitment goes well.

                  WESTERN HEMISPHERE TRAVEL INITIATIVE

    Western Hemisphere Travel Initiative, Homeland Security, 
you're steadily moving toward full implementation of the 
Western Hemisphere Travel Initiative. However, as has been 
mentioned, Congress mandated that full implementation cannot 
take place until DHS certifies that it is ready to handle 
implementation or the June 2009, whichever comes first.
    As of now, is DHS planning on taking until June 2009 before 
full implementation? Or do you believe that you will be ready 
to certify to Congress at an earlier date? What is your 
timeline?
    Secretary Chertoff. I think we would be ready to certify at 
an earlier date. This is a fight I lost. I think we're obliged 
to wait until June 2009 for full implementation under the law, 
although I would have liked to have seen us be able to 
implement it earlier.
    But in the meantime, we'll make use of the additional time. 
The State of Washington is now issuing enhanced driver's 
licenses that will satisfy the requirement. New York is going 
to be doing it. Arizona is going to be doing it. I think 
Michigan has just agreed to do it, or is close to agreeing.
    So we'll use the time to achieve market saturation in terms 
of these different kinds of documentation, which will make it 
easier. But as far as I can tell, we will be ready at the 
earliest legally authorized date to make it fully implemented.
    Senator Craig. Okay. Certainly Western Hemisphere Travel 
Initiative was designed to secure our borders and allow us to 
know who is coming across our borders. However, both our 
northern and our southern borders are simply so very vast, it 
is, in my opinion, impossible to line them with people. And 
we've all had the frustration about physical structures, and 
how much should you build and can you build.

                       BORDER SECURITY TECHNOLOGY

    And I applaud the other effort that's utilizing 
technologies, like UAVs and other emerging technologies. While 
I recognize that the virtual border fence or Project 28 has 
received some negative reporting from GAO, what does the future 
look like for this type of virtual monitoring and inspection 
for use along our northern borders?
    Also, what other steps are being done right now to ensure 
that we are able to track people coming across the border by 
foot, ATVs, and other means, whereby they can avoid--and I 
think some of that conversation went on between you and Senator 
Leahy--checkpoint concepts and all of that? And in all of that, 
a sense of friendship and positive relation?
    Secretary Chertoff. At the northern border, obviously, 
there's going to be a somewhere different lay down of 
infrastructure than at the southern border. I don't envision 
we're going to do a lot of fencing in the northern border. 
Obviously, we've talked--there's been some discussion of some 
barriers in a couple of locations, but we're really looking at 
technology.
    One of the unmanned aerial systems that I talked about is 
going to go up to the northern border. It's going to be 
available to do surveying there. What we currently have is a 
combination of infrared and seismic sensors, which are 
underground, remote mobile video surveillance systems, and 
then, of course, at the ports of entry, we have radiation 
monitoring devices.
    The flow between the ports of entry, particularly out west, 
has been only a very small fraction of what we see at the----
    Senator Craig. Yeah.
    Secretary Chertoff [continuing]. Southern port of entry.
    Senator Craig. Oh, yeah.
    Secretary Chertoff. But we do--you know, we are mindful of 
drug smuggling, to be honest. We had a big operation out in 
Washington about a year or 2 ago, where there was a lot of 
drugs being flown in. So we are going to have technology at the 
northern border, but it's going to be a different array than we 
have at the southern border. But we will move a UAV up there 
pretty soon.
    Senator Craig. Okay. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Murray.

                   DISASTER AID FOR WASHINGTON STATE

    Senator Murray. Thank you very much, Mr. Chairman. Mr. 
Secretary, thank you for being here. Before I ask my questions, 
I wanted to extend a word of thanks to many people who work in 
your Department.
    As you may remember in December, we had some very serious 
flood and winds out of my State. Six people died, thousands of 
people moved out of their homes, and really millions of dollars 
in economic and property loss, and I have toured the vast area 
many times, and over and over, people are thanking me for the 
Coast Guard plucking people off of their roofs in the middle of 
the night, and for our FEMA officials who you sent out there, 
who've been on the ground, and have really spent hundreds of 
hours working with people who have been very devastated.
    And I think, oftentimes, we forget those soldiers out on 
the ground that have just done a tremendous job. And I wanted 
to extend a word to you, and to those people, as well, and 
thank you very much for that.

                       2010 OLYMPICS PREPARATION

    The first question I had that I wanted to bring up today 
was the 2010 Olympics and the Department's planning for that. 
You're well aware the Winter Olympic Games are going to be held 
in Vancouver, British Columbia, just over the border from 
Washington State. We've got 7,000 athletes and 80 countries 
coming, 10,000 reporters, it's going to be obviously very huge, 
and it is going to have a significant impact on Washington 
State and our border counties.
    Washington State is going to be providing key 
transportation access for millions of people who are--or 
thousands of people who are flying in, and we have been working 
closely with DHS on this, the Department, your representatives, 
Customs and Border, Immigration and Customs, Secret Service, 
FEMA, they've all been working with our State and local 
officials on planning for this.
    I think you know that the Committee has identified some key 
needs for that. An Olympics Coordination Center, interoperable 
communications, training, and exercises.
    What is disconcerting to me is that the President's budget 
has zero funding for any of that, and I wanted to ask you since 
that 2010 Olympic Planning Committee has identified $16 million 
in direct 2010-related needs, what strategy DHS has for 
actually providing those funds that are going to be required?
    Secretary Chertoff. Well, of course, for the fiscal year 
2009 budget, we do have in the CBP budget money that the CBP 
anticipates spending current resources from its base budget to 
cover some of its expenditures in connection with the planning 
and the run up to the Olympics.
    We also have a Federal Coordinator who has been designated, 
who's going to be working more closely with State officials. I 
would also envision that because we will have Homeland Security 
grant funds made available in 2009, some of those may be 
available and attributable for security-related measures, as it 
relates to this particular Olympics.
    So I think there will be a number of sources of funds, even 
though there's not a specific line item that's dedicated to the 
Olympics as a grant program or something else, but there will 
be sources of funds within the Department.
    Obviously, when the 2010 budget is proposed, and we get 
into the actual period of time----
    Senator Murray. But actually, the 2009 budget----
    Secretary Chertoff. Well, 2009 will take you into, I guess, 
the--I guess it'll take you over into winter of 2009/2010. I 
guess as we get closer, if there are some specific needs that 
can't be funded out of the particular budget, you know, monies 
that we have in the individual components, we can address those 
later. But I think at this point, we expect that the Federal 
share of this will be taken care of by monies already allocated 
to the relevant components, and I think the exact needs in 
terms of the Coordination Center, what the cost would be, is 
something that's a work in progress.
    Senator Murray. Well, can you tell me exactly who's in 
charge for this? Because it's my understanding that the DHS 
Operations Coordinator is going to be the lead entity, but----
    Secretary Chertoff. Correct.
    Senator Murray [continuing]. We have also heard that they 
are only in a supporting role for Customs and Border 
Protection. Can you clarify that?
    Secretary Chertoff. Yes. Mark Beaty is the Federal 
Coordinator. He's from CBP. CBP is the lead component in the 
Federal agencies.
    Senator Murray. So the Coordinator will be working 
underneath CBP?
    Secretary Chertoff. Well, he's a CBP person. He will be the 
person who is responsible on the ground. And generally, when we 
have a coordinator working on a multiagency issue, that person 
will communicate directly with our DHS Operations Coordination 
Center, and through them, directly to the Secretary.

                 PACIFIC NORTHWEST NATIONAL LABORATORY

    Senator Murray. Okay. Thank you. I also wanted to ask you, 
because I think you're aware that Pacific Northwest National 
Laboratory, PNNL, is in my home State, and they have a sizable 
portfolio of research at PNNL, your Department does, that 
touches on every aspect of the Department's priorities, from 
cargo import security to border security.
    They're doing radiation portal monitors, high explosives 
research, support DNDO Radiation Test Center in Port of 
Tacoma--a lot of work going on there, and we're very concerned 
about the impact on that as we build and modify the facilities 
at the 300 area at Hanford.
    In recognition of that, DHS and S&T signed a memorandum of 
understanding, I'm sure you're well aware, with DOE and 
National Nuclear Security Administration. Last year, your 
Agency was obligated to pay $25 million under that MOA, but the 
President's budget contained nothing.
    Now, working with our chairman and ranking member, we got 
$15 million of that to cover that, so there wouldn't be any 
delays. Last December, I met with Jay Cohen, who's the Director 
of DHS Science and Technology, so we could avoid a similar 
budget crisis this year, and he assured me that DHS would live 
up to its obligation.
    But this year, according to the MOU, DHS is supposed to 
budget $15 million, but the President's budget only included 
10.
    Secretary Chertoff. Right.
    Senator Murray. So I need to know what your agency is going 
to do under that MOA, or we are going to lose the critical 
infrastructure that your agency is relying on.
    Secretary Chertoff. As you know, obviously, our Department 
typically funds two-thirds of this. All I can tell you, 
Senator, is this, I mean, this is--when we sat down and did the 
budget, there were a whole host of things that had to be--even 
with an increased budget--had to be traded off and pruned in 
order to fit within the budget----
    Senator Murray. Well, because of that, other agencies are 
having to fill in what your Agency isn't doing, and there's a 
lot of discontent about that.
    Secretary Chertoff. I think it's--I understand it's a very 
tough budget circumstance all around, particularly because 
there being--obviously, with the subprime mortgage issue and 
the money that was put into that, there have been some perhaps 
unanticipated budgetary impacts from a total budget standpoint.
    Senator Murray. Will support additional funding from this 
committee to fulfill the obligation----
    Secretary Chertoff. I would need----
    Senator Murray [continuing]. Of DHS?
    Secretary Chertoff. Yes. If someone were to come to me and 
say, ``Put $5 million into this,'' I would have to take it from 
something. And as I sit here now, I cannot tell you what I 
would take it from. I would have to take it from something 
else. Something else wouldn't get $5 million. Maybe a grant 
program wouldn't get $5 million.
    So I can go back and look at it again, and if someone comes 
to me and says, ``Well, we really want the $5 million for 
this,'' I will have to cut someone else's $5 million. I can't 
tell you as I sit here who that would--who would suffer that 
loss.
    Senator Murray. Mr. Chairman, my time is up. I do have a 
number of other questions, and I would like to continue that 
conversation with you. These are critical infrastructure 
pieces, and this committee is going to have to come up with a 
way to fund it, and we'll need your support to do that.
    Thank you, Mr. Chairman.

               PASSENGER VESSEL SERVICES ACT (PVSA) RULE

    Senator Inouye. Thank you very much. Mr. Secretary, in 
order to clarify an exchange that we had, for the record, on 
the Passenger Vessel Services Act, PVSA, I do not support 
withdrawing or repealing or cancelling out the rule, but I am 
in favor of modifying the rule so that it applies to the Hawaii 
Cruise Ship Vessel Program.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary Chertoff. I think--I appreciate that. I think I 
was aware from prior conversations that that's--was your 
position, and I'm well aware of the issue. It is--the points 
made have been taken onboard. I can't say more than that. I 
will press the bureaucracy to issue forth with its final 
resolution of this as quickly as possible.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted by Senator Robert C. Byrd

                 departmental management and operations
Management Efficiencies
    Question. The request proposes to cut $378 million in critical 
homeland security dollars in what is termed as ``management 
efficiencies.'' The budget does not identify specific initiatives nor 
quantify exact savings associated with these cuts. Provide specific 
examples of how the Department will achieve $378 million in savings in 
fiscal year 2009. If specific examples cannot be identified, please 
inform the subcommittee of how many fewer border patrol agents will be 
hired, or how many fewer Coast Guard personnel will be available to 
secure our ports and enforce our immigration laws?
    Answer. The expectation is that all DHS components should 
continually review how they execute their programs and look for ways to 
achieve savings for the U.S. taxpayer. We believe these savings can be 
achieved without adversely impacting our ability to achieve the 
Department's mission. Examples of these efficiencies include such 
things as re-competing contracts and reducing dependence on contractor 
support by hiring additional Federal staff where it is cost effective 
to do so.
Financial Management
    Question. The Inspector General reported that the majority of the 
department's material weaknesses in internal control are attributable 
to conditions existing at the Coast Guard. The Commandant recently 
testified that corrective action plans are in place to remedy ongoing 
material weaknesses. Are the Coast Guard's plans adequate to improve 
these weaknesses and if not, what further action should the Coast Guard 
be taking?
    Answer. The Department's Chief Financial Officer (CFO) requested 
the Inspector General conduct performance audits aimed at assessing the 
Department's and U.S. Coast Guard's (USCG) corrective action efforts. 
These audits have proved invaluable in ensuring the Department's 
corrective action efforts will be effective. The performance audits 
noted areas where USCG's corrective action plans could be improved and 
the DHS CFO will continue to support the USCG in strengthening their 
corrective action plans.
    Progress on remediating USCG's financial weaknesses represents a 
long term challenge, highly dependent on financial management systems 
improvements and strengthening the USCG control environment. To support 
the USCG, the Department's CFO conducts monthly corrective action 
meetings with Senior Management and weekly working group meetings with 
Senior Staff. During fiscal year 2008 DHS and USCG will develop:
  --An audit readiness strategy for USCG that paints a clear picture of 
        the critical path to a clean audit opinion.
  --A strategy to accelerate the remediation of the posting logic and 
        other gaps in the USCG's Core Accounting System (which prevent 
        USCG from supporting assertions for transactions that flow 
        through the current USCG financial systems).
Headquarters Consolidation
    Question. DHS is requesting $120 million in fiscal year 2009 for 
its Consolidated DHS Headquarters project. What is the schedule for key 
construction milestones, DHS's progress on meeting these milestones, 
and how these impact the budget request?
    Answer. The current schedule for fiscal year 2008 and fiscal year 
2009 key construction milestones is included in the chart below and is 
based on Congressional approval of the President's fiscal year 2009 
Budget Request. The lack of funding in fiscal year 2007 and fiscal year 
2008 has had an adverse impact on the schedule because it removes from 
General Services Administration (GSA) and DHS a legitimate argument for 
an urgent and compelling need to complete consultations with the 
planning and preservation community and to expeditiously complete the 
National Historic Preservation Act (NHPA), National Environmental 
Policy Act (NEPA) and Master Planning processes.
    Fiscal year 2008--2009 Estimated Construction Milestones (subject 
to appropriations):
Transition
    Question. What is DHS's overall strategy for transition regarding 
order of succession, cross government collaboration and transition 
guidance?
    Answer. DHS is engaged in activities at five levels to ensure 
operational continuity of Homeland Security responsibilities in view of 
the January 2009 administration change. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Operational continuity is addressed first through robust succession 
planning. An August 2007 White House Executive Order specifies the 
order of succession for the Secretary of the Department of Homeland 
Security. Furthermore, Delegations of Authority, including orders of 
succession, signed by the Secretary in October 2007 specify the 
succession order for DHS Component Leader positions. Second, the 
Department's internal succession planning efforts identify positions 
critical to Homeland Security and mitigate their succession risk. 
Additionally, DHS has engaged the National Academy of Public 
Administration to conduct a study of DHS senior staffing and provide 
recommendations. Third, a DHS-focused inter-agency collaboration 
approach centers on structured, deliberate processes that engage key 
groups and individuals to build relationships. The plan is to deliver 
table top exercises before, during and after the transition period for 
career senior officials and incoming appointees. This effort will build 
DHS employees' knowledge of national security protocols and interfaces 
with other departments as well as State and local governments and 
ensure preparedness of DHS employees should a crisis arise, whether 
natural or man-made. Fourth, the overall transition effort includes 
seeking recommendations from bodies such as the Homeland Security 
Advisory Council, which formed an Administration Transition Task Force. 
The Task Force's report, delivered in January 2008, identifies 
transition best practices. Fifth, the Department is developing 
transition guidance to address the ``nuts and bolts'' of the 
Department's operations. Furthermore, the Department is providing 
improved processes to equip new appointees with the tools they need and 
the information and relationships required to be effective in their 
jobs.
    To further elaborate on the third area of transition preparation, 
in addition to the table top exercises mentioned above, the Department 
is conducting briefings and exercises to prepare its senior career 
officials and appointees for the Presidential administration 
transition.
    From February 19-21, 2008, DHS hosted a two-and-a-half-day 
conference that brought together the Department's top career and non-
career leadership from all components, including field-based employees. 
The attendees participated in a Federal Emergency Management Agency 
exercise, as well as briefings on the Department's major initiatives, 
with a focus on execution in the field.
    From May 13-15, 2008, the Department will host another training and 
exercise event at the Federal Law Enforcement Training Center in 
Georgia. This training will engage senior career employees from all DHS 
components in a series of briefings, scenarios and response exercises 
to reinforce integrated operational preparedness and execution 
throughout the Department.
    Question. Is DHS planning an Operations Coordination and Planning 
group to better coordinate the department's operational components in 
the event of a major incident? Have DHS components expressed concern 
that this group could have command and control responsibilities? What 
is the status of this initiative and under what office will this group 
be located?
    Answer. Yes. This construct, tentatively described as the 
Operations Coordination and Planning Group (OCPG), is similar to that 
used by the Joint Staff to coordinate operations and planning across 
the service branches of the military. To support this effort, an OCPG 
working group has been created to develop recommendations regarding the 
implementation and integration of this capability across DHS.
    The efforts of the OCPG working group support the ongoing efforts 
to improve current capabilities to coordinate operations and plan for 
emergent, non-routine situations that may require multi-component 
action, in order to enhance senior-level decision-making and an 
integrated DHS response. This working group is comprised of 
representatives from operational components within the Department who 
provide the expertise necessary to ensure that the requirements of the 
stakeholders are accounted for in the examination. The efforts of the 
OCPG working group are still under development and have not yet been 
reported to departmental leadership.
    The Department has made significant efforts to strengthen the joint 
coordination of operations and planning within the Department of 
Homeland Security (DHS). This effort is intended to enhance the current 
capability that supports internal operational decision-making by 
departmental leadership. This construct, tentatively described as the 
Operations Coordination and Planning Group (OCPG), is similar to that 
used by the Joint Staff to coordinate operations and planning across 
the service branches of the military. To support this effort, an OCPG 
working group has been created to develop recommendations regarding the 
implementation and integration of this capability across DHS.
    The efforts of the OCPG Working Group support the ongoing efforts 
to improve current capabilities to coordinate operations and plan for 
emergent, non-routine situations that may require multi-component 
action, in order to enhance senior-level decision-making and an 
integrated DHS response. This working group is comprised of 
representatives from operational components within the Department who 
provide the expertise necessary to ensure that the requirements of the 
stakeholders are accounted for in the examination. The efforts of the 
OCPG Working Group are still under development and have not been 
reported to departmental leadership. I will be happy to provide you 
with an update once the working group has presented its 
recommendations.
    The OCPG, located under the office of Operations Coordination, is 
still under development. The OCPG working group, established to develop 
recommendations regarding the implementation and integration of the 
capability across the Department, has not yet presented its findings to 
departmental leadership. I will be happy to provide you with an update 
once the working group has presented its recommendations.
    Question. What will be the role of the Operations Coordination and 
Planning group vis-a-vis command and control responsibilities?
    Answer. Thank you for the opportunity to update you on the efforts 
to strengthen the joint coordination of operations and planning within 
the Department of Homeland Security (DHS). This effort is intended to 
enhance the current capability that supports internal operational 
decision-making by departmental leadership. This construct, tentatively 
described as the Operations Coordination and Planning Group (OCPG), is 
similar to that used by the Joint Staff to coordinate operations and 
planning across the service branches of the military. To support this 
effort, an OCPG working group has been created to develop 
recommendations regarding the implementation and integration of this 
capability across DHS.
    The efforts of the OCPG Working Group support the ongoing efforts 
to improve current capabilities to coordinate operations and plan for 
emergent, non-routine situations that may require multi-component 
action, in order to enhance senior-level decision-making and an 
integrated DHS response. This working group is comprised of 
representatives from operational components within the department who 
provide the expertise necessary to ensure that the requirements of the 
stakeholders are accounted for in the examination. The efforts of the 
OCPG Working Group are still under development and have not been 
reported to departmental leadership. I will be happy to provide you 
with an update once the working group has presented its 
recommendations.
Working Capital Fund (WCF)
    Question. Over $47 million for headquarters procurement operations 
is proposed to be funded through the WCF. Other than highlighting how 
much each component pays for procurement services, what benefits or 
efficiencies are gained from this funding mechanism compared to a 
direct appropriation to the DHS Chief Procurement Office?
    Answer. Funding the procurement operations through the WCF promotes 
the management of total cost visibility and full cost recovery of 
support services. The WCF provides goods and services in exchange for a 
set price/rate. In support of this, the WCF cost allocation methodology 
is designed to recover the costs by billing customers/components for 
the provision of goods and services. The WCF components/customers' 
charges are equal to the cost of providing the service and are based on 
the component's demand or level of service.
    Question. The request includes a general provision to modify the 
WCF. With regard to carryover authority, what is a reasonable operating 
reserve? How is the corpus remaining from DHS start-up funds used to 
maintain liquidity in WCF operations? The general provision would allow 
for transfer authority between WCF programs, projects, and activities 
(PPAs). Provide a list of all PPAs in the WCF.
    Answer. We have not determined a reasonable operating reserve 
threshold for the Working Capital Fund (WCF). We are researching other 
Federal agencies' rationale and determination of reasonable operating 
reserves to assess the DHS WCF financial and management reserve 
requirements.
    Although the remaining corpus is available for obligation, these 
resources are generally not obligated, but utilized to allow 
flexibility for the WCF to continue to maintain a positive balance. 
This practice ensures that obligations do not exceed resources in order 
to remain solvent and allow for continued operations.
    The key WCF activities are organized under the five activity 
categories
  --Fee for Service Activity
    --This type of activity earns income from the provision of services 
        and has characteristics typical of a business enterprise. The 
        costs for operating the ``business'' are recovered by billing 
        customers for the provision of goods and services, through pre-
        approved rates designed to recover its operating costs.
      --GSA RENT
      --Consolidated Subscriptions (Library of Congress)
      --Financial Management (Finance & Acctg. Shared Services)
      --Financial Statement Audit
      --Financial Management DOB
      --Bankcard Program
      --TIER
      --Internal Control Audit
      --NFC Payroll Services & Reporting
      --HQ Human Capital Services
      --(HCBS) Payroll Service Ops
      --DHS EXEC. LEAD. (SES CDP, Sec Conf)
      --HQ Executive Lead. Dev (TEI, SES Forum, Gen. Workforce 
        Training)
      --Employee Assistance Program
      --CIO/DHS Infrastructure Transfer Program
      --NCR Infrastructure Operations
      --Software Enterprise Licenses--Microsoft
      --Flexible Spending Plan
      --Procurement Operations
  --Tri-Bureau Service Activity
    --The WCF Tri-Bureau Service activity supports selected 
        administrative services provided by Customs and Border 
        Protection (CBP) and the Department of Justice (DoJ). These 
        services include human resources, services provided by CBP, and 
        IT services supplied by DoJ to a limited number of customers.
      --Tri-Bureau Human Resources Shared Services
      --Data Center Services from DOJ
  --Government-Wide Mandated Service Activity
    --Government-Wide Mandated Service Activity accounts consist of 
        accounts that are established by Congress in benefiting the 
        Government agencies and the public in consolidating services or 
        web-sights. These activity costs and pricing policies/
        algorithms are usually determined by OMB. These costs are 
        billed through the WCF to facilitate the administration of the 
        Government-Wide Mandated Activities.
      --Interagency Council Funding
      --Recruitment One-Stop
      --e-Training
      --Enterprise HR Integration (EHRI)
      --Business Gateway
      --e-Rulemaking
      --e-Travel
      --Case Management Line of Business
      --e-Grants.gov
      --e-Authentication
      --Human Resources Line of Business
      --e-govBenefits
      --Financial Management Line of Business
      --Geospatial Line of Business
      --IT Infrastructure Line of Business
      --Budget Formulation and Execution Line of Business
      --e-gov. Integrated Acquisition Environment
      --e-gov. Disaster Management (DisasterHelp.gov)
  --DHS Crosscutting Activity
    --The DHS Crosscutting Activity accounts are those accounts that 
        provide a benefit in whole or in part to DHS and approved by 
        the Secretary in accordance with Public Law 108-90. These 
        accounts capture actual costs of the service provided and 
        redistribute the cost based on the discretionary budget, 
        staffing or some other fair and equitable basis to each DHS 
        organizational element.
      --Capital Planning and Investment
      --Ready Campaign (Ready.gov)
      --Strategic Sourcing
      --CPO Shared Reporting
  --Working Capital Fund (WCF) Management Activity
    --The WCF operation provides policy, procedures, budget 
        formulation, execution and customer resolution services in 
        managing the WCF. Services are provided to the activity 
        managers as well as customers across DHS.
DHS Acquisitions
    Question. The request includes another installment of acquisition 
interns to help retain an appropriate workforce of acquisition 
professionals. In light of the job market shortage of experienced 
contracting professionals, what other initiatives, such as hiring 
retired annuitants, is DHS pursuing to establish an appropriate 
acquisitions workforce?
    Answer. The Office of the Chief Procurement Officer (OCPO) is 
moving out in several areas to ensure a good strategic succession plan 
for the acquisition workforce. The first step we have taken is to 
establish a baseline, using parametric measuring tools (in addition to 
our ``cost-to-spend'' model) to help us identify what DHS' long term 
personnel numbers should be. DHS is also making full use of the re-
established direct hire authority and successfully implementing the 
recently granted re-employed annuitant program. OCPO is also working to 
identify and effectively implement all flexibilities offered, such as 
student loan repayment, recruitment and retention bonuses, time off 
awards and recognition awards, etc. Establishing and executing a DHS 
centralized acquisition training program is another initiative the 
Department is pursuing that will aid the acquisition professionals in 
reaching their full potential.
    Question. The department's investment review process has been under 
revision for several years; in your view what is the appropriate role 
for department level oversight of its major investments and why have 
previous efforts not provided sufficient oversight? How do you plan to 
address this issue before the next administration?
    Answer. The appropriate role for Department-level review of major 
investments is to ensure that Department leadership is provided with 
the following:
  --Investment requirements that support the Department's strategic 
        objectives in parallel with being executable by DHS program-
        contractor teams;
  --Timely periodic assessment/review of program development/
        production/fielding/life cycle support execution, using 
        standard, practical metrics, including (but not be limited to) 
        financial, systems engineering, earned value (where applicable) 
        and testing metrics;
  --Sufficient reaction time for Department leadership, as a result of 
        program assessments, to successfully mitigate program risks or 
        successfully leverage program opportunities
    Previous oversight has been limited by the lack of standard 
Department-wide processes for requirements development/approval, and 
wide variance across DHS in program assessment/review processes. Both 
of these areas are actively being strengthened by cross-Department 
teams led by the Deputy Assistant Secretary for the Office of Strategic 
Plans in the Office of the Assistant Secretary for Policy for 
requirements, and by the Office of the Chief Procurement Officer for 
program assessment and review. While much progress has been ongoing 
during the Department's maturation, we continue to improve and 
integrate our existing processes. Currently, the Department is 
developing and piloting an integrated requirements planning process. 
This process will provide a predictable and enduring way of identifying 
key Departmental requirements and ensuring they are appropriately 
prioritized and resourced. It will inform the Department's Annual 
Integrated Planning Guidance document, which will guide future 
decisions on major DHS investments. The process will be an integral 
part of the Department's way of doing business.
    In the requirements area, a team lead by the Assistant Secretary 
for Policy is developing a requirements process which will be piloted 
this summer on several program groups. Based on the pilot results, 
modifications to the process will be made to resolve any issues 
identified, and the process will begin implementation across DHS later 
this year.
    In the program assessment/review area, a team led by the Office of 
the Chief Procurement Officer, and collaborating with other DHS senior 
leadership and DHS program owners, is developing an Investment Review 
process to replace the current MD 1,400 process. Currently, 
implementation of this replacement process is planned to start in the 
fourth quarter of fiscal year 2008.
    Question. Given longstanding concerns about the Department's 
Investment Review Process and issues with major acquisitions such as 
Deepwater and SBInet, what have you done to ensure that department's 
acquisitions stay within cost, on schedule, and perform as intended?
    Answer. In order to ensure that the Department's acquisitions stay 
within cost, remain on schedule, and perform as intended, DHS has taken 
the following actions:
  --Establishment of a Senior Executive Service-level Acquisition 
        Program Management Directorate to provide oversight and support 
        for DHS acquisition programs (August 2007).
  --Development of a periodic reporting metric-based system to 
        proactively monitor and track program performance.
  --Implementation of a new process that will strengthen each program's 
        Acquisition Program Baseline (APB).
    --The APB is the execution contract between the program, its 
        component, and Departmental leadership.
  --Re-engineering of the Department's Investment and Acquisition 
        Management Review Process.
    --This process is planned for implementation in the fourth quarter 
        of 2008.
    Question. Given DHS's extensive reliance on contractors, what do 
you believe is the appropriate role for contractors in supporting major 
acquisitions, and how do you plan to ensure they are used properly in 
these roles?
    Answer. Across the board, contractors bring a wealth of 
information, experience, technical and management skills with them to 
cost-effectively meet specific Homeland Security requirements. This is 
as true in the use of contractors to perform mission or mission support 
requirements as it is in the preparation, review and administration of 
the often highly technical contracts themselves. Within DHS, we are 
very careful not to allow private sector contractors to perform 
inherently governmental contract administrative functions while 
building our internal capabilities, nor have we allowed contractors to 
determine contract requirements. At DHS, for example, all warranted 
Contracting Officers and all Contracting Officers Technical 
Representatives (COTRs) are considered inherently governmental. These 
capabilities are then supplemented by qualified contractors that have 
been cleared of potential conflicts-of-interest and may provide limited 
performance and technical inspection services, data and financial 
management support services.
    An example provided is the U.S. Customs and Border Protection. The 
organization was not fully staffed in the program or procurement 
offices, when the requirement to develop the SBInet acquisition was 
being planned. Examples of some areas where contractor support was used 
follows:
  --Program management
  --Systems engineering, requirements, and other research/documentation 
        for the investment review process
  --Logistics support to assist with the ``Due Diligence'' process
  --Professional and administrative support in assembling, maintaining 
        and scheduling access to the on-line and physical ``Due 
        Diligence'' libraries
  --Receiving and coordinating classified solicitations
  --Use of other Government agencies, such as the Defense Contract 
        Audit Agency to conduct audits to use in cost and price 
        analyses of the proposals
  --Support for ``Industry Day'' to record the presentations and 
        assemble the continuous streaming
  --Contractor support from companies with auditing backgrounds to 
        document the cost analyses, questions and answers, supporting 
        documentation and recordation of such actions
    The Mitigation Division of the Federal Emergency Management Agency 
(FEMA) requires contractor support for business process management, 
workforce realignment, and performance-based management as applied to 
national government programs. The contractor may be tasked to provide 
assistance to FEMA program management teams in program management and 
planning activities such as: (1) strategic, acquisition and program 
planning; (2) recommending and reviewing performance concepts and 
metrics, including Earned Value analyses; (3) assisting in the 
development and tracking of the balanced scorecard; (4) recommending 
and reviewing concepts of operations; (5) working with the regions to 
assist in implementing the program management procedures established by 
Headquarters; (6) training staff; (7) providing financial management 
analyses; (8) documentation management; (9) assisting with implementing 
the governance structure; (10) providing performance management 
support; (11) communication management; (12) assisting with HAZUS 
Integration; and (13) Support to the Map Mod COTR. The contractor may 
also be tasked to provide support to assist with the development and 
maintenance of capital planning control documents i.e. OMB Exhibit 300 
business case and related assessments in accordance with OMB Circular 
A-11, Preparation, Submission and Execution of the Budget, and related 
regulations and guidelines.
    DHS Component Heads of Contracting Activity have been advised of an 
increased expectation for monitoring the nature and manner of 
contractor personnel activity in our blended workforce. It is more 
important than ever for DHS contracting officers to be vigilant in 
avoiding the inclusion of ``inherently governmental'' functions in 
performance work statements and, absent specific authority, 
establishing personal services contracts. It is also very important to 
direct special management attention to contracts that have a pronounced 
potential for influencing the authority and accountability of 
Government officers.
    When the Government uses a contractor, Organizational Conflict of 
Interest is addressed in the respective contract. The individual 
contractor does not work with his/her home office on any potential 
contracts in which that company may plan to bid or participate either 
as the prime or as a subcontractor. In those cases, the issue is 
addressed at a level necessary and acceptable to the contracting and 
legal community. Contractors designate a supervisor who handles all 
personnel matters. The contractor staffs sign non-disclosures. 
Contractor personnel also recuse themselves from participating in 
acquisitions involving their employer or subsidiaries and their 
competitors. Also, the contractor staffs do not sign any binding 
documents or represent themselves as an agent of the government. 
Further, the contractor does not work on Government holidays or outside 
business hours.
    DHS Component Heads of Contracting Activity have been advised of an 
increased expectation for monitoring the nature and manner of 
contractor personnel activity in our blended workforce. With the growth 
of the ``blended'' or ``multi-sector'' workforce, it is more important 
than ever for DHS contracting officers to be vigilant in avoiding the 
inclusion of ``inherently governmental'' functions in performance work 
statements and, absent specific authority, establishing personal 
services contracts. It is also very important to direct special 
management attention to contracts that have a pronounced potential for 
influencing the authority and accountability of government officers. 
DHS contracting officers shoulder a heavy responsibility for avoiding, 
neutralizing or mitigating any occurrences of organizational conflicts 
of interest that may occur due to increased contractor participation in 
agency operations. In a memorandum distributed by the Chief Procurement 
Officer in July 2007 regarding performance-based acquisition 
requirements, the Component Heads of Contracting Activity were advised 
that requirements for services must be clearly defined with appropriate 
performance standards and, to the maximum extent practicable, 
structured as performance-based. This applies also to contracts for 
services that involve the ``blended workforce.'' Components should 
avoid using an acquisition strategy involving time and material or 
labor hours for service-type requirements where less risk-prone 
contract types are more appropriate.
Unvouchered Funds
    Question. Describe in detail the use of unvouchered funds for 
accounts displayed in the Office of Management and Budget's December 
22, 2007, unvouchered expenditures report. (if necessary in classified 
form). Accounts identified: Office of Inspector General, Salaries and 
Expenses; Coast Guard, Operating Expenses; Immigration and Customs 
Enforcement, Office of Investigations Operating Expenses; and U.S. 
Customs and Border Protection, Salaries and Expenses.
    Answer. Law Enforcement Sensitive. A response will be forthcoming 
under separate cover.
Congressional Justification Discrepancies for the Analysis and 
        Operations (A&O) and the Under Secretary for Management (USM) 
        Budget Requests
    Question. The fiscal year 2009 budget appendix does not match the 
congressional justification tables. The budget appendix, which is the 
official request, is $1.635 million below the amounts referenced in the 
congressional justifications. There is a $1.376 million difference in 
USM and a $259,000 difference in A&O. If the congressional 
justifications are correct, please send a budget amendment for the 
additional amounts. If the congressional justifications are incorrect, 
please send replacement pages with a justification for the decrease.
    Answer. Law Enforcement Sensitive. A response will be forthcoming 
under separate cover.
                       chief information officer
    Question. Given the current rate of transition, when will the 
current build-outs of the Stennis and EDS data centers be fully 
utilized?
    Answer. Funding permitting, Stennis and EDS data centers will be 
fully utilized by second quarter of fiscal year 2011. The following 
migration schedule supports this utilization plan.

                TABLE 1.--DATA CENTER MIGRATION SCHEDULE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. Would it make sense to use the Working Capital Fund to 
provide resources to move and consolidate centers?
    Answer. Yes, using the Working Capital Fund (WCF) as a partial 
funding resource to provide funds to move and consolidate the data 
centers makes sense. In fact, DHS has sought, and the fiscal year 2009 
President's Budget Request includes, provisions for new WCF authorities 
(retaining unused funds and reprogramming authorities) which are 
intended to facilitate much more efficient collections of these funds 
from components through the WCF to provide the DHS Chief Information 
Officer with access to the resources needed to migrate systems to 
Stennis and EDS over the next 3 to 4 years. Information Technology 
development, operations, and maintenance funding, some of which would 
be directed to data centers, is embedded in appropriations to the DHS 
components for program growth and new hiring. Leveraging a WCF will 
provide components with the oversight they need to ensure requirements 
are being fulfilled while at the same time enabling the Department to 
deploy and oversee the data centers more efficiently.
    Question. Is information/cyber security within DHS a top priority 
or mid-level priority? If it's a top priority, what are the bench 
marks, goals and budget enhancements for achieving those goals? When 
will you be able to report that DHS information systems are secure?
    Answer. Information security and cyber security are top priorities 
for the Department of Homeland Security. Since its inception, the 
Department has been working to implement the President's National 
Strategy to Secure Cyberspace, strengthen situational awareness and 
monitoring of Federal and Critical Infrastructure systems, and enhance 
the Government's cyber operational response capabilities. The 
Department established a number of programs and initiatives to 
coordinate efforts with other Federal departments and agencies and 
critical infrastructure owners and operators to improve cyber security. 
These programs focus on enhancing situational awareness, increasing 
collaboration across Federal, State, local, private sector, and 
international operational security teams, mitigating cyber incidents, 
and coordinating response activities during a cyber event. Most 
recently, the Department has been involved in an interagency Cyber 
Initiative. To underscore the Department's efforts in this area, 
Secretary Michael Chertoff identified cyber security as one of the top 
priorities for the Department for 2008.\1\ The President's fiscal year 
2009 budget request for DHS includes an increase over the fiscal year 
2008 enacted level to continue funding necessary investments in the 
Department's information/cyber security priorities.
---------------------------------------------------------------------------
    \1\ Link to ``Remarks by Homeland Security Secretary Michael 
Chertoff on 2007 Achievements and 2008 Priorities'': http://
www.dhs.gov/xnews/speeches/sp_1197513975365.shtm.
---------------------------------------------------------------------------
    One of the Department's top priorities is to protect critical 
infrastructure and key resources, essential government operations, 
public health and welfare, and the Nation's economic and national 
security interests. Robust cyber security programs are essential to 
address these priorities, and the Department is driving a number of 
programs and initiatives to coordinate efforts with Federal departments 
and agencies to improve cyber security. Programs such as the Trusted 
Internet Connections (TIC) initiative and the Einstein program reflect 
the Department's interest in taking deliberate action to reinforce and 
build on those efforts.
    The TIC initiative is a multifaceted plan to improve the Federal 
Government's security posture by significantly reducing the number of 
Federal network external gateways, including Internet points of 
presence. Currently, there are several thousand Federal external 
connections. The existence of such a large number inhibits the Federal 
Government's ability to implement standardized security measures 
effectively. The TIC initiative aims to reduce and consolidate the 
number of external connections to create a more clearly defined ``cyber 
border.'' Fewer external connections will enable more efficient 
management and implementation of security measures and reduce avenues 
for malicious attacks. Once fully implemented, the TIC initiative will 
facilitate security standardization for access points across the 
Federal Government.
    The Office of Management and Budget (OMB) announced \2\ the TIC 
initiative to the heads of Federal Government departments and agencies 
in November 2007, subsequently outlining the specific steps departments 
and agencies should take as part of the initiative, including compiling 
a comprehensive inventory of each department and agency's existing 
network infrastructure. Each department and agency is required to 
develop a Plan of Actions and Milestones (POA&M) to reduce and 
consolidate the number of external connections with a target completion 
date of June 2008. The National Cyber Security Division (NCSD) is in 
the process of reviewing initial POA&Ms submitted to NCSD, via the 
Information Systems Security Line of Business (ISS LOB), for review to 
ensure completeness and alignment with the goals and objectives of the 
TIC initiative. In addition, US-CERT and the ISS LOB created an 
interagency technical working group to establish, for OMB's approval, a 
list of requirements and standards for the implementation of each TIC. 
Once approved, these requirements will be passed to each agency for 
implementation.
---------------------------------------------------------------------------
    \2\ The TIC was announced in OMB Memorandum 08-05.
---------------------------------------------------------------------------
    NSCD has identified activities and milestones necessary for 
completion of the TIC initiative, and progress is being measured by 
execution of the following activities and milestones:
  --OMB approves TIC technical requirements; target completion date is 
        March 2008.
  --OMB releases a list of TIC providers; target completion date is 
        April 2008.
  --Departments and agencies develop a Plan of Actions and Milestones 
        (POA&M) to reduce and consolidate the number of external 
        connections; target completion date is June 2008.
  --External connections are reduced and consolidated; target 
        completion date is June 2008.
    The Einstein program is another important element in our efforts to 
increase cyber security across Federal departments and agencies. 
Einstein is a collaborative information-sharing program that was 
developed in response to increasingly common network attacks on and 
disruptions to Federal systems. The program was initially established 
to help departments and agencies more effectively protect their systems 
and networks and to generate and report necessary IT-related 
information to the United States Computer Emergency Readiness Team (US-
CERT). Einstein enhances situational awareness of the Federal 
Government's portion of cyberspace, allowing US-CERT and cyber security 
personnel to identify anomalies and respond to potential problems 
quickly. Einstein is currently deployed at 15 Federal agencies, 
including the Department of Homeland Security, and US-CERT is in the 
process of deploying Einstein across all Federal departments and 
agencies. In the last year NCSD deployed an additional 39 Einstein 
sensors, increasing overall deployment by 243 percent. With the TIC 
initiative providing a reduced number of external connections, Einstein 
will be able to monitor activity across Federal Government networks 
more effectively.
    Additional funding has been requested in fiscal year 2009 to deploy 
our Einstein system further on Federal networks to protect against 
cyber threats and intrusions. This includes additional funding for 
enhancing the US-CERT's ability to analyze and reduce cyber threats and 
vulnerabilities, disseminate warning information, and coordinate 
incident response.
    NSCD has identified milestones for the Einstein implementation. 
Progress will be measured by US-CERT deployment of 50 Einstein sensors, 
with a target completion date by the end of 2008.
    By deploying the TIC and Einstein Government-wide, the Department 
is helping to enable strategic, cross-agency assessments of irregular 
or abnormal Internet activity that could indicate a vulnerability or 
problem in the system. These programs enhance Federal Government cyber 
security by providing more robust security monitoring capabilities to 
facilitate the identification and response to cyber threats and 
attacks. They contribute to the improvement of network security, 
increasing the resilience of critical electronically delivered 
government services and enhancing the survivability of the Internet.
    The Department's IT infrastructure supports a user population of 
more than 208,000 Federal employees and contractors and consists of 
approximately 610 major operational systems, both unclassified and 
classified. Additionally, the DHS infrastructure extends to a number of 
contractor-operated systems and to systems operated by other Federal 
agencies under service level agreements.
    The Department has several major IT initiatives underway to 
consolidate and streamline enterprise functions across the Department. 
We have standardized on a single, integrated email system including 
enterprise directory services, and we are also in the process of 
migrating multiple, redundant wide-area networks (WAN) into a single, 
robust core capability. As part of the WAN consolidation effort, we are 
also realigning a large number of Internet connections into a few 
enterprise connections. These enterprise connections are fully aligned 
with the Federal Trusted Internet Connection (TIC) initiative, and the 
DHS TICs have been architected specifically to enhance security 
capabilities based on current threats. Additionally, we are relocating 
numerous mission and support applications that currently reside in 
different locations, to two major data-centers. In this way we are 
significantly enhancing systems' availability for key applications 
systems supporting various missions of the Department.
    The Department is also improving our security operations 
capability, by implementing a common framework for incident response 
across the Department. We are aggressively growing our analytical 
capability for assessing threats, to include those posed from counter-
intelligence activities.
    Due to the complexity of our infrastructure, the persistent 
evolution of threats, and the proliferation of ``bad actors,'' 
including well-funded organizations and nation-states, it is impossible 
to state with absolute certainty that any large IT infrastructure is 
completely secure. For this reason, the Federal Information Security 
Management Act of 2002 takes a risk-based approach for securing 
information technology systems, and the National Institute of Standards 
and Technology (NIST) ``FISMA Implementation Project'' implements this 
approach with mandatory standards and guidance, including a 
comprehensive set of security controls. In DHS, our primary goal is to 
provide a secure computing environment in support of mission 
operations, including information sharing. This primary goal is also 
balanced around accessibility to DHS systems by Federal, State Local, 
Tribal and public entities. To this end, securing the infrastructure is 
a continual process involving information security professionals, 
system owners, and senior executives making informed risk management 
decisions, and we continue to take an aggressive approach toward 
implementing the NIST risk-based framework for all IT systems in use in 
the Department. Specifically we have instituted:
  --Strong information security policies--DHS 4300 series of policy 
        directives govern the information security implementation, 
        operation, and user responsibilities related to all DHS and 
        affiliated IT systems
  --A comprehensive Certification & Accreditation process--provides for 
        system owners to identify and mitigate risks within operational 
        systems
  --A defense-in-depth strategy--incorporates multiple layers of 
        security throughout system design, implementation, and 
        operation
  --Risk-based metrics--provides monthly reports to key leaders across 
        the Department concerning status of compliance. Metrics are 
        updated annually, and the most recent update is outlined in the 
        DHS Fiscal Year 2008 Performance Plan
  --Security architecture reviews in support of the Enterprise 
        Architecture Board (EAB)--ensures that systems comply with 
        security architecture standards and protocols
  --Acquisition reviews in support of the mandated IT Acquisition 
        Review (ITAR) process--ensures that the government has clear 
        authority to oversee and monitor contractor security compliance
  --Continuous monitoring--DHS Security Operation's Center (SOC) and 
        affiliated Component SOCs provide 24-hour monitoring of the DHS 
        IT infrastructure, and regularly report incidents to the United 
        States Computer Emergency Response Team (US-CERT) and 
        coordinate mitigation activities to ensure effective 
        remediation
    Question. I was surprised to learn that the Health and Human 
Services Office of Emergency Preparedness has no access to the Homeland 
Secure Data Network. Why is that? &
    Answer. The Homeland Secure Data Network (HSDN) was established as 
a fee for service program. Core operating costs are funded by 
appropriation, but additions to the network are funded by the 
organizations with the mission requirements. Mission owners must 
contact the HSDN Program Office at DHS to request and fund HSDN 
services.
    The HSDN Program Office was contacted by Office of Preparedness and 
Response at the Department of Health and Human Services (HHS) on 
January 24, 2008.
    HSDN systems engineers coordinated HHS's requirements with Mr. 
Murad Raheem, Chief of Electronics and Communications Branch at HHS. 
The HSDN Program Office provided HHS with the estimated cost to satisfy 
those requirements on February 22, 2008.
    Department of Health and Human Services has not yet responded or 
funded the installation of the HSDN network at HHS Headquarters. Once a 
response is provided, it will be memorialized by a Memorandum of 
Understanding between DHS and HHS.
    The HSDN deployment team is continuing to plan and prepare for the 
HHS installation while funding is pending. Once the funds are released 
and technical direction is issued to execute the installation, the 
deployment will take approximately 45 days.

                        ANALYSIS AND OPERATIONS

Intelligence Sharing
    Question. Your testimony highlights, ``greater information 
sharing'' as a key accomplishment of the Department. Yet, according to 
the February 26, 2008 edition of the Wall Street Journal, an internal 
DHS report concluded that the Department is not providing State and 
local officials with useful or timely intelligence information. DHS has 
spent $69 million over the last 5 years on the Homeland Security 
Information Network (HSIN) to share sensitive intelligence information 
with emergency responders, police, and the private sector. Your budget 
indicates that 62 percent of HSIN users don't even access the system 
for information.
    Information sharing is a core homeland security responsibility. I 
fear that the $69 million investment has been wasted.
    What steps are you putting in place to improve the quality and 
accessibility of information shared with State, local, and private 
sector partners?
    Answer. We recognize the shortfall in the quality and accessibility 
of shared information. The HSIN technology and associated software for 
information sharing and collaboration does not provide the level of 
trust and security required by some communities, such as Intel, 
Critical Sectors, and Law Enforcement. These communities have a large 
number of persons from the State, local, and private sector. We have 
implemented an aggressive plan to remedy this shortfall.
    The steps that follow have been taken to implement the plan:
  --We have engaged the HSIN Advisory Council (HSIN AC) for advice and 
        recommendations to aid us in reaching the State, local, and 
        private sectors. The HSIN AC met for 2 days in February on this 
        very topic. They produced several recommendations that will 
        assist us in this outreach effort.
  --We have engaged the HSIN Mission Coordination Council (HMCC) as an 
        instrument in gathering the requirements from HSIN communities 
        to ensure that we can upgrade HSIN effectively to meet 
        missions. The HMCC members were instructed to reach back to 
        their community membership. For example, Critical Sectors 
        submitted approximately 1,000 requirements after engaging the 
        membership of their 17 Sectors. These requirements were 
        consolidated and incorporated into the HSIN upgrade, known as 
        Next Generation. Intel was another community that has been 
        actively engaged in the requirements determination.
  --An aspect of information sharing that is needed is a vastly 
        improved data access process. HSIN Next Generation will have a 
        robust data management capability. It will have much stronger 
        HSIN user identification and authentication processes along 
        with multi-level security access by roles. The Intel community 
        and others require this capability. In large part their low 
        usage is due to the lack of depth of this capability in current 
        HSIN.
  --We have moved up our acquisition schedule to award HSIN Next 
        Generation May 15, 2008. Our previous schedule was late summer 
        to early fall. The Request for Proposal has been prepared and 
        the DHS Procurement Office will soon be releasing the final 
        RFP. Representatives from across our HSIN communities will be 
        engaged in the selection process. Due to sensitivity of the 
        acquisition information, I am unable to expound upon this 
        statement.
    We have made tremendous effort to address the quality and 
accessibility of information shared with State, local, and private 
sector partners. HSIN Next Generation will give us that capability.
Implementing the 9/11 Act
    Question. The Under Secretary for Intelligence, Charlie Allen, 
recently testified that ``the DHS intelligence program be adequately 
resourced to fulfill the laudable objectives of the 9/11 Act.'' The 
subcommittee has asked on several occasions for a status of 
intelligence requirements in the 9/11 Act and how they are being 
resourced. However, IA never responded to these requests. Provide a 
list of all 9/11 Act requirements for IA, the amount necessary to fund 
each requirement, the amount of base funding dedicated for each 
requirement, and additional amounts necessary to fulfill each 
requirement. The table should highlight if the fiscal year 2009 budget 
includes additional resources to address unfunded requirements.
    Answer. Classified. The answer to this question is classified and 
will be forthcoming under separate cover.
Principal Federal Officials
    Question. For fiscal year 2009, the Operations Directorate requests 
an increase of $1.8 million for PFO program management, training, and 
integration of PFOs into regional activities. What is the base budget 
for these supporting functions and why is the increase necessary? What 
is current size of the PFO cadre? How many are active? How many 
additional PFOs does the Operations Directorate project will be 
designated in fiscal year 2008? Provide projections for fiscal year 
2009. For active and planned PFO's what specifically are their 
responsibilities and for what types of disasters? How do they 
coordinate with other components responsibilities? Does the Department 
plan to designate PFO's for no-notice events [such as terrorism or a 
man-made disaster] in fiscal year 2008? If so, provide a legal 
interpretation of why this is not in violation of section 541 of Public 
Law 110-161, since the disaster is likely to be a President-declared 
disaster in accordance with the Stafford Act?
    Answer. For fiscal year 2008, DHS is seeking Congressional approval 
for a $1.2 million reprogramming within OPS' Management and 
Administration PPA to fund the PFO as a new start. The $1.2 million 
requested would fund an 8 month level of effort for PFO program 
management support, PFO Cadre training, equipment refreshment and 
maintenance support, and other deployment-related travel expenses for 
OPS personnel. Funding for the reprogramming request would derive from 
one-time OPS savings resulting from internal budget restrictions 
implemented during the Continuing Resolution on FTE hiring levels, new 
starts, travel, supplies, and training.
    There is no available fiscal year 2009 base funding for the PFO 
program as it would be funded with one-time non-reoccurring savings in 
fiscal year 2008. The $1.8 million requested in fiscal year 2009 would 
fund a 1 year level of effort for PFO program management support, PFO 
Cadre training, equipment refreshment and maintenance support, and 
other deployment-related travel expenses for OPS personnel.
    When PFO program management responsibilities transferred from DHS/
NPPD to DHS/OPS on October 1, 2007, OPS inherited a cadre of 
approximately 90 PFOs. OPS has since conducted an administrative audit 
of the PFO cadre, resulting in the reduction of 15 PFOs, putting the 
current size of the cadre at approximately 75 active PFOs. OPS' 
ultimate goal is to streamline the PFO cadre to a smaller number that 
will allow us to continue to conduct the PFO's all-hazards mission.
    For fiscal year 2008, there have been 19 PFOs designated by the 
Secretary (17 for Pandemic Influenza (PI) who remain active and 2 for 
State of the Union (SOTU)). In fiscal year 2008, OPS projects that the 
Secretary will designate 18 additional PFOs (12 All-hazards Incident 
Management who may be designated for no-notice event including 
terrorism/man-made disasters, 2 for the Democratic National Convention, 
2 for the Republican National Convention, and 2 for the United Nations 
General Assembly (UNGA)). Since the PFO is a collateral duty position 
and all PFOs have other full-time responsibilities with their agencies, 
OPS uses the remaining 38 non-designated PFOs to maintain a cadre of 
trained PFOs to step into the role of any of the PFOs previously 
identified if their normal responsibilities preclude them from 
continuing as active PFOs. In addition, OPS coordinates PFO assignments 
with each PFO's parent agency.
    For fiscal year 2009, OPS projects that approximately 75 PFOs will 
be supported by the $1.8 million request for PFO program management, 
training, and integration of PFOs into regional activities. In fiscal 
year 2009, OPS projects that 37 PFOs will be designated by the 
Secretary (17 for PI, 12 for All-Hazards Incident Management who may be 
designated for no-notice events including terrorism/man-made disasters, 
plus 2 PFOs each for Inauguration, Super Bowl, SOTU, and UNGA).
    Through Homeland Security Presidential Directive-5 (HSPD-5), the 
President designated the Secretary of Homeland Security as the 
principal Federal official for domestic incident management. The 
Secretary may delegate this authority to a PFO who is responsible for 
coordinating Federal operations in order to prevent, protect, respond, 
and recover from terrorist attacks, man-made or natural disasters. This 
designation recognizes the fact that certain incidents involving 
Federal activities across the range of mission areas--including 
prevention, protection, response and recovery--require additional 
coordination measures to ensure unity of effort by Federal departments 
and agencies in meeting the needs of State, local, territorial and 
tribal governments. The term ``incident management'' is not defined in 
statute or by HSPD-5. The National Response Framework provides that 
incident management ``refers to how incidents are managed across all 
homeland security activities, including prevention, protection, and 
response and recovery.'' Similarly, DHS defines ``incident management'' 
as the management and coordination of prevention, protection, and 
emergency management activities associated with a specific threat, or 
an actual occurrence.
    Consistent with General Provision 541 of Public Law 110-161; the 
PFO will serve as the lead Federal official for non-Stafford Act 
disasters, including non-Stafford Act responses that may include a 
Stafford Act component, acting on the Secretary's behalf to execute the 
HSPD-5 authorities in order to maximize the effectiveness of the 
Federal incident management.
    The PFO does not direct or replace the incident command structure 
at the incident. Nor does the PFO have directive authority over a 
Federal Coordinating Officer (FCO) or other members of a unified 
command group. Rather, the PFO promotes collaboration among and between 
entities that have specific statutory authority, to include the FCO, 
for large scale catastrophic incidents and, if necessary, resolves any 
Federal interagency conflict that may arise.

      OFFICE OF THE FEDERAL COORDINATOR FOR GULF COAST REBUILDING

    Question. When can the subcommittee expect the OFCGCR expenditure 
plan as required in the fiscal year 2008 Homeland Security Act Joint 
Explanatory Statement? Does the OFCGCR anticipate requesting a 
reprogramming for additional funding as outlined in the statement? Is 
there any reconsideration of the President Budget request which 
proposed to close the Office? If so, will a budget amendment be 
submitted? If not, what measurable accomplishments can the Department 
provide that proves the Gulf Coast area no longer needs rebuilding 
coordination?
    Answer. The Office of the Federal Coordinator for Gulf Coast 
Rebuilding (OFCGCR) submitted an initial fiscal year 2008 expenditure 
plan to the Committees on Appropriations on March 14, 2008. At this 
time, OFCGCR does not anticipate a need for additional funds in fiscal 
year 2008.
    OFCGCR was established by Executive Order 13390 (dated November 1, 
2005), which will terminate 3 years from the date of the order. The 
White House has announced an intention to extend the Executive Order 
through the remainder of the administration. Provisions for funding the 
Office have not yet been determined.

                           INSPECTOR GENERAL

    Question. What are the effects, impact and consequences of the 
President's budget request (roughly $8 million reduction) on the Office 
of Inspector General's activities?
    Answer. We are in the process of determining the impact and 
consequences of the reduction in the OIG budget. We will report back to 
the Committee once we have completed our assessment.
    Question. Program Integrity: What is the most effective number of 
people to be allocated to CBP, ICE, TSA and CIS to look at integrity 
issues within these component agencies given the significant hiring 
increase and mission creep over the past couple of years? What is the 
appropriate number of OIG people to look at these issues?
    Answer. We have not studied this issue and believe it would not be 
appropriate to speculate. We believe each component is in the best 
position to respond to this question.
    Question. Describe the impact of the $124 million request.
    Answer. A breakdown of the $124 million is as follows:

                        [in millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2008 appropriation..........................            92.7
Disaster Relief Fund transfer...........................            16.0
Carryover...............................................            11.0
Cost of living increases................................             4.0
                                                         ---------------
      Total appropriation...............................           123.7
------------------------------------------------------------------------

               Security, Enforcement, and Investigations

                   U.S. CUSTOMS AND BORDER PROTECTION

Border Security
    Question. For several years, I have raised a concern that as we 
secure our land border, illegal aliens and drug runners will try to get 
into the country via our coastal borders. Recently, there have been 
reports of stranded or captured submarines and submersibles near the 
border. What funds are requested in the fiscal year 2009 budgets for 
Border Patrol and the Coast Guard to deter illegal immigration and drug 
running on or under the water?
    Answer. Funding for enforcement of immigration and drug laws ``on 
or under the water'' is part of the budget for Customs and Border 
Protection's (CBP's) Office of Border Patrol and Office of Air and 
Marine Interdiction. The cost of Border Patrol and Air and Marine 
staffing and operations with a water nexus is not tracked separately; 
however the President's fiscal year 2009 Budget request contains four 
specific items, both aircraft and vessels, that are essential if CBP is 
to effectively counter the threats posed by terrorist activity, drug 
running, and illegal immigration. The P-3 maritime patrol aircraft is 
currently the only long-range capability available to detect, track, 
and coordinate the interception of contraband and illegal immigration 
along the Caribbean and eastern Pacific transit zones leading to our 
shores. CBP has 4 of its 16 P-3 aircraft operating against surface and 
sub-surface craft engaged in illegal activities. CBP Air and Marine 
(A&M) has initiated a service life extension program (SLEP) that will 
eventually provide the CBP P-3s with an additional 15,000 flight hours 
(roughly 18-20 years of continued service). To date, Congress has fully 
supported the P-3 SLEP and the President's Budget requests an 
additional $56.0 million in fiscal year 2009 to continue this critical 
A&M program.
    To enhance long duration patrol operations in the Caribbean and 
eastern Pacific, CBP A&M is conducting a demonstration of a maritime 
version of the Predator B unmanned aircraft system (UAS) from Tyndall 
AFB, FL, from March 17-28. Based on the results of the demonstration, a 
joint CBP/U.S. Coast Guard UAS Program Office will be formed for the 
purpose of developing the requirements for a maritime variant of the 
Predator B. With the Predator's 3,000 mile range and 30 hour operating 
time, it will greatly enhance the Department's capability to detect, 
track, and intercept suspect vessels transiting to U.S. waters. The 
President's request includes $29.6 million for the development of the 
Predator B maritime variant, enhancements to its software integration 
laboratory, and logistic support.
    CBP A&M seeks to replace its aging C-12 patrol aircraft, and fill 
the gap left by the closure of the DHC-8 patrol aircraft production 
line, by introducing a new multi-role enforcement aircraft (MEA) during 
the later part of fiscal year 2008. This aircraft is expected to be 
truly multi-role and have capabilities to operate over land and water. 
It will operate over the Great Lakes and will augment Caribbean and 
Pacific Ocean operations in littoral waters off the United States and 
off the shores of our international partners. The fiscal year 2009 
request contains $35.6 million for two of these aircraft.
    The fiscal year 2009 request also contains $10.1 million for 
additional marine vessels. Chief among these will be a new class of 
coastal interceptors, capable of out-pacing the fastest drug vessels 
and arrayed with greatly enhanced sensors and communications equipment. 
CBP A&M plans to acquire a prototype interceptor in fiscal year 2008 
for test and evaluation. Based on its evaluation of the prototype, A&M 
would use the funding requested for fiscal year 2009 to begin 
purchasing the new interceptors and to start retiring CBPs aging and 
less capable Midnight Express vessels.
    Combined with the $6.7 million Congress provided in the fiscal year 
2008 Appropriation for airborne sensors, the investments described 
above will give CBP the capabilities it needs to accomplish its vital 
maritime surveillance and interdiction mission, and to partner with the 
U.S. Coast Guard for the greatest benefit to the public's security.
CBP Law Enforcement Retirement Benefit
    Question. At a Senate Homeland Security and Governmental Affairs 
Committee hearing last month, you responded to a Senator's inquiry as 
to why the President is seeking to repeal the new retirement program 
for Customs and Border Protection (CBP) officers by saying that it is 
purely a budget issue and that this program is not a budget priority 
for the Department.
    Contrary to the President's position, the Government Accountability 
Office (GAO) has testified before Congress and stated that ``CBP data 
shows that, on average, 52 CBP Officers left the agency each 2-week pay 
period in fiscal 2007 . . . CBP Officers are leaving the agency to take 
positions at other DHS components and other Federal agencies to obtain 
law enforcement officer benefits not authorized to them at CBP.'' (See 
GAO-08-219, page 34.)
    Since the Omnibus Appropriations law containing this law 
enforcement retirement benefit for CBP Officers was enacted, there been 
reports of CBP Officers pulling their retirement and transfer papers 
and of law enforcement officers from other Federal agencies seeking to 
transfer to open CBP Officer positions. Funding priorities need to be 
addressed and maintaining a strong presence at the ports of entry is a 
priority of Congress. This law benefits our national security.
    There have been reports that forms needed to implement this program 
have been embargoed by OMB. Is this correct? Is DHS moving forward with 
implementation of Section 535 so that it is in effect for all CBP 
officers on July 6, 2008 as authorized by Congress? CBP shall inform 
the subcommittee of any delays in approving the forms or other steps 
necessary to effectively execute the law.
    Answer. To the contrary, CBP is currently working with the Office 
of Personnel Management to roll-out the implementation of this statute; 
this includes the preparation and dissemination of materials and 
election forms.
    CBP is moving forward to implement Section 535 so that it is in 
effect for all eligible CBP Officers on July 6, 2008. To date, CBP has 
completed significant work in that respect; and will continue to do so.
    We have not experienced any delays in getting forms approved; in 
fact, the forms have been vetted and approved by the Office of 
Personnel Management.
CBP Officer Staffing
    Question. Despite CBP's own staffing allocation models and a GAO 
report (GAO-08-219 ) that on page 31 States that CBP needs ``up to 
several thousand additional CBP Officers and Agricultural Specialists 
at its ports of entry'' (POEs), the President's budget includes funding 
for only 234 additional CBP positions at land border POEs and 295 
positions for Radiation Portal Monitoring staffing. The staffing 
increase requested would essentially add fewer than two new CBP 
Officers at each air, land and seaport.
    What steps does the Department plan to address the CBP Officer 
staffing shortages outlined in CBP's port-by-port staffing allocation 
models? When does CBP expect to have full staffing of the 326 official 
U.S. Ports of Entry as specified in its staffing allocation models?
    Answer. The Department of Homeland Security (DHS) and Customs and 
Border Protection (CBP) must balance CBP's staffing needs against the 
agency's ability to hire, train and deploy CBPOs in a timely manner. 
Staffing needs at the ports of entry are determined based on workload 
volume, training capacity at the Federal Law Enforcement Training 
Center (FLETC), the constraints of the current facilities and 
infrastructure, the current number of terminals or lanes at the port of 
entry, and threat assessment.
    The President's fiscal year 2009 Budget requests funding for 539 
U.S. Customs and Border Protection Officers (CBPOs). In addition, 
Congress funded an additional 1,195 CBPOs in the fiscal year 2007 
Supplemental and the fiscal year 2008 Consolidated Appropriation Act.
    CBP continues to do everything in its capacity to hire, train and 
deploy the 1,195 CBPOs funded with the supplemental and annual 
appropriation. Throughout the country, CBP has rolled out aggressive 
recruitment and hiring campaign to attract qualified candidates to 
apply for the CBPO position. CBP has also worked to streamline the 
hiring process by initiating the medical examination and background 
investigation for tentatively selected individuals, while they wait for 
openings. For those selected for the position, the Federal Law 
Enforcement Training Center (FLETC) has utilized, at times, moved a 6-
day training schedule, to accommodate staffing increases. However, 
current facility constraints at CBP's ports of entry constrain how many 
CBPOs can be brought onboard and placed on-duty at our ports of entry.
    The Department of Homeland Security (DHS) and Customs and Border 
Protection (CBP) must balance CBP's staffing needs against the agency's 
ability to hire, train and deploy CBPOs in a timely manner. Staffing 
needs at the ports of entry are determined based on workload volume, 
training capacity at the Federal Law Enforcement Training Center 
(FLETC), the constraints of the current facilities and infrastructure, 
the current number of terminals or lanes at the port of entry, and 
threat assessment.
    The President's fiscal year 2009 Budget Request includes funding 
for 539 U.S. Customs and Border Protection Officers (CBPOs) (including 
205 CBPOs for the Western Hemisphere Travel Initiative). In addition, 
Congress funded an additional 1,195 CBPOs in the fiscal year 2007 
Supplemental and the fiscal year 2008 Omnibus Appropriation Act.
    CBP continues to do everything in its capacity to hire, train and 
deploy the 1,195 CBPOs funded with the supplemental and annual 
appropriation. Throughout the country, CBP has rolled out aggressive 
recruitment and hiring campaign to attract qualified candidates to 
apply for the CBPO position. CBP has also worked to streamline the 
hiring process by initiating the medical examination and background 
investigation for tentatively selected individuals, while they wait for 
openings. For those selected for the position, the Federal Law 
Enforcement Training Center (FLETC) has utilized, at times, moved a 6-
day training schedule, to accommodate staffing increases. However, 
current facility constraints at CBP's ports of entry constrain how many 
CBPOs can be brought onboard and placed on-duty at our ports of entry.
Secure Border Initiative
    Question. I am one of the strongest supporters in the Congress of 
efforts to secure our borders and prevent entry of terrorists and 
illegal aliens. In fact, I led the bipartisan effort 3 years ago with 
my colleagues Senators Judd Gregg and Larry Craig, to add funds to the 
fiscal year 2005 Supplemental Appropriations Act to hire more Border 
Patrol Agents and build fencing and other necessary border security 
infrastructure. I have consistently urged this administration and your 
Department to move as aggressively as possible to achieve our shared 
goal of a secure border.
    Therefore, I was deeply troubled to learn that the Office of 
Management and Budget had unilaterally decided to withhold $225 million 
in additional border security funding for ``future fiscal years,'' when 
the clear intent of the Congress was to use these funds to expedite 
border security activities, including fencing, tactical infrastructure, 
and communications equipment.
    I am sure that it is no coincidence that the $225 million that OMB 
deferred is the amount that Congress added to the President's request. 
DHS personnel believe that the full $1.2 billion appropriation can 
effectively be obligated for deploying fencing, vehicle barriers, and 
other assets on the border. When you submit the expenditure plan, will 
it include a plan for obligating the full $1.2 billion this fiscal 
year?
    Answer. The 2008 SBI BSFIT Expenditure Plan includes plans for 
obligating the full $1.2 billion this fiscal year.
CBP--Tactical Communications
    Question. It is my understanding that CBP is upgrading its wireless 
communications in the various Border Patrol sectors and the ports of 
entry under the umbrella of the Secure Border Initiative. I am told 
that this upgrade will provide better coverage and will also allow for 
better agent safety because the new radios will be fully encrypted and 
will allow agents to be located via GPS.
    How quickly can you accelerate this upgrade so that all sectors 
will be covered and at what cost?
    Answer. The CBP OIT Enterprise Networks and Technology Support 
(ENTS) Tactical Communications Modernization Project was established to 
modernize tactical communications infrastructure and subscriber units 
for the Office of Border Patrol (OBP), Office of Field Operations 
(OFO), and CBP Air and Marine in 20 sectors nationwide. The 
modernization will replace legacy land mobile radio (LMR) systems with 
state-of-the-art Project 25 (P25) digital LMR systems with advanced 
encryption standard (AES) encryption and improved coverage, 
interoperability capabilities, and GPS data.
    As such, the project directly supports two goals from the 2005-2010 
CBP Strategic Business Plan:
  --CBP Strategic Goal 2.2.--Maximize Border Security along the 
        northern, southern, and coastal borders through an appropriate 
        balance of personnel, equipment, technology, communications 
        capabilities, and tactical infrastructure.
  --CBP Strategic Goal 6.4.--Maintain a reliable, stable, and secure IT 
        infrastructure and an array of technical support services, 
        including laboratory and scientific services, tactical radio 
        communications, field equipment/maintenance, and 24/7 customer 
        service.
    Project management is working with OIT, OBP, OFO, Air and Marine, 
and SBInet to develop a long-term funding strategy to complete the 
nationwide upgrade.
    The Tactical Communications Modernization Project faces several key 
external dependencies that would have to be overcome were the schedule 
to be accelerated further:
  --Receipt of approval on frequency applications from the National 
        Telecommunications and Information Administration (NTIA). This 
        is currently a lengthy and cyclical process.
  --Creation of radio frequency site leasing agreements (or agreement 
        on modifications to existing leases) pose a significant 
        schedule risk due to the potential difficulty negotiating with 
        site owners or obtaining local permits for upgrade work; 
        potential requirement for a NEPA analysis or structural 
        analysis on the tower; and the potential re-negotiation of 
        Memoranda of Understanding (MOU) or Inter-Government Agreements 
        (IGA) with other site users.
  --Site access on the Northern Border is restricted between October 
        and March due to weather conditions. This hinders the ability 
        to conduct RF site preparation and equipment installation 
        during approximately half of each year.
CBP--Interoperable Communications Border Pilots
    Question. Section 302 of the Improving America's Security Act of 
2007 (Public Law 110-53) authorizes six international border community 
interoperability communications demonstration projects. What steps is 
the Department taking to conduct these pilots, at which locations, and 
using what funds?
    Answer. This question appears to refer to section 302(a) of the 
Implementing Recommendations of the 9/11 Commission Act of 2007, 
(Public Law 110-53), which calls for the creation of an International 
Border Community Interoperable Communications Demonstration Project. 
DHS's Office of Emergency Communications (OEC), NPPD, in coordination 
with the Federal Communications Commission and the Secretary of State, 
has the responsibility for implementation of this requirement.
    Although CBP is not engaged in that particular undertaking, CBP 
continues to engage in efforts to address interoperability along both 
the Northern and Southern borders to best support the needs of CBP 
agents and officers, and their jurisdictional partners, in the field. 
Specifically, OIT ENTS Enterprise Wireless Program (EWP) is currently 
supporting the following projects:
            Northern Border Technology Demonstration project--IBET
    In an effort to address interoperability along the Northern Border, 
OIT ENTS EWP is currently collaborating with the Royal Canadian Mounted 
Police (RCMP). OIT, OFO, OBP and RCMP representatives met in March 2008 
to discuss partnership opportunities in initiating a Cross-Border 
interoperability pilot project.
    The year long pilot project at the Sweetgrass, Montana port of 
entry, expected to begin in August 2008, will enable CBP-RCMP Cross-
Border communications. The RCMP will be leading and funding the pilot 
effort, however CBP will provide the IP circuit connectivity that will 
establish the communications link between the two agencies. This IP 
link currently exists and will not require additional costs to be 
incurred by CBP. Additionally, CBP is working closely with the RCMP to 
help identify requirements, develop standard operating procedures, and 
identify the associated risks for this pilot. Finally, OIT has fully 
committed to provide any engineering and operations support needed to 
initiate this Cross-Border communications pilot.
            Southern Cross Border Communications--Microwave
    The OEC has initiated the Cross Border Microwave Project, which 
intends to provide interoperable communications between the Office of 
Border Patrol (OBP) and Mexican law enforcement in situations that 
require cross-border coordination. The current proposed solution is a 
series of microwave shots at six locations along the border: Nogales, 
McAllen, El Paso, San Luis, Laredo, and San Diego. ENTS is contributing 
technical and domain knowledge regarding the technical feasibility.
Border Funding
    Question. In response to a question during staff briefings on the 
fiscal year 2009 CBP budget request, your staff replied in part with 
this:
    In a joint statement by Secretary Chertoff and Secretary Gutierrez 
on August 10, 2007, the administration noted that in addition to being 
committed to the following they would also work to ensure that 1,700 
more Border Patrol Agents and an additional UAV are added in 2009.
  --18,300 Border Patrol agents
  --370 miles of fencing
  --300 miles of vehicle barriers
  --105 camera and radar towers
  --Three additional UAVs
    Question. Does the Department's fiscal year 2009 budget request 
fully fund these activities? Please indicate the amount requested for 
each item.
    Answer. Funding requested in the fiscal year 2009 President's 
Budget, as well as funding provided in prior years, will allow for a 
border patrol agent staffing of 20,019, completing 370 miles of fencing 
and 300 miles of vehicle fence (barriers), additional camera and radar 
towers, and four additional UAS systems.
    The fiscal year 2009 President's budget requests $3.440 billion for 
Border Security and Control between the ports of entry which includes 
funding to support 20,019 border patrol agents.
    Fiscal year 2008 funding received for Border Security Fencing, 
Infrastructure and Technology will be used to complete the 370 miles of 
fencing and 300 miles of vehicle fence (barriers). Funds received in 
fiscal year 2007, and prior years, were also used for constructing the 
fencing and vehicle barriers.
    The fiscal year 2009 President budget contains $29 million for the 
UAS program. With the Development and Deployment funding requested for 
Border Security Fencing, Infrastructure and Technology in the fiscal 
year 2009 President's budget, the focus will be on providing tactical 
infrastructure, technology and surveillance packages to additional 
southwest border sectors.
CBP--Replacement of Non-intrusive Inspection Equipment (NII)
    Question. CBP has been procuring NII for use at the borders and 
ports of entry for many years. Why have these purchases been treated as 
one-time events rather than building replacement of this equipment into 
your base budget?
    Answer. CBP recognizes that NII imaging systems at port of entry 
are reaching the end of their life cycle, and will require replacement 
in the coming years. The fiscal year 2009 President's budget includes 
an additional $4 million for maintenance of the existing large-scale 
systems and $6 million for replacement of small-scale systems. CBP will 
continue to monitor the service life of its existing systems and will 
include funding in future budgets to replace equipment that has reached 
the end of its life cycle.
CBP--Container Examinations
    Question. In the chart on ``National Container Examinations'' 
provided in response to an inquiry during staff budget briefings, it 
shows that total ``vessel containers full and empty examined'' declined 
from 5.5 percent in fiscal year 2003 to only 3.8 percent in fiscal year 
2007. What accounts for the decrease in examinations?
    Answer. To meet the priority mission of preventing terrorists and 
terrorist weapons from entering the United States, U.S. Customs and 
Border Protection (CBP) has developed a multi-layered process to target 
high-risk shipments while simultaneously facilitating legitimate trade 
and travel. People, technology, automation, electronic information and 
partnerships are concepts that underpin CBP port security and anti-
terrorism initiatives. These concepts expand our borders and reinforce 
the components of CBP's layered defense. Using its layered enforcement 
process, it is the goal of CBP to thoroughly screen and ultimately 
examine 100 percent of the shipments that pose a security risk to our 
country.
    In April 2007, CBP made the decision to refine its targeting 
methodology, as part of our efforts, to focus on and increase the 
effectiveness of anti-terrorism selectivity process while also 
facilitating the flow of legitimate trade. This decision was made based 
on our operational experience and knowledge of our anti-terrorism 
selectivity process and the need to better focus our resources. One of 
the consequences of this focus was that there were fewer selectivity-
based examinations conducted than in previous years.
    This does not mean that our Officers have not been conducting other 
anti-terrorism activity. Our Officers have been conducting significant 
enforcement actions relative to protecting our borders.
    CBP has spent much time and effort to ensure that a large 
percentage of all arriving sea-borne containerized cargo/conveyances 
are scanned for illicit radiological and nuclear materials. Fiscal year 
2006 began and concluded with our CBP Officers scanning 21 percent and 
leading up to 77 percent of all arriving sea-borne containerized cargo 
with radiation portal monitors. (Note: Approximately 65 percent of 
these radiation portal monitor deployments occurred in the third and 
fourth quarter of fiscal year 2006). Fiscal year 2007 began and 
concluded with our CBP Officers at our seaports scanning 77 percent and 
close to 98 percent of all arriving sea-borne containerized cargo with 
radiation portal monitors.
    Beginning February 2004 (when CBP deployed its first seaport 
radiation portal monitor) through September 2007, our CBP Officers had 
scanned over 27.2 million sea-borne containers exiting our seaports 
with radiation portal monitors and resolved over 774,000 radiation 
alarms. During fiscal year 2007, our CBP Officers had scanned 
approximately 13.4 million scans sea-borne containers and resolved over 
391,000 radiation alarms--accounting for nearly half of all alarms 
since the program's inception; while in fiscal year 2006, CBP Officers 
had scanned only 9.37 million sea-borne containers and resolved over 
274,000 radiation alarms.
CBP--Land Ports of Entry
    Question. For the first time since the creation of the Department 
in 2003, funds are being requested in your budget to begin assessing 
the future repair and construction requirements of the 43 CBP-owned 
facilities. Why was this activity not begun earlier?
    Answer. CBP has been maintaining the facilities it owns since the 
creation of the agency in fiscal year 2004, allowing for current 
operations to be sustained. However, because the need for renovation of 
these facilities has arisen, in fiscal year 2009 CBP plans to deploy 
targeted proto-type modernization solutions that will allow CBP to 
determine how to best proceed with improvements at the remaining 
locations.
CBP--Ports of Entry
    Question. Similar to the priority listing you have provided for the 
top 20 GSA-owned or leased facilities requiring funding, what are the 
highest priority CBP-owned ports of entry in need of renovation/
reconstruction?
    Answer. Of the 43 CBP-owned ports, the highest priority locations 
in need of renovation and/or reconstruction are the following (in 
priority order):
  --Antelope Wells, NM
  --Frontier, WA
  --Scobey, MT
  --Boundary, WA
  --Los Ebanos, TX
  --Sarles, ND
  --Morses Line, VT
  --Forest City, ME
  --Cannons Corner, NY
  --Churubusco, NY
  --Pinnacle Road, VT
  --Hansboro, ND
  --Pittsburg, NH
  --Hannah, ND
  --Hamlin, ME
  --Morgan, MT
  --Bridgewater, ME
  --Easton, ME
  --Whitetail, MT
  --Monticello, ME
CBP--Highest Priority Needs for GSA-owned Ports of Entry
    Question. In response to a question raised during staff briefings 
on the fiscal year 2009 budget request, you provided a list of the top 
20 facilities owned or leased by the General Services Administration 
(GSA) which require funding for renovation or reconstruction. Have 
evaluations and surveys been conducted on these facilities to determine 
the funding requirements? What discussions with GSA have you had in 
regard to starting to address and, if possible, accelerate these 
requirements?
    Answer. As a critical step in the Capital Improvement Process 
(CIP), CBP conducted the Strategic Resource Assessment (SRA), which is 
a needs assessment process that incorporates internal and external 
stakeholders input, a review of existing facility conditions, workload 
and personnel forecasts, space capacity analyses, and recommended 
options to meet current and future space needs. From these SRAs, a 
national list identifying and prioritizing capital projects for the 163 
land port of entry inspection facilities was developed, including an 
estimated funding requirement based upon the U.S. General Services 
Administration's (GSA) cost-benchmarking process. More refined cost 
estimates are available on a facility by facility basis depending on 
their position in GSA's design or construction prospectus submission 
process.
    Beginning in late 2006, CBP partnered with GSA to work together to 
fully recapitalize the current inventory of inspection facilities.
CBP--Officer Integrity
    Question. You have stated that since October 1, 2004, 22 CBP 
officers and 22 Border Patrol agents have been charged with corruption. 
What percent of the total number of employees for these two categories 
does this represent? How does this percentage compare with corruption 
charges of other Federal law enforcement agencies? Have the number of 
corruption cases increased significantly during the past fiscal year?
    Answer. As of March 12, 2008, 25 CBP Officers and 23 Border Patrol 
Agents have been charged with corruption during the time period since 
October 1, 2004. With a current on board strength of approximately 
15,500 Border Patrol Agents and approximately 19,000 CBP Officers, this 
represents .13 percent of CBP Officers and .15 percent of Border Patrol 
Agents.
    Relating to corruption charges of other Federal law enforcement 
agencies, that information is considered sensitive, and although we 
have attempted to obtain it, it has not been made available to us by 
the other Federal law enforcement agencies.
    The number of corruption cases has not increased significantly 
during the past fiscal year. In fiscal year 2007, 8 CBP Officers and 
Border Patrol Agents were charged with corruption. As of the second 
quarter of fiscal year 2008, 5 CBP Officers and Border Patrol Agents 
have been charged with corruption.

                U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT

ICE--Detention Beds
    Question. In testimony before the House Homeland Security 
Appropriations Subcommittee, Assistant Secretary Meyers stated that 
33,000 detention beds--the fiscal year 2009 request--will be sufficient 
(``it's not an issue'') given the increase in Customs and Border 
Protection and Border Patrol hiring and the increased participation in 
the 287(g) program by States and localities. Do you support this 
assertion?
    Answer. Answer. Yes, the fiscal year 2009 request is sufficient to 
maintain the end of catch and release at our nation's borders. As 
Assistant Secretary Myers shared with the House Appropriations 
Committee, Subcommittee on Homeland Security, the referrals from CBP to 
ICE have dropped from 180,000 in fiscal year 2005 to less than 50,000 
in fiscal year 2007. This demonstrates the substantial deterrent value 
of our efforts not only at the border, but also in the interior of the 
United States.
ICE--Federal Protective Service
    Question. On April 19, 1995, the Federal building in Oklahoma City, 
Oklahoma was bombed. In that tragic event, 168 people--Federal 
employees, ordinary citizens, even children at the day care center--
were killed. On September, 11, 2001, nearly 3,000 people, including 
many Federal employees, were killed when the World Trade Center was 
attacked. Federal buildings clearly are targets of terrorist attacks.
    On any given day, the Federal Protective Service is responsible for 
protecting nearly 9,000 Federal facilities and over 1.5 million people. 
In testimony last month before a subcommittee of the House Committee on 
Transportation, the Government Accountability Office stated that, ``The 
Federal Protective Service is experiencing difficulties in fully 
meeting its facility protection mission and that, these difficulties 
may expose Federal facilities to a greater risk of crime or terrorist 
attack.''
    Mr. Secretary, for several years, the administration has been 
downsizing the Federal Protective Service. This policy was not a result 
of any reduction in the threat to Federal employees. Nor was it a 
result of a careful review of the FPS mission and resources. Instead, 
the decision to reduce the number of personnel protecting Federal 
personnel and property was the result of a failure by the Office of 
Management and Budget to understand the true cost of the mission when 
it was transferred to the new Department 5 years ago. Apparently for 
OMB, meeting their erroneous budget calculation was more important than 
protecting Federal employees.
    In response, the fiscal year 2008 Homeland Security Appropriations 
Act, signed into law by the President on December 26, 2007, requires 
you and the Director of the Office of Management and Budget to certify 
to the Committee that FPS receives sufficient resources from Federal 
agencies to support a staff of 1,200 employees, including at least 900 
Police Officers, Special Agents, and others. It also requires you to 
adjust security fees charged by FPS as necessary to meet this mandate.
    On February 28, 2008, 2 months after the law was signed, Secretary 
Chertoff wrote the subcommittee expressing his intent to meet the 
requirements of the law. Yet, 2 months after the President signed the 
law, no additional security personnel have been hired, and you have not 
issued a letter to agency heads directing them to provide the 
additional resources necessary to hire the personnel.
    Mr. Secretary, the increase in agency fees required in the law is 
not voluntary. Do you have a commitment from the OMB Director that the 
security fees will be adjusted? Can you commit to me today that you 
will collect those fees, publish the job notices, and start the hiring 
and training process right away?
    Answer. The security fee increases identified in my February 28, 
2008, letter to the Appropriations Committees have been reviewed by the 
Office of Management and Budget. On March 12, 2008, the Chief Financial 
Officer (CFO) of U.S. Immigration and Customs Enforcement sent 
notification letters to the Chief Financial Officers of all agencies 
receiving security services from FPS (Executive, Legislative, and 
Judicial Branches) advising them of the security fee increases in 
fiscal year 2008 and fiscal year 2009 required to hire the additional 
FPS law enforcement officers mandated by Congress.
    My commitment to collecting those fees, publishing the job notices, 
and starting the hiring and training process is outlined in my February 
28, 2008, letter to the Appropriations Committee regarding the funding 
of the Federal Protective Service under the Consolidated Appropriations 
Act of 2008.
ICE--Modernizing the Criminal Alien Program
    Question. The Criminal Alien Program identifies illegal aliens 
currently incarcerated in Federal, State, and local prisons and begins 
removal proceedings so that when the alien's prison term ends, he or 
she can be immediately taken and removed from this country, instead of 
disappearing back into society. In 2006, your Inspector General 
estimated that over 600,000 aliens were incarcerated, but few of them 
were deported when released from prison. There is no excuse for 
allowing people who are in this country illegally and found guilty of a 
crime, including violent crimes, to remain in this country after they 
are released from prison.
    In the fiscal year 2008 Homeland Security Appropriations Act, 
Congress added $200 million to the Immigration and Customs Enforcement 
budget to modernize the Criminal Alien Program. I understand that work 
is progressing on developing this new program. I want to see it 
succeed.
    However, there are some in Congress who think that this program 
should be the only tool for identifying and removing illegal aliens. I 
think it should be one of many tools and activities that your officers 
and agents use to apprehend and remove illegal aliens.
    Mr. Secretary, as this new Criminal Alien Program is developed--I 
want your commitment that you will continue to pay attention to other 
effective programs, such as worksite enforcement and fugitive 
operations teams.
    In fiscal year 2002, there were only 25 criminal arrests and 485 
administrative arrests in worksite enforcement actions. Last year, with 
your leadership, those numbers jumped to 863 criminal arrests and 4,077 
administrative arrests. And, with the increase in the number of 
fugitive operations teams, there has been a 41 percent increase in 
fugitive arrests since the beginning of fiscal year 2006. That is real 
progress. However, much of the resources for these increased 
enforcement efforts were not requested by the President and were added 
by Congress. The President's fiscal year 2009 budget is essentially 
flat for worksite enforcement.
    Do I have your commitment that for the remainder of the 
administration you will continue the progress made over the last 2 
years in worksite enforcement and fugitive operations?
    Answer. While the Department of Homeland Security (DHS) as a whole 
has committed significant resources to preventing aliens from illegally 
entering the United States, significant resources have also been 
committed to arresting immigration law violators within the interior. 
Our immigration enforcement cannot begin and end at our borders and 
ports of entry. Effective immigration policing must also include robust 
interior law enforcement efforts to help ensure the safety and security 
of all Americans. You have my commitment that we will continue the 
progress made over the last 2 years not only in worksite enforcement 
and fugitive operations, but also in critical program areas to continue 
to keep our Nation safe and secure.
ICE--FPS Performance Metrics for Federal Buildings
    Question. In response to an inquiry raised during staff briefings 
on the fiscal year 2009 budget request, you provided a spreadsheet 
detailing what are considered performance metrics for incidents at 
Federal buildings. In fiscal year 2004, there were a total of 63,473 
``Offences/Incidents.'' That number decreased each year and in fiscal 
year 2007, 38,453 of these events were reported. What accounts for this 
significant decrease? Is this a result of a decrease in Federal 
Protective Service staff able to respond to and investigate these 
offenses?
    Answer. Crime statistics, with the exception of narcotics related 
offenses, have similarly decreased collectively across the nation. The 
GSA inventory of owned and leased buildings varies slightly from year 
to year as do the tenants. Due to the activities of some tenants and 
the volume of that activity, there is a proportional increase or 
decrease in incidents.
    Increases and or decreases in reportable incidents may be 
attributed to many factors. Prioritization of certain crimes or 
predetermined surges to aggressively address a certain type of incident 
or location may also have a quantifiable effect. An example may be a 
targeted enforcement against illegal drug use in a park or abandoned 
building. FPS is unable to determine a correlation between reportable 
incidents and staffing at this time.
ICE--New Bedford Worksite Enforcement Action
    Question. On March 6, 2007, a worksite enforcement action resulted 
in the apprehension of 361 illegal aliens. To date, how many of those 
aliens have been removed from the United States? Of those that remain 
in the United States, please detail why there are still here and what 
impediments you are experiencing in removing them.
    Answer. There is a pending criminal case before District Judge 
Douglas P. Woodlock. On March 20, 2008, Judge Woodlock issued an order 
preventing the parties from discussing this case any further. In order 
to comply with Judge Woodlock's order, I cannot answer your questions 
on this matter at this time.
Treasury Enforcement Communication System/Homeland Security 
        Communication System (TECS/HECS)
    Question. Provide an agency-by-agency breakout of the fiscal year 
2009 budget requests/contributions to the modernization of TECS/HECS.
    Answer. As per OCIO the breakouts are as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Amount
------------------------------------------------------------------------
ICE.................................................              15.7
CBP.................................................              49.876
                                                     -------------------
      Total fiscal year 2009........................              71.176
------------------------------------------------------------------------

ICE--Special Interest Alien Arrests
    Question. In fiscal year 2007, CBP arrested 122 people determined 
to be from ``special interest'' countries at the Northern border and 
297 at the Southern border. What happened to them? Were they detained, 
immediately returned to their home countries, or what?
    Answer. For any person taken into Border Patrol custody from a 
Special Interest Country, at a minimum, the following actions are 
taken:
  --Sector Communications is contacted for the initial record checks.
  --The National Targeting Center is contacted for additional record 
        checks.
  --The Joint Terrorism Task Force is contacted for follow up 
        interviews.
  --The Station and Sector Intelligence Units are contacted for follow 
        up interviews.
  --Any ``pocket trash'' is copied or scanned for possible intelligence 
        value.
  --A Significant Incident Report is generated and submitted to the 
        U.S. Customs and Border Protection Situation Room.
  --If any intelligence is developed, complete and forward an 
        Intelligence Report through proper channels.
  --Enroll all aliens who are amendable to Removal Proceedings into the 
        ENFORCE, IDENT and IAFIS computer database systems.
    After sufficient interviewing, intelligence gathering, and 
processing procedures, Special Interest Aliens will be processed for 
Removal Proceedings and deported from the United States.
ICE--Overstays Identified by US-VISIT
    Question. On average, US-VISIT says that it turns over to ICE for 
follow-up action, information on 250 ``overstays.'' What happens when 
this information comes to ICE? How many are found? How many are 
detained, prosecuted, and/or removed from the country on average? What 
percentage of ICE's monthly removals is a result of this information 
being provided by US-VISIT?
    Answer. Law Enforcement Sensitive. Responses to how many are found, 
detained, prosecuted, and or removed will follow under separate cover. 
Approximately 3 percent of the cases that US-VISIT refers to ICE are 
ultimately placed into removal proceedings. Not all of these are 
ultimately ordered removed, however, if all were ordered removed, these 
cases would represent less than 1 percent of ICE's total monthly 
removals.

                 TRANSPORTATION SECURITY ADMINISTRATION

Proposal to Increase Air Passenger Fees
    Question. The President has proposed to significantly increase the 
amount of mandatory spending for explosives detection systems at 
airports through a 20 percent hike in security fees passengers pay for 
airline tickets. The proposal is estimated to generate an additional 
$426 million in revenue.
    Similar proposals have been presented to Congress in prior years, 
but the Congress rejected them.
    The fiscal year 2009 request includes only $154 million in 
discretionary spending (excluding fee increase proposal) for EDS 
procurement and installation, 48 percent below the enacted level of 
$294 million.
    A recent baggage screening investment report, in which TSA 
participated, concluded that airports need $4 billion for explosives 
detection screening systems.
    If the fee proposal is not enacted, will the President submit a 
budget amendment to address the shortfall?
    Answer. The President does not intend to submit a budget amendment 
for Explosives Detection System (EDS) procurement and installation. The 
targeted, temporary surcharge is markedly different from the air 
passenger fee proposals in prior years. With the support of Congress, 
the fee will generate more than $1.7 billion over 4 years and fully 
fund optimal EDS systems. This represents a 6 year project acceleration 
and substantial savings as noted.
    The increase of $104 million to the President's Request in fiscal 
year 2008 and $285 million in supplemental funds in fiscal year 2007, 
when combined with $404 million requested in fiscal year 2009, provide 
a substantial increase to the $440 million planning factor assumed in 
the EDS Strategic Plan.
EDS Procurement and Installation
    Question. What is the total cost to achieve optimal screening 
solutions at the top 250 commercial airports?
    Answer. The Transportation Security Administration's (TSA) 
Electronic Baggage Screening Program Strategic Plan contained an 
estimate of slightly over $3.5 billion to deploy optimal screening 
solutions to 250 airports. TSA currently plans to include all 277 Cat X 
through Cat III airports in the deployment schedule.
    Question. How many years will it take TSA to complete these 
projects at levels proposed in the budget (with fee increase)?
    Answer. The surcharge would allow the Transportation Security 
Administration to accelerate the funding for in-line systems by up to 6 
years. This acceleration will not take place without the proposed 
surcharge. The proposed passenger security fee surcharge will generate 
sufficient funding to complete optimal systems as soon as 2012 
dependent on readiness of construction designs.
    Question. How many years will it take TSA to complete these 
projects if the fiscal year 2008 level of $544 million is continued in 
fiscal year 2009?
    Answer. The Transportation Security Administration (TSA) has not 
modeled the deployment of optimal systems at the $544 million funding 
level. However, this funding level is approximately $100 million above 
the program baseline established in the Electronic Baggage Screening 
Program Strategic Plan. The most recent analysis of the baseline 
funding, published in the Baggage Screening Investment Study Report, 
indicated program completion in 2024. TSA estimates increasing the 
baseline to $544 million would reduce the timeline by 2 years. However, 
please note that this estimate can vary based on the assumptions used.
    Question. How many years will it take TSA to complete these 
projects if the request level of $404 million (minus fee increase) is 
provided in fiscal year 2009?
    Answer. The Transportation Security Administration (TSA) has not 
modeled the deployment of optimal systems at the $404 million funding 
level. However, this funding level is approximately $30 million below 
the program baseline established in the Electronic Baggage Screening 
Program Strategic Plan. The most recent analysis of the baseline 
funding, published in the Baggage Screening Investment Study Report, 
indicated program completion in 2024. With the supplemental funds 
provided in fiscal year 2008, TSA estimates a similar timeframe based 
on assumptions in the BSIS Report. However, please note that this 
estimate can vary based on the assumptions used.
    Question. How many ``in-line'' projects does $829.92 million 
(including fee increase) support? How many will $544 million support? 
How many will $404 million support?
    Answer. The Transportation Security Administration estimates 
approximately 22 in-line projects are funded at the fiscal year 2009 
requested funding level of $830 million; approximately 16 in-line 
systems could be supported at the $544 million level; and approximately 
13 in-line projects could be supported at the $404 million level. 
However, please note that these estimates can vary based on the 
assumptions used.
Unspent Supplemental Funding for Aviation Security
    Question. The fiscal year 2007 emergency supplemental included $365 
million for the Transportation Security Administration to ramp up the 
purchase and installation of explosives detection systems at airports, 
hire air cargo inspectors, and deploy bomb detecting canine teams. 
Today, more than 9 months after those funds were appropriated, $346 
million remains unobligated. For air cargo security, none of the 170 
new bomb sniffing dog teams funded have been deployed, and only 70 of 
the 150 new air cargo inspectors funded are on-board today.
    Why have these critical funds been delayed?
    Answer. The Transportation Security Administration (TSA) is 
aggressively pursuing the execution of the supplemental funding. Delays 
in execution resulted from spend plan development, security partner 
negotiations for some programs, and the development and execution of 
hiring and training plans to fully implement the programs. Progress 
made thus far includes:
  --Checkpoint.--Of the $25 million appropriated, nearly $21 million 
        has been obligated or committed.
  --Explosives Detection Systems (EDS).--Congress should expect to see 
        a revision of the EDS funds allocation in the near future; 
        however, it will include alternate airports previously 
        submitted that TSA is moving forward with.
  --Air Cargo.--TSA has developed hiring plans to fill all of the 
        canine handler and inspector positions this spring to meet the 
        goal of having the entire workforce onboard by the end of 
        summer 2008. The National Explosives Detection Canine Training 
        Program is in the process of expending training capacity.
    Question. The aviation sector has been operating under high alert 
since August of 2006.
    These funds were appropriated to enhance security, not sit in the 
Treasury. This is not a good record. I would like you to update the 
subcommittee in 1 month on progress made to obligate these funds.
    Answer. The Transportation Security Administration will provide an 
update on progress as requested.
Airport Screening
    Question. The Secretary testified that he has directed TSA to 
review current screening procedures at airports and requested 
recommendations within 30 to 45 days. Please update the Committee with 
recommendations on any changes TSA proposes. In the Intelligence Reform 
and Terrorism Prevention Act of 2004, as well as subsequent 
legislation, TSA has been directed to submit to Congress a strategic 
plan for checkpoint technologies. TSA has not submitted such a plan. 
Why has TSA not been able to develop and submit a strategic plan for 
checkpoint screening technologies, and when does the agency expect to 
submit it?
    Answer. This recently announced review is currently underway. The 
Transportation Security Administration will update the Committee with 
recommendations when the final review has been completed.
    A report entitled ``Report to Congress: Detection Equipment at 
Airport Screening Checkpoints'' was provided to Congress on August 9, 
2005 to satisfy the requirements of the Intelligence Reform and 
Terrorism Prevention Act of 2004. In September 2007, the Transportation 
Security Administration (TSA) submitted to Congress a report entitled 
``Development of a Passenger Checkpoint Strategic Plan.'' In compliance 
with direction provided by Congress in the fiscal year 2008 
Consolidated Appropriations Act, TSA intends to deliver a final 
strategic plan to Congress during summer 2008.
    Question. How many machines have been deployed to date that can 
effectively detect liquid explosives? How many are planned for fiscal 
year 2008? Fiscal year 2009? What percent of airport screening 
checkpoint lanes are covered by such technology today? Planned for 
fiscal year 2009?
    Answer. To date, 200 Bottled Liquid Scanner units have been 
deployed to airports. A total of 700 Bottled Liquids Scanner units are 
expected to be procured and deployed in fiscal year 2008. This amount 
includes 200 already purchased and deployed from fiscal year 2007 
Supplemental funds and an additional 500 not yet purchased. One hundred 
Bottled Liquid Scanner units are planned for procurement in fiscal year 
2009.
    Bottled Liquids Scanners (BLS) were not deployed on a per lane 
basis. Instead, consideration of the overall checkpoint utilization 
rates and passenger throughput were used to determine allocations. The 
72 airports where 200 BLS units were deployed contain a total of 1,416 
lanes, which corresponds to 28 percent coverage on a per lane basis.
    Question. TSA's budget includes over $320 million for Behavioral 
Detection Officers, Bomb Appraisal Officers, the Aviation Direct Access 
Screening Program, and Visible Intermodal Protection and Response 
Teams. How is TSA determining the effectiveness of these initiatives?
    Answer. The Behavioral Detection Officers (BDO) program, the 
Aviation Direct Access Screening Program (ADASP), and the Visible 
Intermodal Protection and Response Teams (VIPR) all provide the 
Transportation Security Administration (TSA) with critically needed 
layers of security in aviation security and, in the case of VIPR teams, 
in surface transportation security as well. TSA appreciates the strong 
support the Committee has provided to these important programs.
    The BDO program provides a means to identify potentially high-risk 
individuals based on involuntary physical and physiological reactions. 
For the BDO program, each airport conducting the Screening Passengers 
by Observation Techniques (SPOT) inputs daily referrals into a web-
based SPOT database that provides important information to leadership 
and allows us to perform metrics and trend analysis. Additionally, the 
SPOT Program conducts annual standardization visits at each airport to 
evaluate procedures, methodology, reporting, training, and 
effectiveness,
    Data to date shows that the program at 63 airports has resulted in 
over 100,000 referrals to referral screening, with over 90 percent of 
those resolved by BDOs. Of the 10 percent referred to law enforcement, 
about 1 percent resulted in some type of an arrest.
    The Bomb Appraisal Officer (BAO) program supplies highly skilled 
individuals who have undergone training in the detection and disposal 
of explosive ordnance. BAOs interact with and train Transportation 
Security Officers (TSOs) to increase their ability to recognize 
Improvised Explosive Devices (IEDs) and IED components. The program has 
developed three metrics: BAO response to perform advanced alarm 
resolution procedures; the delivery of IED-related training to TSOs; 
and the delivery of IED-related training to airport first responders. 
During calendar year (CY) 2007 BAOs responded to 1,156 calls for 
advanced alarm resolution of suspected threat items at 90 airports, 
thereby preventing over 1,103 hours of potential terminal disruptions. 
BAOs provided 19,030 hours of IED-related training to over 66,696 TSOs 
and provided similar training to over 1,790 other personnel (law 
enforcement officers, other agencies, among others).
    For CY 2008, as of March 1, 2008, BAOs have responded to 356 calls 
for advanced alarm resolution of suspected threat items, thereby 
preventing 420 hours of potential terminal disruptions. BAOs have 
provided 970 hours of IED-related training to 6,467 TSOs and 386 hours 
to other personnel.
    The ADASP allows TSA to randomly screen more airport and airline 
employees, thus closing a critical security gap. The ADASP has been 
successful in identifying security threats at access points to secure 
areas of the airport, including airport employees carrying weapons and 
other prohibited items, employees with expired access badges, and items 
identified through specific intelligence information. A critical 
indication of the success of ADASP is the initiative's value as a 
deterrent to behavior that creates security vulnerabilities.
    The Visible Intermodal Prevention and Response (VIPR) initiative is 
inherently a deterrent effort that is accomplished through the 
deployment of TSA personnel and equipment, in a highly visible posture, 
with the goal of deterring, detecting, disrupting, and defeating 
potential terrorist or criminal actions taken against the Nation's 
transportation system. TSA created the Joint Coordination Center (JCC) 
to act as the TSA Assistant Secretary's focal point for VIPR 
deployment. The JCC takes into account a number of factors when 
deciding what locations will conduct VIPR operations, such as trend 
analysis, randomness, specific and non-specific intelligence, and 
locally generated VIPR operations. In addition, After Action Reports 
are generated at the completion of every VIPR deployment. These reports 
are examined for best practices and lessons learned and then 
incorporated into future planning and execution protocols.
    Question. The budget maintains level funding for 297 Bomb Appraisal 
Officers (BAO's) in fiscal year 2009. Provide a BAO deployment chart by 
airport. What are the benefits of this program? Is 297 the end state 
for BAO's? If not, provide an optimal number for BAO's.
    Answer. The information requested in this Question for the Record 
cannot be provided in this public setting as the response has been 
deemed to include Sensitive Security Information. The Transportation 
Security Administration can certainly provide the Committee with this 
information via a briefing or other non-public forum.
    The Transportation Security Administration is in the process of 
hiring to the level of 297 Bomb Appraisal Officers and has not made a 
determination of the requirement, if any, beyond that level.
    Question. The fiscal year 2008 Consolidated Appropriations Act 
included half-year funding for TSA to hire 660 behavior detection 
officers and 1,028 full-time/part-time TSO's for the Aviation Direct 
Access Screening Program (ADASP). Provide current on-board data for 
these new positions and projected hires by the end of fiscal year 2008. 
Positions filled by an existing TSO should not count as a new on-board 
position.
    Answer. The Transportation Security Administration (TSA) currently 
has approximately 1,300 Behavior Detection Officers (BDOs) onboard and 
will continue to hire BDOs to reach a level of 2,400 by the summer. 
Similarly, TSA is on pace to hire the Transportation Security Officers 
needed to add 375 Aviation Direct Access Screening Program Full-Time 
Equivalents (FTE) to the current workforce allocation of 904 FTE.
Air Cargo
    Question. The Government Accounting Office recently testified that 
TSA ``has not developed an inspection plan that included performance 
goals and measures to determine whether air carriers transporting cargo 
into the United States were complying with security requirements.'' Is 
TSA developing such a plan? What is the timeline for implementation? 
Identify necessary resources to complete and implement the plan.
    Answer. Yes, the Transportation Security Administration formed an 
International Cargo Working Group to develop inspection prompts in the 
Performance and Results Information System. These prompts will serve as 
the performance goals against which compliance can be measured.
    Following the Government Accountability Office's (GAO's) March, 
2007, recommendation that the Transportation Security Administration 
(TSA) ``[d]evelop and implement an inspection plan that includes 
performance goals and measures to evaluate foreign and domestic air 
carrier compliance with inbound air cargo security requirements,'' TSA 
developed inspection prompts in the Performance and Results Information 
System (PARIS) to guide International Cargo Transportation Security 
Inspectors (I-CTSI) in their inspections of the various air cargo 
operations. The data that is entered into PARIS enables TSA to evaluate 
both foreign and U.S. air cargo operators departing from foreign 
locations to the United States to determine whether the cargo operators 
are in compliance with TSA security requirements and to determine any 
station or systematic vulnerabilities for immediate corrective action. 
TSA implemented the PARIS inspection prompts relating to inbound air 
cargo in February 2008.
    Ten International Cargo Transportation Security Inspectors are 
based out of four field offices for international matters in Los 
Angeles, Dallas Fort Worth, Miami, and Frankfurt, Germany. These 
inspectors will examine cargo operations at last points of departure to 
the United States using inspection prompts in the Performance and 
Results Information System to serve as the performance goals against 
which compliance can be measured.
    Question. The request reduces the air cargo base by $17.2 million 
in fiscal year 2009 for non-recurring funds? What are these non-
recurring funds?
    Answer. The Consolidated Appropriations Act, 2008, (Public Law 110-
161) provided $17 million above the President's request for the air 
cargo program. These funds are not requested to recur in fiscal year 
2009 and will be used for one-time infrastructure investments.
    Question. Of the $80 million provided in the fiscal year 2007 
supplemental for air cargo security, $25 million was identified by TSA 
to deploy technologies appropriate for screening air cargo. Why doesn't 
TSA continue or request funds for the purchase of technology to screen 
air cargo?
    Answer. The Transportation Security Administration (TSA) is 
establishing the Certified Cargo Screening Program to push the 
screening of air cargo throughout the supply chain. TSA is working with 
indirect air carriers and other security partners on a pilot basis to 
identify the most effective processes and technologies to screen air 
cargo. TSA will also identify approved technologies for industry 
screening of air cargo as it moves through the supply chain. Therefore, 
TSA has not identified a requirement to invest in technology to screen 
air cargo.
    Question. What is the status of TSA-S&T efforts to develop and 
pilot test various technologies that may have applicability to 
screening air cargo? What technologies have shown promise, if any? 
Could any technologies be used for air cargo screening in the near 
future?
    Answer. The Transportation Security Administration (TSA) is 
supporting air cargo security goals and objectives by testing, 
evaluating, and qualifying technology to detect explosives and 
stowaways, as well as ensure the integrity of the supply chain. TSA 
plans to both optimize currently available technologies and provide 
cargo specific screening procedures coupled with protocols to support 
these technologies in the operational environment.
    The Department of Homeland Security Office of Science and 
Technology (S&T) is about to conclude the congressionally directed Air 
Cargo Explosives Detection Pilot Program and will soon begin an 
analysis of the results of that pilot. TSA will be conducting an 
operational test at some airports, domestic and international, to 
develop requirements, specifications, and testing protocols to qualify 
a Carbon Dioxide (CO<INF>2</INF>) monitor. The CO<INF>2</INF> monitor 
is expected to be qualified in fiscal year 2009. S&T concluded 
Heartbeat Monitors are susceptible to environmental factors at the 
airports. S&T will address this issue in future research efforts before 
these are qualified by TSA for use by the cargo freighters. TSA has 
deployed certified checked baggage screening technologies into actual 
air cargo screening operations, at about twelve different sites, to 
determine all the integration, training, and operational issues. TSA 
has also initiated pilot tests to study ways to integrate counter-to-
counter air cargo into the existing airport checked baggage screening 
infrastructure using Explosives Detection Systems and Explosives Trace 
Detection screening equipment.
    The technologies showing promise in the near-term are existing or 
slightly modified explosives detection screening technologies such as 
Explosives Detection Systems (EDS), Cargo Optimized EDS, Explosives 
Trace Detection, and dual energy, multi-view Advanced Technology X-ray 
technologies. Carbon dioxide monitors for detecting stowaways also 
showed promise during pilot programs.
    The Transportation Security Administration (TSA) will work with 
industry to pilot screening technologies in the near term, although 
they will not yet be certified in the air cargo environment. This will 
continue our efforts with the Department of Homeland Security Science & 
Technology directorate to evaluate existing and emerging screening 
technologies to determine effectiveness in detecting threats in air 
cargo. TSA has piloted, or is planning to pilot, several technologies 
such as Explosives Detection Systems (EDS), Cargo Optimized EDS, 
Explosives Trace Detection, and dual energy, multi-view Advanced 
Technology X-ray technologies. Carbon dioxide monitors are also being 
considered for detecting stowaways. TSA will determine whether these 
screening technologies, along with other promising technologies, will 
be certified for use in the air cargo environment once they are fully 
evaluated.
Secure Flight
    Question. The Government Accountability Office recently criticized 
TSA's life-cycle cost estimates for Secure Flight, concluding that 
``TSA has not fully followed best practices for developing a reliable 
and valid life-cycle cost estimate.'' In light of the fact that the 
fiscal year 2009 request includes a 64 percent increase for the Secure 
Flight program, what steps are being taken by TSA to address these 
issues?
    Answer. The Secure Flight life cycle cost estimate was developed 
using Department of Homeland Security best practices. The 
Transportation Security Administration (TSA) believes that the life 
cycle cost estimate is accurate for the current scope and requirements 
of the program. TSA is currently analyzing the 12-step process outlined 
in the Cost Assessment Guide recently provided by the Government 
Accountability Office and will work to demonstrate the program's 
alignment with best practices detailed in the guide.
Law Enforcement
    Question. Has there been a decrease in the aviation threat to 
warrant a reduction for critical flight coverage by Federal Air 
Marshals in fiscal year 2009?
    Answer. The threat to aviation remains a primary target for 
terrorists and is expected to continue. The U.S. threat level remains 
High, or Orange, for all domestic and international flights. However, 
TSA as a whole employs twenty layers of security creating a much 
stronger, formidable system of security that ensures the security of 
the traveling public and the Nation's transportation system.
    Question. What is the status of the Advanced Route Evaluation 
System being developed by the FAMS?
    Answer. The Advanced Route Evaluation System (ARES) is currently in 
development. The Department of Homeland Security's Office of Science & 
Technology (S&T) funded the development of ARES to determine a means 
for the Transportation Security Administration (TSA) to incorporate 
overflights of critical infrastructure into the TSA risk-based approach 
to scheduling. TSA expects delivery of an initial ARES capability this 
summer for testing. Test results are expected in the September 2008 
timeframe.
    Question. What is TSA doing to develop a biometric system to track 
law enforcement travel? The 9/11 Act mandated such a system be in place 
by January 2009. Such a system is necessary to accurately identify law 
enforcement officers flying aboard commercial aircraft and to verify 
their authorization to carry weapons aboard an aircraft. What is the 
timeline for developing such a system? Does the fiscal year 2009 budget 
include funds for such a system? If so, how much?
    Answer. The Transportation Security Administration (TSA) has formed 
a team comprised of subject matter experts from the Office of 
Transportation Threat Assessment and Credentialing (TTAC) and the 
Office of Law Enforcement/Federal Air Marshal Service (OLE/FAMS) to 
develop a concept of operations for a National registered armed Law 
Enforcement Officer (LEO) program which will help determine program 
goals and resource requirements. In March 2008, OLE/FAMS hosted a 
meeting of Federal, State, local, and tribal law enforcement agencies 
from around the country to better understand their respective 
credentialing systems and duty requirements, as well as discuss 
procedural and operational challenges associated with the integration 
of a common credential for this population, which TSA estimates at a 
potential pool of over 800,000 sworn law enforcement officers 
nationwide. This meeting provided valuable information in advancing TSA 
developmental goals.
    Concurrently, TSA will be initiating an E-LEO pilot program at 
Washington Dulles International Airport which will provide 
Transportation Security Officers a more suitable environment to verify 
the identity and improve the tracking of LEOs seeking to fly armed 
through the use of a dedicated checkpoint lane. Operating in 
conjunction with the Transportation Security Operations Center, the 
pilot program will allow TSA to more readily react to emergencies in 
the air or on the ground by identifying whether a flight has an armed 
law enforcement officer other than a Federal Air Marshal.
    Although the Transportation Security Administration (TSA) intends 
to leverage prior experience with other credentialing initiatives, the 
size and nature of this population necessitates rigorous planning to 
ensure the security objectives of Section 1615 of the Implementing 
Recommendations of the 9/11 Commission Act of 2007 are met. The 
implementation of a national registered armed Law Enforcement Officer 
program is a significant undertaking which will require extensive 
consultation with thousands of Federal, State, local, and tribal law 
enforcement agencies which issue credentials to an even larger 
population of law enforcement officers. The national law enforcement 
officer population exceeds 800,000 sworn law enforcement officers 
representing over 18,000 different law enforcement agencies at the 
Federal, State, tribal, and local level. It is, therefore, premature to 
estimate a timeline for rulemaking and any acquisition related 
activities at this time.
    The President's fiscal year 2009 budget does not include specific 
funds for this system.
    The Transportation Security Administration (TSA) has formed a team 
comprised of subject matter experts from the Office of Transportation 
Threat Assessment and Credentialing (TTAC) and the Office of Law 
Enforcement/Federal Air Marshal Service (OLE/FAMS) to develop a concept 
of operations for a National registered armed Law Enforcement Officer 
(LEO) program which will help determine program goals and resource 
requirements. In March 2008, OLE/FAMS hosted a meeting of Federal, 
State, local, and tribal law enforcement agencies from around the 
country to better understand their respective credentialing systems and 
duty requirements, as well as discuss procedural and operational 
challenges associated with the integration of a common credential for 
this population, which TSA estimates at a potential pool of over 
800,000 sworn law enforcement officers nationwide. This meeting 
provided valuable information in advancing TSA developmental goals.
    Concurrently, TSA will be initiating an E-LEO pilot program at 
Washington Dulles International Airport which will provide 
Transportation Security Officers a more suitable environment to verify 
the identity and improve the tracking of LEOs seeking to fly armed 
through the use of a dedicated checkpoint lane. Operating in 
conjunction with the Transportation Security Operations Center, the 
pilot program will allow TSA to more readily react to emergencies in 
the air or on the ground by identifying whether a flight has an armed 
law enforcement officer other than a Federal Air Marshal.
    Although the Transportation Security Administration intends to 
leverage prior experience with other credentialing initiatives, the 
size and nature of this population necessitates rigorous planning to 
ensure the security objectives of Section 1615 of the Implementing 
Recommendations of the 9/11 Commission Act of 2007 are met. The 
implementation of a national registered armed Law Enforcement Officer 
program is a significant undertaking which will require extensive 
consultation with thousands of Federal, State, local, and tribal law 
enforcement agencies which issue credentials to an even larger 
population of law enforcement officers. The national law enforcement 
officer population exceeds 800,000 sworn law enforcement officers 
representing over 18,000 different law enforcement agencies at the 
Federal, State, tribal, and local level.
    Question. What are the fiscal year 2007/2008 levels for 
international programs--both funding and FTE. Provide FTE summary by 
function areas, i.e. TSA Representatives (TSAR's) and International 
Principal Security Inspectors (IPSI's) and International Aviation 
Security Inspectors (IASI's)? How many foreign airport assessments were 
conducted in fiscal year 2007 and fiscal year 2008? How many will be 
covered in fiscal year 2009? Provide the same data for foreign airport 
inspections. What is the rationale for inspecting foreign carriers up 
to two times annually and assessments once every 3 years? How many 
airports worldwide have air carriers that fly to the United States? 
What is the total number of air carrier stations worldwide that service 
the United States? How many are inspected by TSA on an annual basis?
    Answer. The funding level for the Transportation Security 
Administration's (TSA) International Programs in fiscal year 2007 was 
approximately $29 million. The funding level in fiscal year 2008 is 
approximately $29.4 million.
    The fiscal year 2007 Full-Time Equivalent (FTE) levels were as 
follows:

------------------------------------------------------------------------
                                                                FTE
------------------------------------------------------------------------
Transportation Security Administration Representatives                22
 (TSARs)................................................
International Aviation Security Inspectors (IASIs)......              46
International Principal Security Inspectors (IPSIs).....              16
International Air Cargo Inspectors......................              10
Foreign Repair Station (FRS) Employees..................              15
Capacity Development Training Team members..............               8
Employees supporting TSA's international mission located              36
 at various locations including headquarters, overseas
 and domestic locations.................................
                                                         ---------------
      Total.............................................             143
------------------------------------------------------------------------

    The fiscal year 2008 FTE levels were increased slightly due to the 
reorganization of TSA's international programs which now comprise TSA's 
Office of Global Strategies. The fiscal year 2008 FTE levels are as 
follows:


------------------------------------------------------------------------
                                                                FTE
------------------------------------------------------------------------
TSARs...................................................              22
Transportation Security Specialists (TSSs), formerly                  46
 IASIs..................................................
International Industry Representatives (IIRs), formerly                6
 IPSIs..................................................
International Air Cargo Inspectors......................              10
FRS Employees...........................................              15
Capacity Development Training Team members..............               8
Employees supporting TSA's international mission located              39
 at various locations including headquarters, overseas
 and domestic locations.................................
                                                         ---------------
      Total.............................................             146
------------------------------------------------------------------------

    The Transportation Security Administration conducted 125 foreign 
airport assessments in fiscal year 2007 and 25 to date in fiscal year 
2008. TSA plans to conduct 118 foreign airport assessments in fiscal 
year 2009.
    TSA conducts both foreign airport assessments and foreign air 
carrier inspections, but not foreign airport inspections. TSA conducted 
221 foreign air carrier inspections in fiscal year 2007. To date, TSA 
has conducted 111 foreign air carrier inspections in fiscal year 2008 
and anticipates completing an additional 156, for a total of 267, by 
the end of fiscal year 2008. TSA forecasts that it will conduct 
approximately 300 foreign air carrier inspections in fiscal year 2009.
    Foreign airport assessment and foreign air carrier inspection 
scheduling is governed by a risk-based methodology that determines the 
frequency of visits. Currently, all air carriers are inspected once 
annually unless they have a high ``Airport Vulnerability'' rating. This 
rating is used to determining the frequency of assessment and 
inspection planning based on the outcome of threat, vulnerability, and 
consequence analysis. This methodology allows the Transportation 
Security Administration to efficiently utilize its workforce by 
visiting airports with a higher likelihood of being a target for 
criminal or terrorist acts, while taking into account analysis of the 
protective measures in place and the potential impact for loss.
    The number of international airports that service the United States 
is determined by the active last point of departure. Currently, the 
total number of active last point of departure airports worldwide is 
268. An international airport may have several air carrier operations 
offering service to the United States, but because they all depart from 
the same airport, it only counts as one point of departure. As an 
example, Munich, Germany International airport has various destinations 
to the United States and currently has five air carrier station 
operations: United Airlines, Inc.; Delta Arlines, Inc.; US Airways; 
Deutsche Lufthansa AG; and Lufttransport Unternehem GmbH. Although 
Munich serves various destinations to the United States, the airport 
was counted as only one point of departure operation to the United 
States. Three of these carrier operations service the United States. 
Each air carrier station counts as an independent operation.
    The total number of air carrier stations worldwide that operate to 
the United States is 810. An international airport may have multiple 
independent air carrier stations operations providing service to the 
United States. Each of these stations counts has a single operation. 
The Transportation Security Administration conducted 748 air carrier 
station inspections in fiscal year 2007 and anticipates conducting 952 
in fiscal year 2008.
Attrition Rates
    Question. TSA attrition rates continue to be high compared to the 
government-wide average. Total attrition actually increased from 20.9 
percent in fiscal year 2006 to 21.2 percent in fiscal year 2007. What 
is the status of TSA's pilot program to provide full-time health 
benefits to part-time workers? Since the April 20, 2007, report to the 
Committee on efforts to reduce attrition rates, provide information on 
the success of those efforts.
    Answer. TSA continues to make progress in reducing both full-time 
and part-time attrition. In fact, when viewed separately, the rates for 
both full-time and part-time have declined for the third straight year. 
Full-time attrition declined from 16.5 percent in fiscal year 2006 to 
14.4 percent in fiscal year 2007; part-time attrition declined from 
45.8 percent in fiscal year 2006 to 44.6 percent in fiscal year 2007.
    The increase in total attrition is due to the fact that this 
combined rate includes an increased percentage of part-time 
Transportation Security Officers (TSOs) who have a higher attrition 
rate than full-time TSOs.
    In an effort to increase retention of part-time workers, the Part 
Time TSO Federal Employees Health Benefits (FEHB) program was 
implemented in September 2006 at six pilot airports. Due to TSA's 
success in reducing attrition, the pilot program was expanded 
nationwide in October 2007 and full-time TSO health benefits coverage 
(with reduced premium costs) was extended to all part time TSOs.
    The successful initiatives that TSA has introduced in the past year 
include:
  --Recruitment, Relocation, and Retention Incentives instituted at 
        hard-to-staff/high cost-of-living airports;
  --TSO Pay for Performance system--Performance Accountability and 
        Standards System (PASS);
  --TSO incentives for conversion from full-time to part-time 
        employment, for service, and for retention;
  --TSO career progression and the creation of the E band position 
        (resulted in over 20,000 TSO promotions);
  --Expanded opportunities for new training and skill sets involving 
        additional job duties and specialized security functions;
  --Enhanced minimum and maximum of TSA pay bands (affects all non-
        Senior Executive (TSES) employees);
  --TSO work schedule optimization (includes greater use of full-time 
        split-shift employment and development of a new form of premium 
        pay--the split-shift differential);
  --Reduced health insurance premiums for all part-time TSOs;
  --Job Swap (allows employees, primarily TSOs, to swap positions and 
        working locations); and
  --Development of a TSO referral program.
Privatized Screening
    Question. The screening partnership program budget anticipates a $2 
million need for future federalizations. The amount reserved in fiscal 
year 2008 was substantially higher at $6.5 million. Why is there such a 
dramatic decrease?
    Answer. The $6.5 million referenced above was an estimate for the 
use of projected Screener Partnership Program (SPP) program carryover 
into fiscal year 2008. In fiscal year 2008, that carryover will be used 
to fund airports that transitioned into the SPP in fiscal year 2007--
Key West International Airport, Charles Schultz Sonoma Airport, Gallup 
Municipal Airport, and Roswell Industrial Airport. It will also be used 
for the continued fiscal year 2008 implementation of new security 
programs, including the Aviation Direct Access Screening Program and 
Screening Passengers by Observation Techniques, as well as the travel 
document checking responsibilities assumed from airline contractors in 
June 2007. Base resources were realigned in fiscal year 2009 to account 
for these airports that recently joined the SPP, and for the new 
security programs and responsibilities, such that $2 million of 
anticipated carryover into fiscal year 2009 should be adequate to meet 
the needs of future federalizations.
General Aviation
    Question. The fiscal year 2008 Consolidated Appropriations Act 
included $14 million for the development of technical and information 
infrastructure required to determine risk of pilots and crews operating 
in the general aviation domain. The fiscal year 2009 budget does not 
continue funding for this effort. Why? The fiscal year 2008 budget 
assumption assumed funding for an additional 10 FTE's. What is the 
status of this effort? From what account and funding allocation are the 
10 FTE paid for in fiscal year 2009?
    Answer. The $14 million is 2-year funding and will be split between 
fiscal year 2008 and fiscal year 2009 to support ongoing, and commence 
new, general aviation security initiatives that align with the agency's 
multi-layered approach to security. Approximately $8 million will be 
obligated in fiscal year 2008 and the remaining $6 million in fiscal 
year 2009.
    TSA is currently developing a program to assist the agency in 
continuing its threat based, risk management approach to security. The 
10 positions provided in the fiscal year 2008 budget will be funded 
over the next 2 years, thereby eliminating the need for additional 
funding in the fiscal year 2009 budget. Once implemented, the program 
will support TSA's layered approach to security by enhancing security 
measures and providing improved situational awareness of the general 
aviation security environment.
    In fiscal year 2009, 10 Full-Time Equivalents will be funded from 
the Aviation Regulation and Enforcement Program, Project, Activity in 
the Aviation Security Appropriation using planned carry forward from 
the fiscal year 2008 appropriation.
    Question. When the proposed transfer of VIPR and canine teams is 
backed out, the number of aviation inspectors is lower than budgeted in 
fiscal year 2006. Why is TSA reducing the number of ASI's when 
responsibilities have increased?
    Answer. The Aviation Security Inspector (ASI) workforce was 
budgeted for 681 positions in fiscal year 2006. The fiscal year 2006 
appropriation was insufficient to sustain this level, however, so the 
workforce was reduced to 657 in fiscal year 2007. The Transportation 
Security Administration (TSA) has maintained this position level since 
fiscal year 2007 and TSA's fiscal year 2009 budget request includes 
funding for 657 ASI positions (not counting Visible Intermodal 
Protection Response and canine teams).
Risk-Based Security
    Question. TSA trumpets the 19 different security layers in place to 
protect the traveling public. Has there been an independent (non-DHS) 
assessment of these security layers to determine if they are adequate 
and that resources are properly distributed among them? If not, does 
TSA plan to undertake such an assessment?
    Answer. The Transportation Security Administration (TSA) has had a 
host of independent analyses of the security layers and associated 
resources. In particular, the Government Accountability Office's 
analyses over the years were most recently summarized and provided on 
February 28, 2008, in testimony before the Subcommittee on Homeland 
Security, Committee on Appropriations, House of Representatives. TSA 
has not arranged any additional independent assessments.

                              COAST GUARD

Staffing
    Question. The Coast Guard Commandant recently stated that, ``there 
is a limit to what the Coast Guard can do with a workforce that has not 
changed in 50 years, except to be reduced on occasion.''
    Coast Guard responsibilities have exploded since 9/11, but a 
constrained workforce has limited its ability to fully accomplish its 
mission.
  --Over the last 10 years, the number of Coast Guard marine inspectors 
        decreased by 1 percent while foreign vessel arrivals increased 
        by 61 percent.
  --The Coast Guard fails to make required checks on critical 
        infrastructure 33 percent of the time due to a shortfall of 
        boats, crew, and training.
  --The Coast Guard fails to make required escorts of high capacity 
        passenger vessels 42 percent of the time due to a shortfall of 
        boats, crew, and training.
  --The Coast Guard's capital budget has grown three-fold since 1998 to 
        $1.2 billion with almost no increase in acquisition staffing.
  --Nearly 20 percent of the Coast Guard workforce is unable to use 
        accumulated leave due to workload demands.
    The fiscal year 2009 request would grow the Coast Guard's workforce 
by less than 1 percent--just 344 new positions. Provide recommendations 
to increase staffing and necessary resources (by functional area) in 
fiscal year 2009 to ensure that all Coast Guard sectors have the 
personnel and resources to secure our ports, while enforcing our 
immigration, drug and environmental laws, and responding to 
emergencies. Provide a multi-year plan to address this staffing 
shortage.
    Answer. Effective growth of the Coast Guard requires a managed 
approach. We are currently evaluating the number and characteristics 
(e.g., military vice civilian) of a right-sized force. The 2009 Budget 
provides for well-defined needs and does not constrain future human 
resource solutions.
    Relating to a multi-year plan to address this staffing shortage, 
the Coast Guard has not yet completed the necessary human resource 
requirements analysis to enable projections at this time.
Security of Dangerous Cargo
    Question. Last year, the Government Accountability Office concluded 
(GAO-08-141) that the Coast Guard lacks the necessary resources to meet 
requirements for protecting vessels and waterside facilities that 
contain hazardous substances, like Liquefied Natural Gas. In fiscal 
year 2008, Congress added $29.4 million for additional staff and small 
boats to address this shortfall. GAO concluded that the Coast Guard is 
stretched too thin ``to meet its own self-imposed security standards, 
such as escorting ships carrying dangerous cargo.''
    Are you confident that all Coast Guard sectors have the necessary 
personnel and resources to secure dangerous cargoes as they enter our 
ports? Does the fiscal year 2009 request allow the Coast Guard to meet 
its own self-imposed security standards for vessels carrying dangerous 
cargo?
    Answer. Not every Coast Guard Sector has all of the resources 
required to meet Coast Guard's certain dangerous cargo (CDC) vessel 
security requirements, or all other critical infrastructure protection 
requirements under the Maritime Transportation Security Act; although 
resources are allocated through risk-based decisionmaking and the Coast 
Guard did meet its primary performance measure for its Ports, Waterways 
and Coastal Security mission. Funding provided in the Consolidated 
Appropriations Act of 2008 will help mitigate some of these resource 
gaps, but projected increases in the number of CDC vessels entering 
U.S. ports will increase the importance of risk management as Sectors 
struggle to meet increasing CDC vessel security demands.
    The funding provided in the Consolidated Appropriations Act of 2008 
and Fiscal year 2009 request would allow the Coast Guard to maintain 
its current level of certain dangerous cargo (CDC) vessel security 
capabilities.
    During recent testimony, the Commandant said there are alternatives 
other than the Coast Guard to protect vessels containing dangerous 
cargo entering U.S. ports. Is the Coast Guard required by law, 
executive order, or another mandate to protect these vessels? Provide 
details on alternatives for protection. What is the Department's 
position on this matter? Is the Department considering a shift in 
responsibility to local governments or contracted security?
    Answer. The Coast Guard is not required by law to protect any 
specific vessel or class of vessel. Coast Guard efforts to provide 
security escorts for certain dangerous cargo (CDC) vessels are self-
imposed requirements, put in place in the wake of the 9/11 attacks. CDC 
vessel security remains a shared responsibility with industry and under 
33 CFR 6.19-1, the primary responsibility for CDC vessel and facility 
security belongs to vessel masters, owners, operators, and agents.
    There is both potential and precedent for non-Coast Guard 
protection of vessels containing dangerous cargoes both during the 
vessels' transit and pier side at certain dangerous cargo (CDC) 
facilities. Escorts of CDC vessels during port transits are often 
provided by the Coast Guard, from other Federal, State, or local 
agencies, or a combination of available governmental assets.
    When a vessel is moored at a facility, protection at the terminal 
need not always be in the form of waterborne patrols and DHS believes 
shoreside forces should provide protection. Depending on the location 
and geographic constraints of the facility, protection may conceivably 
be provided through a combination of boat barriers (to demark a limited 
access area and prevent attack via Waterborne Improvised Explosive 
Device), cameras (for monitoring), and/or armed vessel response, 
provided by an appropriate combination of either government or private 
security forces.
    Further examination and implementation of protocols and regulations 
would be required to ensure the proper use-of-force authority is 
established and there is a thorough de-confliction between Coast Guard 
and non-Coast Guard forces conducting security operations in close 
proximity to the port. We are commencing a dialogue with industry and 
other stakeholders to inform future national approaches to CDC 
security.
    The Department's position is in accordance with 33 CFR 6.19-1, 
industry retains primary responsibility for the protection and security 
of such vessels or waterfront facilities. This position is supported by 
the Maritime Transportation Security Act of 2002, which requires vessel 
and facility owner/operators to prepare and submit security plans for 
deterring Transportation Security Incidents. While the Coast Guard and/
or other government agencies have a role in protecting certain 
dangerous cargo (CDC) vessels, it is not the government's exclusive 
responsibility, and private industry must carry out their security 
responsibilities in accordance with 33 CFR 6.19-1.
    The Department intends to continue to work with local governments 
and industry to maintain shared responsibility for certain dangerous 
cargo vessel security. We are committed to generating a national 
dialogue on the issue and believe the Coast Guard is best suited to 
coordinate development of recommendations for the way ahead.
Port Security Operational Requirements
    Question. Provide a list of ports not meeting specific security 
requirements set forth in Operation Neptune Shield (such as harbor 
patrols and vessel escorts).
    Answer. Operation Neptune Shield (ONS) requires the Coast Guard 
Sector Commander in each of the 55 ports to report on the degree to 
which ONS standards are met in up to 17 different types of operational 
activities (e.g., patrols, boardings, escorts, military outload 
support, as applicable to each port). In order to reach this perfect 
attainment level, support from other government agencies was required 
in six out of the seven ports. ONS is revised regularly. The most 
recent change to ONS allows the Operational Commander to focus on 
activities which mitigate the greatest risk.
    Based on Operation Neptune Shield Scorecard data from CY 2007, 
seven of the 55 militarily and economically strategic ports reported 
100 percent attainment for every ONS activity. The following 48 out of 
the 55 ports were not able to meet all ONS requirements:
Anchorage, AK
Apra Harbor, Guam
Baton Rouge, LA
Boston, MA
Buffalo, NY
Charleston, SC
Chicago, IL
Cincinnati, OH
Cleveland, OH
Corpus Christi, TX
Detroit, MI
Duluth, MN
Galveston, TX
Honolulu, HI
Houston, TX
Huntington, WV
Jacksonville, FL
Lake Charles, LA
Los Angeles/Long Beach, CA
Louisville, KY
Memphis, TN
Miami, FL
Mobile, AL
Morehead City, NC
Morgan City, LA
New Haven, CT
New London, CT
New Orleans, LA
New York/New Jersey
Norfolk, VA
Panama City, FL
Pascagoula, MS
Pensacola, FL
Philadelphia, PA
Pittsburgh, PA
Port Arthur, TX
Port Canaveral, FL
Portland, OR
Providence, RI
San Francisco, CA
San Juan, PR
Savannah, GA
Seattle/Tacoma, WA
St. Louis, MO
Tampa, FL
Toledo, IL
West Palm Beach, FL
Wilmington, DE
Alternatives Analysis
    Question. What are the Coast Guard's plans for examining 
recommendations contained in the Integrated Deepwater Systems 
Alternatives Analysis (AA), which was completed in February 2008? The 
AA made specific recommendations pertaining to the NSC, OPC, FRC, MRS, 
VUAV, and C4ISR.
    Answer. The Coast Guard has examined the recommendations provided 
in the AA and has developed a Balanced Plan of Action (BPOA) to manage 
cost, schedule and performance risk. All three alternatives recommended 
(i.e., Baseline, Modified Baseline, and Managed Risk) support 
continuing current Coast Guard plans for the National Security Cutter 
(NSC), Offshore Patrol Cutter (OPC), Fast Response Cutter (FRC), and 
Medium Range Surveillance (MRS). The Coast Guard will therefore 
continue ongoing procurements of the NSC, FRC (contract selection 
ongoing) and MRS. Requirements for the OPC are being refined, with 
design work and analysis for this ship planned to begin in fiscal year 
2009. The Coast Guard will also, as recommended, review the performance 
of the FRC-B and procure additional FRC-Bs once their actual 
capabilities are fully developed.
    The Managed Risk Alternative recommended elimination of the 
Vertical Unmanned Aerial Vehicle (VUAV) to reduce cost while also 
recognizing a significant decrease in system performance. The Coast 
Guard will continue an ongoing study of VUAV/UAS (Unmanned Aircraft 
System) alternatives to determine the best approach to meet the VUAV 
maritime surveillance requirements. The Coast Guard considers the VUAV/
UAS essential for optimum mission performance, and concurs with the AA 
that the Navy's Fire Scout VUAV project may be applicable to its needs.
    The AA also recognized a range of Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance (C4ISR) 
alternatives. The Coast Guard Acquisition Directorate, as it assumes 
more of the lead systems integrator responsibilities, is working to 
identify the most efficient and effective path forward in terms of 
interoperable land, sea and air C4ISR systems. The Coast Guard agrees 
with the AA in that both near-term and long-term strategies are needed 
(in C4ISR and logistics) to integrate both legacy and new Coast Guard 
assets.
Deepwater Budget
    Question. In the Consolidated Appropriations Act for fiscal year 
2008, the Coast Guard received $783 million for the Deepwater program, 
and in the fiscal year 2009 budget the Coast Guard requested an 
additional $990 million for Deepwater. What assurances do we have that 
the Coast Guard can properly manage that large increase in requested 
fiscal year 2009 funds given the management challenges Deepwater has 
faced?
    Answer. The Coast Guard is confident it is on the right course and 
positioned to manage the increase in funding for the Deepwater program. 
Deepwater is making significant progress in program execution through 
use of approximately $1.2 billion obligated in fiscal year 2007.
    Last summer, the Commandant enacted a reorganization of the Coast 
Guard's major acquisitions, which involved standing up the new 
Acquisition Directorate. This important initiative coupled with the 
implementation of program and oversight management reforms recommended 
by the Defense Acquisition University (as codified in the Coast Guard 
Blueprint for Acquisition Reform) are moving the Coast Guard forward in 
achieving real improvements in acquisition management. Working closely 
with the DHS Undersecretary of Management and Chief Procurement 
Officer, the Coast Guard is hiring top-notch professionals and 
improving training and certification.
    The Coast Guard is applying its Major Systems Acquisition Manual 
guidelines to all projects falling under the Deepwater program and is 
seeing tangible results. Over the past year and a half, these 
acquisition program changes have resulted in the following significant 
accomplishments:
  --The USCGC BERTHOLF (WMSL 750), the first of eight NSC's to be 
        built, has successfully completed machinery and builders trials 
        leading to delivery this spring. The Commandant states this 
        will be the most capable cutter the Coast Guard will have ever 
        commissioned. USCGC WAESCHE (WMSL 751) is nearly 50 percent 
        complete, and the Coast Guard will cut steel for the third 
        ship, USCGC HAMILTON (WMSL 752), this summer.
  --The Coast Guard will be completing (note the date of this hearing 
        is before the acceptance on 10 MAR 2008) Developmental Test and 
        Evaluation (DT&E) of the Mission System Pallet for the first 
        fully-missionized HC-144 Ocean Sentry maritime patrol aircraft 
        this month and has five more under construction to add to the 
        three already delivered. The Coast Guard has nearly upgraded 
        the entire fleet of HH-65C helicopters with more powerful 
        engines, and in January 2008, replaced the prior HITRON 
        helicopters with these new assets equipped with airborne use of 
        force (AUF) capability.
  --The Coast Guard added new sensors and communication systems aboard 
        35 of the legacy medium endurance cutters last year and will do 
        the same to five more if they receive the fiscal year 2009 
        request. The mission effectiveness project to sustain and 
        refurbish their legacy fleet of 110-foot patrol boats and both 
        classes of medium endurance cutters is on schedule, and they 
        have actually reduced the time to complete each patrol boat at 
        the Coast Guard Yard by approximately 3 months. The first of 
        six newly-missionized C130J long range surveillance aircraft 
        just successfully completed DT&E last week, and will enhance 
        capabilities once it completes operational testing this year.
    The Department has every confidence in Admiral Allen and his Chief 
Acquisition Officer, Rear Admiral Gary Blore, and their staff. The 
addition of three SES's to the Coast Guard's acquisition corps, the 
majority of whom come from the Department of Defense with years of 
experience, has helped them move leaps and bounds in the right 
direction. As I said earlier, the best indicators are the Deepwater 
assets serving in the Coast Guard air and sea fleets today. The 
contract awards of NSC #4 Long Lead Time material, additional HC-144A, 
and the Fast Response Cutter B will be very public and visible evidence 
of continued progress this summer.
    Additionally, we're measuring progress in improving the Deepwater 
program through several strategies:
  --Receiving the Deepwater Alternatives Analysis report, an example of 
        a third-party review of a major acquisition program, that 
        confirms that their basic procurement strategy remains valid 
        for meeting mission requirements;
  --Use of Earned Value Management (EVM) policies documented in the 
        Coast Guard Major Systems Acquisition Manual (MSAM) for monthly 
        analysis and reporting for oversight; internal review of 
        financial data tracking to ensure data is accurate, complete, 
        timely, and reliable; and
  --Converting the Deepwater Performance Management System (DPMS) to 
        the Acquisition Performance Management System (APMS), and the 
        integration of the three USCG accounting systems into a 
        complete Acquisition, Construction, and Improvement (AC&I) data 
        set.
    The Coast Guard's fiscal year 2009 budget was made with the 
awareness of what they can properly manage and obligate, moving 
Deepwater forward and continuing to provide the Coast Guard men and 
women with the assets they need to perform their critical missions.
    The Department expects that continued progress will be made in 
Coast Guard acquisition management and I want to reiterate that we are 
confident the Coast Guard will appropriately, effectively and 
efficiently manage funding received.
Marine Safety Program
    Question. Last year, the Coast Guard announced significant 
improvements to the Marine Safety Program. With regard to resources 
necessary to implement the enhancements, the Coast stated that it is 
currently developing the associated resource strategy. The budget 
includes a $20 million increase for marine inspectors. What is the base 
budget for marine safety? What are the long-term needs for staffing and 
resources to fully address the Coast Guard's shortfall in this area?
    Answer. The Coast Guard uses a tool known as the Mission Cost Model 
(MCM) to estimate budget authority allocations by mission program. The 
Coast Guard estimates approximately 8.7 percent or $501.8 million of 
actual Operating Expense appropriation expenditures supported the 
Marine Safety mission in fiscal year 2007. This is the most accurate 
available estimate of program cost.
    This amount does not include the Coast Guard's Marine Environmental 
Protection and Aids to Navigation missions.
    The Coast Guard has developed a strategy that provides a vision and 
roadmap for improving the effectiveness, consistency, and 
responsiveness of the Coast Guard Marine Safety program to promote 
safe, secure, and environmentally sound maritime commerce. The Coast 
Guard will reinvigorate industry partnerships, improve mariner 
credentialing services, bolster inspector and investigator capacity, 
improve technical competencies, and expand rulemaking capability to 
ensure that we meet current and future industry needs. Budgeted 
resources will be directed to:
  --Improve the Coast Guard's Marine Safety Capacity and Performance
    --Increase marine inspector and investigator capacity.
    --Strengthen marine inspection and investigation consistency 
            through addition of civilian positions.
    --Increase accessions from U.S. Merchant Marine Academy and 
            maritime institutions.
    --Strengthen Marine Safety career paths.
    --Expand professional Marine Safety training and education.
    --Expand opportunities for maritime industry training.
    --Enhance engineering capacity for plan review, policy and 
            standards development.
    --Enhance Service Delivery to Mariners and Industry Customers
    --Establish Centers of Excellence.
    --Improve information technology systems.
    --Increase rulemaking capacity to meet regulatory implementation.
    --Improve credentialing through greater efficiency, transparency 
            and capacity.
    --Expand Outreach and Advisory Mechanisms for Industry and 
            Communities.
    --Establish Assistant Commandant for Marine Safety, Security, and 
            Stewardship.
    --Establish a national council of maritime advisors for the 
            Commandant.
    --Exercise leadership at international, national, regional, State, 
            and local safety, security, and environmental committees.
Foreign Port Inspections
    Question. According to recent GAO testimony, Coast Guard officials 
said they don't have the resources or authority to directly assist 
countries with more in-depth training or technical assistance to 
improve security. Please describe resource shortfalls. What is the 
Coast Guard doing to address this problem?
    Answer. Section 70109(b) of title 46, United States Code, directs 
the Secretary of the department in which the Coast Guard is operating, 
in cooperation with the Secretary of State, to provide a port security 
training program in foreign countries that are found under 46 U.S.C.  
70108 to lack effective anti-terrorism measures.
    Based on the first round of the assessments, the Coast Guard is 
authorized to provide training to seven countries that were found to 
have ineffective anti-terrorism measures. A finding on effective 
antiterrorism measures is pending for seven additional countries. 
Presently, the Coast Guard has both adequate personnel and authority to 
provide such training in all foreign countries that are found under 46 
U.S.C.  70108 to lack effective anti-terrorism measures.
Interagency Operational Centers
    Question. The SAFE Port Act called for the creation of interagency 
operational centers (IOCs) at high-priority ports. The fiscal year 2008 
Consolidated Appropriations Act included $60 million to begin the 
process of establishing these centers. The Coast Guard has estimated 
the full cost of these centers Coast Guard wide to be $260 million. Why 
doesn't the budget include funds for IOCs in fiscal year 2009 or in the 
capital out-years budget?
    Answer. The President's Request for fiscal year 2009 seeks funding 
for Command 21, the Coast Guard acquisition program to establish 
Interagency Operations Centers (IOC) capability at Coast Guard Sector 
Command Centers in ``high priority'' ports.
    Additionally, the fiscal year 2009-13 Capital Investment Plan for 
Acquisition, Construction, & Improvement, included in the fiscal year 
2009 President's Request, reflects the following outyear funding 
estimates for Command 21:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                          Fiscal year
             Command 21             -------------------------------------------------------   Total     Complete
                                        2009       2010       2011       2012       2013
----------------------------------------------------------------------------------------------------------------
AC&I CIP...........................          1          9         10         10         10    ( \1\ )    ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Total Acquisition Cost and Estimated Completion is under development with our Acquisition Program Baseline
  and will be provided as soon as approved by DHS.

    The Coast Guard intends to administer Command 21 and Interagency 
Operations Centers as a consolidated acquisition project in future 
years.
Small Vessel Security
    Question. According to the budget, the Coast Guard and DNDO are in 
the early stages of deploying preventive radiation/nuclear detection 
(PRND) capabilities in the ports of Seattle and San Diego to detect 
radiation on small vessels. Provide more details on how these pilot 
projects will work. How much funding is being dedicated to these pilots 
from DNDO and Coast Guard? In what fiscal year were the funds for these 
pilots appropriated? When does DHS expect results from these pilots? 
Are there plans to expand these capabilities to other ports? If so, 
provide a schedule and port locations. Does the fiscal year 2009 budget 
include funds to continue or expand these pilots?
    Answer. The pilot program is a 3-year effort to design, field and 
evaluate a radiation detection architecture that reduces the risk of 
radiological and nuclear threats that could be illicitly transported on 
recreational craft or small commercial vessels. The pilot is being 
organized and coordinated through each port's Area Maritime Security 
Committee (AMSC), in close coordination with the U.S. Coast Guard 
(USCG), Customs and Border Protection (CBP) and the Domestic Nuclear 
Detection Office (DNDO).
    The pilot program explores the installation of advanced fixed-
position sensors as well as methods of deploying human-portable and 
boat-mounted radiation and nuclear detection equipment with public 
safety forces during routine public safety and enforcement operations.
    There are four phases to the pilot project:
  --Initial Architecture Analysis
  --Engineering Design
  --Delivery of Capability/Initial Training and workshops,
  --Assess & Document Lessons Learned
    We can provide a briefing if further information is requested.
    The pilots are funded by DNDO as follows:
  --Fiscal year 2007--$1.1 million
  --Fiscal year 2008--$4.1 million (estimated)
  --Fiscal year 2009--$11.4 million (requested)
    Initial funds were provided to DNDO through the ``Research, 
Development and Operations'' appropriation in fiscal year 2007.
    There are four phases to this pilot project in each port, and the 
pilot is currently in the Engineering Design phase in Puget Sound and 
Initial Analysis phase in San Diego. The fourth phase, Assess & 
Document Lessons Learned, will culminate in fiscal year 2010; however 
workshops and exercises will be conducted intermittently throughout the 
project.
    There is one particular lesson readily apparent from the efforts 
that are underway in both Puget Sound and San Diego. There needs to be 
greater awareness about the potential threat of a small vessel 
smuggling weapons of mass destruction, and the vulnerability of these 
ports to radiation/nuclear smuggling or a direct attack. This pilot 
project, along with other Department of Homeland Security Small Vessel 
Security initiatives, is an important step in expanding the education 
of, and communication and coordination with, the small vessel community 
and local public safety officials.
    There is currently no intention to conduct additional pilot 
projects beyond the existing scope of Puget Sound and San Diego. The 
fiscal year 2009 President's Budget Request for DNDO includes $11.412 
million to continue these pilots.
Financial Management
    Question. The Inspector General reported that the majority of the 
department's material weaknesses in internal control are attributable 
to conditions existing at the Coast Guard. The Commandant recently 
testified that corrective action plans are in place to remedy ongoing 
material weaknesses. What steps are being taken by the Coast Guard's to 
improve these weaknesses?
    Answer. The Coast Guard's plan to achieve financial statement audit 
readiness, per Admiral Allen's testimony on March 5, 2008, will be 
delivered to the appropriations committee in April 2008.
Polar Icebreakers
    Question. In a speech to the Surface Navy Association's annual 
conference on January 16, 2008, Coast Guard Commandant Thad Allen 
called for a national dialogue on U.S. national security interests in 
the Arctic. Two of the three Coast Guard icebreakers are well beyond 
their expected mission life. The POLAR STAR is in caretaker status and 
the POLAR SEA has approximately 7-10 years of service life remaining. 
The budget includes no funding to bring the POLAR STAR out of caretaker 
status nor does it request funds to build a new icebreaker. Given that 
it would take approximately 10 years to build a new icebreaker, what is 
the President's policy for replacing or maintaining the Coast Guard's 
aging icebreakers?
    Answer. The administration is currently conducting a review of our 
national Arctic policy. A national policy must precede a mission needs 
statement and any investment in existing or new icebreakers. POLAR 
SEA's recent overhaul is expected to extend her service life through 
2014. POLAR STAR remains available for reactivation from caretaker 
status.

                      UNITED STATES SECRET SERVICE

    Question. The Secret Service has developed respectable competencies 
with regard to cyber crime and security. It is surprising that no 
additional funding was requested for Secret Service efforts, given the 
current threat. Why were no additional resources requested?
    Answer. The fiscal year 2009 budget also allows the Secret Service 
to continue to vigorously pursue criminals who engage in counterfeiting 
and financial and electronic crimes. The Agency will maximize the use 
of the agency's resources, particularly during the presidential 
campaign and post-election activities, and continue to investigate 
cases that have a significant impact on our communities and on those 
that pose the greatest risk to our Nation's critical financial 
infrastructure. Over the years, the Secret Service has established a 
national network of 24 Electronic Crimes Task Forces and 29 Financial 
Crimes Task Forces in major metropolitan areas across the United 
States. These task forces leverage the combined resources of our 
Federal, State, and local law enforcement partners, as well as 
technical experts from academia and private industry, in an organized 
effort to combat threats and effectively investigate crimes directed at 
our critical infrastructure. Collaboration between law enforcement and 
the private sector is critical to the Secret Service's preventative 
approach to financial and electronic crimes. The Secret Service also 
builds partnerships with academia to ensure that the agency's workforce 
is on the cutting edge of technology by leveraging the research and 
development capabilities of teaching institutions.
    To provide its special agents with the advanced skills needed to 
identify and address cyber vulnerabilities, the Secret Service 
established the Electronic Crimes Special Agent Program (ECSAP) in 
1987. Agents trained through ECSAP are computer specialists, qualified 
to conduct network intrusion investigations and forensic examinations 
of various types of electronic evidence, including computers, personal 
data assistants (PDAs), telecommunications devices, electronic 
organizers, and other electronic media. As of the end of fiscal year 
2007, the Secret Service had approximately 770 ECSAP-trained agents 
assigned to more than 85 offices worldwide.
    Recognizing the value of this program, the Secret Service expects 
to have over 1,000 ECSAP-trained agents by the end of fiscal year 2008. 
Further, the Secret Service will have a key role in the implementation 
of the administration's cybersecurity initiatives, as outlined in the 
recent Presidential directive addressing the administration's 
cybersecurity policy.
    Question. Secret Service has encountered cyber criminals who have 
assembled vast databases of credit card numbers and other financial 
information. Are you concerned that terrorists or hostile nations could 
leverage this criminal activity to attempt to destabilize our banking 
system?
    Answer. The Secret Service is currently conducting numerous 
undercover cyber investigations based in Eastern Europe that target 
suspects involved in various illegal activities to include the 
manufacturing, purchase, sale, and exploitation of various financial 
instruments and personnel identification information. Eastern European 
hackers currently pose the biggest threat to the U.S. banking system 
and financial infrastructure. To date, these hackers have been content 
to steal information at a pace which does not destabilize our banking 
industry; however, these hackers can cause significant financial damage 
to thousands of individuals in a short amount to time.
    In mid-2007, one such Secret Service investigation resulted in the 
identification and arrest of a foreign national who was a large-scale 
trafficker of stolen identities and financial account information. This 
individual routinely conducted sales of hundreds of thousands of stolen 
account numbers. Through this investigation, another foreign national 
was identified as a primary co-conspirator and supplier of stolen 
information and account numbers. Evidence indicated that this second 
foreign national was actively involved in multiple data breaches 
involving millions of credit card accounts.
    Based on this information, and through ongoing Secret Service 
investigations, indictments were issued for the second target. 
Recently, this second individual was arrested with the cooperation of 
international law enforcement authorities. Extradition proceedings have 
commenced for this individual who has been linked to intrusions 
resulting in losses exceeding $100 million.
    On a larger scale, though not for financial gain, Russia-based 
hackers used a worldwide botnet of approximately 1 million hijacked 
computers to flood Estonian private industry and government websites 
and e-mail systems with hits and messages. The cumulative effect of 
this malicious botnet, which was launched to make a political 
statement, was an information overload and temporary shutdown of 
Estonia's computer networks.
    As these examples show, it is possible that Eastern European 
hackers could unite and attempt a coordinated attack on the U.S. 
banking system. This attack could have severe short-term consequences 
such as the disruption of financial services and a drop in consumer 
confidence in the security of financial transactions.
    While Asian-based hackers have been targeting U.S. government 
computer networks for years, the Secret Service has also seen interest 
from these hackers in infiltrating the U.S. banking system. This 
potential threat should be closely monitored and a swift response 
should be taken if evidence shows that these hackers start to 
aggressively target any part of the U.S. financial infrastructure.
    Question. What agency is/would be responsible for studying and 
mitigating such a potential threat? What percentage of credit card 
activity is estimated to be fraudulent? What percentage of debit card 
activity is estimated to be fraudulent?
    Answer. The Secret Service has taken a lead role in investigating 
and dismantling international networks of online cyber criminals with a 
focus on its core jurisdictions of investigating financial crimes, to 
include access device fraud, computer fraud, and identity theft.
    The Secret Service has adapted its traditional investigative 
techniques into the virtual world of cyber space, which has no 
international boundaries or time constraints. The Secret Service 
protects the financial infrastructure of the United States by 
investigating offenses involving identity theft (18 USC 1028), access 
device fraud (18 USC 1029) and computer crimes (18 USC 1030).
    In areas of concurrent investigative jurisdiction with the Federal 
Bureau of Investigation (FBI) (e.g., access device fraud, identity 
fraud, computer crime), the Secret Service and the FBI abide by a 
Memorandum of Understanding (MOU). As stated in the purpose section of 
the MOU, ``The intention of this agreement is to promote efficiency of 
operation, prevent the overlapping and duplication of investigative 
responsibilities and to avoid confusion . . . concerning the 
appropriate agency to contact regarding possible violations of 
respective statutes.'' Secret Service investigators work in partnership 
with State and local law enforcement agencies. While a mutual interest 
and benefit exists for all agencies involved, the work is not 
duplicative because the Secret Service and State and local agencies 
consult with one another to investigate a case once, instead of 
multiple agencies investigating the same case(s) simultaneously.
    Due to the complexity and reluctance of reporting internal fraud 
losses that are sustained by financial institutions, credit card 
companies, and retail corporations that issue credit cards, 
ascertaining an accurate percentage of fraudulent credit card activity 
has proven to be difficult. As a result, a reportable percentage is not 
available.
    In fiscal year 2007, the Secret Service arrested over 4,300 
suspects for financial and electronic crimes violations. These suspects 
were responsible for approximately $690 million in actual fraud loss to 
individuals and financial institutions, with an estimated potential 
fraud loss of $4.35 billion.
    For debit cards and for the same reasons discussed in the response 
to the previous question, ascertaining an accurate percentage of 
fraudulent debit card activity is also difficult. However, despite this 
difficulty, and based on the evidence gathered in access device fraud 
investigations, it is fair to say that credit card account information 
and debit card account information is stolen with similar ease. In 
other words, a consumer is not more vulnerable to the theft of account 
information using a credit card as opposed to a debit card, or vice 
versa. The vulnerability of the consumer lies in the source of the 
funds to which an identity thief is given access with the stolen 
account information, such that, with debit card account information, an 
identity thief can directly deplete a consumer's checking account.
    Question. What efforts, if any, are underway to avoid this?
    Answer. Investigative efforts of the Secret Service focus on 
education, prevention, detection, mitigation, and aggressive 
investigation of cyber attacks on our Nation's financial payment 
systems and critical infrastructures.
    The Secret Service has responsibility within the DHS to conduct 
cyber and electronic crimes investigations. To protect the United 
States financial infrastructure from cyber threats, the Secret Service 
operates the following programs:
  --Electronic Crimes Special Agent Program (ECSAP)
  --Electronic Crime State and Local Program (ECSLP)
  --Electronic Crimes Task Forces (ECTF)
  --Criminal Intelligence Section (CIS)
    ECSAP agents are trained to respond to network intrusions and 
conduct forensic examinations on electronic evidence obtained from 
computers, personal data assistants, electronic organizers, 
telecommunications devices, and other forms of electronic devices.
    The Electronic Crime State and Local Program (ECSLP) was designed 
to train State and local officers as certified computer forensic 
specialists and network intrusion responders.
    The ECTF program focuses on the prevention, detection, mitigation, 
and aggressive investigation of cyber attacks on our Nation's critical 
infrastructure and financial payment systems. ECTFs identify and 
address potential cyber vulnerabilities before the criminal element 
exploits them. This proactive approach has successfully prevented cyber 
attacks that otherwise would have resulted in large-scale financial 
losses to U.S. based companies or disruptions of critical 
infrastructure.
    CIS collects, analyzes and disseminates data in support of Secret 
Service investigations, domestically and overseas, and generates new 
investigative leads based upon this intelligence. The CIS penetrates, 
disrupts, and dismantles online criminal networks.
    Question. The budget proposes earmarking protection for the Vice 
President once he leaves office. Protection for the former Vice 
President is important, but why is this earmark necessary given every 
modern Vice President has received such protection in the past without 
a similar carve out?
    Answer. Secret Service protection for former vice presidents is not 
without precedent. There were time limited (up to 6 months) provisions 
for extended protection for former Vice Presidents Gore, Quayle, 
Mondale, Rockefeller, Agnew, and Humphrey. In some cases, protection 
was extended for spouses and children. The method for extending Secret 
Service protection in these cases was Executive Memoranda or a Joint 
Resolution of Congress.
    The Secret Service is not currently authorized to extend protection 
to vice presidents. The provision to extend protection for the current 
Vice President and Mrs. Cheney, and future vice presidents and their 
spouses, was included in the President's fiscal year 2009 budget in an 
effort to be transparent about the need for such authority.
    Question. Why weren't resources included in the request to cover 
such protection?
    Answer. No resources were requested because no authority existed at 
the time for providing post-term protection to the Vice President. 
Also, because of the pre-existing practice of protecting former Vice 
Presidents, this activity was already budgeted for in Base resources.
    Question. Where would the Department propose to make up any 
shortfall caused by the earmark?
    Answer. The current budget does provide funding for protection of 
the former Vice President. However, depending on the amount of time 
protection is provided to the Vice President after he leaves office, 
providing this protection may or may not create any budgetary problems 
for the Secret Service. To the extent that it did cause significant 
funding problems, it may require a reprogramming of funds--either 
within the Secret Service or elsewhere within the Department.
    Question. Why does the Department earmark resources for the 
National Center for Missing and Exploited Children? This is a worthy 
cause and I support earmarks of this nature, but the administration has 
made quite a fuss about earmarking and it is unclear why this is an 
exception. Why is this an exception? Would it not make more sense to 
compete this grant?
    Answer. The provision of resources for the National Center for 
Missing and Exploited Children has been done for the past 12 fiscal 
years. It began with the Omnibus Consolidated Appropriations Act of 
1997 when the Congressional Appropriations Committees provided 
$1,400,000 to the Secret Service from the Violent Crime Trust Fund to 
be available for a grant for activities related to investigations of 
missing and exploited children. The Conference Report accompanying this 
appropriations act indicated that, ``. . . of this amount, $400,000 is 
for two additional full time employees within the Secret Service to 
target child exploitation and pornography; $765,000 is dedicated for a 
grant to the National Center for Missing and Exploited Children (NCMEC) 
to establish an Exploited Child Unit, and $235,000 is provided to 
support the training of additional volunteers through NCMEC's Project 
ALERT. The conference agreement assumes funds of $1.2 million through 
the Secret Service Salaries and Expenses appropriation for the 2nd and 
3rd years of operating the Exploited Child Unit at the NCMEC.''
    As indicated, the appropriations language for the Service's 
Salaries and Expenses appropriation for fiscal year 1997 contained 
verbiage indicating,  . . . of which $1,200,000 shall be available as a 
grant for activities related to the investigations of missing and 
exploited children and shall remain available until expended.''
    In the Treasury and General Government Appropriations Act of 1998, 
the Congressional Appropriations Committees placed resources for 
investigations of missing and exploited children in the funding 
provided to the U.S. Secret Service from the Violent Crime Reduction 
Trust Fund: ``For activities authorized by Public Law 103-322, to 
remain available until expended, which shall be derived from the 
Violent Crime Reduction Trust Fund, as follows: (1) As authorized by 
section 190001(e), of which . . . $2,571,000 for forensic and related 
support of investigations of missing and exploited children, of which 
$571,000 shall be available as a grant for activities related to the 
investigations of exploited children and shall remain available until 
expended''. The Conference Report stated accompanying this 
appropriation stated: ``In fiscal year 1997, the Committees provided 
start up costs for the operation of the Exploited Child Unit at the 
National Center for Missing and Exploited Children as well as 
sufficient funds for the operation of this unit through fiscal year 
1999. The Committees have had the opportunity to review the work of 
this Unit and are pleased with the progress being made in the 
integration of investigations of exploited children with investigations 
being conducted through the National Center for Missing and Exploited 
Children in recovering missing children. The conferees wish to express 
continued support for the work of this Center as well as the 
cooperation being provided by the Secret Service through the use of 
forensic technologies. The conferees provided an additional $571,000 
for the operation of the Exploited Child Unit of the National Center 
for Missing and Exploited Children and encourages (sic) the Center to 
provide the Committees with periodic status reports of its 
investigative efforts.''
    Similar language was included in both the Omnibus Consolidated and 
Emergency Supplemental Appropriations Act of 1999, and the Treasury and 
General Government Appropriations Act of 2000, also with the funding 
coming from the Violent Crime Reduction Trust Fund, and with the grant 
amounts set at $1,196,000 and $2,200,000, respectively. The Conference 
Report for the fiscal year 1999 appropriation stated: ``Of the amounts 
provided for missing and exploited children, the conferees agree to 
provide $1,196,000 for the continued operations of the Child 
Exploitation Unit at the National Center for Missing and Exploited 
Children.'' Likewise, the Conference Report for the fiscal year 2000 
appropriation indicated that the funding provided includes ``$2,200,000 
for grant assistance for the Exploited Child Unit of NCMEC.''
    In the Consolidated Appropriations Act of 2001, the verbiage 
providing grant funding was returned to the appropriations language for 
the U.S. Secret Service, and read as follows: `` of which $3,633,000 
shall be available as a grant for activities related to investigations 
of exploited children and shall remain available until expended,''. The 
House and Conference Committee reports were silent on the funding for 
investigations of missing and exploited children; however, the Senate 
Report indicated ``The Committee has included $3,196,000 for the 
Service's operation costs of the exploited child unit, associated with 
its continued efforts with the National Center for Missing and 
Exploited Children, including $1,196,000 for activities related to 
investigations of exploited children.''
    Likewise, similar verbiage has been included in the appropriations 
language for the Secret Service, and the Conference Reports 
accompanying these appropriations for fiscal year 2002 through fiscal 
year 2007, with the following amounts in grant funding specifically 
provided by the Congress for the National Center for Missing and 
Exploited Children:
  --Fiscal year 2002--$3,009,000
  --Fiscal year 2003--$4,583,000
  --Fiscal year 2004--$5,000,000
  --Fiscal year 2005--$5,000,000
  --Fiscal year 2006--$5,500,000
  --Fiscal year 2007--$6,000,000

            Protection, Preparedness, Response and Recovery

              NATIONAL PROTECTION AND PROGRAMS DIRECTORATE

    Question. Last year, the President signed into law new authority 
for the Department of Homeland Security to regulate ammonium nitrate. 
To date the Department has not notified the Committee of any actions it 
might take to enforce the new law, nor does the Department request 
resources in fiscal year 2009 to do so. Does the Department intend to 
regulate this chemical? If so, when might the Committee expect to see 
an implementation plan, including resource requirements to do so?
    Answer. This requirement is found in the Consolidated 
Appropriations Act, 2008, Division E--Department of Homeland Security 
Appropriations Act, 2008, Title III--Protection, Preparedness, 
Response, and Recovery, under Infrastructure Protection and Information 
Security and is related to a request in the Joint Explanatory Statement 
to Accompany Consolidated Appropriations Amendment report. The request 
in the Joint Explanatory Statement includes:

    ``. . . statutory provision establishing a registration system for 
producers, sellers, and purchasers of ammonium nitrate, as proposed by 
the Senate. Within 60 days of enactment of this act, the Deputy Under 
Secretary for Protection and Programs is directed to provide the 
Committees on Appropriations a plan to implement this new provision, 
including an analysis of the resources required to do so, and a 
proposal for reallocating funding within the National Protection and 
Programs Directorate budget to fund this initiative.''

    DHS is working on a preliminary informational document to provide 
the scope of effort and the estimated resource requirements. Additional 
time is required to complete a more detailed concept of operations and 
an implementation strategy to establish a national level registration 
system for Ammonium Nitrate.
    Question. To date, the Department has taken no action to change its 
chemical site security regulations to reflect that preemption is no 
longer assumed, even though President Bush signed this clarification 
into law on December 26, 2007. When can I expect to see a change in the 
regulation to reflect the law?
    Answer. The Department does not plan to change the Chemical 
Security regulation. The rule itself establishes a process to receive 
requests for opinions on preemption questions.
    Question. I see in your written statement that one of the 
Department's key accomplishments was establishing the new National 
Computer Forensics Institute in Hoover, Alabama. This administration 
earmark had surprised many of us in Congress, particularly since the 
earmarked resources hadn't been specifically requested. Are there any 
other facilities or programs the Department intends to earmark through 
administrative policy in fiscal year 2008 or fiscal year 2009?
    Answer. The establishment of the National Computer Forensics 
Institute (NCFI) and the agreement with the City of Hoover, was not an 
earmark. The placement of NCFI in Hoover was initiated only after 
internal analysis and cost-benefit review showed that other Federal 
locations and options could not meet the requirements for the 
Institute. The facility was not an administration earmark, and by 
policy the administration has not earmarked facilities or programs in 
either fiscal year 2008 or 2009.
    Question. According to the 9/11 Commission, information sharing is 
a critical to the success of defending the Nation from terror. I 
support the fostering of information sharing. I note there are a number 
of technologies and infrastructures that have been built and are 
proposed for construction that will putatively aid information sharing, 
however; it is unclear how these technologies fit together and whether 
they truly aid rather than overwhelm end users.
    Please provide a copy of any Department-wide information sharing 
strategic planning documents.
    Answer. DHS is the process of finalizing an Information Sharing 
(IS) Strategy for the Department of Homeland Security, a copy of which 
will be provided upon its completion. The strategy is designed to 
provide high level guidance for all DHS information sharing efforts. A 
critical capstone document, it sets forth a transformation statement 
and outlines the guiding principles, critical challenges, objectives, 
information sharing standards and security, performance measures, and 
communications for improving information sharing. The strategy will 
help implement the ``One DHS'' vision and priorities for information 
sharing. It supports and reinforces the National Strategy for 
Information Sharing released in October 2007, the updated 2007 National 
Strategy for Homeland Security, and the November 2006 Implementation 
Plan of the Program Manager for the Information Sharing Environment.
    A copy of the Secretary's memorandum establishing ``One DHS'' for 
information sharing follows:

                               MEMORANDUM

                                                  February 1, 2007.
MEMORANDUM TO: All Department of Homeland Security Components
FROM: Secretary Michael Chertoff
SUBJECT: DHS Policy for International Information Exchange and Sharing

    In order to promote a united, Department-wide information-sharing 
environment, it is critical that each DHS component gives the highest 
priority to the sharing of potential terrorism, homeland security, law 
enforcement, and related information.\1\ DHS personnel must have timely 
access to all relevant information they need to successfully perform 
their duties. Therefore, absent any legal prohibitions as set forth by 
the Department's General Counsel, information shall be shared within 
DHS whenever the requesting officer or employee has an authorized 
purpose for accessing the information in the performance of his or her 
duties,\2\ possesses the requisite security clearance, and assures 
adequate safeguarding and protection of the information. Furthermore, 
all DHS components are considered part of one ``agency'' for purposes 
of the Privacy Act 5 U.S.C. Sec. 552a(a)(1), (b)(1). No DHS component 
should consider another DHS component to be a separate agency for 
information-sharing purposes.
---------------------------------------------------------------------------
    \1\ Terrorism information'' means all information relating to the 
existence, organization, capabilities, plans intentions, 
vulnerabilities, means of finance or material support, or activities of 
foreign or international terrorist groups or individuals, domestic 
groups or individuals involved in terrorism, to threats posed by such 
groups or individuals to the United States, United States persons, or 
United States interests, or to those of other nations, or to 
communications between such groups or individuals, and to information 
relating to groups or individuals reasonably believed to be assisting 
or associating with them.
    \2\ In some circumstances, DHS personnel will have ``an authorized 
purpose for accessing the information in the performance of [their] 
duties'' if their responsibilities necessitate access to an individual 
piece of information. In other circumstances, DHS personnel will have 
the requisite authorized purpose if their responsibilities necessitate 
access to an entire class or category of information.
---------------------------------------------------------------------------
    The Assistant Secretary for Intelligence and Analysis is the DHS 
official responsible for assessing and analyzing all terrorism, 
homeland security, and related law enforcement and intelligence 
information received by the Department. As such, I direct that each 
component conduct an immediate review of its existing information-
handling procedures and ensure that appropriate mechanisms are in place 
to provide the Office of Intelligence and Analysis (I&A) with access to 
all potential terrorism, homeland security, law enforcement, and 
related information, including foreign intelligence information.\3\ 
Like all DHS components, I&A likewise is under an obligation to share 
information in its possession appropriately across the Department. To 
facilitate this and other homeland-security-related information-sharing 
activities, each component's information sharing action officer should 
be prepared to work with I&A and the coordinating principals of the 
Offices of Policy and Operations, as well as the Chief Information 
Officer, which shall constitute the DHS Information Sharing Governance 
Board.
---------------------------------------------------------------------------
    \3\ ``Terrorism information'' is defined in footnote 1. ``Homeland-
security information'' has the same meaning as in Section 892(f)(1) of 
the Homeland Security Act of 2002. As used in this directive, ``law 
enforcement information'' refers to law enforcement information 
relating to terrorism or the security of our homeland. ``Foreign-
intelligence information'' means information relating to the 
capabilities, intentions, or activities of foreign governments or 
elements thereof, foreign organizations, or foreign persons, or 
international terrorist activities.
---------------------------------------------------------------------------
    Additionally, I direct all DHS components, with the Chief 
Information Officer, to ensure that each DHS employee has access to all 
information pertinent to his or her responsibilities. DHS must move to 
standardize the technology used to describe, access, exchange, and 
manage information in our automated systems, so that we and our 
partners can easily locate and effectively use the most current and 
complete data available in support of our vital missions.
    No component of DHS shall promulgate information-handling 
guidelines or enter into agreements that are inconsistent with any 
aspect of this policy, unless otherwise and expressly authorized by the 
Secretary. The presumption is that information will be shared, not 
hoarded. Furthermore, each internal or external information-sharing 
agreement to which any DHS component already may be a party, even if 
entered into prior to the Department's creation, shall be interpreted 
consistent with this policy, to the extent the terms of the agreement 
permit such an interpretation. As such, I direct all components, in 
coordination with the Office of the General Counsel, to take immediate 
steps to amend any existing agreement, procedure, or guideline that is 
not capable of being interpreted consistent with this policy, or that 
otherwise does not facilitate the sharing of information with other 
components. From this point forward, information-access and -sharing 
agreements with outside entities will be negotiated and entered into on 
behalf of the Department as a whole, not on behalf of an individual DHS 
component.
    In order to establish a central repository of all such agreements, 
each DHS component is directed to provide copies of all information-
access and -sharing agreements, including and indicating those 
referenced in the previous paragraph, to the DHS Executive Secretariat 
by February 15, 2007. With each submission, the component shall clearly 
indicate whether it believes the agreement is compliant or non-
compliant with this policy and, if compliant, with which other 
components the information is shared.
    It is critical to the security of our Nation that we share 
information in an environment that is free of unnecessary limitations 
or constraints. But while doing so, we must ensure the integrity of 
ongoing law enforcement and intelligence investigations. We must also 
ensure that DHS's information-sharing practices are conducted in a 
manner consistent with the law, including Federal privacy and civil 
rights laws. To that end, the Office of General Counsel, the Privacy 
Office, the Office for Civil Rights and Civil Liberties, and the 
Information Sharing Governance Board will continue to work closely with 
DHS components and monitor their information-management processes to 
ensure that privacy, civil rights and civil liberties, and other legal 
protections are fully respected.
    Finally, if any components experience data-access denials or delays 
which they are unable to resolve, they are to bring the matter to the 
attention of the Information Sharing Governance Board, Deborah Draxler 
(I&A) at 202-282-8516, or Jonathan Frenkel (Policy) at 202-282-8478. 
Further direction will be forthcoming on the implementation of the 
policies, programs, and procedures described herein, including those 
relating to the Information Sharing Governance Board.
                                 ______
                                 

    Question. How are information sharing requirements between agencies 
and Departments coordinated and prioritized?
    Answer. Information sharing requirements can be categorized into 
two groups: tactical data-centric standards, protocols, and design 
principles; and information sharing business needs.
    The detailed, data-centric requirements and standards for 
information sharing are coordinated through the DHS/Chief Information 
Officer's Enterprise Data Management Office EDMO and Enterprise 
Architecture (EA) Program Office, the Office of Intelligence & 
Analysis's (I&A's) Information Sharing and Collaboration (IS&C) Branch, 
and a number of cross-agency and cross-Departmental working groups such 
as the National Information Exchange Model Program Management Office (a 
partnership between the Department of Justice and DHS) to define 
Federal information exchange standards and processes. These 
requirements are then prioritized and incorporated into the DHS EA 
through the Enterprise Architecture Center of Excellence and ultimately 
the Enterprise Architecture Board.
    The process for coordination and prioritization of information 
sharing to meet DHS business needs is maturing. DHS has established a 
three-tiered information sharing governance structure to identify 
information sharing gaps and be the decision making and action body for 
all information sharing issues. The governance structure is comprised 
of the Information Sharing Governance Board (ISGB), an executive 
steering committee, the Information Sharing Coordinating Council 
(ISCC), an action body, and Integrated Project Teams, formed to 
research specific issues. The ISGB is chaired by the Under Secretary 
for Intelligence & Analysis, who has been given the authority for 
information sharing across the Department. The ISCC, which is chaired 
by the Chief, I&A/IS&C, is comprised of action officers representing 
all DHS components and offices on information sharing issues. 
Supporting the ISGB and the ISCC, are Shared Mission Communities 
(SMCs). SMCs are cross-departmental forums that address barriers and 
requirements for information sharing for missions that span multiple 
DHS components (e.g. law enforcement).
    A major responsibility of this information sharing governance 
structure is the identification and resolution of information sharing 
requirements--both internal to DHS and between DHS and other 
departments and agencies. ISGB actions focus on needed policy changes 
and the establishment of Information Sharing and Access Agreements 
(ISAAs) to promote and implement information sharing. For information 
sharing requirements which require information technology investment 
decisions, the process is under development for the ISGB to provide 
prioritized input into DHS program, budget, and acquisition decision 
processes.
    Question. What are the major information sharing gaps currently 
identified (and which planning body has made this identification)?
    Answer. The Performance Budget Overview ISAA Measure identifies the 
percentage of component-to-component relationships documented through 
ISAAs. In 2007, DHS Components confirmed that 116 of 166 critical 
component-to-component information sharing relationships were 
documented with agreements (70 percent). The information sharing 
governance structure is currently working with individual DHS 
components to develop ISAAs, where needed, to promote better 
information sharing.
    The SMCs (described above) are currently being established and will 
be the focus for identifying information sharing gaps both within DHS 
and with external departments and agencies. The Law Enforcement Shared 
Mission Community (LE-SMC) is the first SMC to be established. It is 
currently working to identify information sharing gaps specific to law 
enforcement. Once identified, the LE-SMC will make recommendations to 
the ISCC and the ISGB on changes in policy, processes, and/or 
information technology required to address these gaps. Other potential 
SMCs which have been identified include Critical Infrastructure & Risk, 
Intelligence Enterprise, Incident Management, Border Security, and 
Transportation. Similar to the LE-SMC, these SMCs will be responsible 
for identifying information sharing gaps in their specific mission 
areas and make recommendations on any needed changes in policy, 
processes, and information technology to the ISCC and ISGB.
    Question. How does the proposed National Command and Control 
Capability address any identified gaps in these planning documents?
    Answer. NCCC Initial Operating Capability (IOC) will provide 
classified and unclassified, mobile and fixed communications capability 
such as video teleconferencing (VTC) as well as basic information-
sharing tools such as email and phone directories, web browsing, and 
access to government portals such as the Homeland Security Information 
Network. The National Command and Coordination Capability (NCCC) uses 
existing programs to connect the White House, Federal agencies and key 
Federal operations centers, and State decision makers. In addition to 
Federal locations, the goal is to put the NCCC in 56 Governors' 
offices, 56 State Emergency Operations Centers, and key State fusion 
centers as part of the IOC.
    NCCC IOC will also provide assured secret level and sensitive but 
unclassified reliable voice and data in the mobile environment to the 
91 principals, the President, and Vice President of the United States.
    Question. What will the total cost of the National Command and 
Control Capability be when it has achieved its final operational 
capability?
    Answer. The objective of the National Command and Coordination 
Capability (NCCC) Full Operational Capability (FOC) is to improve key 
decision makers' crisis-management ability at all levels of government. 
The projected 8-year cost estimate (fiscal years 2007-2014), which will 
complete Initial Operating Capability (IOC) phase of the project and 
establish FOC capabilities is approximately $400 million. However, it 
should be noted that other Federal agencies will absorb the cost of 
NCCC deployment within their base budgets and that DHS will seek 
funding solely for its internal deployment, system operation and 
maintenance and deployment to State locations. The FOC goal of 
providing better tools and access to information for key decision 
makers will be accomplished by collaborating across the various levels 
of government to identify existing applications (e.g., Department of 
Defense [DOD] crisis management situation awareness tools) that can 
augment the IOC capability; and leveraging the Director of National 
Intelligence, DOD, and Department of Homeland Security data strategies 
to make more information available to all levels of government. Further 
definition of FOC will be based on future budget cycles and approved 
user requirements.
    Question. Cyber security has taken on enhanced importance in view 
of the increased threat. According to the unclassified, Annual Report 
to Congress on Foreign Economic Collection and Industrial Espionage--
2005, prepared by the Office of the National Counterintelligence 
Executive. Foreign collection efforts have hurt the United States in 
several ways. The technology losses have:
  --Eroded the U.S. military advantage by enabling foreign militaries 
        to acquire sophisticated capabilities that might otherwise have 
        taken years to develop.
  --Undercut the U.S. economy by making it possible for foreign firms 
        to gain a competitive economic edge over U.S. companies.
    Meanwhile, DHS defensive efforts appear solely aimed at helping 
secure government networks. Also, much of the information regarding the 
threat is classified.
    Does the Department believe that those responsible for defending 
private infrastructure, such as the banking and finance sector, have 
all the information they need to appropriately defend themselves 
against the cyber threat?
    Answer. Security partners responsible for defending critical 
infrastructure and key resources (CIKR), including private-sector 
owners and operators and government departments and agencies, are 
increasingly receiving information on cyber threats and vulnerabilities 
to defend their networks more effectively. As part of the National 
Cyber Security Division's (NCSD's) collaborative engagement with 
private-sector owners and operators, we conduct regular quarterly 
meetings with Information Technology Sector security partners to 
develop, review, and exchange strategic and tactical intelligence 
information and improve processes for sharing information. In addition 
to these regular meetings, NCSD conducts ad-hoc meetings with security 
partners across the critical infrastructure sectors as needed to share 
actionable information.
    For example, in late November 2007, the United States Computer 
Emergency Readiness Team (US-CERT) issued both a Critical 
Infrastructure Information Notice (CIIN) and a similar Federal 
Information Notice (FIN) that alerted industry and Federal partners to 
ongoing cyber attacks intended to compromise their systems. These 
notices included indicators of cyber threats that, if detected, could 
be used to identify and track malicious cyber activity targeting 
networks and data. Following the CIIN and FIN release, NCSD coordinated 
meetings at both the classified and unclassified levels with multiple 
security partners to discuss the threat, including cyber CIKR security 
partners through the Cross-Sector Cyber Security Working Group 
(CSCSWG). The CSCSWG includes private- and public-sector security 
partners with cyber security expertise from each of the 17 CIKR 
sectors. The group was established under the Critical Infrastructure 
Partnership Advisory Council following development of the Sector 
Specific Plans to facilitate further the identification of systemic 
cyber risks and mitigation strategies for the Nation's CIKR sectors. 
NCSD has had several Federal, State, and private-sector organizations 
report that they were able to detect intrusions to their networks based 
on the information provided. In January 2008, we also shared a Cyber 
Intelligence Note from the Department's Office of Intelligence and 
Analysis discussing cyber attacks on control systems overseas.
    These two examples highlight the Department's ongoing commitment to 
sharing timely and actionable cyber intelligence information with our 
security partners. Our efforts have improved information sharing in the 
last year, and we need to continue to enhance our capabilities to 
provide useful information and to expand our reach to more partners 
that manage the security of our networks.
    Question. How is that information being shared if it is classified?
    Answer. The National Cyber Security Division (NCSD) regularly 
conducts meetings with cleared information technology and cross-sector 
cyber security partners to share classified information. In addition to 
these meetings, we maintain a ``read-file'' of current classified 
documents in a secure facility, which cleared security partners can 
access and review by scheduling time with NCSD counterparts. The read-
file, which was established in November 2007, currently contains eight 
classified documents and 14 ``For Official Use Only'' documents. To 
share classified information beyond the Washington, DC, metropolitan 
area, we have conducted classified teleconferences and secure video 
teleconferences, and we are continually exploring additional 
mechanisms. These mechanisms are only effective if appropriate policy 
and operational decision makers have the necessary clearances to 
receive the information they need to protect their networks. As such, 
the Department also sponsors clearances for select sector security 
partners under the National Infrastructure Protection Plan Sector 
Partnership Framework.
    Question. What is the ``end game'' or target environment envisioned 
by the completion of the cyber initiative? How are you measuring to 
know when you achieve it? What are the interim steps to achieving the 
target environment and how will you measure incremental progress?
    Answer. It is essential that we take proactive measures to enhance 
the security and resiliency of the information technology systems and 
networks on which our economy, critical infrastructure, and national 
security rely. The global threats to our cyber infrastructure are 
increasing through the exploitation of vulnerabilities facilitated by 
the widespread availability of tools, techniques, and information. 
These threats and activities are growing more sophisticated, more 
targeted, and more prevalent.
    The Cyber Initiative is a coordinated Federal effort to defend the 
Nation's critical networks and systems. The Cyber Initiative, which 
calls for programs such as the Trusted Internet Connections (TIC) 
initiative and enhancements to the Einstein program, enables strategic, 
cross-agency cooperation to engage in activities to improve Federal 
Government cyber security. These activities will increase capabilities 
to monitor, detect, and address cyber threats, and help to improve 
network security, the resilience of critical electronically delivered 
government services, and the survivability of the Internet.
    First, the reduction of external connections through the TIC 
initiative will provide the ability to establish a central oversight 
and compliance function. Current data show that Federal networks have 
more than 4,000 access points. The central management function that the 
TIC initiative provides will benefit Federal systems security by 
facilitating the implementation of standardized information security 
architectures. In addition, the TIC will improve 24-hour network 
monitoring capabilities across the Federal Government and enable faster 
and more effective response to cyber incidents.
    The TIC will also enable a more efficient rollout of Einstein, an 
intrusion detection system, across Federal networks to provide better 
situational awareness, earlier identification of malicious activity, 
and, overall, a more comprehensive network defense. Einstein is 
currently deployed at 15 Federal agencies, including the Department of 
Homeland Security, and the United States Computer Emergency Readiness 
Team (US-CERT) is in the process of deploying Einstein across all 
Federal departments and agencies. In the last year NCSD deployed an 
additional 39 Einstein sensors, increasing overall deployment by 243 
percent.
    The TIC initiative is a multifaceted plan to improve the Federal 
Government's security posture by significantly reducing the number of 
Federal external connections. Currently, there are several thousand 
Federal external connections, which inhibit the Federal Government's 
ability to implement standardized security measures effectively. The 
TIC initiative aims to reduce and consolidate external connections to 
create a more clearly defined ``cyber border.'' Fewer external 
connections will enable more efficient management and implementation of 
security measures and reduce avenues for malicious attacks. Once fully 
implemented, the TIC initiative will facilitate security architecture 
standardization for access points across the Federal Government.
    Enhancing the Einstein program is another critical element in our 
efforts to enhance cyber security across Federal departments and 
agencies. Einstein is a collaborative information-sharing program that 
was developed by US-CERT in response to increasingly common network 
attacks on and disruptions to Federal systems. The program helps 
departments and agencies protect their systems and networks more 
effectively by reporting information technology security-related 
information to the US-CERT. Einstein enhances situational awareness of 
attacks across the Federal Government's portion of cyberspace, allowing 
US-CERT and cyber security personnel to identify anomalies and respond 
to potential problems quickly. With the TIC initiative reducing the 
number of external connections, Einstein will be able to more 
effectively and efficiently monitor activity across Federal Government 
networks.
    Einstein reduces the time it takes to gather and share critical 
data on computer security risks from an average of 4 to 5 days to an 
average of 4 to 5 hours. Rapid notification results in the Federal 
Government being able to respond to incidents and mitigate potential 
problems more efficiently and effectively. Government-wide deployment 
of Einstein will further enhance US-CERT's ability to gain a more 
comprehensive view of Federal systems, increasing US-CERT's analytic 
capabilities and augmenting the extent and quality of US-CERT's 
information-sharing activities. Together with the TIC, broad deployment 
of Einstein will increase our ability to address potential threats to 
our Federal systems in an expedited and efficient manner.
    Government-wide deployment of the TIC and Einstein will enhance 
Federal Government cyber security by providing more robust security 
monitoring capabilities to facilitate the identification and response 
to cyber threats and attacks.
    The Department of Homeland Security and its interagency partners 
are committed to measuring progress against the Cyber Initiative goals. 
The Department has established performance measures to assess the 
effectiveness and efficiency of implementation of key Cyber Initiative 
activities such as the Trusted Internet Connections initiative and 
enhancements to the Einstein Program. The Department measures progress 
based on items such as:
  --The development of detailed plans for the reduction and 
        consolidation of Federal external access points, including 
        Internet access points;
  --The reduced number of Federal Internet access points;
  --The establishment and maintenance of a consistent set of controls 
        on Internet access points;
  --Increased identification of attacks and malicious activity on 
        Federal networks;
  --Reductions in response time to mitigate potential problems; and
  --Percent of planned Einstein sensors deployed annually throughout 
        the Federal Government.
    As the Cyber Initiative continues to evolve, additional metrics 
will be developed.
    Question. Does DHS's role as the focal point for critical 
infrastructure protection, particularly having many cybersecurity-
related roles and responsibilities, such as developing and enhancing 
national cyber analysis and warning capabilities, change under the 
President's initiative?
    Answer. The Department of Homeland Security's (DHS's) role as the 
focal point for critical infrastructure protection does not change 
under the Cyber Initiative. The Department aims to protect critical 
infrastructure and key resources, essential government operations, 
public health and welfare, and the Nation's economic and national 
security interests, and the Cyber Initiative aligns with our current 
capabilities and programs. The Department is committed to securing 
cyberspace by working collaboratively with public, private, academic, 
and international entities to enhance awareness and preparedness, as 
well as to ensure that the cyber elements of the critical 
infrastructure are resilient enough to withstand attacks without 
incurring catastrophic damage, responsive enough to recover from 
attacks in a timely manner, and resilient enough to sustain nationally 
critical operations. The Office of Cybersecurity and Communications 
within the Department will continue to fulfill our role as the Sector 
Specific Agency (SSA) for the Information Technology (IT) and 
Communications sectors, as well as our cross-sector cyber security 
responsibilities in collaboration with the National Infrastructure 
Protection Plan (NIPP) Sector Partnership Model, and the Department's 
Office of Infrastructure Protection.
    The Department's Critical Infrastructure Protection Cyber Security 
(CIP CS) Program reduces cyber risk and enhances cyber security under 
the NIPP framework as both a cross-sector cyber element that involves 
DHS, SSAs, and private-sector owners and operators and as a major 
component of the IT Sector's responsibility. Within the cross-sector 
cyber security role, CIP CS assists SSAs and other security partners 
with improving the cyber security of their respective CIKR cyber 
assets. We provide cyber functional expertise, guidance, and 
methodologies to sectors to assist them in mitigating cyber risk 
(including cyber infrastructure vulnerabilities) and in developing 
effective and appropriate protective measures. This support includes:
  --Contributing cyber elements to the NIPP;
  --Delivering cyber CIP guidance to SSAs and Sector Specific Plan 
        (SSP) authors to help them enhance the cyber aspects of their 
        risk management efforts;
  --Providing cyber expertise and content to various DHS risk 
        assessment methodologies (e.g., Risk Analysis and Management 
        for Critical Asset Protection (RAMCAP) and the Comprehensive 
        Review Program);
  --Meeting with SSAs to inform the development of their 2008 Sector 
        Annual Reports (SAR) and SSP updates, facilitating their access 
        to the information and resources needed to effectively fulfill 
        their requirements, and ensuring that the appropriate cyber 
        security criteria is addressed across all sectors;
  --Developing and piloting a methodology for identifying cyber assets; 
        and
  --Reviewing SSPs and SARs to ensure sectors' CIP efforts address 
        cyber assets and risks.
    Question. What is the purpose and status of the new program 
management office related to cybersecurity that has been created under 
the NPPD Under Secretary of DHS? What role does the Assistant Secretary 
for Cyber Security and Communications have in this effort?
    Answer. The cyber program management office is a coordinating body 
that helps coordinate across the Department and its interagency 
partners to manage the planning, development, and implementation of the 
Cyber Initiative.
    The Assistant Secretary for Cybersecurity and Communications has 
been and will continue to be engaged in the Cyber Initiative throughout 
its duration. The Assistant Secretary has responsibility for the 
National Cyber Security Division (NCSD) and NCSD's United States 
Computer Emergency Readiness Team (US-CERT). NCSD/US-CERT is deeply 
involved with the Trusted Internet Connections initiative and the 
Einstein program, two areas that are essential to the success of the 
Cyber Initiative. The Assistant Secretary is working to ensure that 
those two programs are successfully implemented.
    Question. Regarding the cyber initiative, can you elaborate on its 
total cost and the number of years it will take to implement? How was 
this total cost estimated?
    Answer. The Cyber Initiative includes a significant breadth and 
depth of investments within more than 20 Federal departments and 
agencies. The Cyber Initiative will take several years to reach the 
full operating capability outlined in the Cyber Initiative budget and 
planning documents and will require sustained investment to maintain a 
technological advantage over the Nation's cyber adversaries. This 
breadth and depth of investments, combined with the need for continued 
investment to keep pace with the evolution of technology, makes it 
difficult to calculate the life-cycle cost of the initiative. While the 
Cyber Initiative is not a one-time investment, participating agencies 
have made a concerted effort to fund the highest cyber security 
priority activities within the first several years of the plan. The 
fiscal year 2009 DHS budget request includes $197 million for this 
effort, and $1.39 billion is estimated in the Department's fiscal year 
2009-2013 Future Years Homeland Security Program to augment and enhance 
current DHS Cyber Security activities.
    The Cyber Initiative budget plans were constructed through broad-
based participation by the many agencies sharing the cyber security 
mission space. All levels of the Executive Branch were involved in its 
formulation, from operational end users of cyber technologies on the 
``front lines'' of the Nation's cyber security effort, to policy, 
legal, civil liberties, and privacy officers. Through careful, end-to-
end examination of technologies, systems, processes, and operations, 
the Federal cyber security community created a comprehensive plan. To 
maintain robust protection of Federal networks, the Federal cyber 
security community must keep pace with the evolution of technology by 
sustaining its development and deployment through and beyond the Cyber 
Initiative.
    Question. Why do you propose to move eLORAN to NPPD? What value 
will NPPD add to this system?
    Answer. Loran-C was used for many years in an ``unofficial'' 
capacity to disseminate Stratum 1 frequency stability for 
telecommunications providers. USCG also operated Loran-C overseas in 
support of Department of Defense Cold War operations for this very 
purpose--to provide a stable frequency reference for timing.
    With the advent of the Global Positioning System (GPS), the 
majority of positioning, navigation, and timing (PNT) users shifted to 
the improved capabilities afforded by GPS. New techniques that were 
wholly dependent upon the advanced capabilities of GPS began to emerge 
in all aspects of transportation and critical infrastructure. GPS 
eventually grew into an ``enabling'' critical infrastructure in its own 
right.
    GPS is easily jammed or interfered; hence, the need for a systemic 
complementary backup (eLORAN) to secure the continued operation of our 
transportation systems and critical infrastructure in the face of a 
loss of GPS PNT services.
    With the evolution of LORAN-C to eLORAN, a more appropriate steward 
needed to be found. eLORAN provides high navigation accuracy for 
maritime and first responders, high signal integrity for aviation non-
precision approach, and precise time and frequency for timing users 
across the entire Critical Infrastructure and Key Resources spectrum. 
eLORAN will serve as an independent, dissimilar, complement to GPS. It 
allows GPS users to retain the security benefits even when satellite 
services are disrupted. NPPD has a broad scope of responsibility for 
securing the national infrastructure against disruption.
    The National Protection and Programs Directorate (NPPD) will 
provide the appropriate leadership vision and planning necessary to 
ensure the transition from LORAN-C to eLORAN and the development of a 
robust eLORAN capability to support the critical infrastructures of the 
Nation. NPPD's expertise in telecommunications, cyber security, and 
critical infrastructure protection will provide a reliable foundation 
as eLOREN evolves.

                                US-VISIT

US-VISIT--Air Exit
    Question. What are the pros and cons of using the Transportation 
Security Administration security lines for conducting the ``exit'' 
function at airports?
    Answer. Competing and hybrid alternatives that satisfy the 
biometric air exit requirement produce numerous pros and cons depending 
on the specifics of the alternative. Some of the pros of using 
Transportation Security Administration (TSA) security lines and 
checkpoints to conduct the exit function at airports include:
  --The Government would control data at all times, which may be 
        perceived by some as providing better security and privacy of 
        the data.
  --The collection point is closer to the gate than pre-secure area 
        collection solutions and, therefore, makes it more noticeable 
        if a passenger leaves the airport without actually taking the 
        flight out of the United States. Airline confirmation that 
        biometrics have been collected at the gate may provide 
        flexibility.
  --Current technology systems could be used to support singular 
        builds, reducing the need for airlines to build multiple 
        individual systems.
  --It is a lesser-cost or no-cost solution for the airlines and would 
        be far less likely to be challenged politically or legally.
    Some of the cons of using the Transportation Security 
Administration security lines for conducting the exit function at 
airports include:
  --Checkpoints and airport configurations change frequently. TSA space 
        is Government-controlled, but the space available is often very 
        limited and varies by airport.
  --There will be a need for additional space in airports and seaports 
        for Government storage of equipment and back-up procedures.
  --TSA may need a n increase in staff to allow for biometric 
        collection by mobile device or will require additional space, 
        controls, and some staff to deploy exit by kiosk.
  --Airlines would be required to mark each individual's boarding pass 
        to indicate the need for collecting biometrics, or TSA 
        screeners would have to become familiar with a large array of 
        travel documents (which they are not currently required to 
        understand or necessarily use). Airline identification of US-
        VISIT-covered passengers during check-in may provide 
        flexibility.

                        OFFICE OF HEALTH AFFAIRS

    Question. The Department has recognized that nuclear terror, while 
improbable, is unique in the scale of its consequences. For this reason 
the Department established the Domestic Nuclear Detection Office and 
has proposed for fiscal year 2009 $564 million towards detecting a bomb 
before it enters the country. Other Federal agencies have related 
detection efforts underway, which account for hundreds of millions of 
more dollars each year. Despite many doubts that such efforts would be 
successful in detecting a bomb before it could do us harm, 
administration is planning for success. However, there seems to be 
little preparation should those efforts fail. In fiscal year 2007, $5.5 
million was provided to OHA for nuclear event public health assessment 
and planning and it appears some of that planning may soon come to 
fruition. It was disappointing that no follow-on funding was requested 
for fiscal year 2009.
    Does the Department believe that the current level of planning to 
mitigate the consequences of a nuclear attack is sufficient?
    Answer. Yes. DHS is pursuing a very comprehensive approach to 
planning for our response to the consequences of a nuclear attack. 
However, our understanding of this catastrophic threat is constantly 
evolving and the associated approaches and processes to plan for 
response to an attack are improving. Therefore, we expect to enhance 
and strengthen our planning even more in the coming months and years.
    As the Committee has noted, the majority of the Department's 
funding for addressing a nuclear attack is directed at the prevention 
pillar of the overall homeland security strategy, in accordance with 
the administration's priorities. DHS is the lead Federal agency for 
coordinating the implementation of all-hazards preparedness in the 
United States, and there are number of ongoing planning efforts to 
address nuclear incident response and consequence management. In that 
role, DHS leads the Federal interagency community in the development 
of:
  --the National Preparedness Guidelines that help define what it means 
        to be prepared for all incidents;
  --an integrated planning system that includes plans to address 
        nuclear incidents;
  --a National Exercise Program to ensure that exercises at all levels 
        of government are coordinated and integrated with effective 
        evaluation and dissemination of lessons learned; and
  --a comprehensive program to coordinate Federal preparedness training 
        to eliminate duplication and address training gaps identified 
        through exercises and responses to real world incidents.
    The Department conducts coordinated planning activities with the 
Federal interagency community at the strategic national level as well 
as at the operational level, and works with its State, local and 
private-sector partners to ensure all parties are aware of their roles 
and responsibilities should a major incident strike, including an 
Improvised Nuclear Device (IND) DHS, through FEMA, has responsibility 
for maintaining and updating the National Response Framework (NRF) and 
the relevant annexes that outline roles and responsibilities of 
departments and agencies associated with responding to these types of 
incidents. The Nuclear/Radiological Incident Annex (scheduled for 
completion in spring, 2008) is a key element of the Department's 
overall planning effort for a nuclear attack.
    The Nuclear/Radiological Incident Annex provides an organized and 
integrated capability for a timely, coordinated response by Federal 
agencies to incidents involving nuclear or radioactive materials, 
including acts of terrorism. The annex describes how Federal agencies 
respond to nuclear/radiological incidents. FEMA is responsible for 
maintaining and updating the annex and accomplishes this through the 
Federal Radiological Preparedness Coordinating Committee (FRPCC) which 
comprises members from approximately 18 Federal departments and 
agencies. Annex I to HSPD-8 established a new national planning system 
called the Integrated Planning System or IPS that will ultimately 
produce a comprehensive suite of incident/scenario-specific plans by 
DHS that are strategic, operational, and tactical. Full implementation 
of IPS may ultimately alter or restructure the NRF's existing Incident 
Annexes and CIS and other relevant planning, operational and strategic 
documents. However, until HSDP-8 Annex I is fully evolved, the Nuclear/
Radiological and Catastrophic Incident Annexes and other relevant 
documents utilized in response to a nuclear device or event are in full 
effect.
    In addition, the Office of Operations Coordination (OPS) is 
responsible for coordinating Department-wide incident management 
activities. The Secretary's Crisis Action Team (CAT) is responsible for 
conducting national-level crisis action planning and strategic 
operations coordination, maintaining and communicating national-level 
situational awareness, and providing decision support for the Secretary 
and Director of OPS. In association with this responsibility, the 
Incident Management Planning Team (IMPT) is developing a nuclear 
incident response concept plan based on National Planning Scenario #1 
(nuclear attack). Also, the DHS Office of Health Affairs is gathering 
data and performing analyses on likely health impacts resulting from a 
nuclear attack to inform the development of medical response plans.
    Finally, DHS has been a key member of the White House Office of 
Science and Technology Policy-led Nuclear Defense Research and 
Development (NDRD) Subcommittee. The NDRD Subcommittee has developed a 
roadmap establishing the high level objectives for response to a 
nuclear attack and identified the critical needs in nuclear/
radiological preparedness, response and recovery research and 
development (report to be released soon). DHS believes that these R&D 
Roadmaps plot an aggressive path forward for science to support 
incident response planning and consequence management and thus to 
support the operational needs to respond to a nuclear attack.
    Question. How does the Department balance its request for funding 
for detection efforts with mitigation efforts?
    Answer. This is a very complex question in several ways. The first 
is the degree to which DHS has responsibility for the solution. 
Detecting and interdicting radiological or nuclear material at an 
official Port of Entry (POE) or in transit within the United States is 
a mission that is accomplished almost solely by DHS. This 
responsibility is clearly articulated in the SAFE Port Act of 2006, as 
well as in HSPD-14/NSPD-43 that established the Domestic Nuclear 
Detection Office (DNDO). In contrast, DHS' responsibilities with 
respect to nuclear emergency incident response and long term recovery 
are shared with other Federal, State, and local governments and the 
private sector according to the National Response Framework. Therefore, 
it is important to assess the funding requests across the various 
Departments and Agencies to understand how funding is directed for this 
effort. For instance, the development and provision of medical 
countermeasures and mass casualty care is the purview of the Department 
of Health and Human Services. Similarly, decontamination and clean-up 
expertise lies largely within in the Environmental Protection Agency.
    The next is the question of the exclusive use of a specific 
capability. The actual deployment and use of nuclear detection 
capabilities managed by DNDO is focused on pre-detonation 
implementation (with the exception of their nuclear forensics studies). 
However, the advances that DNDO is making may be leveraged to develop 
the detection technologies that will be critical for assessing the 
post-detonation environment.
    Finally, even though a large scale nuclear attack certainly 
requires some unique response and recovery tools, the Nation will 
leverage many of the same capabilities developed and deployed to 
address other large scale catastrophes. The resources that have been 
afforded to the Federal Emergency Management Agency (FEMA) would be 
utilized to their fullest. So all of the resources applied to creating 
a robust National Response Framework, including supplying required 
resources and assets defined in the targeted capabilities list must 
also be factored into the equation.
    The balance is difficult, and the Department has indeed focused on 
prevention at this early stage because of the catastrophic risk 
associated with a radiological or nuclear attack. As our planning and 
prevention systems mature in close coordination with our many partners 
in the NRF, we expect continued development across all areas: 
prevention, protection, response, and recovery.
    Question. If it is estimated that detection efforts would have a 
50/50 chance of succeeding against nuclear smugglers, wouldn't it seem 
that equal funding should go to mitigating the possible consequences?
    Answer. The administration and the Secretary has assessed that, in 
the circumstances surrounding a nuclear attack, the greatest degree of 
risk reduction can be obtained by preventing the attack. Therefore, the 
funding requests associated with nuclear defense are heavily 
concentrated on reducing this risk through a variety of activities 
including, nonproliferation, detection, and interdiction activities. 
The intent of the resulting activities is build a comprehensive layered 
defense that combats the threat of nuclear terrorism. The defense calls 
for:
  --expanded intelligence efforts, so we can get a better picture of 
        the capabilities and intentions of terrorist groups seeking 
        nuclear or radiological weapons and the information we need to 
        disrupt those efforts;
  --focused interdiction, to deny terrorists access to the nuclear 
        material, expertise, or other capabilities they seek by 
        disrupting their efforts to acquire them;
  --declaratory policy to put the terrorists and those who might 
        support them on notice of how we will respond if attacked and 
        to deter those who might be tempted to transfer or facilitate 
        the transfer of nuclear weapons to terrorists;
  --expanded efforts to prevent nuclear material or nuclear weapons 
        from being moved into U.S. territory;
  --strengthened nuclear forensics capabilities, so if the worst should 
        happen, and a nuclear attack should occur on U.S. soil, we 
        would be able to identify those responsible quickly and 
        accurately;
  --robust, effective response and recovery plans, so that again, if 
        the worst should happen, we would be able to respond quickly to 
        minimize casualties and help impacted communities rebuild.
    In addition, many of the capabilities required to respond to a 
nuclear event are operational rather than technological. As noted above 
in question 191, funding for operational and communications is 
accomplished through both general capacity building for any major 
catastrophic event as well as for more the more specific national 
planning scenarios, such as Planning Scenario 1, which represents a 
10kt nuclear incident. As our planning and prevention systems mature in 
close coordination with our many partners in the NRF, we expect 
continued development across all our efforts to prevent, protect 
against, respond to and recover from a nuclear attack.
    Question. What is the timeline for spending the $5.5 million 
provided in the fiscal year 2007 Supplemental?
    Answer. The timeline for spending the $5.5 million provided in the 
fiscal year 2007 Supplemental is as follows:
    The Nuclear Event Assessment Supplemental Spend plan was submitted 
to Congress on 10/22/2007. As such, funding became available for 
obligation on 10/22/2007.
    Following inter-Departmental coordination with the DHS CFO and 
coordination with OMB, funds were loaded in the financial management 
system and became available for execution on 12/19/2007.
  --DHS executed a contract with the National Academy of Sciences on 
        12/21/2007 for the amount of $500,000 to convene an ad hoc 
        committee with experts in emergency medical response and 
        treatment, medical and public health preparedness, health 
        sciences research, and nuclear medicine to organize a workshop 
        and prepare a summary on the medical preparedness for a nuclear 
        event. The workshop will feature presentations and discussions 
        that assess the overall emergency response activities, and 
        available healthcare capacity (including shelter, evacuation, 
        decontamination, and medical infrastructure interdependencies) 
        to treat the affected population; treatments available for 
        pertinent radiation illnesses; efficacy of medical 
        countermeasures; the likely capability of the Federal, State 
        and local authorities to deliver emergence response activities 
        in a timely enough way to be effective; and the overall 
        expected benefit of available countermeasures and those in the 
        development pipeline.
  --OHA executed an IAA for the amount of $4.480 million with S&T on 
        02/28/2008 to provide services under this IAA encompass the 
        following tasks:
    --National Laboratory Science and Technical Activities-DHS Science 
            & Technology Directorate (DHS S&T) will provide modeling 
            updates of a 0.1, 1.0 and 10 kiloton nuclear explosion on 
            each Tier One Urban Area Security Initiative (UASI) city 
            (six cities). DHS S&T will meet the milestones and 
            deliverable table to assist in integrating all efforts with 
            the Homeland Security Institute and any other performers 
            for this effort.
    --Federal Response Plan Analysis--Analyze existing Federal nuclear 
            response planning doctrine, policy and content; assess 
            interagency assets; and initiate facilitation and 
            interagency coordination required to develop an appropriate 
            national strategy to prepare for and respond to a nuclear 
            detonation in a U.S. city. As part of this activity, HSI 
            will reach out to other Federal Departments and Agencies 
            who have done research and analysis in this area. When 
            necessary, OHA will facilitate contacts with other Federal 
            entities.
    --Responder and Citizen Action Recommendations--Outreach to both 
            first responders and Tier One City public affairs and 
            leadership to identify their respective health preparedness 
            and communication issues from a nuclear detonation, 
            utilizing technical and scientific analyses and guidance to 
            be provided by the National Laboratories. Stakeholder 
            workshops--at least 2--will be utilized to obtain input.
    --Public Communications Strategy--Develop a public communications 
            strategy and messaging for response to a nuclear 
            detonation. All of the technical data generated in A, B, 
            and C above will be utilized to develop requirements, 
            messages, and strategies for communicating with the public.
    --As requested by the sponsor, provide subject matter expertise--
            primarily Federal response plan analysis acquired during 
            Task A and Tier One health preparedness and communication 
            issues--to Office of Health Affairs and the Department of 
            Energy Laboratories. In addition, similar subject matter 
            expertise will be provided upon request of the sponsor to 
            assist with the development of the nuclear public 
            communications strategy.
    --Assess, recommend and facilitate program development and 
            implementation activities--As requested by the sponsor, 
            provide research and analysis related to nuclear event 
            planning and response activities. Specific topics to be 
            identified by the sponsor as required.
    --Establish liaison and contacts with regional and other State, 
            local and tribal entities--As requested by the sponsor, 
            expand stakeholder activities to include regional, State, 
            local and tribal entities.
    --DHS executed a contract with the Spry Methods Inc. (8a Small 
            Business set-aside procurement) for the amount of $178,000 
            on 01/31/2008 to provide financial support services for the 
            execution of funds related to the Spend Plan for Nuclear 
            Event Public Health Assessment and Planning. Services 
            include: (1) financial management systems analysis (2) 
            financial accountability to include the development, input, 
            and tracking of General Ledger accounting data; and 
            optionally, (2) budget formulation support, including but 
            not limited to: development of out-year budget forecasts, 
            as necessary to all programs/offices within the OHA.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

    Question. Host Community Guidance. Senate Report 110-84 directs 
FEMA to issue guidance to assist communities in planning to shelter and 
provide for the critical needs of evacuees of disaster areas. What is 
the status of this guidance? What measures has FEMA taken to work with 
State and local communities in the development of this guidance? How 
specifically are the needs of potential host communities accounted for 
in the distribution of State and Local Programs funding?
    Answer. FEMA is implementing the Mass Evacuee Support Planning 
initiative, which focuses on developing strategies and guidelines for 
support of displaced disaster victims through development of planning 
guidance and a Host-State Evacuee Support Plan template. These planning 
efforts will enhance operational effectiveness to provide recovery 
assistance to individuals and households, as well as public assistance 
to State and local governments in the event of an extraordinary or 
catastrophic disaster. Additionally, FEMA has conducted several 
catastrophic planning projects which address evacuation, shelter, and 
host community issues. The results of these efforts are aiding in the 
development of full planning guides. FEMA will be releasing within 45 
days guidance on both the development of emergency operations plans and 
on planning for special needs populations. Additional guides will 
follow which address other aspects of the evacuation, shelter, and host 
community planning requirements.
    To ensure the guidance and template prepared under the Mass Evacuee 
Support Planning initiative mentioned above realistically address State 
concerns and operational perspectives, the Host-State template will be 
created and refined from host-State evacuee support plans developed in 
select States. The Host-State evacuee support plans are developed 
through workshops that employ catastrophic scenarios and consequence 
estimates which drive discussion and planning, and ultimately the 
creation of functional, integrated evacuee support plans. The States 
which are participating in development of initial model plans include: 
Arkansas, Georgia, Tennessee, and Oklahoma--all of these States 
provided significant evacuee support following Hurricane Katrina. Two 
States have held Evacuee Support Planning Workshops: Georgia, Aug 1-3, 
2007; and Arkansas, Sept 11-13, 2007 (held in conjunction with the New 
Madrid Seismic Zone Catastrophic Planning Workshop). Tennessee's 
workshop is being held the week of March 17, 2008.
    FEMA's State Homeland Security Program (SHSP) and Urban Areas 
Security Initiative (UASI) programs (subcomponents of the overarching 
Homeland Security Grant Program) have historically been very broad and 
far-reaching for which responder communities may choose to focus their 
homeland security investment efforts. Grantees are allowed to spend 
funds (in accordance with the program guidance) towards planning, 
organization, equipment, training, and exercise activities. An 
allowable focus area within these categories does include mass care, 
which incorporates both sheltering and the provision of critical needs 
for evacuees. In addition, one of the priorities of the Homeland 
Security Grant Program, as stated in the fiscal year 2008 HSGP grant 
guidance is to address the need to strengthen preparedness planning and 
to fix short comings in existing plans, including ``mass evacuation and 
shelter with particular emphasis on special needs populations and 
citizen preparedness.'' For both SHSP and UASI, States are required to 
ensure that at least 80 percent of funds received are distributed to 
local units of government, thereby ensuring that the majority of funds 
will directly benefit those local first responder communities. 
Additionally, the Emergency Management Performance Grants (EMPG) 
specifically identifies supporting States' efforts to address 
evacuation planning, which includes alert/warning, crisis 
communications, mass care, and sheltering.
Regional Office Interoperability Personnel
    Question. In accordance with the fiscal year 2008 Homeland Security 
Appropriations Act--Joint Explanatory Statement: please describe the 
personnel in each FEMA Regional Office who have an understanding of the 
technical and administrative issues surrounding interoperability. How 
are these personnel facilitating regional interoperability?
    Answer. As part of its responsibilities to support national 
emergency response communications operations and assist Federal, State, 
tribal, and local governments achieve communications interoperability, 
DHS has established nation-wide emergency communications objectives. 
Furthermore, the Post Katrina Emergency Management Reform Act of 2006 
(PKEMRA) required DHS to establish an Office of Emergency 
Communications (OEC) and further assigned responsibilities for various 
aspects of emergency communications to both FEMA and OEC. More 
specifically, FEMA is responsible for conducting a Disaster Emergency 
Communications (DEC) State Planning Initiative to better integrate 
Federal communications response and recovery support to State and local 
governments. This Initiative is producing individual Disaster Emergency 
Communications State Annexes aligned to each of the corresponding FEMA 
Regional Emergency Communications Plans. In developing these 
communications Annexes, the focus is on four planning areas:
  --communications risk assessment and mitigation planning,
  --communications operability and interoperability,
  --communications availability, integration and coordination of 
        Federal resources, and
  --pre-positioning of communications resources.
    Ultimately, this effort will provide FEMA and Federal responders 
with the ability to deliver emergency communications support promptly 
and effectively following a request for assistance from an affected 
State, and provide greater assurance of effective emergency 
communications coordination prior to and immediately following a 
disaster event. FEMA and OEC are closely coordinating emergency 
communications activities.
    At the present time, FEMA has three staff members in the Regions 
who possess a full understanding of the technical and administrative 
aspects of communications interoperability, operability, risk 
assessment, and survivability at the State, regional, and local level 
and within the first responder community. Recognizing the importance of 
FEMA's responsibility to ensure communications interoperable 
capabilities, FEMA Regional staff have assumed additional 
responsibilities, to the extent possible, to help meet this 
responsibility until additional staff can be hired. This staff has 
taken steps to help coordinate State and local communications planning; 
coordinate the Regional Emergency Communications Coordination group 
activities required in Section 1805 of the Post Katrina Emergency 
Management Reform Act; coordinate cross-jurisdictional interoperability 
and intercommunications planning; identify gaps; assist in 
interoperability grant preparation; and support emergency 
communications planning for potential Federal responses.
    It is critical that FEMA staff who are assigned to work in this 
area are knowledgeable about these issues and can effectively 
interpret/apply the guidance and provide the support that is needed to 
facilitate first responders and their supporting organizations in 
achieving effective interoperable/intercommunications capabilities. To 
provide even greater focus and expertise, FEMA has added 10 FTE (five 
in fiscal year 2007 and five in fiscal year 2008) targeted specifically 
to augmenting existing emergency communications interoperability-
related activities and capabilities in the Regions. The five fiscal 
year 2007 FTEs were advertised last year but unfortunately, there were 
no qualified applicants. The hiring process for all ten FTE is 
currently underway and we hope to have all ten positions filled within 
the next 6 months. The new staff will greatly enhance FEMA's ability to 
support first responders and State and local organizations achieve the 
capability to interoperate/intercommunicate. It is important to note, 
however, that as the new staff come on board in the Regions and engage 
with the first responder community and State and local organizations, 
additional interoperability requirements may be identified that will 
also need to be addressed.
Preparedness and Mitigation Incentives
    Question. Senate Report 110-84 encouraged FEMA to work with 
organizations to propose incentives for State and local governments to 
focus on mitigation and preparedness through existing programs. How is 
FEMA pursuing this effort?
    Answer. FEMA's Mitigation mission is to protect lives and prevent 
property loss--helping States and communities reduce their 
vulnerability before hazards strike. Mitigation is the cornerstone of 
emergency management by reducing potential for disaster, destruction 
and distress, facilitating effective response, and promoting faster 
recovery. One critical challenge FEMA constantly faces is to generate 
an understanding and create a commitment to this long-term premise. In 
conjunction with its many private and public partners, FEMA Mitigation 
educates communities about the risks they face and provides the tools 
they need to make sound planning, land-use, and building decisions to 
make our communities less vulnerable. FEMA Mitigation continually seeks 
to leverage partners through incentives to meet these objectives.
    FEMA works to provide incentives to reward those States, 
localities, and individuals who are taking initiative to break the 
cycle of development, damage, and redevelopment at Federal expense and 
instead build their own capability to manage hazards and resources in a 
sustainable manner. FEMA's role has generally been not that of 
``doing'' the planning and implementation of projects, but one of 
fostering the development of State and local capabilities and programs 
to reduce risk and costs through incentives.
    In many instances, for example, Mitigation's Federal role has been 
to (1) provide leadership, through existing laws, executive orders, and 
programs to create an effective framework for flood loss reduction 
throughout the Nation; (2) provide information, including developing 
and/or setting criteria for collection, maintenance, and archiving of 
data, including flood maps, (3) provide for flood insurance, and (4) 
facilitate, by wielding appropriate incentives and consequences to 
encourage individuals, communities, States, and the private sector to 
take appropriate actions and decisions to reduce losses.
    Two key partners that FEMA's Mitigation Directorate (Mitigation) 
works with to both assess program effectiveness and develop incentives 
for State and local governments to focus on mitigation are the 
Association of State Floodplain Managers (ASFPM) and the National 
Emergency Management Association (NEMA).
    ASFPM has 6,500 national and chapter members representing local, 
State and Federal Government agencies, citizen groups, private 
consulting firms, academia, the insurance industry, and lenders. The 
ASFPM brings attention to broad policy or programmatic issues that 
identified by its members. As key stakeholders in the implementation of 
mitigation programs, the ASFPM and its members provide Mitigation with 
useful input and feedback on how programs are working or not working at 
the State and local community level. Mitigation regularly participates 
in ASFPM meetings and conferences, makes presentations regarding 
emerging mitigation programs and issues, and regularly attends meetings 
of ASFPM's Mitigation Committees.
    Some of the ASFPM's contributions have included development and 
promotion of the ``No Adverse Impact'' approach to local floodplain 
management; pioneering flood hazard mitigation strategies and non-
structural and flood-proofing alternatives; support of a Community 
Rating System; promotion and support of multi-objective planning for 
floodplains; and advocating the modification of Federal policies that 
inhibit floodplain management or encourage unwise decisions by 
individuals and government.
    FEMA's other key partner, The National Emergency Management 
Association (NEMA), is an association dedicated to enhancing public 
safety by improving the Nation's ability to prepare for, respond to, 
and recover from all emergencies, disasters, and threats to our 
Nation's security. The State directors of emergency management are the 
core membership of NEMA, along with the State Hazard Mitigation 
Officers. Membership categories also exist for key State staff, 
homeland security advisors, Federal agencies, nonprofit organizations, 
private sector companies, and concerned individuals. NEMA's goals 
include providing an information and support network among State 
directors of emergency management and interfacing with other national 
and regional organizations involved in emergency management and State 
government policy. Like the ASFPM, NEMA also provides Mitigation with 
valuable input and feedback on program performance at the State and 
local community level
    Several examples of existing programs that FEMA has worked with 
these partners to provide incentives for State and local governments to 
focus on mitigation include:
  --Our Community Rating System (CRS) also reflects this common sense 
        approach to incentives--flood insurance rates commensurate with 
        risk; or in the case of CRS--reduced rates for reduced risk. 
        The CRS of the National Flood Insurance Program (NFIP) was 
        established by FEMA as an incentive mechanism aimed at 
        recognizing and encouraging exemplary community floodplain 
        management that exceeds minimum NFIP standards. Flood insurance 
        premiums for residents of communities participating in the 
        Community Rating System are lowered to reflect the reduced 
        flood risk that is a result of community activities that meet 
        the three goals of the Community Rating System: reducing flood 
        losses; facilitating accurate insurance rating; and promoting 
        the awareness of flood insurance. The 1,088 communities that 
        participate in the Community Rating System today represent 
        about 66 percent of all NFIP policyholders nationwide. 
        Policyholders in Community Rating System communities receive 
        premium discounts ranging from 5 to 45 percent. (One community 
        has achieved a rating entitling its policyholders to a 45 
        percent discount.) The Community Rating System is a good 
        example of a Mitigation program that offers incentives to 
        localities for undertaking floodplain management activities. It 
        has been shown to be effective in encouraging new local 
        initiatives and maintaining existing ones.
  --Flood Insurance.--There are over 20,300 communities across the 
        Nation protecting their risk reduction efforts and investments 
        with flood insurance, with over $1 trillion in insured assets, 
        more than 5 million policyholders, and over $2 billion in 
        premiums and fees collected annually. The National Flood 
        Insurance Program's (NFIP) land-use management and building 
        code foundation helps people and communities recover faster, 
        while protecting their investments with a financial backstop. A 
        model of public-private teamwork and flexibility--the NFIP 
        extends beyond insurance by uniting FEMA's other mitigation 
        elements into a functional, cohesive strategy. It is estimated 
        that approximately 3 million buildings have been built in 
        accordance with these floodplain management regulations and 
        over $1.2 billion in flood damages are prevented annually 
        through these regulations.
  --The Community Assistance Program-State Support Services Element 
        (known as CAP) is a cooperative agreement between FEMA and the 
        States, supported by NFIP funds. Through CAP, FEMA provides 
        funding to the appropriately designated State agencies charged 
        with NFIP oversight. These agencies (designated by individual 
        governors) receive a 75 percent Federal 25 percent State cost-
        shared fund to help communities achieve and maintain compliance 
        with the NFIP. The availability of CAP funds for States 
        provides incentives to continue to build capability at the 
        State and local levels.
  --Hazard mitigation planning is the process State, local, and tribal 
        governments use to identify risks and vulnerabilities 
        associated with natural disasters, and to develop long-term 
        strategies for protecting people and property in future hazard 
        events. The process results in a mitigation plan that offers a 
        strategy for breaking the cycle of disaster damage, 
        reconstruction, and repeated damage, and a framework for 
        developing feasible and cost-effective mitigation projects. 
        Under the Disaster Mitigation Act of 2000 (Public Law 106-390), 
        State, local and tribal governments are required to develop a 
        hazard mitigation plan as a condition for receiving certain 
        types of non-emergency disaster assistance. For example, local 
        jurisdictions are required to have a FEMA-approved hazard 
        mitigation plan in order to receive Pre-Disaster Mitigation 
        (PDM) or Hazard Mitigation Grant Program (HMGP) project grant 
        funding. The availability of grant dollars provides incentives 
        for States and local jurisdictions to develop hazard mitigation 
        plans that lead to mitigation project grants. Mitigation 
        Planning has taken hold, and Hazard Mitigation grant activities 
        are underway--making communities stronger and saving the Nation 
        $4 for every dollar spent.
    In summary, the most significant national impact will be realized 
through millions of individual decisions and actions rather than 
through a handful of government decisions and actions. While incentives 
do play a significant role for State and local governments to focus on 
mitigation, experience indicates that the best local programs take 
place where there are strong State programs. The Mitigation experience 
of using incentives to build State and local capability and resources 
is an effective way to achieve national goals.
Funding Level for United States Fire Administration (USFA)
    Question. The fiscal year 2009 budget proposes moving USFA into the 
Operations, Management and Administration Appropriation and reduces the 
total amount appropriated to USFA by $2.3 million. Please provide a 
break down of how $2.3 million in savings is derived?
    Answer. FEMA is proposing the realignment of the United States Fire 
Administration's separate appropriation into, and as a discrete, 
PPAcategory of FEMA's OMA budget for fiscal year 2009. This has several 
administrative benefits to both FEMA as a whole and USFA in particular. 
First it allows FEMA to more effectively streamline the management and 
budget operations of all of FEMA's directorates and offices. It allows 
FEMA to better consolidate budget tracking and support activities. It 
allows FEMA to better support USFA and the entire Emmitsburg Campus 
from an Agency wide perspective. The Administrator is keenly aware of 
past concerns that FEMA would remove funding from USFA to achieve other 
agency priorities. FEMA has no intention of doing so now or in the 
future which is why we wish it to continue as a PPA category. We do 
however wish to be able to also invest in the Emmitsburg Campus and the 
activities of USFA that are shared jointly with the Emergency 
Management Institute on the same facility, such as support for shared 
distance learning platforms, student registration systems, campus 
maintenance and facility upgrades and to more effectively manage FEMA's 
appropriated operating budget.
Measuring capabilities
    Question. OMB recently stated, ``Although efforts are underway to 
measure the extent to which grant-funded projects improve national 
capabilities, no such system exists.'' How does the Department 
currently provide the preparedness assessment and evaluation required 
by the President in HSPD-8 and by Congress in Section 649 of Subtitle C 
of the Post-Katrina Emergency Management Reform Act? Why has the 
Department consistently chosen not to invest in measuring the national 
capacity for preparedness and response? How will FEMA ensure this 
analytical capability is implemented in fiscal year 2009? Given the 
void of this analysis capability how did the Department determine that 
our first responders have made such dramatic improvements in homeland 
security efforts, that it proposed to cut State and local programs 
funding by 48 percent?
    Answer. The Department of Homeland Security (DHS) has made 
considerable advancement and investment in measuring the national 
capacity for preparedness and response and will continue to refine 
these efforts to measure the Nation's preparedness and response 
capacity and capabilities. The Federal Emergency Management Agency 
(FEMA) consistently invests in the development and implementation of 
programs and efforts that offer assessments of emergency preparedness. 
Under the coordinated control of DHS and FEMA, these programs measure 
the extent to which national preparedness objectives have been achieved 
across all jurisdictions and capabilities.
    The programmatic realignments required under the Post-Katrina 
Emergency Management Reform Act (PKEMRA) established a comprehensive 
preparedness system, including the requirement for a preparedness 
assessment system. The PKEMRA-mandated organizational consolidation of 
FEMA and the former DHS Preparedness Directorate brought together a 
variety of measurement systems, creating the opportunity to 
institutionalize a comprehensive capability for identifying, 
consolidating, analyzing, and reporting on preparedness data. These 
systems are now under detailed review, and FEMA is working with 
Federal, State, and local stakeholders to determine the best aspects of 
each to improve and integrate current assessment efforts. These efforts 
include:
  --Homeland Security Exercise and Evaluation Program (HSEEP).--Since 
        2003, the HSEEP has provided a standardized means of assessing 
        exercises and improving preparedness nationwide. It is a 
        capabilities and performance-based exercise program that 
        provides a standard policy, methodology, and language for 
        designing, developing, conducting, and evaluating exercises. 
        HSEEP also provides guidance, training, technology, and direct 
        support.
  --The Corrective Action Program The Corrective Action Program (CAP) 
        System is a Web-based application that allows Federal, State, 
        and local emergency response and homeland security officials to 
        track, implement, and resolve corrective actions following 
        exercises, policy discussions, and real world incidents. The 
        DHS National Exercise Program (NEP) has developed the CAP 
        System as part of a larger effort to systematically translate 
        NEP outputs including findings, identified problems, 
        recommendations, lessons learned, and best practices into 
        meaningful inputs for homeland security plans, programs, and 
        budgets.
  --National Incident Management System (NIMS).--First released in 
        March of 2005, the NIMS is as an overarching National Priority, 
        is considered a broad measure of capability. NIM provides a 
        unified approach to incident management and is the principal 
        tool used to establish and set standards and credentialing. 
        Beginning in fiscal year 2007, FEMA began assessing the Federal 
        Interagency and State and local jurisdictions to determine NIMS 
        compliance. In fiscal year 2007, all 56 States and territories 
        and many Federal departments and agencies reported successes in 
        implementing NIMS within their respective areas of 
        responsibility. The NIMS doctrine and related guidance 
        documents provide standard command and management structures as 
        well as emphasis on preparedness, mutual aid and resource 
        management. NIMS illustrates the need for cooperation and 
        coordination among responders from different jurisdictions and 
        disciplines.
  --National Response Framework (NRF).--Thanks to the tireless efforts 
        of the hundreds of stakeholders from across the Nation, the 
        National Response Framework (NRF) is now complete and became 
        effective March 22, 2008. The NRF establishes a comprehensive 
        all-hazards approach to managing domestic incidents. As with 
        NIMS, FEMA promotes and regularly assesses compliance with the 
        NRF and its supporting annexes. The plan incorporates best 
        practices and procedures from incident management disciplines 
        and integrates them into a unified structure. It forms the 
        basis of how the Federal Government coordinates with State, 
        local and tribal governments and the private sector during 
        incidents.
  --Nationwide Plan Review.--On February 10, 2006, and June 16, 2006, 
        Phases 1 and 2 of the Nationwide Plan Review were presented to 
        Congress by DHS Secretary Michael Chertoff. The Nationwide Plan 
        Review evaluated existing emergency operations plans for States 
        and urban areas. The Review also recommended Federal Government 
        actions to improve and coordinate planning. Conducted in all 56 
        States and territories and 75 urban areas over 6 months, the 
        Nationwide Plan Review was the most comprehensive assessment of 
        emergency operations plans to date. Reviewers examined nearly 
        2,800 emergency operations plans and related documents with 
        participation from more than 1,000 emergency managers and 
        homeland security officials.
  --State Homeland Security Assessment and Strategy Program (SHSAS).--
        In July 2003, the Office for Domestic Preparedness (ODP) 
        launched SHSAS to serve as a planning tool for State and local 
        jurisdictions and to assist ODP and its partners in better 
        allocating Federal resources for homeland security. The 
        assessment examined threats, vulnerabilities, capabilities, and 
        needs related to State and local jurisdiction preparedness for 
        WMD incidents in light of post-9/11 realities in order to 
        inform them of the development of State and urban area homeland 
        security strategies.
  --State Preparedness Reports (SPR).--DHS Secretary, Michael Chertoff, 
        extended the reporting date for States to provide their fiscal 
        year 2007 State Preparedness reports until March 31, 2008. At 
        this time, FEMA is collecting and reviewing early submittals on 
        the States' self-assessments of current, target capability 
        levels, and the resources (monetary and non-monetary) estimated 
        to achieve these targets. The SPRs require States to 
        demonstrate their previous accomplishments in implementing 
        target capabilities for each of the National Priorities. States 
        are currently in the process of developing and submitting their 
        SPRs. When all SPR information is collected, the data set will 
        inform the assessment of national preparedness.
  --Target Capabilities List (TCL).--Released in September 2007, the 
        TCL provides the basis for assessing preparedness, planning, 
        measuring operational performance during actual events or 
        exercises, identifying deficiencies and gaps, and improving 
        preparedness investment and strategy decisions. The document 
        guides the implementation of State and local homeland security 
        strategies by defining the specific capabilities required to 
        accomplish the four homeland security mission areas of 
        prevention, protection, response, and recovery.
  --Federal Preparedness Report (FPR).--Although incomplete at this 
        time, the FPR represents an ongoing effort to prepare a 
        comprehensive assessment of national preparedness at the 
        Federal, State, and local levels. The report is based on 
        sections 644, 649, 651 and 652 of the Post Katrina Emergency 
        Management Reform Act of 2006 and contains preparedness 
        assessments and data drawn from sources at all levels of State 
        government and from across the Federal Interagency.
  --Gap Analysis Program (GAP).--In use in fiscal year 2007, the GAP 
        collects quantifiable data on State, local, and nongovernmental 
        resources that States and localities plan to use to respond to 
        major incidents. Gaps are identified based upon projected 
        requirements for specific scenarios. Once gaps are identified, 
        all stakeholders work to identify and pursue corrective 
        actions. GAP data indicates the preparedness of participating 
        States to execute critical response missions (e.g., evacuation, 
        debris removal).
  --Comprehensive Assessment System (CAS).--Although the CAS is still 
        in development, it will allow jurisdictions and agencies at all 
        levels to assess, the implementation of planning, training, 
        equipment, exercises/evaluations and teams within each Target 
        Capability. The CAS will integrate the best practices of the 
        existing preparedness assessments including the NIMS compliance 
        tool, the Pilot Capabilities Assessment, the GAP program, and a 
        development assessment known as the National Preparedness 
        System (NPD). Once successfully integrated, the system will 
        replace the existing assessments and provide the basis for the 
        State Preparedness Reports.
  --Future Years Homeland Security Program (FYHSP).--FYHSP is an 
        internal DHS system used to track performance data for major 
        DHS programs, including those for preparedness and response. 
        Data is collected to inform regularly reported performance 
        measures, which are approved and tracked by the White House 
        Office of Management and Budget (OMB).
  --Analysis of Federal Requirements (AFR).--This report was conducted 
        and briefed to FEMA leadership on October 11, 2007. The report 
        was commissioned internally to ensure that (DHS/FEMA) is being 
        responsive to the State emergency management and homeland 
        security agencies preparedness programs needs. This report 
        includes an inventory and analysis of the State programs and 
        associated requirements and their impacts on State EM/HS 
        agencies. Additionally, this report contains recommendations 
        that will shed unnecessary processes, enhance customer service 
        and improve the program model.
  --Tactical Interoperable Communications Plan (TICP) Scorecards.--The 
        tactical interoperable communications scorecard assesses the 
        maturity of tactical interoperable communications capabilities 
        in 75 urban/metropolitan1 areas. These scorecards were 
        developed by subject matter expert panels that reviewed 
        documentation on current communications plans, exercises, and a 
        self-assessment to arrive at consensus findings and 
        recommendations for each region on how to best improve that 
        region's communications capabilities. Overall, the scorecard 
        results show that urban/metropolitan areas have come a long way 
        in improving their tactical interoperable communications 
        capabilities.
    Since 2002, the Department of Homeland Security (DHS) has awarded 
over $19 billion in grants to strengthen the Nation's preparedness and 
response capabilities. The Post-Katrina Emergency Management Reform Act 
(PKEMRA) consolidated grant-making efforts and transferred 
responsibility for allocating and managing all preparedness related 
grants to FEMA in 2006. To better steward these funds, FEMA is 
embarking on a Grants Cost-to-Capability initiative to determine the 
relative impact of grant programs in terms of capability gains.
    The Grants Cost-to-Capability initiative will provide decision 
makers with data analyses to:
  --Determine the relative value of grant programs;
  --Guide the strategic allocation of funds towards new or existing 
        grant programs; and
  --Support policy, budgetary, and investment-related decisions.
    This initiative takes a stepwise approach to evaluating capability 
gains across the portfolio of grant programs, beginning with 
preparedness grants data gathered between 2003 and 2007. Available data 
from FEMA grant financial systems will be analyzed to determine the 
investment patterns of States and local recipients in support of the 
National Preparedness Guidelines. Focusing on the highest investment 
areas, FEMA will evaluate the gains achieved in improving the capacity 
and capabilities of the recipient communities. In addition, FEMA will 
evaluate its programs' effectiveness in shaping the investment 
priorities of State and local governments. The resulting analysis will 
be used to guide the strategic allocation of funds and investment in 
new or existing grant programs.
    In parallel with this effort, FEMA will explore the feasibility of 
a dynamic model that relates funding, projected capability gains, and 
national priorities to support investment decisions at various levels.
    Measuring the return on investment and impact on risk of our grant 
programs have had is key to our national preparedness. The likelihood 
and consequences of terrorist attacks change over time and are 
influenced by counterterrorism strategies implemented by DHS and its 
partners. This dynamic aspect of terrorism risk poses challenges for 
estimation, measurement, and allocation of resources. FEMA's National 
Preparedness Directorate is developing a comprehensive assessment 
system that capitalizes on and reconciles previous efforts that were 
being done both in FEMA and the former Preparedness Directorate to meet 
the requirements established in Sec. 648 of PKEMRA. This system will 
gauge the impact all preparedness initiatives have on the current state 
of preparedness. The Grants Programs Directorate is embarking on a 
Grants Cost-to-Capability initiative to determine the relative impact 
of grant programs in terms of capability gains.
    As DHS continues to move forward and develop measures to capture 
the impact of these grant programs, it is important to note that 
Congress has appropriated over $23 billion in grants from fiscal year 
2002 to fiscal year 2008. When including the President's fiscal year 
2009 request, this total exceeds $25 billion.
    As a practical matter, and in view of our Nation's current fiscal 
challenges, it seems reasonable and constructive to suggest a 
moderation in the funding stream. The President's fiscal year 2009 
budget request of $2.2 billion for State and local grants contains 
detailed justifications reaffirming the value of these grants as 
investing in the preparedness of State and local governments to 
prevent, prepare for and respond to acts of terrorism, natural and 
other man-made disasters. The level of the request should not be viewed 
as a weakening of support for State and local grants, but an earnest 
desire to discuss how best to meet our shared objectives to ensure the 
safety and security of the homeland.
    Each State and Territory receives a minimum allocation. The 
Department has adopted a risk formula to help determine the final 
allocation amounts, with the intended purpose of using limited Federal 
funds to ``buy-down'' the areas at greater risk of terrorist attack. 
The Department evaluates the potential risk of terrorism faced by a 
given area and the impact an attack could have on people, critical 
infrastructure, and the economy. The result of that risk analysis is 
the key driver in final funding determinations. However, risk is 
dynamic, and over time we can expect to see changes in relative risk 
ranking as threats change and populations shift. All States and 
Territories are also required to submit Investment Justifications 
regarding their intended use of funds. These Investments are reviewed 
by a panel of peers and recommendations regarding the anticipated 
``effectiveness'' of the Investments are also factored into final 
allocation amounts.
    In fiscal year 2008 and continuing in the fiscal year 2009 budget, 
DHS is putting increased emphasis in the homeland security grant 
program on planning activities, which supports the pending 
implementation of an integrated planning system directed by Annex I to 
Homeland Security Presidential Directive/HSPD-8. This effort is 
targeted at modernizing planning for increasingly interrelated, complex 
challenges. Operational planning will be synchronized with building 
prevention, protection, response and recovery capabilities, which 
continue as allowable activities in many of our programs. Planning 
modernization through an integrated planning system focuses efforts 
with our State, local and tribal partners on maximizing the 
effectiveness of capabilities either on hand or in the developmental 
pipeline.
    The President's Budget is consistent with the fiscal year 2008 
Budget request, supports PKEMRA requirements, and addresses key 
priorities necessary to secure the homeland and address complex, 
interrelated challenges.
Technical Assistance Priorities
    Question. What is the fiscal year 2008 distribution of Technical 
Assistance funding? What priorities did FEMA use to determine how to 
award this funding? What are the Technical Assistance priorities for 
fiscal year 2009?
    Answer. This distribution for fiscal year 2008 Technical Assistance 
includes 37 percent for Planning activities, including support for the 
Regional Catastrophic Preparedness Grant Program; 36 percent for 
Prevention/Protection activities, including Fusion Center Process and 
Port/Mass Transit Assessments; 15 percent for Equipment-related 
technical assistance; 8 percent for Planning Support, Technical 
Assistance Request and Tracking system, and administrative costs; and 4 
percent to enhance Grant Management Capabilities of grantees.
    FEMA considered several drivers to determine how to award the 
fiscal year 2008 priorities, including the implementation of Homeland 
Security Presidential Directives 5 and 8, the Post-Katrina Emergency 
Management Reform Act, the Regional Catastrophic Preparedness Grant 
Program, the Secretary's Goals and Priorities and the National Strategy 
for Homeland Security.
    The focus of Technical Assistance/Direct Support for fiscal year 
2009 will include the following:
  --Planning.--Technical Assistance will continue to enhance State and 
        local planning capabilities through the development of planning 
        guidance and the conduct of planning workshops. This will 
        primarily focus on catastrophic events and regional planning.
  --Prevention/Protection.--Technical Assistance will continue to work 
        with all Federal partners on the integration of Fusion into the 
        State and local apparatus, as well as support for protection 
        activities as appropriate.
  --Mission Area Integration.--Working with State and local officials 
        to integrate planning and preparedness activities across 
        prevent, protect, respond and recover mission areas.
NetGuard
    Question. What is the status and funding level of the NetGuard 
program?
    Answer. Pursuant to the Homeland Security Act of 2002 (Public Law 
107-296), Section 224, the Secretary of Homeland Security ``may 
establish a national emergency technology guard, to be known as ``NET 
Guard'', comprised of local teams of volunteers with expertise in 
relevant areas of science and technology, to assist local communities 
to respond and recover from attacks on information systems and 
communications networks.'' To date, DHS and FEMA have conducted scoping 
reviews with stakeholders and potential partners, developed an initial 
concept plan, designed a competitive grant process for testing the 
concept through local pilots, and identified initial training 
requirements. Based on these planning efforts, the Federal Emergency 
Management Agency (FEMA), National Preparedness Directorate (NPD) has 
submitted notification pursuant to Section 503 of Division E of Public 
Law 110-161, the fiscal year 2008 Consolidated Appropriations Act, to 
administer and fund the NET Guard program development and 
implementation as part of the Community Preparedness Division's (CPD) 
Citizen Corps Program.
    The fiscal year 2008 CPD spend plan includes $400,000 for NET 
Guard. FEMA's Citizen Corps program will conduct a competitive grant 
solicitation to select several local pilots to further validate the NET 
Guard concept, test its application in a variety of jurisdictions, and 
develop plans that are consistent with the FEMA Citizen Corps' 
integrated approach to establishing locally-based affiliated volunteer 
teams. Initial training and other tools will be developed during the 
pilot phase with flexibility for updates based on the needs identified 
through pilot implementation.
    It should be noted that current Homeland Security Grant Program 
(HSGP) guidance permits use of funds for supporting community 
preparedness efforts that could include the NET Guard concept. Starting 
in fiscal year 2009, CPD/Citizen Corps would promote the NET Guard 
program concept and tools to State and local governments as a program 
that may be supported through funding from the Homeland Security Grant 
Program.
Wildfire Prevention
    Question. In fiscal year 2007 and fiscal year 2008 (if available), 
how many applications have been submitted and how many awarded to 
address wildfire issues through the Assistance to Firefighters Grants 
fire prevention program?
    Answer. Fiscal year 2008 applications are scheduled to be accepted 
in September of 2008. We are supplying, however, data from fiscal year 
2007, the awards for which are presently ongoing, and fiscal year 2006. 
Please note that these applications and awards are focused on 
prevention. The Assistance to Firefighter Grants (also known as the 
FIRE Grants) provides support for equipment, training and apparatuses 
(e.g., brush trucks) to attack wild fires.
    Wildland Mitigation.--FP&S.

------------------------------------------------------------------------
                                          Apps submitted   Apps awarded
------------------------------------------------------------------------
Fiscal year 2006........................              55               2
Fiscal year 2007........................              49        ( \1\ )
------------------------------------------------------------------------
\1\ Fiscal year 2007 FP&S awards are commencing the week of 3/21.

Flood Maps
    Question. How many communities are using maps that do not require 
re-engineering the map? What is the estimated percentage of communities 
that will need maps re-engineered regularly and how often will they 
need to be re-engineered? How many maps need re-engineering to be up-
to-date?
    Answer. Map Modernization will result in modernized maps for 92 
percent of the Nation's population. FEMA anticipates 30 percent of the 
Nation's stream miles--covering roughly 40 percent of the population--
will have new, updated, or validated engineering at the completion of 
the Map Modernization program. Unmet engineering needs for the 
remaining areas have been documented as the maps are brought onto the 
GIS platform. FEMA proposes to begin addressing the unmet coastal 
engineering needs through the requested fiscal year 2009 budget. (FEMA 
tracks these data on percent of population, stream miles, or coastal 
miles rather than number of maps or communities because of varying 
scales of the maps.) Keep in mind, even new engineering requires 
upkeep. FEMA assesses the engineering need on a rolling 5-year cycle 
(42 USC 4101(e)). In some instances, especially where there has been no 
building development, the existing engineering data may be sufficient. 
In other cases, some updates or new engineering will be required. 
Further, not dissimilar to the Nation's transportation infrastructure, 
the data on the flood hazard maps decay (that is to say that the maps 
no longer reflect the actual conditions on the ground) and require on-
going assessment and upkeep. The NFIP assesses maps on a 5-year cycle. 
In each assessment cycle, the data shown on the maps that was once 
considered sufficient may no longer show the actual conditions on the 
ground and require new engineering studies.
Open Disasters
    Question. How many disaster declarations, by fiscal year and type 
of disaster, are still open? For disasters that happened over 3 years 
ago--why are they still open and what is needed to close them?
    Answer. Below is a listing of the disaster declarations, by fiscal 
year and type of disaster, which are still open as of March 18, 2008. A 
disaster remains ``open'' until all grants and financial matters with 
regard to the disaster have been resolved and the FEMA-State agreement 
is closed.

------------------------------------------------------------------------
          QTY FY DECLARED                 PROG TYPE            TOTAL
------------------------------------------------------------------------
1987..............................  DR-MAJOR DISASTER...               1
      1987 Total..................  ....................               1
1989..............................  DR-MAJOR DISASTER...               1
      1989 Total..................  ....................               1
1990..............................  DR-MAJOR DISASTER...               2
      1990 Total..................  ....................               2
1992..............................  DR-MAJOR DISASTER...               9
      1992 Total..................  ....................               9
1993..............................  DR-MAJOR DISASTER...               4
      1993 Total..................  ....................               4
1994..............................  DR-MAJOR DISASTER...               6
      1994 Total..................  ....................               6
1995..............................  DR-MAJOR DISASTER...               5
      1995 Total..................  ....................               5
      1996........................  DR-MAJOR DISASTER...               9
      1996 Total..................  ....................               9
1997..............................  DR-MAJOR DISASTER...              15
                                    EM-EMERGENCY........               1
                                                         ---------------
      1997 Total..................  ....................              16
                                                         ===============
1998..............................  DR-MAJOR DISASTER...              25
                                    EM-EMERGENCY........               2
                                                         ---------------
      1998 Total..................  ....................              27
                                                         ===============
1999..............................  DR-MAJOR DISASTER...              30
                                    EM-EMERGENCY........               5
                                                         ---------------
      1999 Total..................  ....................              35
                                                         ===============
2000..............................  DR-MAJOR DISASTER...              30
                                    EM-EMERGENCY........               2
                                    FS-FIRE SUPPRESSION.               1
                                                         ---------------
      2000 Total..................  ....................              33
                                                         ===============
2001..............................  DR-MAJOR DISASTER...              47
                                    EM-EMERGENCY........               4
                                    FS-FIRE SUPPRESSION.               3
                                                         ---------------
      2001 Total..................  ....................              54
                                                         ===============
2002..............................  DR-MAJOR DISASTER...              41
                                    EM-EMERGENCY........               1
                                    FS-FIRE SUPPRESSION.              14
                                                         ---------------
      2002 Total..................  ....................              56
                                                         ===============
2003..............................  DR-MAJOR DISASTER...              60
                                    EM-EMERGENCY........              11
                                    FM-FIRE MANAGEMENT..               9
                                                         ---------------
      2003 Total..................  ....................              80
                                                         ===============
2004..............................  DR-MAJOR DISASTER...              63
                                    EM-EMERGENCY........               6
                                    FM-FIRE MANAGEMENT..              26
                                                         ---------------
      2004 Total..................  ....................              95
                                                         ===============
2005..............................  DR-MAJOR DISASTER...              45
                                    EM-EMERGENCY........              51
                                    FM-FIRE MANAGEMENT..              13
                                                         ---------------
      2005 Total..................  ....................             109
                                                         ===============
2006..............................  DR-MAJOR DISASTER...              53
                                    EM-EMERGENCY........               3
                                    FM-FIRE MANAGEMENT..              90
                                                         ---------------
      2006 Total..................  ....................             146
                                                         ===============
2007..............................  DR-MAJOR DISASTER...              68
                                    EM-EMERGENCY........              11
                                    FM-FIRE MANAGEMENT..              53
                                                         ---------------
      2007 Total..................  ....................             132
                                                         ===============
2008..............................  DR-MAJOR DISASTER...              19
                                    EM-EMERGENCY........               6
                                    FM-FIRE MANAGEMENT..              22
                                                         ---------------
      2008 Total..................  ....................              47
                                                         ===============
      Grand Total.................  ....................             867
------------------------------------------------------------------------

    A disaster is considered closed when all projects are approved and 
all programmatic decisions are finalized. Programmatic work continues 
until all projects are completed. A disaster is considered financially 
reconciled when all work has been completed, all accounts reconciled, 
and the Governor's authorized representative has requested that the 
FEMA-State Agreement be terminated for the disaster. These accounts 
include disaster programs, mission assignments, disaster contracts and 
grants. It is at this point that the FEMA-State agreement is closed. 
Regulations and other unique circumstances for closing out the Public 
Assistance and Individual Assistance programs are listed below.
  --Public Assistance.--Prior to closure (financial reconciliation) of 
        a disaster grant, all projects must be completed and all funds 
        expended. For Public Assistance Grants, closure is governed by 
        completion of the project rather than the expenditure of funds. 
        Public Assistance Grants for major civil works such as roads 
        and bridges, water supply systems, and sewage treatment plants 
        can take a considerable time to complete. These projects 
        generally require in-depth design and analysis and may require 
        extensive Environmental Review. The Environmental Review 
        process, including public comment periods, can potentially add 
        years to large civil projects in sensitive areas. After the 
        competitive bid process, other factors such as a short 
        construction season in the northern tier States, come into 
        play. For major civil projects, it is not uncommon for a 
        project to take 3 years to get to the construction phase.
    Public Assistance Grants are considered closed when all program 
decisions have been made and all projects are funded. Once a project is 
identified and eligibility is established, estimated funding for the 
project is obligated. At that point, the project is identified as 
Programmatically Closed. There may be various adjustments to the 
project scope of work or funding level, but the basic project and 
funding level remain constant. Most Public Assistance Grants are 
considered Programmatically Closed within 3 years of the declaration.
    By regulation, the performance period for Public Assistance grants 
can be modified by the State to allow a construction project to take 4 
years to complete. Extensions beyond 4 years must be approved by FEMA.
  --Individual Assistance.--For Individual Assistance programs in 
        disasters the programs are typically closed in 21-24 months 
        after declaration. This timeframe is determined by the 18 month 
        period of assistance prescribed in the law for Federal 
        assistance to Individuals and Families and then another 90 days 
        to reconcile and close out the programs. The timeframe to close 
        out the program can be longer if the President extends the 
        period of assistance which is frequently required when direct 
        housing programs (manufactured home) are implemented in a 
        disaster. A direct housing program is implemented when there 
        are no other traditional housing resources available to house 
        those affected by disasters as the housing stock is being 
        repaired or rebuilt.
    The components of the Individual Assistance programs that take the 
longest to reconcile and close out are acquisition contracts for 
technical assistance and grant programs that are administered by 
another agency such as the U.S. Departments of Labor and Health and 
Human Services. The grant programs must first be reconciled by the 
administering agency and then reconciled with FEMA to ensure proper 
accounting of funds. The acquisition contract task orders need to be 
reconciled with the contractor before being closed in the FEMA 
accounting systems. It is not unusual for the close out of these 
components to take 12-18 months which would put the overall closeout of 
the Individual Assistance programs to around 30-36 months from the 
disaster declaration.
    There are occasional instances when closing out a grant to a State 
(Crisis Counseling or Other Needs Assistance) may take a while to 
ensure that all items are reconciled but these instances are rare. Most 
Individual Assistance programs should be closed out 21-24 months after 
the disaster declaration except in periods of catastrophic events when 
the Regional resources are engaged in program delivery at the risk of 
reduced program closeout activity.
Identifying Emerging Health Issues
    Question. What system has FEMA put in place to quickly identify and 
address emerging health issues among disaster victims using housing 
assistance provided by FEMA?
    Answer. The health and safety of the residents of temporary housing 
units provided to disaster victims is of paramount importance to FEMA. 
Through FEMA's toll free help-line as well as interaction with FEMA 
field staff, FEMA responds to the questions, concerns and needs of 
those who are receiving disaster assistance from FEMA. FEMA is 
committed to responding as expeditiously as possible to concerns raised 
by disaster victims. For instance, following the release of the Center 
for Disease Control and Prevention's (CDC) formaldehyde testing 
results, FEMA took the following actions to safeguard the health and 
well-being of disaster victims:
  --Delivered flyers to occupants of FEMA-supplied manufactured housing 
        units outlining test results and options for relocation, unit 
        testing, and support services for individuals with health 
        related questions and concerns;
  --Conducted joint FEMA/CDC community workshops in Louisiana and 
        Mississippi to provide public information on testing results, 
        relocation options, and respond to health related questions and 
        concerns;
  --Offered free indoor air testing for formaldehyde levels to any 
        resident of a FEMA-supplied travel trailer or mobile home;
  --Established a team to identify and catalog currently available 
        Federally financed rental resources across the Nation. These 
        listings are in turn used by caseworkers providing relocation 
        assistance to manufactured housing occupants.
  --Established a toll-free hotline staffed with CDC Specialists to 
        respond to individuals with health-related concerns; and
  --Established a toll-free hotline staffed with FEMA employees to 
        discuss available housing options and track requests for unit 
        formaldehyde testing.
Contracts
    Question. What contracts does FEMA have in place for known disaster 
needs? Are there any contracts FEMA believes it will need to use a 
sole-source method of contracting for during disasters? If so, why 
would this be necessary?
    Answer:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                Actual or Target
         Acquisition Name                   Description                Awardee          Procurement Vehicle           Award              Award Date
--------------------------------------------------------------------------------------------------------------------------------------------------------
Integrated Public Alert and         PMO and acquisition         Booz Allen Hamilton..  Contract.............  Awarded.............  13-Apr-07
 Warning System (IPAWS) Program      support services for the
 Services.                           IPAWS program.
Presidential Integrated Public      Support services for the    CACI Federal Inc.....  Contract;              Awarded.............  6-Feb-07
 Alert and Warning System (IPAWS)    National Continuity                                Modification to
 Support.                            Program Office in                                  Existing Contract.
                                     preparation for the
                                     fiscal year 2007
                                     Hurricane Season.
Integrated Public Alert and         Public outreach initiative  URS Group............  Contract.............  Awarded.............  6-Apr-07
 Warning System (IPAWS) Pilot        and conference on IPAWS
 Public Education, Conferences and   program and emergency
 Website.                            alerting systems.
Mobile Disaster Recovery Center     Satellite airtime enables   On Call                Contract.............  Awarded.............  4-May-07
 (MDRC) Satellite Airtime            MDRC communication and      Communications, Inc.
 (Service).                          access to FEMA networks
                                     and communications for
                                     disaster operations.
Interactive Voice Response (IVR)    FEMA requires the ability   Nortel Government      Contract.............  Awarded.............  13-Jun-07
 Modifications for Disaster          to react quickly and        Solutions
 Specific Professional Services.     efficiently to changes in   Incorporated.
                                     its Contact Center
                                     environment. This
                                     contract provides
                                     professional services for
                                     the NPSC to develop and
                                     modify IVR applications,
                                     training, and disaster
                                     recovery capabilities.
Disaster Satellite Communications   Access rights and time to   AT&T Government        Mod to FFP Contract..  Awarded.............  28-Dec-07
 (Access to Transponder on a KU      a Transponder on a KU       Solutions.
 Band Satellite System for MERS).    Band Satellite System. It
                                     was/is used for Mobile
                                     Emergency Response
                                     Support (MERS).
Integrated Public Alert and         Additional funding for      Cubic Applications     Contract;              Awarded.............  14-Aug-07
 Warning System (IPAWS) Economic     Cubic to continue           Incorpora-  ted.       Modification to
 Assessment.                         assessment work and cover                          Existing Contract.
                                     economic aspects of full
                                     IPAWS deployment.
Uniform Federal Accessibility       An IDIQ acquisition to      Murillo Modular Group  Contract.............  Awarded.............  5-Mar-07
 Standards (UFAS) Two Bedroom Park   purchase disability-        LTD.
 Model.                              equipped trailers for
                                     group sites. This action
                                     is complete as 100 such
                                     trailers were purchased.
Housing Inspection Services (HIS).  The Nation-wide Housing     Alltech, Inc., PaRR..  IDIQ Contract........  Awarded.............  1-Mar-07
                                     Inspection Services
                                     contract provides damage
                                     inspection services in
                                     affected disaster areas
                                     in support of claims for
                                     damaged homes.
Individuals and Households Program  Disaster Assistance Mail    Bravera Corporation..  Contract.............  Awarded.............  1-Oct-06
 (IHP) Incoming Mail Processing.     Services processes
                                     incoming mail
                                     communications and claims
                                     from disaster victims.
Individual Households Program       Disaster Assistance Mail    Xerox Corporation....  Contract.............  Awarded.............  1-Oct-06
 (IHP) Outgoing Mail Processing.     Services provides
                                     outgoing mailed Agency
                                     responses to claims.
National Commercial Bus             The purpose of this         CUSA GCT, LLC........  Modification to        Awarded.............  29-Sep-07
 Transportation (Evacuation) Phase   procurement is to acquire                          Existing Contract.
 I.                                  commercial services for
                                     bus transportation in
                                     response to Presidential-
                                     declared emergencies and
                                     natural disasters within
                                     the United States, its
                                     territories and
                                     possessions.
Uniform Federal Accessibility       An IDIQ acquisition to      KETA Group...........  Contract.............  Awarded.............  23-Jan-07
 Standards (UFAS) Group and          purchase disability-
 Exclusive Site Retrofits.           equipped trailers for
                                     group sites. This action
                                     is complete as 100 such
                                     trailers were purchased.
Public Assistance (PA) Technical    The three (3) contracts     FLUOR Enterprises....  Contract; Exercising   Awarded.............  1-Jun-07
 Assistance Contract (TAC) II 2nd    for the 2006 PA TACs were  ERPMC Inc............   Option.
 Year Readiness.                     awarded for a period of 5  NISTAC-D.............
                                     years. M&A activities
                                     prepare the TACs to
                                     support FEMA, meeting the
                                     Agency's objectives of
                                     providing Public
                                     Assistance in a timely,
                                     efficient, effective and
                                     consistent manner.
Web Caching, Site Accelerator,      This is a contract for a    Akamai Technologies,   Contract.............  Awarded.............  16-May-07
 Load Balancing, Secure Tunnel--     service that allows for     Inc..
 Long Term.                          surge in users accessing
                                     the fema.gov site or any
                                     related web site during a
                                     disaster. FEMA can also
                                     use the service when FEMA
                                     has large numbers of
                                     users taking web-based
                                     training. The service
                                     allows for large surges
                                     in users, which are
                                     common to FEMA. The
                                     service also provides an
                                     additional layer of
                                     security when disaster
                                     victims apply for
                                     assistance over the
                                     Internet.
Cyber Security....................  Task orders to existing     Verizon Federal Inc..  Contract; Task Order   Awarded.............  29-Jan-07
                                     contract. Fiscal year                              to Existing Contract.
                                     2008 procurement #420.
Hotel Authorization (Intake         This existing contract      Corporate Lodging      Contract; Exercising   Awarded.............  23-Jul-07
 Management).                        allows FEMA to use the      Consultants Inc.       Option.
                                     services of Corporate
                                     Lodging Consultants to
                                     manage the placement of
                                     disaster victims into
                                     hotels in the event of
                                     mass evacuations. Fiscal
                                     Requirements: fiscal year
                                     2007 $1.49 million,
                                     fiscal year 2008 $1.49
                                     million, fiscal year 2009
                                     $1.49 million.
Regional Commercial Ambulance Gulf/ Provide ambulance services  American Medical       Contract.............  Awarded.............  1-Aug-07
 East Coast States.                  to support disaster         Response  Inc.
                                     requirements in the Gulf
                                     Coast region (Zone 1) and
                                     Atlantic (Zone 2).
Readiness and Surge Staffing......  This contract includes      Alutiiq Global         Contract; Exercising   Awarded.............  27-Jul-07
                                     logistics support to FEMA   Solutions, LLC.        Option.
                                     in the form of CDL
                                     drivers, Total Asset
                                     Visibility asset tracking
                                     specialists, and Mobile
                                     Emergency Response
                                     Support (MERS)
                                     specialists, as well as
                                     pharmacy technicians
                                     supporting the National
                                     Disaster Medical System
                                     (NDMS) until fiscal year
                                     2008 via a FEMA/NDMS IAA
                                     as well as other
                                     personnel located at FEMA
                                     headquarters, Berryville,
                                     Virginia and Logistics
                                     Centers in Frederick,
                                     Maryland and Atlanta,
                                     Georgia.
Total Asset Visibility (TAV),       This acquisition includes   .....................  Blanket Purchase       Awarded.............  25-May-07
 Phase 1a and 1b.                    Operations and                                     Agreement.
                                     Maintenance (O&M),
                                     training and provisions
                                     for surge support
                                     personnel. Phase 1b
                                     acquisition is for
                                     software to enable order
                                     visibility to all Regions
                                     and performance
                                     (reporting) capabilities.
                                     Support e-Tasker and
                                     Intelligent Road/Rail
                                     Information Server
                                     (IRRIS) programs.
Rail Transportation Support to      This action provides rail   National Railroad      Contract.............  Awarded.............  17-Jul-07
 Evacuation.                         service to support a NOLA   Passenger
                                     evacuation for the 2007     Corporation (Amtrak).
                                     Hurricane Season.
Warehousing, Shipping and           The scope of this contract  Metro Mail Services..  Contract; Exercising   Awarded.............  26-Jul-07
 Receiving of Mail Equipment and     includes the storage,                              Option.
 Meters.                             shipping, and maintenance
                                     of mail equipment in
                                     support of disaster
                                     operations. This
                                     equipment includes mail
                                     meters, scales, and
                                     supplies to support the
                                     equipment. The warehouse
                                     is located in Jessup,
                                     Maryland.
Telecommunication Services........  Facilities................  Verizon Federal Inc..  Contract; Task Order   Awarded.............  20-Aug-07
                                    Equipment, supplies and                             to Existing Contract.
                                     services
                                    Systems engineering
                                    Network security support
                                     services
Alabama Warehouse.................  GSA Lease procurement of a  .....................  Contract.............  Awarded.............  TBD
                                     large warehouse facility
                                     to preposition and store
                                     logistical supplies in
                                     preparation for potential
                                     future Gulf Coast
                                     Disasters. GSA building
                                     lease is under FEMA
                                     control but needs utility/
                                     infrastructure upgrades.
Switch On Wheels (SOWs) and Mobile  Acquisition to obtain       FIVE RIVERS LLC......  Contract.............  Awarded.............  27-Sep-07
 Radio Station, per Executive        support for deployable
 Order 13407.                        cellular assets
                                     including: engineering,
                                     maintenance, and deployed
                                     support as well as
                                     provide a mobile radio
                                     station.
Individual Identity Verification    This is a service used to   CHOICEPOINT, INC.....  FFP Contract.........  Awarded.............  28-Sep-07
 Service.                            verify and authenticate
                                     the identity of personnel
                                     applying for disaster
                                     assistance to prevent
                                     duplicate or fraudulent
                                     applications for
                                     assistance. Verification
                                     determines that the
                                     person exists.
                                     Authentication determines
                                     that the person applying
                                     for assistance is who he
                                     or she says he is, and is
                                     not using a stolen
                                     identity.
Base Camp Support--Large (300-      The scope includes          Rapid Deployment,      Contract.............  Awarded.............  28-Sep-07
 2,000 beds).                        providing two base camps,   Deployed Resources,
                                     large and small, to         Disaster Management
                                     support services for        Group, Brookstone.
                                     responders inclusive of
                                     mobilization, site
                                     preparation,
                                     installation, base camp
                                     management and operation,
                                     and demobilization as set
                                     forth in task orders.
                                     Contractor services
                                     include: base camp
                                     design, site preparation,
                                     installation and
                                     maintenance of all
                                     contractor provided
                                     equipment, and all
                                     services necessary to
                                     effectively and
                                     efficiently manage and
                                     operate the base camp.
Disaster Operations Warm Cell.....  This is a budget (not       VARIOUS..............  VARIOUS..............  Awarded.............  VARIOUS
                                     necessarily a single
                                     acquisition) that
                                     includes a variety of
                                     expenses and procurement,
                                     but primarily covers the
                                     costs associated with
                                     maintaining ad-hoc
                                     assembly and network of
                                     experts/specialists
                                     organized to manage and
                                     prepare for emergency
                                     operations. The Warm Cell
                                     is also responsible for
                                     preparing and
                                     implementing IAAs with
                                     other government agencies.
JFO Web EOC.......................  Services to build a web-    ALL POINTS LOGISTICS   Contract.............  Awarded.............  26-Sep-07
                                     based interface to WebEOC   INC.
                                     (Emergency Operations
                                     Center), a commercial
                                     incident information
                                     management software that
                                     enables personnel from
                                     multiple agencies at
                                     State, local and Federal
                                     levels to interact and
                                     share information. The
                                     system is compliant with
                                     the ICS and NIMS
                                     protocols.
Geographic Information System       This is the services of a   NEW LIGHT              Contract.............  Awarded.............  29-Sep-07
 Support to Joint Field Offices.     contractor to maintain      TECHNOLOGIES, INC.
                                     and repair Geographic
                                     Information System (GIS)
                                     kits for deployment to
                                     joint field offices
                                     during disasters. The
                                     contractor may also
                                     deploy when disasters
                                     occur and train field
                                     personnel on the use of
                                     the GIS services.
Implementation of Disaster Relief   This project will support   IBM GLOBAL BUSINESS    Blanket Purchase       Awarded.............  23-Aug-07
 Fund Assessment Recommendations.    development and             SERVICES.              Agreement.
                                     validation of a standard,
                                     nationally applicable and
                                     non-proprietary cost
                                     estimation model for
                                     making quantitative
                                     assessments of the
                                     potential economic and
                                     social losses from
                                     catastrophic hurricane
                                     damage and potentially
                                     other hazards.
Private Sector Call Center          Contractor support to       ICF INCORPORATED.....  Contract.............  Awarded.............  27-Sep-07
 Assessment (RDT) for all NPSCs..    conduct a comprehensive
                                     assessment that analyzes
                                     FEMAs current operations
                                     and surge response
                                     capabilities with respect
                                     to registration intake
                                     and explores innovative,
                                     efficient and cost
                                     effective alternative
                                     methods to respond to
                                     surge RI requirements.
Staffing Support and Services for   Facility and grounds        TMI Management         Contract.............  Awarded.............  27-Sep-07
 Emergency Housing (EH) Program.     maintenance and repair      Systems, Inc.
                                     staffing support and
                                     services for the
                                     Cumberland, MD emergency
                                     housing (EH) program. TMI
                                     is the current contractor.
IA-TAC II.........................  Housing operations support  Shaw Environmental,    Contract; Task Order   Awarded.............  8-Aug-06
                                    Site assessments for         Inc; Fluor             to Existing Contract.
                                     temporary housing           Corporation; Path
                                     placement.                  LLC Post, Buckley,
                                    Install, deactivate, and     Schuh & Jernigan;
                                     remove housing.             Bechtel National,
                                    Temporary housing for        Inc.; CH2M Hill.
                                     disaster workers and/or
                                     applicants.
                                    Maintenance of temporary
                                     housing.
Web Surge Processing and Helpdesk   This is a contract for      ELECTRONIC DATA        Contract.............  Awarded.............  14-Sep-07
 IT Support.                         managed services to host    SYSTEMS CORPORATION.
                                     the information
                                     technology equipment and
                                     software that allows
                                     disaster victims to
                                     register for assistance
                                     online. The service
                                     allows FEMA to accept
                                     applications from a
                                     larger number of users
                                     than could be
                                     accomplished with
                                     equipment and software
                                     housed at FEMA alone. The
                                     service also allows for
                                     uninterrupted capability,
                                     should the FEMA site
                                     become non-operational.
                                     The contract also
                                     provides help desk
                                     service for applicants
                                     regarding the mechanics
                                     of registration over the
                                     Internet.
Registration Capability at          The new Housing             COMPUTER WORLD         .....................  Awarded.............  21-Sep-07
 Shelters.                           Inspections Services        SERVICES CORP.
                                     (HIS) contracts require
                                     remote registration
                                     intake capability at
                                     shelters and other free
                                     standing locations. This
                                     procurement will add
                                     3,000 laptop computers to
                                     the contract inspection
                                     firm's computer inventory
                                     to perform this task.
                                     Fiscal Requirements:
                                     fiscal year 2007 $2.25
                                     million, fiscal year 2008
                                     $.675 million, fiscal
                                     year 2009 $.675 million.
Systems Engineering and Technical   Services of                 Booz Allen Hamilton..  Contract; Task Order   Awarded.............  26-Mar-07
 Assistance (SETA) Communications    telecommunications                                 to Existing Contract.
 Planning.                           engineers and planners
                                     who support FEMA
                                     personnel in working with
                                     State emergency
                                     operations personnel to
                                     develop plans for
                                     telecommunications plans
                                     during a disaster.
Bulletin News, Media Monitoring...  The services monitor media  Bulletin News          Contract; Exercising   Awarded.............  30-Mar-07
                                     reports pertaining to the   Network, Inc.          Option.
                                     Agency and emergency
                                     incidents.
Remedial Action Management Program  Contractor to provide day-  Creative Computing     Contract.............  Awarded.............  28-Jun-07
 (RAMP).                             to-day program management   Solutions.
                                     and web-based application
                                     support for the Remedial
                                     Action Management Program
                                     (RAMP). RAMP is an
                                     internal program (process
                                     and web application)
                                     that: a) facilitates the
                                     identification, vetting,
                                     and remediation of issues
                                     identified during
                                     disaster operations and
                                     operational training
                                     exercises, and b) allows
                                     for the communication of
                                     smart practices and
                                     lessons learned
                                     throughout the
                                     organization.
Integrated Financial Management     Hands-on system operations  .....................  Contract; Task Order   Awarded.............  29-Jan-07
 System (IFMIS) Software             by systems administrators.                         to Existing Contract.
 Management.
Intelligent Road/Rail Information   Services to develop and     Gannett Fleming        FFP Contract.........  Awarded.............  15-Jun-07
 System (IRRIS), Access Web-Based    provide detailed, timely,   Incorporated.
 Geographic Information System.      and relevant information
                                     about road conditions,
                                     construction, incidents
                                     and weather that might
                                     interfere with the
                                     movement of people and
                                     goods between storage
                                     depots and strategic
                                     points for disaster
                                     relief.
PRISM Implementation Project        Services contract to        International          Contract.............  Awarded.............  17-Oct-07
 Management Support Services.        support PRISM contract      Business Machines
                                     writing system replaces     Corporation.
                                     the existing contract
                                     system to improve
                                     processing and control of
                                     GCR acquisition
                                     operations.
PRISM Implementation--Product/      The PRISM contract writing  International          Contract; Exercising   Awarded.............  13-Mar-07
 Application Implementation and      system replaces the         Business Machines      Option.
 User Costs.                         existing contract system    Corporation.
                                     to improve processing and
                                     control of GCR
                                     acquisition operations.
Web Automated Deployment Database   This is the web-enabling    GOVWORKS/U.S. DEPT OF  Contract.............  Awarded.............  16-May-07
 Applications Development.           of the Automated            INTERIOR.
                                     Deployment Database, used
                                     to roster and track all
                                     FEMA employees for
                                     disaster deployments.
Wireless Telephone................  Provide wireless telephone  Verizon Federal Inc..  Contract; Task Order   Awarded.............  13-Jul-07
                                     services to emergency                              to Existing Contract.
                                     responders. Task orders
                                     to existing contract.
                                     Fiscal year 2008
                                     procurement #422.
Strategic Positioning Analysis....  The Logistics Strategic     .....................  Contract; Exercising   Awarded.............  7-Sep-07
                                     Positioning and Analysis                           Option.
                                     study evaluates and
                                     assesses current
                                     warehousing and makes
                                     recommendations for the
                                     Agency to strategically
                                     position equipment and
                                     facilities to improve
                                     disaster response in the
                                     future.
Web-Services Development..........  The grants management       REI SYSTEMS INC;       Contract.............  Awarded.............  6/29/2007,
                                     function for the National   NET.AMERICA                                                        9/18/2007,
                                     Emergency Management        CORPORATION;                                                       2/12/2004
                                     Information System          GOVWORKS (DOI).
                                     (NEMIS) is being replaced
                                     by the Emergency
                                     Management Mission
                                     Integrated Environment
                                     (EMMIE). Funding is
                                     needed for PA to
                                     contribute to the IT
                                     contract vehicle that
                                     will move the program
                                     from NEMIS to EMMIE.
                                     Fiscal Requirements:
                                     Fiscal year 2007 $5.71
                                     million, fiscal year 2008
                                     $1.96 million.
GIS Web Interface Development.....  Services to produce an      MICHAEL BAKER JR INC.  Task Order...........  Awarded.............  17-Sep-07
                                     internet mapping system
                                     and web interface for
                                     geographic visualization
                                     of shelter data for the
                                     National Shelter system.
Logistics Management                The purpose of this         International          Blanket Purchase       Awarded.............  28-Sep-07
 Transformation Initiative           procurement is to obtain    Business Machines      Agreement.
 Assessment.                         expert consulting           Corporation.
                                     services that will assist
                                     the FEMA Logistics
                                     Directorate's efforts in
                                     providing support to our
                                     Nation. The services
                                     required include the
                                     establishment of a
                                     Logistics Program
                                     Management Organization
                                     (PMO) and the
                                     reengineering of the FEMA
                                     Logistics Directorate's
                                     supply chain by
                                     establishing a Third
                                     Party Logistics (3PL)
                                     Supply Chain Organization.
GAP Analysis (Planners)...........  ..........................  GSA IT Solutions.....  Interagency Agreement  Awarded.............  28-Dec-06
Upgrades for IA at NPSCs to         This initiative is to       CACI INC FEDERAL.....  .....................  Awarded.............  20-Sep-07
 Increase Capability.                upgrade the network
                                     architecture used to
                                     support IA applications
                                     such as registration,
                                     direct housing (mobile
                                     home) missions, helpline
                                     and processing
                                     operations. The upgrades
                                     are required to meet the
                                     service level expected by
                                     IA, which requires the
                                     system to support 12,000
                                     registrars and helpline
                                     workers, and 5,000 case
                                     processors at the same
                                     time. Fiscal
                                     Requirements: fiscal year
                                     2007 $2.93 million,
                                     fiscal year 2008 $5.3
                                     million, fiscal year 2009
                                     $.88 million.
IA Program Upgrades...............  This initiative is          General Services       Blanket Purchase       Awarded.............  5-Sep-07
                                     intended to double the      Administration IT      Agreement.
                                     available staff of          Solutions.
                                     Individual Assistance
                                     (IA) developers for the
                                     National Emergency
                                     Management Information
                                     System (NEMIS), FEMA's
                                     system of record for
                                     registrations and
                                     applicant processing.
                                     Doubling the staff is an
                                     IA priority due to the
                                     significant NEMIS changes
                                     that are required to
                                     support GovBenefits, post
                                     Katrina legislation, and
                                     other critical upgrades
                                     to NEMIS in order to
                                     support catastrophic
                                     disasters. Fiscal
                                     Requirements: fiscal year
                                     2007 $2.7 million, fiscal
                                     year 2008 $2.7million,
                                     fiscal year 2009 $2.7
                                     million.
Hosting for Environment for Mass    Support the facility and    To be completed in     .....................  Target..............  Fiscal year 2008
 Care.                               service to host these       fiscal year 2008.
                                     publicly used systems.
                                     Fiscal Requirements:
                                     fiscal year 2007 $2.54
                                     million, fiscal year 2008
                                     $2.77 million, fiscal
                                     year 2009 $3.13 million.
Portals for Disaster Housing......  Funding is needed to make   To be completed in     .....................  Target..............  Fiscal year 2008
                                     NEFRLS, NSS, and the        fiscal year 2008.
                                     Disaster Housing portal
                                     functional and meet DHS
                                     IT standards. Hardware
                                     and Oracle (software)
                                     licenses need to be
                                     purchased to support
                                     these systems. Fiscal
                                     Requirements: fiscal year
                                     2007 $4.64 million,
                                     fiscal year 2008 $.63
                                     million, fiscal year 2009
                                     $.691 million.
Mobile Disaster Recovery Centers    Post Katrina, the MDRC/     ON CALL                Contract.............  Awarded.............  7-Aug-07
 (MDRC) Support (Phase II) and       MRIC program was            COMMUNICATIONS  INC.
 Mobile Registration Intake          initiated and FEMA now
 Centers Upgrades.                   has 60 RV units that have
                                     been modified to provide
                                     an office environment for
                                     a mobile disaster
                                     recovery center and/or
                                     can easily be tasked as
                                     needed for use as a
                                     mobile registration
                                     intake center.
Driver Support and Fleet            This contract supports the  To be completed in     Contract.............  Target..............  Targer Award: TBD
 Management Systems.                 requirement for             fiscal year 2008.
                                     additional contract
                                     support drivers over the
                                     next 5 years. DOT will
                                     provide funding.
National Shelter System             Provide development         To be completed in     .....................  Target..............  Target Award: 1-May-
 Development.                        support for the National    fiscal year 2008.                                                   08
                                     Sheltering System
                                     database mandated by DHS.
                                     This database is needed
                                     in order to meet the
                                     comprehensive applicant
                                     tracking requirement. The
                                     acquisition represents
                                     the estimated 3 year
                                     service contract required
                                     to develop and support
                                     the new database. Fiscal
                                     Requirements: fiscal year
                                     2007 $.205 million,
                                     fiscal year 2008 $.750,
                                     fiscal year 2009 $.287
                                     million.
National Bus Contract.............  ..........................  To be completed in     .....................  Target..............  Target Award: 1-June-
                                                                 fiscal year 2008.                                                   08
AMTRAK Contract...................  ..........................  To be completed in     .....................  Target..............  Target Award: 1-June-
                                                                 fiscal year 2008.                                                   08
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The only known requirement at this time that may need to be sole 
source is Ground Support at Airports. Market research is completed and 
FEMA continues working with impacted and receiving States to further 
identify and define any ground support needs of airports that could be 
affected. If it is determined that there is a need for Ground Support 
at Airports, FEMA will begin a competitive procurement. Since it is 
unlikely that this requirement will be completed by the start of 
hurricane season, any need for ground support prior to the completion 
of the procurement process may be issued on a sole-source basis.
            research and development, training, and services
           united states citizenship and immigration services
FBI Name Checks
    Question. What value to national security has USCIS determined is 
added by the FBI name check process? Has USCIS performed an analysis on 
this issue? If so, please share this analysis with the Committee. Do 
naturalized citizens have a higher crime rate than natural-born 
citizens? What about Green card holders and Green card applicants?
    Answer. USCIS relies on the FBI name check as part of a suite of 
background security checks. The FBI name check provides USCIS with a 
unique source of data that may be pertinent to the decision making 
process associated with immigration benefit applications and which is 
not necessarily available through other background checks (e.g. IBIS 
and FBI fingerprint checks).
    USCIS has conducted FBI name checks for many years, including over 
5 million checks in the last 3 fiscal years alone (fiscal year 2005-
fiscal year 2007). While no formal report has been prepared, USCIS has 
empirical evidence based on the results of millions of name checks, and 
the agency also has the benefit of ICE's experience with FBI name 
checks conducted on aliens in removal proceedings. USCIS, working 
together with ICE and the DHS Office of Screening Coordination, 
continues to review USCIS security check screening processes, including 
FBI name checks, to ensure that adjudicators have access to relevant 
information in a timely manner.
    With respect to the crime statistics for naturalized and natural-
born citizens, USCIS respectfully suggests that you contact the 
Department of Justice for information relating to crime rates for any 
class of individuals.
    With respect to the crime statistics for naturalized and natural-
born citizens, USCIS respectfully suggests that you contact the 
Department of Justice for information relating to crime rates for any 
class of individuals.

                FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Question. Are there are any agencies that are not paying their full 
``tab''? If so, which agencies apply to this situation and how much are 
they not paying?
    Answer. FLETC has a shared funding arrangement with all of its 
customers wherein the travel and per diem is funded by the agency while 
the basic student is in training and FLETC covers the tuition and 
miscellaneous overhead costs for training. The only agency that has a 
different funding arrangement is the Capitol Police. In the 
appropriation language for the Capitol Police it States, `` . . . That, 
notwithstanding any other provision of law, the cost of basic training 
for the Capitol Police at the Federal Law Enforcement Training Center 
for fiscal year 2008 shall be paid by the Secretary of Homeland 
Security from funds available to the Department of Homeland Security.'' 
Based on this language the FLETC also covers the per diem cost for all 
Capitol Police basic students while they are in training at the Glynco, 
GA center. The following is the funding history for the Capitol Police:

----------------------------------------------------------------------------------------------------------------
           Fiscal year                Tuition          Misc.           Meals          Lodging          Total
----------------------------------------------------------------------------------------------------------------
2002............................        $330,928        $207,864        $150,253        $156,280        $845,325
2003............................         625,906         329,235         248,327         231,009       1,434,477
2004............................         176,715         165,453         124,785         342,822         809,775
2005............................         128,771         135,700          83,548          83,602         431,621
2006............................          44,819         103,232          57,365         102,055         307,471
2007............................         139,552         229,304          126819         253,926         749,601
----------------------------------------------------------------------------------------------------------------

                         SCIENCE AND TECHNOLOGY

    Question. Given the current concerns about cyber security, it is 
interesting that no additional resources for this recognized threat 
have been requested within S&T.
    Which Federal agency is the lead research agency for the cyber 
security threat?
    Answer. While the Department of Homeland Security (DHS) is the 
overall lead for cyber security, cyber security research and 
development (R&D) remains an interagency effort. There are many 
agencies with difference expertise across the Federal Government (e.g., 
National Science Foundation, Department of Defense, Intelligence 
Advanced Research Projects Activity, Department of Energy, National 
Institute of Standards and Technology) that have R&D programs in this 
area and they coordinate research activities regularly via inter-agency 
working groups. Cyber security R&D has been, and will continue to be, a 
priority in the Department of Homeland Security and in the S&T 
Directorate's Command, Control and Interoperability Division.
    Question. What is that Federal agency's base fiscal year 2008 
funding for cyber security and how much has it been increased in the 
fiscal year 2009 request?
    Answer. Fiscal year 2008 funding for cyber security R&D withing DHS 
is $19.9 million. The President's fiscal year 2009 cyber security R&D 
funding request is $18.2 million--a decrease of $1.7 million.
    Question. Is this increase sufficient to address the threat?
    Answer. Yes. The S&T Directorate in coordination with the DHS 
Assistant Secretary for Cyber Security and Communications, has 
developed a focused 2009 Budget that addresses the Nation's critical 
cyber security research needs where the government can have the 
greatest impact.

                   DOMESTIC NUCLEAR DETECTION OFFICE

    Question. You mentioned during your hearing that 100 percent of 
containers crossing the Southern Border are screened for radiation. I 
believe you may be mistaken, as I note that U.S. Customs and Border 
Protection does not screen containers carried by rail from the Southern 
Border. If this is so, what is the actual percentage of containers 
screened?
    Answer. The ``containers screened'' metric is often mentioned and, 
while useful, the terminology can be confusing. Screening is a visual 
or automated review of information about goods, including manifest or 
entry documentation accompanying a shipment being imported into the 
United States. Screening cargo before it enters the United States is a 
cornerstone of the DHS layered enforcement strategy. CBP screens 100 
percent of all containers entering the United States and assesses each 
one for risk. Containers identified as high risk receive further 
attention such as, for example, a physical inspection by a CBP officer.
    In addition to 100 percent screening, another layer in DHS's 
strategy is to scan containers for radiation. Scanning may be performed 
with radiation portal monitors and may also include non-intrusive 
imaging (NII) technology. CBP scans 100 percent of all truck cargo 
containers entering the United States from Mexico for illicit 
radiological and nuclear materials with radiation portal monitors 
(RPMs). CBP does not currently have the technical capability to scan 
rail cargo along the Southern border; however, efforts are underway to 
establish technical and operational requirements for equipment that 
could scan rail cargo. When current truck and rail volume is combined, 
the actual percentage of cargo containers scanned with RPMs along the 
Southern border is 85 percent.
    Question. The containers screened metric is often mentioned. It is 
handy to be sure, but perhaps misleading. If Americans believe 100 
percent of containers coming across the southern border are screened, 
they'll be inclined to believe the job is done. However, this neglects 
the fact that containers are only a fraction of the cargo total. Also 
the caveat that it does not account for rail-borne containers is often 
over looked.
    Do you believe this simple metric is more helpful than it is 
misleading?
    Answer. While cargo coming into the United States does face 
multiple threats, the vulnerability of cargo containers continues to be 
of concern to the public and Congress, as illustrated by congressional 
mandates in recently enacted legislation. Reporting on DHS's progress 
in screening and scanning containers for radiological and nuclear 
threats, as well as progress in other areas, is an important way for 
the Department to keep the public and Congress informed of our broad 
range of efforts to secure goods entering our country.
    Question. Is a new metric being developed? What percent of cargo is 
screened by tonnage or volume?
    Answer. Currently, CBP and DNDO are refining the Joint Deployment 
Strategy for Radiation Portal Monitors. Recent technological advances 
such as the Advanced Spectroscopic Portal (ASP), if certified, may 
provide DHS with opportunities to re-evaluate the current state, 
including measures of progress. The Joint Deployment strategy will 
define our national strategy with regard to all cargo (break bulk, 
containerized cargo, roll-on-roll-off, and bulk), and, in its 
development, DNDO and CBP will consider multiple options for 
programmatic metrics. This fully revised document is expected to be 
completed in fiscal year 2008.
    CBP does not utilize tonnage or volume, as these metrics do not 
meaningfully reflect the scope of work being conducted by CBP at all 
ports of entry. While the use of such metrics as tonnage, volume, 
value, or line items may provide another means of measuring success, 
the uniform nature of containers provides a much simpler and clearer 
comparative measure.
    The percentage of all containers (truck and rail, full and empty) 
scanned with RPMs along the southern border is 85 percent.
    Question. As I mentioned rail containers aren't screened and may be 
an effective way to haul a nuclear weapon into this country. What would 
you judge to be the riskiest pathway into the Nation and what efforts 
will you take to close that pathway?
    Answer. The Global Nuclear Defense Architecture (GNDA), and its 
layered defense strategy, drives DNDO efforts to look at all potential 
pathways into the United States; including land border crossings, 
seaports, rail crossings, aviation pathways, maritime craft, and other 
non-authorized modes of entry. Because establishing fully instrumented 
layers all at once is untenable, an approach based both on risk and 
capability is being employed.
    Based on analysis conducted in fiscal year 2005 and fiscal year 
2006, DNDO identified several pathways of concern, including general 
aviation and small maritime craft. Since that time, the Department has 
begun efforts to address both of these pathways. International general 
aviation flights entering in the United States are now scanned for 
radiological and nuclear threats upon arrival. The West Coast Maritime 
pilot in the Puget Sound and San Diego regions is a 3-year effort to 
design, field and evaluate a radiation detection architecture that 
reduces the risk of radiological and nuclear threats that could be 
illicitly transported on recreational craft or small commercial 
vessels.
    Question. What is the long term plan for Securing the Cities? How 
many cities will be covered?
    Answer. Presently, the Securing the Cities initiative is entirely 
based in the New York City (NYC) region, with a projected conclusion of 
the engagement at the end of 2009. An assessment of the NYC regional 
implementation will occur through 2008 and 2009. Part of the assessment 
will estimate the degree to which State and local law enforcement and 
emergency responders can take on the preventive radiological and 
nuclear detection mission area. The result of this assessment will help 
determine if these types of engagements are constructive and worth 
continuing.
    Risk and threat criteria will drive any potential future efforts 
for determining what cities will be covered.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

Aviation: Checkpoint Screening Technology
    Question. What are the primary factors that have contributed to the 
limited progress in deploying new technologies to screen airline 
passengers? What can Congress do to expedite these efforts?
    Answer. The Department of Homeland Security appreciates the support 
that Congress has provided thus far with regard to this issue. It would 
be very helpful if Congress can continue to support the Transportation 
Security Administration's (TSA's) efforts to improve overall lifecycle 
management and operational integration of new technologies. This will 
enable TSA to detect a greater range of threats more quickly and with 
greater accuracy.
Surface Transportation Security: Amtrak Grants
    Question. Please explain why the Department is requiring a non-
Federal match from Amtrak in order to use the $25 million provided 
under the fiscal year 2008 Consolidated Appropriations Act when no such 
requirement exists in the Appropriations Act or the authorizing section 
in the 9/11 Act?
    Answer. Section 1513(g) of the Implementing Recommendation of the 
9/11 Commission Act of 2007 (Public Law 110-53) calls for a match study 
on the feasibility and the appropriateness of a match requirement for 
railroad carriers, including Amtrak. While this study is not final, the 
Department of Homeland Security (DHS) determined that at least a non-
DHS cost share, rather than a non-Federal cost share, is feasible and 
appropriate for Amtrak. A match requirement was also portended in the 
fiscal year 2007 Transit Security Grant Program Supplemental. This 
requirement is also consistent with the Department's other homeland 
security grant programs.
    Question. The administration's fiscal year 2009 budget request 
proposes to eliminate dedicated funding for Amtrak security and return 
to the fiscal year 2007 practice of apportioning some amount of grant 
funds to Amtrak out of the general rail and transit security grant 
program, likely leading to a reduction of security funds for Amtrak.
    What is your rationale for this?
    Answer. The transportation sector is a system of systems and must 
be considered as such when determining how to apply funds against the 
greatest risks in terms of threat, vulnerability, and consequences. 
Amtrak intersects with several other transit agencies and regions 
across the Nation and should be considered in parallel with, not 
separate from, those other systems. This approach encourages regional 
collaboration to utilize multiple funding sources in order to mitigate 
risks and improve overall security.
    Question. Doesn't Amtrak deserve special focus as the Nation's only 
Nation-wide intercity passenger railroad, especially given that it is a 
quasi-Federal entity?
    Answer. The transportation sector is a system of systems and must 
be considered as such when determining how to apply funds against the 
greatest risks in terms of threat, vulnerability, and consequences. 
Amtrak intersects with several other transit agencies and regions 
across the Nation and should be considered in parallel with, not 
separate from, those other systems. This approach encourages regional 
collaboration to utilize multiple funding sources in order to mitigate 
risks and improve overall security.
    The risk-based approach implemented by the Department of Homeland 
Security and the Transportation Security Administration recognizes the 
significance of Amtrak and its security profile. Targeted awards under 
the former Intercity Passenger Rail Security Grant Program and the 
current Transit Security Grant Program (TSGP) have facilitated 
improvements in security infrastructure and operations. Amtrak has 
received the following allocation of funds under the TSGP:
  --$13.4 million allocated in fiscal year 2007;
  --$7.2 million allocated in fiscal year 2006; and
  --$6.4 million allocated in fiscal year 2005.
    In fiscal year 2008, Amtrak will receive $25 million in funds under 
the TSGP to address risk-based security enhancement priorities.
    The consolidated security grant programs provide the allocation of 
funds for projects having the greatest risk mitigation across transit 
and rail systems.
Surface Transportation Questions
    Question. The 9/11 Act tasks your agency with many new and 
important responsibilities for surface transportation security. For 
rail security alone, the Act requires some 12 new rulemakings, reports, 
and assessments. If the Department is truly committed to increasing its 
focus on surface transportation, what is your explanation for how you 
plan to implement the new surface transportation security provisions of 
the 9/11 bill without any increased funding for the upcoming fiscal 
year?
    Answer. The 9/11 Act's requirements, in many cases, build upon 
existing security enhancement programs and initiatives pursued by the 
Transportation Security Administration (TSA). In the freight rail mode, 
prior to passing the 9/11 Act, TSA had begun the development and 
implementation of programs that met some of the security provisions of 
the 9/11 Act such as a Tank Car Vulnerability Study and a tracking 
program focused on reducing the risk associated with the transportation 
of toxic inhalation hazard materials. Additionally, TSA has conducted 
vulnerability assessments of high population areas throughout the 
freight rail network.
    In the passenger rail mode, TSA has set as strategic priorities six 
Transit Security Fundamentals:
  --Protection of high-risk underwater/underground assets and systems
  --Protection of other high-risk assets that have been identified 
        through system-wide risk assessments
  --Use of visible, unpredictable deterrence
  --Targeted counter-terrorism training for key front-line staff
  --Emergency preparedness drills and exercises
  --Public awareness and preparedness campaigns
    To a substantial degree, these priorities align with the actions 
directed under the 9/11 Act. As such, security enhancement programs and 
resource allocations, notably under the Transit Security Grant Program, 
were already in place prior to the enactment of the legislation.
    Additionally, the Consolidated Appropriations Act, 2008 provided 
$30 million for implementation efforts related to the requirements of 
the 9/11 Act. TSA will apply these resources to increasing capabilities 
to implement a number of the requirements of the 9/11 Act, including 
rulemakings, reports, and assessments, among others.
    Question. Although you have moved all of your canine units and VIPR 
teams under aviation security, you indicate that a large portion of 
these resources will still be used for surface transportation purposes. 
What percentage of the canine units and VIPR teams will be solely 
allocated to surface transportation?
    Answer. Out of the more than 780 explosives detection canine teams 
included in the fiscal year 2009 President's budget, 82 teams (10.5 
percent) will be solely allocated to surface transportation. In 
addition, support from the other explosives detection canine teams will 
augment these efforts as needed.
    Since the program's inception in 2005, the Visible Intermodal 
Protection and Response (VIPR) deployments have been conducted in both 
the aviation and surface transportation areas. VIPR resources are not 
allocated in advance by transportation mode, but rather are utilized 
based on intelligence and/or threats, or through the direction of 
senior security managers. Historically, approximately half of all 
deployments have been focused in the aviation domain and it is 
reasonable to assume a similar allocation unless intelligence dictates 
otherwise. The Transportation Security Administration's request to 
consolidate VIPR resources into the Aviation Security Appropriation 
under the Law Enforcement Program, Project and Activity is intended to 
simplify management of resources and better reflect management of VIPR 
as a single program entity.
Coast Guard: Interagency Operation Command Center (IOCC's)
    Question. How does the Department intend to satisfy the 
Congressional mandate to establish Coast Guard Interagency Operation 
Command Centers for the maritime domain by fiscal year 2009 as required 
under the SAFE Port Act when the administration has requested no 
funding to do so?
    Answer. The Coast Guard intends to merge the acquisition project 
called Command 21 with the Interagency Operations Center (IOC) the to 
meet the Safe Port Act requirements to establish interagency command 
centers in 24 Coast Guard Sectors in the Nation's highest priority 
ports. Additionally, the Coast Guard is currently finalizing a spend 
plan for the $60 million provided in fiscal year 2008 which will 
support three major components of the IOC capabilities: facilities, 
information management and sensors in order to satisfy the 
Congressional mandate. All three of these components are critical to 
establishing the information sharing and interagency coordination 
necessary to ensure we meet our obligation under the SAFE Port Act.
    The first priority of the IOC project will be to develop the 
information management suite that will provide the Coast Guard's 
existing Sector Command Centers with Interagency Operation Center 
capability. WatchKeeper is the information management tool that will 
deliver this capability; it will be deployed to all 35 Sector Command 
Centers. WatchKeeper will tie-in directly with our port partners and 
facilitate information fusion and sharing as well as provide a tactical 
situational awareness tool for operational coordination. Moreover, the 
Coast Guard will continue to use the collaboration and integration 
provided through the Area Maritime Security Committees to maximize 
outreach and coordination efforts.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

2010 Olympics
    Question. Mr. Secretary, in your response regarding fiscal year 
2009 funding for 2010 Olympics-related costs, you identified three main 
sources of funding: fiscal year 2009 funds within Customs and Border 
Protection, fiscal eyar 2009 funds from other DHS components and grant 
funding. With regards to CBP, you stated, ``Well, of course for the 
fiscal year 2009 budget . . . we do have in the CBP budget money that 
CBP anticipates spending from its base budget current resources to 
cover some of its expenditures in connection with the planning and the 
run-up to the Olympics.''
    What are the accounts within Customs and Border Protection that you 
anticipate these funds will come from?
    Answer. CBP anticipates spending $1.74 million within the Salaries 
and Expenses account in fiscal year 2009 on 2010 Olympic related 
expenses. The account breakout follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Inspections, Trade and Travel Facilitation at POEs:
    Seattle Field Office................................        $589,460
    Vancouver/Victoria Preclearance.....................         567,058
Between the Ports:
    Office of Border Patrol.............................         585,210
------------------------------------------------------------------------

    Question. What amounts do you anticipate could be used for 2010 
Olympics-related costs out of fiscal year 2009 funds?
    Answer. CBP anticipates spending $1.74 million in fiscal year 2009 
on 2010 Olympic related expenses. The related costs are broken out 
below:
    Overtime: $765,974.
    TDY: $948,454.
    Canine (kennel, vet): $27.300.
    Question. In your response regarding fiscal year 2009 funds from 
other components of the Department, you stated, ``But I think at this 
point we expect that the Federal share of this will be taken care of by 
moneys already allocated to the relevant components.'' What other 
components do you expect will contribute to 2010 Olympics-related costs 
out of fiscal year 2009 funds?
    Answer. The Department has sent a request for information to its 
various components to determine the cost estimates and any identified 
sources of funds associated with the 2010 Olympic and Paralympic games. 
Once that information is collected, the Department will determine which 
estimates are specific to the games, and will identify potential 
sources of funding or a future funding request.
    Question. Mr. Secretary, you also stated that homeland security 
grant funding could be available. Specifically, you stated, ``I would 
also envision that because we will have--it'll be Homeland Security 
grant funds made available in 2009, some of those may be available and 
attributable for security-related measures as it relates to this 
particular Olympics.'' Given the 80-percent pass through requirement 
for State Homeland Security Grant funds and that this event occurs 
outside of a UASI-eligible area, what grants did you anticipate could 
be used for these purposes?
    Answer. The State Homeland Security Program (SHSP) supports the 
development and implementation of State Homeland Security Strategies to 
address the identified planning, organization, equipment, training, and 
exercise needs for acts of terrorism and other catastrophic events. 
Washington State and its local jurisdictions can use their SHSP funding 
to support activities in preparation for this event in the areas of 
planning (including operational planning), training and exercises. In 
addition, Washington can use up to 15 percent of their SHSP funds for 
overtime costs for personnel to participate in information, 
investigative, and intelligence sharing activities specifically related 
to homeland security. This includes activities such as anti-terrorism 
task forces, JTTFs, Area Maritime Security Committees, DHS Border 
Enforcement Security Task Forces, and Integrated Border Enforcement 
Teams. Washington can also hire new staff and/or contractor positions 
to serve as intelligence analysts to enable information/intelligence 
sharing capabilities within the designated primary Statewide Fusion 
Center. In order to be hired as an intelligence analyst, staff and/or 
contractor personnel must meet at least one of the following criteria: 
Successfully complete training to ensure baseline proficiency in 
Intelligence Analysis and Production within 6 months of being hired; 
and/or, previously served as an intelligence analyst for a minimum of 2 
years either in a Federal intelligence agency, the military, or State 
and/or local law enforcement intelligence unit.
    Question. You indicated that Mark Beaty is the Federal Coordinator 
for the planning for the 2010 Olympics.
    Assuming that Mr. Beaty does not have authority to budget funds for 
2010 Olympics-related costs, authorize spending of funds, or authorize 
the movement of personnel, could you please describe the mechanisms or 
process the Department uses to act on his recommendations that the 
Department agrees should be implemented?
    Answer. The Federal Coordinator for planning of the 2010 Olympic 
and Paralympic Games will provide guidance in financial matters related 
to the games but does not have budgetary or execution authority over 
funding. The financing of requirements necessary to support the games 
will be provided by the appropriate DHS component, who will utilize the 
normal flexibility granted to them within their existing budgets. If 
additional budgetary authority is required, the Department will work 
with the component to request the necessary authority through the 
appropriate funding mechanism.
    Question. Which component of DHS would make the decision on which 
recommendations to act upon?
    Answer. The determination as to which recommendations of the 
Federal Coordinator for the 2010 Olympic and Paralympic games to act 
upon will come from the Secretary of the Department and the leadership 
of the component that has the expertise and authority to act on the 
recommendation.
    Question. Which agency within DHS will have lead responsibility for 
2010 Olympics domestic security coordination and budget coordination 
among the different DHS components?
    Answer. The Office of Operations Coordination will provide the 
Department with overall direction and guidance for the 2010 Olympic and 
Paralympic games. The DHS CFO will provide assistance in budget 
coordination and financial matters. Individual components will be 
responsible for the budgeting and execution of operations and programs 
within their respective areas of expertise and authority.
Pacific Northwest National Laboratory (PNNL)
    Question. Mr. Secretary, in your response to my question why PNNL 
was not adequately included in the Fiscal Year 2009 Homeland Security 
budget, you responded, ``It's a very tough budget circumstance all 
around, particularly because there have been, obviously, with the 
subprime mortgage issue and the money that was put into that. There 
have been some unanticipated budgetary impacts from the total budget's 
standpoint.''
    Could you please clarify what affect the subprime mortgage issue 
had on DHS budgeting for fiscal year 2009?
    Answer. To clarify, the subprime mortgage issue did not directly 
impact the Department's ability to fund the Pacific Northwest National 
Laboratory (PNNL).
    What were the other unanticipated budgetary impacts that affected 
DHS' budgeting for PNNL?
    Answer. The administration seeks $10 million for a PNNL replacement 
facility in the fiscal year 2009 budget request. However, the 
Department continues to believe that splitting funds between DOE and 
DHS for the PNNL replacement project has not proven the best method for 
efficient management of the endeavor. We continue to support that all 
PNNL replacement funding be directed to the Department of Energy.
    DHS Science and Technology signed a Memorandum of Understanding 
(MOU) with the Department of Energy Office of Science and the National 
Nuclear Security Administration that delineated each department's 
financial obligation to provide ``a predictable funding profile, 
critical to finishing this project [PNNL Capability Replacement 
Laboratory] on schedule and within budget.''
    Question. DHS Science and Technology signed a Memorandum of 
Understanding (MOU) with the Department of Energy Office of Science and 
the National Nuclear Security Administration that delineated each 
department's financial obligation to provide ``a predictable funding 
profile, critical to finishing this project [PNNL Capability 
Replacement Laboratory] on schedule and within budget.''
    When developing the Department's budget, could you please describe 
how the Department considers such MOUs?
    Answer. The draft Memorandum of Understanding (MOU) laid out the 
desired split of funding for Pacific Northwest National Laboratory 
(PNNL). The MOU stated that ``the parties recognize that specific 
amounts will depend on OMB and Congressional action. It is understood 
that, to the extent funding is appropriated and available, the Parties 
shall adhere to this profile.'' Funding for MOUs is evaluated along 
with all other competing priorities in budget development.
    Question. Could you please identify similar situations in which the 
Department has a memorandum of understanding with one or more other 
Federal agencies to budget in a certain year an amount for a project or 
program and had to reduce the amounts it had obligated itself to 
through the MOU?
    Answer. The S&T Directorate has no other similar Memoranda of 
Understanding (MOUs) that it had to reduce the amounts it had obligated 
itself to through the MOU.
Homeland Security Grants
    Question. The Homeland Security Budget does include $200 million 
for State Homeland Security Grants and $200 million for Emergency 
Management Performance Grants. Given this recognition that these grant 
programs have some purpose, what makes you believe that this amount is 
appropriate to meet the needs?
    Answer. The requested amount is appropriate to meet the needs. 
Before the fiscal year 2008 grant cycle began, the Department took 
several steps towards 9/11 Act compliance, including a directed review 
of risk data for each of the 100 largest Metropolitan Statistical Areas 
to aid in the development of the fiscal year 2008 list of eligible 
urban areas; outreach by members of the Department's Homeland 
Infrastructure Threat and Risk Analysis Center (HITRAC) with every 
State and most cities to provide them with their State threat 
assessment; as well as the data call by HITRAC to the State Homeland 
Security Advisors (HSA) to assemble the Tier 1 and Tier 2 lists of 
critical infrastructure used in the eligibility determinations.
    FEMA used open and official sources for all other information 
(e.g., Census data) or the only authoritative source available (such as 
Defense Industrial Base information from Department of Defense). In 
addition, all formulas, models, spreadsheets, and data have been 
provided to GAO in advance of grant release for their annual risk 
report to the Hill.
    Moving forward, the Department has sent letters to the senior 
elected official in each of the 100 MSAs, in order to review their 
individual risk scores and the overall risk allocation methodology, as 
well as how that methodology applies to their MSA. This process will be 
ongoing until April 1, 2008, at which time DHS senior leadership will 
consider the results of this data.
Port Security
    Question. Mr. Secretary, can you report on some of the lessons you 
and the Department have learned from the Secure Freight Initiative 
during this past year?
    Answer. The ``Security and Accountability For Every (SAFE) Port Act 
of 2006'' required that three foreign ports pilot 100 percent scanning 
of United States-bound maritime containers using both radiation 
detection and imaging equipment. On October 12, 2007, the ports of 
Southampton, U.K.; Qasim, Pakistan; and Cortes, Honduras, became fully 
operational and now attempt to scan 100 percent of containerized cargo 
destined for the United States. The SAFE Port Act also requires a 
report to Congress in April 2008, and every 6 months thereafter, to 
evaluate the successes and challenges of 100 percent scanning. In order 
to provide a robust report to Congress, the Departments of Homeland 
Security (DHS) and Energy (DOE) will also test, although in a more 
limited capacity, scanning systems in four additional ports: Hong Kong 
(now fully operational); Busan, Korea; Salalah, Oman; and Singapore. 
The 9/11 Act, requiring 100 percent scanning by 2012, places a premium 
on the data gathered by these pilots and these reports will serve as a 
foundation for moving towards a goal of 100 percent scanning of all 
United States bound maritime containers.
    SFI is already learning from the challenges and seeing a number of 
successes of the three operational ports. For example, extreme heat in 
Pakistan and flooding in Honduras adversely affects the scanning 
equipment. Solutions such as shading and better drainage can ensure 
that the systems continue to work even in challenging climates. Also 
the proximity of radiation detection and imaging equipment can alter 
the accuracy of each machine. As such, ``blanking codes'' were 
installed to make sure that there is no interference with the radiation 
and imaging equipment.
    To note some successes, the scanning systems are not adversely 
affecting port operations and in no instance has a container missed its 
vessel. Also, a trade facilitation benefit is also apparent with 
containers leaving Port Qasim. In just over 1 month, almost 1,400 scans 
took place with only 13 alarms and of those 13 alarms, none were re-
examined in domestic ports. By giving domestic targeters access to the 
radiation signature and image gathered in an SFI port, they can more 
efficiently adjudicate alarming containers in the United States and 
ensure the quick entrance of legitimate goods into the United States.
    Question. The administration has recognized the role the Federal 
Government has in helping our ports to improve the security of our 
Nation and included port security grants in its budget request. As a 
senator from a State with two of the largest ports in the Nation at 
Seattle and Tacoma to very small ports, how would the Department 
improve the security of our smaller ports to prevent harmful materials 
from entering our country?
    Answer. U.S Customs and Border Protection (CBP) has developed a 
multi-layered process to target high-risk shipments while 
simultaneously facilitating legitimate trade and travel. People, 
technology, automation, electronic information and partnerships are 
concepts that underpin CBP port security and anti-terrorism 
initiatives. These concepts expand our borders and reinforce the 
components of CBP's layered defense.
    In response to your question, the focus will be on technology 
deployed to the State of Washington.
    An integral part of CBP's comprehensive strategy to combat nuclear 
and radiological terrorism is to scan all arriving conveyances, 
containers, airfreight, mailbags, and express consignment packages with 
radiation detection equipment for illicit radiological/nuclear material 
prior to release.
    As part of CBP's Radiation Detection Program, CBP has deployed 77 
Radiation Portal Monitors (RPM) to 3 ports of entry and 1 mail facility 
in the State of Washington; however, all ports of entry in the State of 
Washington that process personally owned vehicles, truck and sea cargo 
will receive RPMs or other radiation detection technology (commensurate 
with workflow). There are 9 additional (smaller) ports of entry in the 
State of Washington that are currently in various stages of design and 
planning to receive RPMs. In addition, CBP has 11 large-scale imaging 
systems deployed in the State of Washington, as of March 14, 2008 and 
there are 2 additional large-scale imaging systems scheduled for 
deployment to ports of entry in the State of Washington by the end of 
this fiscal year.
                                 ______
                                 

               Questions Submitted by Senator Ben Nelson

FEMA--Urban Area Security Initiative
    Question. What is the Department's plan for conducting the process 
of allowing the 100 eligible metropolitan statistical areas, as defined 
by the Implementing the Recommendations of the 9/11 Commission Act, 
Public Law 110-53 (the 9/11 Act), going forward as the Fiscal Year 2008 
Urban Area Security Initiative (UASI) grant award process continues?
    Answer. Before the fiscal year 2008 grant cycle began, the 
Department took several steps towards 9/11 Act compliance, including a 
directed review of risk data for each of the 100 largest Metropolitan 
Statistical Areas to aid in the development of the fiscal year 2008 
list of eligible urban areas; outreach by members of the Department's 
Homeland Infrastructure Threat and Risk Analysis Center (HITRAC) with 
every State and most cities to provide them with their State threat 
assessment; as well as the data call by HITRAC to the State Homeland 
Security Advisors (HSA) to assemble the Tier 1 and Tier 2 lists of 
critical infrastructure used in the eligibility determinations.
    FEMA used open and official sources for all other information 
(e.g., Census data) or the only authoritative source available (such as 
Defense Industrial Base information from Department of Defense). In 
addition, all formulas, models, spreadsheets, and data have been 
provided to GAO in advance of grant release for their annual risk 
report to the Hill.
    Moving forward, the Department has sent letters to the senior 
elected official in each of the 100 MSAs, in order to review their 
individual risk scores and the overall risk allocation methodology, as 
well as how that methodology applies to their MSA. This process will be 
ongoing until April 1, 2008, at which time DHS senior leadership will 
consider the results of this data.
    Question. What is the Department's plan to conduct the fiscal year 
2009 UASI process in a manner consistent with the 9/11 Act?
    Answer. Further outreach over the summer is an integral step toward 
implementation of the 9/11 Commission Act within the fiscal year 2009 
grant cycle. In this process, it is vital to the Department that each 
city within the top 100 MSAs understands and exercises their 
opportunity to thoroughly review and amplify information relative to 
their individual threat, vulnerability and consequence factors.
    Going into the fiscal year 2009 cycle, the Department will ensure 
that the UASI process is in full compliance with the 9/11 Act, which 
calls for the FEMA Administrator to conduct an initial assessment of 
the relative threat, vulnerability and consequences from acts of 
terrorism faced by each eligible metropolitan area. This assessment 
will be done by FEMA, in conjunction with our partners from DHS' I&A, 
as well as the Homeland Infrastructure Threat and Risk Analysis Center 
(HITRAC). The FEMA Administrator will then provide each eligible 
metropolitan area with the information that is believed to be relevant 
to the determination of threat, vulnerability and consequence as faced 
by acts of terrorism. The eligible metropolitan area will have the 
opportunity to review the risk assessment and remedy any erroneous or 
incomplete information.
    I have been informed that the data and sources used in the State 
Homeland Security Grant Program and UASI risk formulas, in calculating 
the economic index, rely on different data sources for the gross State 
product than for the gross metropolitan product. The U.S. Bureau of 
Economic Analysis publishes data on both State and on metropolitan 
product, but it appears the BEA's numbers were not used in some cases.
    Question. I have been informed that the data and sources used in 
the State Homeland Security Grant Program and UASI risk formulas, in 
calculating the economic index, rely on different data sources for the 
gross State product than for the gross metropolitan product. The U.S. 
Bureau of Economic Analysis publishes data on both State and on 
metropolitan product, but it appears the BEA's numbers were not used in 
some cases. Can you explain what sources were used for calculating the 
economic index for both SHSGP and UASI and why?
    Answer. For the fiscal year 2008 UASI program, the Department did 
not have the advantage of using BEA's analysis of GDP by metropolitan 
area, as this is a novel BEA product whose inaugural publication was 
not made until September 2007, which was after DHS had completed the 
fiscal year 2008 UASI risk analysis. For the fiscal year 2009 UASI 
analysis, DHS intends to use BEA's metropolitan GDP numbers.
    For the fiscal year 2008 analysis, DHS used the ``Gross 
Metropolitan Product'' estimates prepared by the consulting firm 
``Global Insight'' on behalf of the United States Conference of Mayors 
and The Council for the New American City (http://usmayors.org/
metroeconomies/). DHS used the most recent version of the report 
available to us at the time, which was published in January 2007, and 
reported on GMP for 2005.
    For the urban areas in Puerto Rico, which were not covered in the 
Global Insight report, we used the total 2005 PR GDP (from the CIA 
World Factbook: www.cia.gov/library/publications/the-world-factbook), 
and divided it into the constituent municipalities according to the 
percentage of total non-farm employees (available from the Bureau of 
Labor Statistics: http://stats.bls.gov/eag/eag.pr.htm and links 
therein). We were not aware of a more authoritative (i.e., U.S. 
Government) source for the Gross Economic Products of the Puerto Rico 
MSAs.
    DHS did not compute the gross economic product (GEP) for either the 
SHSP or UASI programs. For SHSP, we used the BEA estimates for 2006 
(``2006E'') GDP, as they were published on the BEA web site (http://
www.bea.gov/newsreleases/regional/gdp_state/gsp_newsrelease.htm) in 
June of 2007, when the data used in the fiscal year 2008 analysis was 
collected. We use the ``Current-Dollar GDP by State'' rather than 
``Real GDP by State'', because we are interested in the differences in 
total economic product from State to State in a single year, not in 
year to year growth, breakdowns by industry or quantities produced. 
Since Real GDP is derived from current-dollar GDP, we assume the 
systematic errors are smaller for current-dollar GDP.
    For the territories not included in BEA's analysis, we used the CIA 
World Factbook (www.cia.gov/library/publications/the-world-factbook ), 
as of July 2007. We use the ``GDP (purchasing power parity)'' rather 
than the ``GDP (official exchange rate)'' in cases where both are 
given, because we believe that metric more closely resembles the GDP 
methodology of BEA. For cases in which an earlier year than 2006 is 
provided, we crudely scale up to 2006 dollars by multiplying by the 
ratio of BEA's estimate of the U.S. GDP in 2006 to its estimate in the 
year of interest. Although the territories' economies may not grow at 
exactly the same rate as the U.S. economy, most do share some economic 
ties with the U.S. economy.
Border Security
    Question. GAO reports that Border Patrol agents were given a 
``minimal role'' in developing Project 28. Is this an accurate 
description and, if so, what was the Department's reasoning for 
limiting agent involvement? And, are there specific plans to give 
agents a more prominent role in the government's efforts to secure the 
border?
    Answer. Regarding your concern about limited input from Border 
Patrol Agents, agents have had significant involvement and leadership 
in developing and deploying the SBInet solution, including P-28. Border 
Patrol agents were fully involved in the selection of the SBInet prime 
contractor. Furthermore, they were included in the source selection 
process for the master contract, including evaluation of the initial 
task order awarded under the program, P-28. Border Patrol Agents 
participated in the project development gate reviews for P-28 
including: preliminary design reviews, critical design reviews, and the 
test readiness reviews. These reviews allowed for agent input and 
concerns to be voiced as the system moved through the development 
process.
    Since November 2006, Border Patrol Agents have been involved in 
routine status meetings and have been providing feedback and guidance 
on system operational issues. This approach allowed CBP to keep Boeing 
accountable for Project 28 delivery and ensure the government not incur 
additional costs.
    Border Patrol Agents were involved from the very beginning and 
through the source selection process. We selected P-28 as a prototype 
and wanted to get something fielded early in our design process that we 
could learn from and use to explore concepts of operation. Boeing took 
all of the agents' input, made changes based on some of it and used it 
in the development of the first operational configuration. As a 
demonstration project, we anticipated the outcome would stimulate 
feedback from agents to further define our operational requirements.
    In its report, GAO acknowledged SBI's efforts to incorporate 
operator input in the development of SBInet requirements. The report 
stated: ``For example, officials from the Border Patrol, CBP Air and 
Marine, and the CBP Office of Field Operations reported that 
representatives from their offices were involved in the development of 
requirements for SBInet technology as early as October 2006 and on an 
ongoing basis since then.''
    Question. Reports indicate that DHS is planning to ``scale back'' 
its plans for the virtual fence, including a shift away from the tower-
mounted sensors. Are these reports accurate? If so, where or how 
specifically is DHS shifting its focus? Are there additional costs or 
other, different challenges associated with this shift?
    Answer. No. There have not been changes to DHS's overall plan to 
deploy a tower-based integrated sensor and common operating picture 
concept. DHS is confident that this type of technology solution will be 
used in other selected border locations where it makes sense. Along 
with other tools and techniques, this solution will contribute to CBP's 
efforts to secure our Nation's borders. P-28 was always a pilot project 
to demonstrate the feasibility of such a concept. It was never intended 
to be our final operational configuration.
    Question. What are the lessons learned from Project 28 that will be 
applied as Boeing attempts to address current software problems and as 
DHS prepares for phase II deployment of the virtual fence?
    Answer. In its current state, Project 28 provides operational 
technology in an area that was not previously supported by such 
resources, giving Border Patrol Agents improved situational awareness 
of operations in the field. Project 28 is a force multiplier in a 
location where CBP previously had a limited personnel assets on the 
ground.
    DHS and CBP will now take the valuable lessons learned and focus on 
the transformation of the future SBInet solution to improve 
accountability and implementation of technology. As a matter of fact, 
lessons learned from Project 28 have already been incorporated into the 
next iteration of the SBInet integrated system design including 
improved sensors, software and communications. These improvements will 
further CBP's ability to fully integrate detection, identification, and 
classification of border incursions within a common operating picture 
and will be implemented as part of the Calendar Year (CY) 2008 
deployments in Arizona. One critical lesson learned that led to the 
deceleration of the deployment schedule is the need for a Systems 
Integration Lab (SIL) to evaluate new hardware being introduced into 
the operational environment. The lab will help determine the 
effectiveness of the hardware within our system of towers, sensors, 
communication, common operating picture hardware and software prior to 
fielding across the U.S. border.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                   HEADQUARTERS CONSOLIDATION PROJECT

    Question. The fiscal year 2009 President's budget includes $120 
million within the Department of Homeland Security request and $331 
million within the General Services Administration request for the St. 
Elizabeths DHS headquarters project. What are the day-to-day effects on 
the workings of the Department without an accessible and properly sized 
headquarters campus?
    Answer. The lack of an accessible and adequately-sized consolidated 
Headquarters campus has an adverse impact on DHS operations and 
integration on a daily basis. The DHS mission is to lead a unified 
national effort to secure America. The lessons learned from Hurricane 
Katrina and Secretary Chertoff's Second Stage Review reinforces the 
critical requirement that DHS operate with increased integration to 
prepare for and respond to natural disasters and/or terrorist attacks. 
Our mission demands this approach to all hazards. Yet, the Department's 
legacy facilities are currently dispersed over about 40 locations and 
70 buildings throughout the National Capital Region, sometimes with 
sub-optimal security protections and routinely impacting adversely 
critical communication, coordination, and cooperation across DHS 
components.
    This extreme dispersion imposes significant inefficiencies in daily 
operations; problems that are magnified considerably at the most 
important moments--when the Department must act as a nimble and 
integrated team responding to significant natural disasters or 
terrorist threats. To support the incident management and command-and-
control requirements, the Department clearly needs to consolidate the 
mission execution functions of executive leadership, operations 
coordination, policy and program management in a secure setting.
    The current dispersed housing portfolio also results in increased 
costs through the duplication of common services that could otherwise 
be shared at a consolidated campus including increased transportation, 
mail handling, security and other support services costs. Further, 
these physical barriers impede the progress towards functional 
integration and unification of the Department operationally, 
administratively and culturally.
    When DHS was created, it was appropriately built with dispatch. Now 
is the time to make a commitment to the Department's future by fully 
funding the President's fiscal year 2009 Budget Request to commence 
construction of the DHS Consolidated Headquarters Campus at St. 
Elizabeths, needed to support DHS operations and integration.
    Question. What are the long-term consequences of the lack of a 
consolidated headquarters for the Department?
    Answer. The long term consequences of the lack of a consolidated 
Departmental Headquarters are a substantial worsening of the current 
dispersed housing portfolio that stands today at 40 locations and 70 
buildings, with increasingly adverse impacts on critical communication, 
coordination, and cooperation across DHS components.
    To put this in context, consider that DHS currently has 
approximately 40 space requests pending with the General Services 
Administration (GSA) to accommodate existing requirements within the 
National Capital Region (NCR) that already exceed the capacities of the 
Department's real estate portfolio. This has the potential to expand 
the portfolio to 80 locations and 110 buildings in the NCR. Without 
consolidation, as organizations mature and new program requirements 
develop, space requests will continue to be addressed with limited 
opportunities for strategic realignments and leveraging of existing 
locations in a highly competitive real estate environment. Instead of 
reducing the number of locations, buildings and the proximity of 
components to each other, the net result will be an expansion of 
buildings, and locations with increased dispersion. This will have an 
adverse impact on individual components or offices and a corresponding 
impact on interdepartmental coordination.
    This extreme dispersion of components across the NCR will continue 
to impose significant inefficiencies in operations, problems that are 
magnified considerably at the most important moments--when the 
Department must act as a nimble and integrated team responding to 
significant natural disasters or terrorist threats. The lessons learned 
from Hurricane Katrina clearly demonstrated that DHS needs to operate 
with increased integration in the preparation for and response to 
threats or natural disasters. A single unified Headquarters bringing 
together component leadership, operations coordination, policy and 
program management at St. Elizabeths is a fundamental management tool 
necessary to support DHS operations and is critical to the Department's 
long term ability to effectively perform our mission.
    In addition, the Department will not realize the strategic 
imperative to unify DHS operationally, administratively, and 
culturally, nor remove the physical barriers that impact unity of 
purpose and effort. This will further hamper the Department's effort to 
obtain the fundamental management tools necessary to support DHS 
operations and integration. A single unified headquarters bringing 
together component leadership, operations coordination, policy and 
program management is critical to the Department's long term ability to 
effectively perform our mission.
    The lack of a consolidated DHS Headquarters will also have long 
term total ownership cost consequences. GSA previously determined that 
consolidation of up to 4.5 million gross square feet of office space at 
St. Elizabeths will result in a revised estimate of approximately $743 
million Present Value savings over a thirty year period, as compared to 
individually replacing leases without any consolidation (based on 
fiscal year 2008 funding of the project, which was not appropriated by 
the Congress). This projected savings included DHS specific tenant 
costs. In addition to the loss of direct real estate savings of $743 
million, DHS will not be able to achieve further savings/cost 
avoidances at the consolidated headquarters campus through reduction of 
administrative overhead, elimination of redundancies and sharing of 
common campus services.

                          INTELLIGENCE SHARING

    Question. A recent article in the Wall Street Journal (2/25/08) 
reports that a consulting firm, in a report commissioned by the 
Department, has indicated that the Department is ``stumbling in its 
efforts to coordinate and share domestic intelligence'' with State and 
local law enforcement. More specifically, that its intelligence reports 
are tailored for Washington officials and don't provide State and local 
officials the intelligence they need. Please comment on the findings of 
this report, their accuracy, and what the Department is doing to share 
useful timely and accurate intelligence with State and local law 
enforcement.
    Answer. The original report that was featured in the Wall Street 
Journal article (2/25/08) was the result of an internal pilot project 
designed to review our processes for sharing domestic intelligence.
    Under Secretary for Intelligence and Analysis Charlie Allen 
launched the SLFC Pilot Project over 6 months ago based on his 
conviction that State and Local consumers were as critical a recipient 
of I&A intelligence products as was the DHS leadership, National 
Intelligence Community, and the Washington policy community. Mr. Allen 
firmly believes there cannot be true security of the Homeland until the 
partnership between the Federal Government, especially DHS, and State 
and Local authorities is fully developed. Sharing intelligence with our 
State, Local, and Tribal partners is essential to cementing this 
partnership.
    Initial progress toward this goal was achieved by assigning I&A 
representatives to the State and Local Fusion Centers. These onsite 
representatives serve as a direct liaison between the State and DHS I&A 
headquarters. Information began to flow but intelligence support to 
SLFCs was not progressing as quickly as Mr. Allen would like, nor was 
support focused on the unique needs of individual SLFCs. Equally 
important was his concern that since the number of SLFCs was 
increasing, he needed to bolster support to them immediately.
    To help the Under Secretary bring rapid improvement to the DHS 
relationship with State and Local partners, he engaged the services of 
Centra, a contractor with broad experience across government and a long 
time, valued relationship with DHS. Mr. Allen asked them to make 
recommendations for his consideration on the most important things I&A 
could do to have maximum impact on support to SLFCs. He also designated 
six fusion centers as the focus for the pilot project, gave the 
contractor full access to I&A personnel, and alerted the State and 
Local leadership of his intentions.
    The pilot focused on what Mr. Allen believes to be the most 
important areas of concern regarding I&A interaction and partnership 
with the SLFCs:
  --SLFCs ability to request and receive support from DHS requests for 
        information (RFIs) and other requests for assistance and 
        interaction);
  --Understanding the unique information needs of SLFCs so that I&A and 
        the Intelligence Community can better serve those needs (their 
        Priority Information Needs);
  --SLFC requirements for DHS information and intelligence support 
        during critical incidents (i.e., London/Glasgow, etc.); and
  --SLFCs ability to exploit open source information in furtherance of 
        their responsibilities (Open Source training, tools, and data).
    Unlike other such efforts, Mr. Allen instructed the pilot to not 
only identify the problem areas and make suggestions for moving 
forward, but demanded the contractor and I&A staff put actual fixes and 
solutions in place during the course of the pilot project. He is 
pleased to report that the pilot did exactly that, and that he now has 
a better understanding of the issues and a full set of near and long 
term suggestions to consider. All six pilot sites report that tangible 
progress has been made in improving DHS support.
    Specifically, responses to SLFC RFIs from DHS headquarters have 
improved significantly in both quality and timeliness, and all six 
sites have increased their interaction with DHS I&A. This interaction 
fostered the creation of a state-specific set of Priority Information 
Needs (PINS) at each pilot site and has begun to structure analytic 
output that responds to the State's specific needs. SLFC leadership has 
told Mr. Allen that this will contribute significantly to mission 
success.
    The extensive ``menu'' of SLFC preferences for DHS support in times 
of critical incidents such as London/Glasgow will be validated with the 
broader SLFC community. Additionally, I&A now has a solid handle on 
SLFC needs regarding Open Source Intelligence and has already provided 
training to four of the six pilot sites. I&A is developing a formal 
training curriculum that can be offered to SLFCs nationwide.
    The pilot report cited in the Wall Street journal had just been 
issued to Mr. Allen. He, in turn had just shared it with the I&A staff. 
In the weeks ahead, Mr. Allen will determine which of the suggestions 
should be implemented immediately. Mr. Allen intends to keep the 
momentum he has established with the SLFCs and will ensure that the 
responsiveness developed during this pilot study will continue. 
Intelligence sharing with State and Local authorities remains a top 
priority; I&A will continue to engage in frank self-evaluation to drive 
process improvement.
    Question. The Department established a State and Local Fusion 
Center Program in June 2006. To what extent has this program enabled 
the Department to create partnerships with State and local governments 
to improve information flow?
    Answer. The State and Local Fusion Center Program has been very 
successful in improving the information flow between the Federal 
Government and the States where we have assigned intelligence officers. 
We are routinely producing joint intelligence products with the fusion 
centers, and have opened a robust conduit for the States to articulate 
their intelligence requirements to the Federal Government. Information 
from the States is also beginning to be used by the national 
intelligence community to help inform national decision makers.

          NATIONAL CENTER FOR CRITICAL INFORMATION PROCESSING

    Question. The fiscal year 2008 Appropriations Act provides $72.3 
million for data centers to allow the Department to store and process 
critical information in a more efficient and secure manner. Does the 
Department face any obstacles to consolidation of its data storage 
capabilities? Can you give the subcommittee some insight into the 
current progress and future plans in this effort?
    Answer. Section 547 of the Report of the Committee on Rules to 
accompany H. Res. 878 States that ``None of the funds provided in this 
Act under the heading ``Office of the Chief Information Officer'' shall 
be used for data center development other than for the National Center 
for Critical Information Processing and Storage until the Chief 
Information Officer certifies that the National Center for Critical 
Information Processing and Storage is fully utilized, to the maximum 
extend feasible, as the Department's primary data storage center at the 
highest capacity throughout the fiscal year.''
    This restriction does not support best practice for data center 
redundancy. The long-range plan for the National Center for Critical 
Information Processing and Storage (NCCIPS) remains the same. NCCIPS is 
one of two enterprise data centers into which smaller component-
operated data centers are being consolidated. The Department is fully 
committed to the use of NCCIPS as evidenced by the alacrity with which 
space has been utilized and the importance of the systems installed. 
However, NCCIPS alone will not meet the Department's continuity of 
operations (COOP) needs. It is essential that both NCCIPS and the 
second enterprise data center be simultaneously populated. The Section 
547 restriction has a chilling effect on migration activity by limiting 
the Department's ability to address component COOP needs.
    Additionally, the U.S. Navy, who holds and operates the NCCIPS 
facility, is poorly suited to serve DHS needs due to their differing 
mission priorities their lack of fee-for-service business processes. 
The lower priority focus and business process issues have caused delays 
which are reflected in the weeks, and often months, required to 
negotiate and effect the installation of systems. Facility ownership 
and operation is a complex arrangement among NASA, the U.S. Army, the 
U.S. Army facility contractor, the Commander, Naval Meteorology and 
Oceanography Command and Naval Facilities Engineering Command. DHS 
would be better served by a landlord with a clear focus on DHS facility 
needs.
    Thirty-nine applications/systems have been relocated to the NCCIPS 
facility consuming approximately half of the available space. The 
Department's updated migration plans, funding permitting, bring 
facility to maximum use by second quarter in fiscal year 2011. See the 
following table for a migration schedule:

                TABLE 1.--DATA CENTER MIGRATION SCHEDULE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. What resources are in the fiscal year 2009 request to 
transition systems to the National Center for Critical Information 
Processing? Does the Department have any further funding challenges in 
fiscal year 2009 that are not addressed by the budget request?
    Answer. The fiscal year 2009 request includes $23,830,000 for data 
center development that is intended to support transition to both the 
National Center for Critical Information Processing and the 
Department's second enterprise data center. The fiscal year 2009 
request fully supports the center development and data migration 
activities anticipated for 2009 with new resources and base funding.
    Question. What is the long-range strategic plan for using the 
National Center for Critical Information Processing?
    Answer. The long-range plan for the National Center for Critical 
Information Processing (NCCIPS) remains the same. NCCIPS is one of two 
enterprise data centers into which smaller component-operated data 
centers are being consolidated. The Department is fully committed to 
the use of NCCIPS as evidenced by alacrity with which space has been 
utilized and the importance of the systems installed. However, NCCIPS 
alone will not meet the Department's Continuity of Operations needs. It 
is essential that both NCCIPS and the second enterprise data center be 
simultaneously populated.
    Question. What funding do you project will be necessary in fiscal 
year 2009 and each future fiscal year to carry out the strategic plan 
for the National Center for Critical Information Processing?
    Answer. We estimate that an investment of approximately $500 
million is needed to achieve the schedule below. In addition to funds 
requested specifically for this project ($23,830,000 in fiscal year 
2009), a major portion of the funding for both center development and 
data migration will be derived from direct appropriations to the 
Department's CIO and collections by the Working Capital Fund.

                   U.S. CUSTOMS AND BORDER PROTECTION
                     BORDER PATROL SUPPORT STAFFING

    Question. Operation Jumpstart placed 6,000 National Guard troops on 
the Southwest border. That deployment was complete in July of 2006. The 
Department is currently engaged in the phased withdrawal of that 
support. This Committee has been concerned about the pace of hiring 
support positions for the Border Patrol to fill that gap. It is support 
personnel who must be on hand to take up many of the tasks being 
performed by the National Guard. What more can be done to place a 
priority on getting the support positions for the Border Patrol filled? 
Does U.S. Customs and Border Protection have a plan in place to quickly 
fill these positions?
    Answer. Although CBP is making progress, we are not satisfied with 
the pace of the operational support hiring to date. The main challenge 
has been prioritizing this effort compared to the need to hire several 
thousand new Border Patrol Agents. CBP has taken several steps to 
improve our ability to meet both needs. For example, CBP is re-
organizing and adding personnel to both the Human Resources and 
Internal Affairs organizations so they can better accommodate their 
increased workload. They have provided authority for waivers so that 
CBP can hire employees on a conditional basis in advance of a full 
background investigation. In addition, CBP is beginning to conduct 
regular management reviews with the contractor to increase the focus 
and pace of their hiring efforts of contract employees to fill those 
operational support positions.
    CBP has approved hiring plans for filling the positions. The plans 
include the use of contracted support personnel as well as government 
FTE positions. The plans also include in hiring of new support 
personnel to replace personnel attrition. The goal for CBP is to 
complete the hiring for at least 80 percent of the new fiscal year 2008 
positions by the end the calendar year.

                  NORTHERN BORDER AND MARITIME SECTOR

    Question. Significant resources have been added to the Southwest 
border in the last 3 years. Small numbers of Border Patrol agents and 
Customs and Border Protection Officers have been added to the Northern 
border during that same time. Mr. Secretary, you have talked publicly 
about the significant threats on our Northern border. Are the right 
levels of resources on the Northern border to counter that threat?
    Answer. DHS and CBP have taken many steps to improve security on 
the Northern border. To address known as well as potential threats at 
the northern border, we are creating a stronger, more proactive and 
capable presence at and between ports of entry. CBP has created a 
unified command model in each of the two northern border enforcement 
environments--the Border Patrol between the ports of entry and the 
Office of Field Operations at the ports of entry. This command 
structure, which encompasses 13 States stretching from the Pacific 
Ocean to the Atlantic Ocean, ensures that appropriate resources can be 
rapidly brought to bear on any threat, and that Field Commanders have 
the authority to direct operations in the most comprehensive manner.
    CBP is overseeing the increased staffing and resourcing of air and 
marine assets within each of the Border Patrol sectors along the 
northern border. These assets will be geographically located in a 
manner that matches the aviation asset to the dynamic of the threat as 
well as to the mission and capability of the asset. Already, CBP 
through the Office of Air and Marine has established the following five 
air wings on the northern border: Bellingham, Washington; Plattsburgh, 
New York; Great Falls, Montana; Grand Forks, North Dakota; and Detroit, 
Michigan. In addition, the North Dakota Air Branch in Grand Forks was 
chosen to provide a strategic, centrally located air branch at the 
Northern Border that will have an expanded role, and is currently under 
review to certify its operational readiness as a base for Unmanned 
Aircraft Systems operations.
    Border Security Deployment Program (BSDP) was initiated in 2001 as 
part of the northern border port hardening initiative. This system 
configuration has been installed at all northern border land ports and 
to limited portions of the southern border. BDSP provides an integrated 
surveillance and intrusion detection system, which delivers critical 
security infrastructure, motion detection, and remote monitoring 
capabilities to the U.S. Land Ports of Entry (LPOE). The BSDP 
components include perimeter and interior camera systems connected via 
the CBP Wide-Area Network (WAN) to remote monitoring stations called 
Customs Area Security Centers (CASC). These centralized command centers 
house digital video recorders augmented with analytic software designed 
to alert the watch officer of a detected alarm or intrusion event 
within a port facility and archive the event for use as evidence in 
subsequent prosecutions. The National Targeting Center, HQ Situation 
Room, and ICE Internal Affairs maintain similar remote viewing 
capabilities.
    CBP is also working to fully implement, along with DOS, the Western 
Hemisphere Travel Initiative (WHTI). WHTI will require all persons 
seeking to enter or depart the United States to present a passport or 
other acceptable document that denotes the bearer's identity and 
citizenship. Consistent with a recommendation of the 9/11 Commission, 
the primary goal of WHTI is to strengthen security. It will reduce the 
opportunities for fraud or misrepresentation of one's true identity, 
and improve national security and entry into the United States by 
standardizing a limited number of approved documents required for all 
travelers entering the United States.
    In early 2007, CBP redirected a portion of the SBInet focus to the 
Northern Border, specifically in the Detroit, Michigan area, after 
Congress asked CBP for a redirection of $20 million from fiscal year 
2007 funds to begin addressing northern border vulnerabilities. This 
Northern Border Demonstration is tasked to deploy an SBInet solution to 
a section of the U.S./Canada border in a maritime environment in the 
Detroit sector area that may be the basis for future SBInet northern 
border maritime technologies.
    The success of many of our initiatives depends on leveraging 
intelligence and partnering with Federal, State, local, and tribal 
governments, as well as with Canada. A key component of the partnership 
efforts among law enforcement entities on the Northern Border is the 
Integrated Border Enforcement Team (IBET). The mission of IBET is to 
enhance border integrity and security by identifying, investigating and 
interdicting persons or organizations that pose a threat to national 
security or are engaged in other organized criminal activity. IBET's 
incorporate a mobile response capability and consists of six core 
Canadian and U.S. agencies with law enforcement responsibilities at the 
border.
    DHS, and specifically CBP, continuously work with our partners in 
the intelligence and law enforcement communities, both domestically and 
internationally, to monitor potential threats as decisions on the 
deployment of personnel and resources are being made.
    Recently there has been a significant increase in the number of 
semi-submersible vessels used for smuggling into the United States.
    Question. Recently there has been a significant increase in the 
number of semi-submersible vessels used for smuggling into the United 
States. Do Coast Guard and U.S. Customs and Border Protection have the 
right resources available to combat this method of smuggling?
    Answer. CBP and USCG believe the fiscal year 2009 request includes 
the right resources to combat this method of smuggling.
    Question. What increased resources are proposed in the fiscal year 
2009 budget request for securing the Nation's northern and maritime 
borders?
    Answer. The President's fiscal year 2009 Budget request contains 
four specific items, both aircraft and vessels, that are essential if 
CBP is to effectively counter the threats posed by terrorist activity, 
drug running, and illegal immigration. The P-3 maritime patrol aircraft 
is currently the only long-range capability available to detect, track, 
and coordinate the interception of contraband and illegal immigration 
along the Caribbean and eastern Pacific transit zones leading to our 
shores. CBP has 4 of its 16 P-3 aircraft operating against surface and 
sub-surface craft engaged in illegal activities. CBP Air and Marine 
(A&M) has initiated a service life extension program (SLEP) that will 
eventually provide the CBP P-3s with an additional 15,000 flight hours 
(roughly 18-20 years of continued service). To date, Congress has fully 
supported the P-3 SLEP and The President's Budget requests an 
additional $56.0 million in fiscal year 2009 to continue this critical 
A&M program.
    To enhance long duration patrol operations in the Caribbean and 
eastern Pacific, CBP A&M is conducting a demonstration of a maritime 
version of the Predator B unmanned aircraft system (UAS) from Tyndall 
AFB, FL, from March 17-28. Based on the results of the demonstration, a 
joint CBP/U.S. Coast Guard UAS Program Office will be formed for the 
purpose of developing the requirements for a maritime variant of the 
Predator B. With the Predator's 3,000 mile range and 30 hour operating 
time, it will greatly enhance the Department's capability to detect, 
track, and intercept suspect vessels transiting to U.S. waters. The 
President's request includes $29.6 million for the development of the 
Predator B maritime variant, enhancements to its software integration 
laboratory, and logistic support.
    CBP A&M seeks to replace its aging C-12 patrol aircraft, and fill 
the gap left by the closure of the DHC-8 patrol aircraft production 
line, by introducing a new multi-role enforcement aircraft (MEA) during 
the later part of fiscal year 2008. This aircraft is expected to be 
truly multi-role and have capabilities to operate over land and water. 
It will operate over the Great Lakes and will augment Caribbean and 
Pacific Ocean operations in littoral waters off the United States and 
off the shores of our international partners. The fiscal year 2009 
request contains $35.6 million for two of these aircraft.
    The fiscal year 2009 request also contains $10.1 million for 
additional marine vessels. Chief among these will be a new class of 
coastal interceptors, capable of out-pacing the fastest drug vessels 
and arrayed with greatly enhanced sensors and communications equipment. 
CBP A&M plans to acquire a prototype interceptor in fiscal year 2008 
for test and evaluation. Based on its evaluation of the prototype, A&M 
would use the funding requested for fiscal year 2009 to begin 
purchasing the new interceptors and to start retiring CBPs aging and 
less capable Midnight Express vessels.
    Combined with the $6.7 million Congress provided in the fiscal year 
2008 Appropriation for airborne sensors, the investments described 
above will give CBP the capabilities it needs to accomplish its vital 
maritime surveillance and interdiction mission, and to partner with the 
U.S. Coast Guard for the greatest benefit to the public's security.

                U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT
                          VISA WAIVER PROGRAM

    Question. Recently, Mr. Secretary, you were quoted as saying that 
one of the biggest threats to U.S. security may come from within 
Europe. What needs to be done to counter this threat?
    Answer. Countering this threat is the driving motivation for 
several initiatives the Department of Homeland Security (DHS) has 
pioneered in recent years and is pursuing now. Air Marshals help secure 
international airliners. Customs and Border Protection (CBP) officers 
help screen international air travelers in select European airports in 
a program called the Immigration Advisory Program (IAP). CBP officers 
also help screen shipping containers in European seaports under the 
Container Security Initiative. Enhanced information sharing--for 
example, in the 2007 U.S.-European Union Passenger Name Records (PNR) 
Agreement--is another pillar in our strategy of countering threats from 
Europe. As recently as March 11, Secretary Chertoff, joined by Attorney 
General Mukasey, initiated a ground-breaking watch list and fingerprint 
sharing agreement in Berlin. This new agreement will deepen counter-
terrorism cooperation with Germany, where last September, United States 
and German officials together dismantled a serious terrorist plot.
    In addition to the European Union PNR Agreement, DHS conducts other 
information sharing and partnership activities with our European 
counterparts to address security concerns of mutual interest. DHS and 
Interpol have worked together to enable U.S. Customs and Border 
Protection (CBP) screening of Advance Passenger Information System 
manifests against Interpol's Stolen and Lost Travel Documents database. 
This real-time sharing capability went online first at New York's John 
F. Kennedy International Airport in October 2007, and has since been 
expanded to eleven additional major international airports. DHS plans 
to continue to expand the availability of this resource to strengthen 
the ability to identify and interdict illicit and mala fide travel 
documents and the travelers who use them. DHS also engages with EU 
entities such as the Centre for Information, Discussion, and Exchange 
on the crossing for Frontiers and Immigration (CIREFI), which collects 
information on legal immigration, illegal immigration, unlawful 
residence, use of falsified documents, etc. DHS dispatched a 
representative from the Immigration and Customs Enforcement (ICE) 
Forensic Document Laboratory (FDL) to Brussels to brief CIREFI on 
successes and lessons learned as part of Operation WINGCLIP. Operation 
WINGCLIP is a joint ICE-FDL-CBP operation for detecting, deterring, and 
targeting terrorist and criminal organizations that exploit 
international mail and express consignment services to ship travel and 
identity documents to facilitate members' illicit travel throughout the 
world. DHS views this kind of interaction and collaboration as 
essential to enhancing and advancing our approaches to security threats 
that may come from Europe.
    Another key initiative designed to counter the potential threat 
from Europe is our transformation of the Visa Waiver Program (VWP) from 
a program that looked for security threats solely on a country-by-
country basis into one that can now also screen for risks on an 
individual passenger basis. As required by Section 711 of the 
``Implementing the 9/11 Commission Recommendations Act of 2007'' (9/11 
Act), the governments of the 22 European countries that participate in 
the VWP will be required to enter into more robust data sharing 
arrangements with the United States with respect to both passenger 
information and reporting of blank and issued lost and stolen 
passports. These information sharing provisions have been at the 
forefront of national and international initiatives to combat crime and 
terrorism throughout the world, and will provide our operators and 
analysts with new tools to secure the United States as well as help 
prevent terrorist and criminal activities in VWP partner Nations. 
European countries participating in the VWP will also be required to 
repatriate their citizens, to enhance aviation and airport security, 
and to improve the standards for national travel documents. All of the 
above security measures will be taken into consideration during the 
statutorily mandated VWP initial and continuing designation reviews DHS 
conducts.
    These new security frameworks will facilitate transatlantic travel 
for the vast majority of travelers who pose no security or law 
enforcement risks but make it increasingly difficult for terrorists and 
other criminals. Another critical tool for substantially strengthening 
the security of the VWP, and therefore countering any potential threats 
from European countries, is the Electronic System for Travel 
Authorization (ESTA). ESTA, which is also required by the 9/11 Act, 
will provide DHS with the capability to conduct enhanced advance 
screening of VWP travelers. Under ESTA, VWP travelers will be required 
to electronically submit biographic and other information that is 
largely the same as that currently collected via the I-94W Nonimmigrant 
Alien Arrival/Departure Form (I-94W) to DHS prior to their departure 
for the United States. ESTA applications will then be queried against 
appropriate law enforcement databases and watch lists, enabling DHS to 
make a determination on each individual's eligibility to travel to the 
United States under the VWP. Travelers denied an ESTA will be referred 
to the U.S. embassy or consulate to apply for a non-immigrant visa. 
ESTA counterbalances known VWP vulnerabilities that may be exploited by 
those with malicious intent by providing an additional layer of advance 
scrutiny that illicit travelers must overcome prior to boarding a 
carrier en route to the United States.

                  IMMIGRATION AND CUSTOMS ENFORCEMENT
                            CRIMINAL ALIENS

    Question. The U.S. Immigration and Customs Enforcement (ICE) Office 
of Detention and Removal estimates that of the total prison population 
in the United States, 605,000 are foreign-born and that at least half 
of those individuals may be eligible for deportation. Even though these 
convicted criminals are held in Federal, State, and local custody, ICE 
has not yet developed a comprehensive approach to identify incarcerated 
aliens, review the crimes of which they have been convicted, track the 
location of their incarceration, or monitor the time remaining prior to 
their release. ICE must prioritize the removal of those who have 
demonstrated the willingness and ability to commit violent and harmful 
crimes. The fiscal year 2008 Homeland Security appropriations Act 
includes $200 million to modernize the process used to identify and 
remove criminal aliens from the United States. Have U.S. Immigration 
and Customs Enforcement's plans for the $200 million been briefed to 
and approved by the Department leadership?
    Answer. Department leadership has been briefed and provided 
approval for plans which were submitted to Congress on March 25, 2008. 
ICE is now working to revise and finalize the plan based on 
Congressional feedback.
    Question. Does the Department agree with and support ICE's plans 
for modernizing the criminal alien program?
    Answer. The plans were submitted to Congress with approval from the 
Department.
    Question. What assurances can the Department provide that while 
this critically important effort is underway, U.S. Immigration and 
Customs Enforcement will not lose focus on its other critical areas of 
responsibility, such as trade enforcement and worksite enforcement?
    Answer. You have my assurance that ICE will continue to make 
progress, not only in trade enforcement and worksite enforcement, but 
also in critical program areas to continue to keep our Nation safe.

              NATIONAL PROTECTION AND PROGRAMS DIRECTORATE
              NATIONAL COMMAND AND COORDINATION CAPABILITY

    Question. The National Command and Coordination Capability program 
objective of improving the Nation's crisis management capability 
appears to overlap somewhat with other initiatives ongoing within the 
Department to improve communications in an emergency, both nationally 
and locally. How is this program being coordinated across the 
Department?
    Answer. The NCCC MCO, located within the Department of Homeland 
Security's (DHS's) National Protection and Programs Directorate, is an 
office performing the integration activity to align Federal, State, and 
local initiatives to ensure that end-to-end interoperability and 
performance is achieved. In fiscal year 2008, the NCCC MCO is 
establishing a requirements baseline, a functional decomposition, and 
an enterprise architecture to define the scope and scale of the future 
NCCC. This includes mapping existing systems and capabilities to the 
NCCC Functional Decomposition to begin identification of gaps and 
overlaps, beginning with programs across several DHS components and 
offices. This work is coordinated with the Office of the Chief 
Information Officer (OCIO), Intelligence and Analysis (I&A), the Office 
of Infrastructure Protection, and the Office of Emergency 
Communications (OEC).
    Through these activities, the NCCC MCO is identifying systems 
already fielded at NCCC user sites. To increase the Nation's capability 
to conduct collaborative decision making during times of crisis, the 
NCCC MCO will initially deploy new secure mobile services to key 
Federal leaders and governors, and will upgrade Federal and State fixed 
sites to provide enhanced video conferencing and collaboration 
capabilities. Site surveys conducted as part of this Initial Operating 
Capability (IOC) deployment will identify gaps in capabilities and 
identify redundancies. This will allow DHS to develop and implement a 
transition plan to phase in new capabilities to address gaps and phase 
out existing equipment and nodes to reduce redundancy.
    The NCCC MCO is leading Integrated Project Teams (IPT), which are 
creating program requirements documentation and system design 
documentation to ensure that the program's IOC and Full Operating 
Capability can provide the robust and assured communications 
connectivity necessary to support information sharing and decision 
making for the President and Vice President, and situational awareness 
with the 35 Federal principals and 56 State and territorial governors. 
The IPTs include representation from the Federal Emergency Management 
Agency, OEC, the National Communications System, DHS's Science and 
Technology Directorate, DHS OCIO, DHS Operations Directorate (National 
Operations Center), DHS I&A, as well as non-DHS entities such as the 
National Guard Bureau, National Military Command Center, Program 
Manager--Information Sharing Environment, White House Military Office, 
White House Communications Agency, the Department of Defense (including 
representatives from Homeland Defense, U.S. Strategic Command, 
Assistant Secretary of Defense for Networks and Information 
Integration, Defense Information Systems Agency, and Global Information 
Grid Technical Foundation Global Network Operation), the Federal Bureau 
of Investigations, and the National Security Agency.
    Through these integration activities and the IPT partnerships, the 
NCCC MCO will ensure that all programs contributing to crisis-
management capabilities are aligned and interoperable in support of the 
enhanced crisis-management capabilities needed for the future.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY
                             DEBRIS REMOVAL

    Question. Two and a half years after Hurricane Katrina, several 
Mississippi counties and other entities remain in multi-million dollar 
disputes with the Federal Emergency Management Agency regarding debris 
removal reimbursement. In most cases, Federal Emergency Management 
Agency officials were on the ground with local officials providing 
advice and assistance as to what activities would qualify for 
reimbursement. Considering the magnitude of this event and the good 
faith efforts of local officials to clean up as quickly as possible, 
what level of discretion do you feel is appropriate as the Federal 
Emergency Management Agency reviews these cases?
    Answer. FEMA leadership in Mississippi has sought every opportunity 
to fully reimburse applicants for their debris removal costs, 
consistent with the Stafford Act, 44 CFR regulations and FEMA policy 
guidelines. To date, FEMA has obligated $713,338,001 for debris removal 
operations for eligible applicants state-wide in addition to the 
$975,000,000 in direct mission assignment expenditures for these 
operations. FEMA project officers and debris specialists have worked 
tirelessly with applicants to ensure their contracting and field 
operations are consistent with Stafford Act and 44 CFR regulations.
    Currently, we are reviewing 10 first appeals and one second appeal 
requesting approximately $23 million. Among the issues raised are those 
concerning non-competitive contracts that resulted in unreasonable 
costs, ineligible debris, and discrepancies between claimed amounts and 
field verifications. Although FEMA may have provided advice to 
applicants on debris operations, in some cases that advice was not 
always followed resulting in denied funding. FEMA's discretion is 
limited by the Stafford Act requirement that all work must be related 
to the declared disaster, and regulations that require reasonable costs 
and adherence to competitive contracting procedures. However, in 
reviewing these cases FEMA will attempt to assure that each applicant 
receives all eligible reimbursement.
    After Hurricane Katrina, there was a wide degree of variability in 
estimation of debris from the storm and surge. This created tremendous 
confusion in response and recovery efforts and severely impacted 
efforts of local, State, and Federal response agencies. The ongoing 
appeals of these estimations are costing taxpayers millions of dollars 
as officials from the Federal Emergency Management Agency (FEMA) and 
local officials continue to count tree stump samples and estimate by 
eye from atop piles of debris.
    Question. After Hurricane Katrina, there was a wide degree of 
variability in estimation of debris from the storm and surge. This 
created tremendous confusion in response and recovery efforts and 
severely impacted efforts of local, State, and Federal response 
agencies. The ongoing appeals of these estimations are costing 
taxpayers millions of dollars as officials from the Federal Emergency 
Management Agency (FEMA) and local officials continue to count tree 
stump samples and estimate by eye from atop piles of debris. Does FEMA 
currently make use of geospatial technologies that have been proven to 
provide highly accurate estimates of debris? Do you support continued 
development and implementation of these capabilities?
    Answer. Not for decision-making, as we have yet to achieve the 
necessary level of confidence that any geospatial technology can 
provide an accurate estimate of debris. However, we have tasked USACE 
to validate its debris-estimating model and make appropriate 
adjustments to improve the quality of its estimates. USACE is also 
developing a protocol for ground reconnaissance to supplement its 
model. We believe that, over time, we can improve the accuracy of 
debris estimates using geospatial technology and on-site inspections.
    We believe that, over time, we can improve the accuracy of debris 
estimates using geospatial technology and on-site inspections. FEMA 
supports initiatives to improve this technology.

         FORMALDEHYDE IN FEDERAL EMERGENCY MANAGEMENT TRAILERS

    Question. I understand the challenges presented by the Centers for 
Disease Control and Prevention's recent findings regarding formaldehyde 
in Federal Emergency Management Agency (FEMA) trailers. I was pleased 
that FEMA began efforts to remedy the concerns almost immediately. Have 
the results of the Alternative Housing Pilot Program grants awarded in 
fiscal year 2007 shown any promise regarding alternative temporary 
housing? Do you foresee any further consideration by FEMA of modular 
housing technologies?
    Answer. FEMA thanks the committee and actually began an aggressive 
effort to find alternate housing for all travel trailer occupants 
beginning last fall, ahead of CDC testing. We have been moving since 
September an average of 800 families per week to other types of housing 
including apartments. All of these efforts are dependent on housing 
becoming available in the region. The Alternative Housing Pilot Program 
grants have been awarded to Mississippi (2 projects), Alabama, 
Louisiana, and Texas based on a competitive process conducted between 
September 15, 2006 and October 20, 2006. The projects are the 
Mississippi Cottage and Eco-cottage ($281,318,612), the Alabama Safe 
Harbor Estates ($15,667,293), the Louisiana Katrina and Carpet Cottage 
($74,542,370), and the Texas Heston home ($16,471,725).
    The Mississippi program, managed by the Mississippi Emergency 
Management Agency (MEMA), is furthest along. As of March 13, 2008 they 
have 2,012 units ready for occupancy and 1,870 occupied. The Alabama 
program is proceeding with site development. The Louisiana program is 
working on site selection. The Texas program is now underway.
    FEMA has asked HUD to evaluate building performance and the impact 
of these projects on occupants' quality of life. Those studies are in 
the early stages. The first published results will be available in 
April of 2010, after the units have been lived in for some time.
    Early indications suggest that the Mississippi One Bedroom Cottage 
(Park Model) may be a viable option for housing disaster victims. Given 
sufficient inventory and suitable sites, this model is rapidly 
deployable. In addition, MEMA surveys and interviews of occupants have 
resulted in positive feedback, with some residents already asking how 
they can purchase the units. Based on the designs and high degree of 
State involvement, we anticipate promising results from each of the 
grantees.
    In June 2006, FEMA established the Joint Housing Solutions Group 
(JHSG) to evaluate temporary housing units, including modular designs, 
for housing displaced occupants during a disaster. The JHSG conducted 
outreach to more than 125 housing providers and identified 71 providers 
with the potential to meet FEMA's disaster housing requirements. Of 
this number, the JHSG conducted site visits to 41 providers, 29 of 
which were modular home manufacturers. The JHSG continues to identify 
and assess viable temporary housing alternatives and anticipates 
piloting the most promising alternative housing units in the current 
calendar year.
    The JHSG has also coordinated closely with FEMA's Alternative 
Housing Pilot Program (AHPP). The AHPP is a competitive grant program 
created to support the identification and evaluation of housing 
alternatives in the Gulf Coast. Four Gulf Coast States--Louisiana, 
Mississippi, Alabama, and Texas--are currently piloting alternative 
manufactures, modular, and panelized housing units under this program. 
The performance of AHPP units will be jointly evaluated by the JHSG and 
the Department of Housing and Urban Development. Evaluation results 
will be used to identify high performing units for use on future FEMA 
housing missions as appropriate.

                         SCIENCE AND TECHNOLOGY
                 NATIONAL BIO AND AGRO-DEFENSE FACILITY

    Question. The President's Budget request for fiscal year 2009 
indicates that the final decision on the site for the National Bio and 
Agro-defense Facility will be made in October 2008. Given the national 
importance of this project, can you ensure to this Committee that you 
are doing everything to expedite the process and that this decision 
will be made no later than October 2008?
    Answer. As of March 2008, the schedule for the National Bio and 
Agro-defense Facility (NBAF) is on target for final site selection in 
October 2008. An Environmental Impact Statement (EIS) is being prepared 
to determine the impacts of construction and operation of the proposed 
NBAF at six sites. The draft EIS is scheduled to be issued in May 2008 
and final EIS in September with a Record of Decision (selecting a 
single site) in October 2008.
    Question. The President's Budget request for fiscal year 2009 
includes $35.6 million to begin the detailed design of the National Bio 
and Agro-defense Facility. What are the total projected design costs 
for the project?
    Answer. The total projected design cost is $55 million. To date, $3 
million has been spent for non-site specific design and site 
characterization studies
    Question. Could additional design, site preparation, or 
construction funds be used in fiscal year 2009? If yes, how much and 
for what purposes?
    Answer. At this time, we anticipate the available and requested 
funds to be sufficient for National Bio and Agro-defense Facility 
(NBAF) activities in fiscal year 2009.
    Question. Please provide the projected project schedule, by fiscal 
year, including a cost breakdown and dates for initiation and 
completion of each phase of the project.
    Answer. Project schedule details, including costs and dates by 
project phase, are given below.
  --Fiscal year 2008--Planning, Conceptual Design, Site Selection and 
        Environment Impact Statement (including Siting Studies and Cost 
        Analysis)
    --Milestone: Site Selection--October 2008
    --Cost: $12 million
  --Fiscal year 2009-fiscal year 2010--Site-specific Design
    --Milestone: Completed Design--Spring 2010
    --Cost: $50 million
  --Fiscal year 2010-fiscal year 2014--Construction (4 years)
    --Milestone: Groundbreaking--Spring 2010
    --Milestone: Complete Construction--Summer 2014
    --Cost: $588 million \1\
---------------------------------------------------------------------------
    \1\ Note: The total preliminary cost estimate is being revised to 
include site specific infrastructure and utility plant, IT/Security 
requirements, appropriate levels of commissioning, contingency, and 
fees. In-kind contributions have been requested from the consortiums to 
off-set the site infrastructure costs.
---------------------------------------------------------------------------
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

FEMA Erosion Funding
    Question. I would like to commend FEMA for creating a new program 
that I believe will be an important tool in aiding many of Alaska's 
native villages suffering from severe erosion. I am pleased to see that 
the budget includes $200 million for the Disaster Readiness and Support 
Activities Program to assist FEMA in working with State and local 
partners in preparing for future disasters. In past hearings and 
discussions FEMA has stated that their hands are tied when it comes to 
preparing in advance of a disaster. FEMA could only come to the 
assistance of communities when a storm had almost arrived, or after the 
storm hit. I'm hoping these funds will create a more common-sense 
approach to disaster preparation, and will likely be a more efficient 
use of Federal dollars by being proactive rather than merely reactive.
    Will these funds be used to help villages in Alaska prepare before 
a storm hits, rather than spending more money reacting after the storm 
has already caused serious damage, including very serious erosion which 
threatens the very existence of these villages? What other programs 
does FEMA intend to use to help these villages?
    Answer. The Disaster Readiness and Support Activities (DRSA) 
appropriation is to directly support FEMA's disaster response readiness 
capability in the form of pre-positioning and management of critical 
commodities, managing the movement of those assets, stand-by support 
contracts for technical assistance and inspection services, and some 
administrative support costs for fixed disaster processing facilities. 
In doing so, DRSA will facilitate FEMA's efforts to respond to 
disasters as quickly as possible. This funding supports FEMA's costs 
and are not available to State or local governments directly, but the 
preparedness grant programs also administered by FEMA are directly 
related to State, tribal and local planning and preparedness needs. As 
noted above, the DRSA is intended to support FEMA disaster readiness 
and logistic efforts. The Pre-Disaster Mitigation program is available 
to provide technical assistance and competitive grant funding for pre-
disaster mitigation efforts by States.
Seafood Inspection
    Question. How much of the funding that DHS is requesting for 
Customs and Border Patrol will be devoted to improving the inspection 
of seafood imports? How can CBP use these funds to decrease the amount 
of Illegal, Unreported, and Unregulated fish coming into the United 
States?
    Answer. Although Customs and Border Protection (CBP) plays an 
essential role in ensuring the safety of all types of imported goods, 
including seafood, CBP does not track the resources dedicated to 
specific imports. Funding for import safety is part of CBP's Border 
Security Inspections and Trade Facilitation funding category, which 
totals $2.273 billion in fiscal year 2009.
    To further enhance enforcement efforts, CBP initiates ``special 
operations'' on an as-needed basis to focus on specific threats or 
areas of concern. These special operations are more intense efforts 
which focus on specific commodities, perhaps from specific countries 
and/or importers/shippers/manufacturers during defined periods of time. 
In the coming months, CBP plans to undertake special operations that 
involve seafood.
High Seas Fishery Enforcement
    Question. How much of the funding that DHS is requesting for the 
Coast Guard will be used to improve to high seas fisheries enforcement? 
How will the Coast Guard use this funding to improve its high seas 
fisheries enforcement programs?
    Answer. The Coast Guard does not budget nor allocate funding by 
mission, but rather by Congressionally-established Appropriations. The 
Coast Guard's appropriation structure supports multi-mission 
requirements by allowing the service to surge and shift resources 
across all missions. Coast Guard Operational Commanders use risk-based 
decision plan operations, apportion constrained resources, and align 
mission priorities. This level of resource flexibility is critical to 
successful mission execution in a dynamic, demand-driven operational 
environment. It is difficult to definitively predict a particular 
mission's future ``level of effort.'' The fiscal year 2009 President's 
Budget contains several initiatives that will support all Coast Guard 
missions, including recapitalization of our operating assets, 
sustainment of our aging infrastructure, improvement of our command and 
control capabilities; and establishment of comprehensive intelligence 
and awareness regimes.
    High Seas Fisheries Enforcement is a component of the Coast Guard's 
``Other Law Enforcement'' mission. This mission includes prevention of 
illegal foreign fishing vessel encroachment in the U.S. Exclusive 
Economic Zone (EEZ) and enforcement of international agreements to 
suppress damaging high seas illegal, unreported and unregulated (IUU) 
fishing. The following table provides an estimated percentage breakout 
of Coast Guard Operating Expenses for the ``Other Law Enforcement'' 
mission based on operational data from fiscal year 2005 through 2007.

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                                                                 -----------------------------------------------
                                                                       2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Actual amount...................................................         $56,516         $68,952         $90,714
Actual percent..................................................             1.1             1.3             1.6
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2009 President's Budget includes several 
initiatives that support all Coast Guard missions. These include 
recapitalization and sustainment of the Coast Guard's major cutter and 
maritime patrol aircraft fleets; significant shore infrastructure 
projects; improvements to our command and control capabilities; and 
establishment of comprehensive intelligence and awareness regimes.
    Compliance with international fisheries agreements such as the U.N. 
Moratorium on large-scale high seas driftnet operations in the North 
Pacific remains a priority for Coast Guard living marine resource 
enforcement efforts. Coast Guard Operational Commanders will conduct 
risk-based decision making to determine the appropriate level of 
``Other Law Enforcement'' mission effort based on finite total 
resources. Examples of the Coast Guard's recent significant domestic 
and international fisheries enforcement actions are detailed in the 
following Congressional reports:
  --Annual Living Marine Resources Law Enforcement Summary--fiscal year 
        2007, March 2008.
  --Report on Foreign Fishing Vessel Incursions into the United States' 
        Exclusive Economic Zone, January 2008.
    We can provide copies of these reports as a briefing if helpful.
Cutter Acushnet
    Question. It is my understanding that the Coast Guard plans to 
decommission the Cutter Acushnet in 2009. If this vessel is 
decommissioned how will this impact the operational capability of the 
Coast Guard to perform its safety and fishery enforcement missions, 
including Maritime Boundary Line patrols, in the Bering Sea and 
Aleutian Islands?
    Answer. The Coast Guard is committed to providing continued service 
in the Bering Sea and Alaska AOR. The majority of CGC ACUSHNET's 
patrols are conducted in the Bering Sea, along the Maritime Boundary 
Lines and the Aleutian Chain. In advance of CGC ACUSHNET's planned 
decommissioning, the Coast Guard has adjusted cutter in-port, 
maintenance and patrol schedules to ensure there is no negative impact 
to the Coast Guard's operational capability to perform safety and 
fishery enforcement missions in the Bering Sea. As emerging operational 
requirements dictate, additional patrols may be added using legacy WHEC 
378s.
                                 ______
                                 

              Question Submitted by Senator Arlen Specter

    Question. Most hospitals do not have the ability to handle large 
numbers of casualties--so called ``surge capacity.'' I have long-
supported grants to States and cities, through the U.S. Department of 
Health and Human Services (HHS), for planning, coordination and 
facility needs related to surge capacity. These Hospital Emergency 
Planning Grants have been steadily reduced from approximately $515 
million in fiscal year 2004 to $423 million in fiscal year 2008, and 
only $361 million is proposed for fiscal year 2009. I remain concerned 
that hospitals do not have the resources they need to be prepared for a 
terrorist attack. In Washington, DC, for example, I am advised that 
there are fewer than 3,000 beds. In light of HHS funding cuts and the 
existing need to ensure our hospital facilities are prepared, what can 
the Department do to ensure that there is adequate surge capacity 
available to respond to an attack or emergency situation?
    Answer. The Department of Homeland Security (DHS) continues to work 
with the HHS in developing a unified approach for planning, 
coordination and facility needs related to ``surge capacity.'' The DHS 
Metropolitan Medical Response System (MMRS) program, as part of the 
Homeland Security Grant Program (HSGP), provides funding to designated 
localities to assist in maintaining and updating plans, delivering 
training, purchasing equipment and pharmaceuticals, and conducting 
exercises. The mission of MMRS is to enhance local medical incident 
management's ability to coordinate and respond to a mass casualty event 
during the crucial first hours, until significant external resources 
arrive and become operational. One of the goals of the MMRS program in 
fiscal year 2008 is to ``increase collaboration with the U.S. 
Department of Health and Human Services, specifically the Assistant 
Secretary for Preparedness and Response (ASPR) Hospital Preparedness 
Program and the Healthcare Facilities Partnership Program.'' In 
addition to the MMRS Program, the State Homeland Security Program 
(SHSP) and the Urban Area Security Initiative (UASI) can also support 
planning, coordination, and facility needs related to ``surge 
capacity.'' In addition, the fiscal year 2008 MMRS Guidance provides 
guidance to the 124 eligible MMRS jurisdictions to give priority 
attention to improving Emergency Triage and Pre-Hospital Treatment 
capability within the Target Capabilities List.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

    Question. Mr. Secretary, America has about 200 land ports of entry, 
and it has been more than 20 years since we launched a major effort to 
upgrade infrastructure at those ports. We took an important step 
towards addressing that problem in last year's Homeland Security 
Appropriations bill, when we required your Department and GSA to report 
to Congress on our land port of entry needs and vulnerabilities at 
least every other year.
    Where is your Department in preparing this assessment?
    Answer. CBP plans to refresh its inventory assessment, and to 
submit the bi-annual report as required by January 31, 2009. 
Specifically, beginning in 2004, to ensure CBP land ports of entry 
(LPOEs) continue to meet the critical dual mission of protecting our 
Nation's borders and facilitating lawful international trade and 
travel, CBP has implemented a comprehensive Capital Investment Planning 
(CIP) process to identify and prioritize captial projects on a national 
basis. The CIP includes strategic resource assessments (SRAs), a 
capital project prioritization method, portfolio planning tools, and a 
5-year investment strategy. A critical step in the CIP is the SRA, a 
needs assessment process that incorporates internal and external 
stakeholders input, a review of existing facility conditions, workload 
and personnel forecasts, space capacity analyses, and recommended 
options to meet current and future space needs. The goal of the SRA is 
to gather and present data to support the prioritization of facility 
projects on a national level within CBP. CBP plans to refresh and build 
upon this assessment during 2008.
    Question. How does your Department's fiscal year 2009 budget 
request address our land port of entry needs?
    Answer. The fiscal year 2009 budget request includes $75 million in 
Federal Buildings Fund appropriations for the U.S. General Services 
Administration (GSA) to complete Phase 1 improvements at the Nation's 
busiest land port of entry--San Ysidro, CA--and to address critical 
needs at the Portal, ND land port of entry. The fiscal year 2009 budget 
request also includes $10 million that will enable CBP to begin to 
address requirements at outdated CBP-owned land ports of entry.
    Question. Mr. Secretary, I was concerned and dismayed to read last 
week that plans to build a virtual border fence are being scaled back 
and delayed for years. We must get control of our borders, and these 
problems, on top of the failure of the America's Shield Initiative, are 
unacceptable.
    What is the Department doing to quickly address the problems 
recently discovered with the virtual fence in Arizona?
    Answer. DHS has been forthcoming about the technical deficiencies 
identified in the P-28 module. As good stewards of taxpayers' money, 
DHS held Boeing accountable for all contract deliverables, resulting in 
the delay in acceptance of P-28. After a period of operational testing, 
additional deficiencies were identified and subsequently corrected to 
DHS's satisfaction. DHS is building upon lessons learned to develop a 
new border-wide architecture that will incorporate upgraded software, 
mobile and fixed surveillance systems, unattended ground sensors and an 
improved communication system to enable better connectivity for overall 
performance.
    Question. How does your Department's fiscal year 2009 budget work 
to rectify these problems?
    Answer. It is important to clarify that P-28 was the initial 
demonstration of the feasibility of SBInet's integrated technology 
concept. As such, P-28 was designed to be an operational prototype that 
could be tested, evaluated, serve as the initial building block for the 
system's future technology and provide valuable lessons learned. It was 
not intended to be a final operational configuration. P-28 provides 
operational technology in an area that did not have these resources and 
has increased CBP's effectiveness in this area along the Arizona-Mexico 
border.
    DHS and CBP will now take the valuable lessons learned and focus on 
the development of the future SBInet solution. As a matter of fact, 
lessons learned from P-28 have already been incorporated into the next 
iteration of the SBInet integrated system design including improved 
sensors, software and communications. These improvements will further 
CBP's ability to fully integrate detection, identification, and 
classification of border incursions within a common operating picture 
and will be implemented as part of the Calendar Year 2008 deployments 
in Arizona. One critical lesson learned that led to the deceleration of 
the deployment schedule is the need for a Systems Integration Lab (SIL) 
to evaluate new hardware being introduced into the operational 
environment. The lab will help determine the effectiveness of the 
hardware within our system of towers, sensors, communication, common 
operating picture hardware and software prior to fielding across the 
U.S. border.
    Even as a technology demonstrator, P-28 provides agents with a much 
greater degree of constant surveillance and a shared situational 
awareness of operations in the field. CBP personnel in the command 
center now receive additional alerts and notifications of potential 
illegal activity cued by radar and then further examined by the 
integrated cameras before deploying agents to respond. Agents deployed 
in the field using vehicle mounted Mobile Data Terminals (MDTs) have an 
improved picture of the location of ``blue and red forces'' in their 
vehicle. P-28 uses a variety of technologies including cameras and 
radar to give agents the information they need to make deployment and 
interdiction decisions in their area of responsibility. Today, P-28 is 
providing operational value which has assisted in the apprehension of 
over 2,500 illegal aliens and smugglers since late September 2007.
    DHS is building upon lessons learned to develop a new border-wide 
architecture that will incorporate upgraded software, mobile and fixed 
surveillance systems, unattended ground sensors and an improved 
communication system to enable better connectivity for overall 
performance. There have not been changes to DHS's overall plan to 
deploy a tower-based integrated sensor and common operating picture 
concept. DHS is confident that this type of technology solution will be 
used in other selected border locations where it makes sense. Along 
with other tools and techniques, this solution will contribute to CBP's 
efforts to secure our Nation's borders.
    Question. Are you considering revising your request to provide more 
funding for actual border fencing because of problems with virtual 
fencing?
    Answer. No. Requests for additional funding are based on 
operational requirements for additional fence, which are based on 
traffic trends and patterns provided by OBP.
    Much of the land on the New Mexico/Mexico international border is 
Federal land. In the last 2 years, the Bureau of Land Management (BLM) 
has received a $2.5 million increase to its Law Enforcement budget and 
has requested an additional $1 million increase in its Hazardous 
Materials Management budget to address border issues and environmental 
degradation associated with illegal immigration on its lands in the 
Southwest.
    Question. What type of support and funding is your Department 
providing BLM and other agencies that manage Federal lands for their 
work associated with illegal immigration and border security matters 
such as conducting NEPA studies for the construction of border fencing?
    Answer. CBP/OBP does not fund BLM or other Federal agencies for 
their costs for environmental remediation resulting from illegal 
immigration and border security matters. CBP/OBP works closely and 
cooperatively, with Federal agencies, State agencies and tribes in the 
region regarding environmental aspects of border security efforts 
within each agency's own mission, legal and budget authorities. CBP 
does pay for environmental costs directly related to Tactical 
Infrastructure in compliance with applicable environmental laws. Also, 
under the Economy Act, CBP reimburses the BLM and other Federal 
agencies for their services provided to CBP. These reimbursement 
arrangements are pre-negotiated and defined--typically using 
interagency agreements.
    Question. How are funding and responsibilities on these issues 
divided between your Department and the Departments that have 
responsibilities for Federal lands?
    Answer. CBP funds direct costs for construction of the fence and 
associated costs for mitigating environmental impacts such as testing 
and protecting archeological sites within the construction corridor and 
mitigation costs for impacts to endangered species. In addition, CBP 
funded USFWS to provide direct support to CBP regarding ESA compliance 
for the SBInet programs. This included funding toward a web based 
planning tool to assist CBP sectors to streamline planning for projects 
and potential impacts to endangered species.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

    Question. The Center for Domestic Preparedness (CDP) at Fort 
McClellan, in Anniston, Alabama, is the cornerstone of our Nation's 
emergency responder training facilities and the only civilian live-
agent training facility in the country. The CDP is one of several 
facilities across the country where we are training our Nation's first 
responders in a variety of disciplines. This year it is expected that 
CDP will train approximately 75,000 people through on-site, mobile and 
train the trainer programs. In the President's Budget request, the 
Center for Domestic Preparedness' base budget is reduced by $15.5 
million from the enacted level of $62.5 million in fiscal year 2008 to 
$47 million for fiscal year 2009. This reduction brings about several 
questions:
    Why are you proposing such a drastic decrease in funding? Please 
give me a detailed justification for this change.
    Answer. The Department of Homeland Security (DHS) and the Federal 
Emergency Management Agency (FEMA) fully recognize the importance of 
the training conducted at the Center for Domestic Preparedness (CDP). 
CDP is a key member of the National Domestic Preparedness Consortium 
(NDPC) and the only Federal chartered weapons of mass destruction (WMD) 
training facility.
    CDP's budget has undergone continuous review since the facility was 
transferred to FEMA from DHS last year. That review has resulted in the 
detailed examination of redundancies in the collective training offered 
by the CDP and its fellow NDPC and FEMA training centers, while 
simultaneously reaffirming the importance of the CDP core mission of 
providing live chemical agent training at its Chemical, Ordnance, 
Biological, and Radiological Training Facility (COBRATF). As a result, 
FEMA believes that CDP will be able to meet its core program 
requirements and goals with the President's $47 million request. FEMA 
is dedicated to continuing to look for ways to effectively manage the 
resources provided to CDP, as well as all other training facilities, to 
gain the greatest advantages for training partners and the taxpayer.
    Question. Does this reduction in funding reflect a trend within the 
administration toward reducing preparedness training?
    Answer. Please see previous response.
    Question. The Center for Domestic Preparedness is a unique 
facility. It is the only live agent training program in the country. A 
training center like this could not be built today. This budget in 
effect reduces funding for a critical piece of our first responder 
training that cannot be done anywhere else in the country. Please 
explain to me why the President's budget in effect calls for the 
curtailing of live agent training?
    Answer. The fiscal year 2009 Presidents budget provides the Center 
for Domestic Preparedness with $47 million to fund its operations. DHS 
and FEMA continue to review CDP spending since transferred to FEMA this 
past year. We have provided enhanced management, in the process of 
streamlining contracts with vendors and training contractors, providing 
greater oversight of expenditures and stipends and believe that this 
request is adequate to support CDP's requirements for fiscal year 2009. 
FEMA continues to look for ways to effectively manage the resources 
provided to CDP to gain the best advantage for our training partners 
and the taxpayer.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

    Question. Mr. Secretary, the use of National Guard members on the 
border in my opinion has been a big help in assisting our border patrol 
agents secure parts of our border. Although they do not play an active 
role in detaining illegals crossing the border, they are certainly 
playing a major role in deterrence. Although I am not in favor of 
permanent Guard duty on the border, there is certainly a need right 
now. How much longer do you envision us needing to have National Guard 
on our southern border?
    Answer. The end of Operation Jump Start should not be associated 
with an end to the partnership between the Border Patrol and the 
National Guard. This partnership pre-dates Operation Jump Start and is 
expected to continue. Operation Jump Start was intended as a short term 
``bridge'' to fill the gap until the Border Patrol could hire 
additional agents and put additional tactical infrastructure in place.
    Operation Jump Start was originally staffed with over 6,000 
National Guard members. On June 15, 2007, these forces were reduced to 
3,000. The force reduction was a smooth transition and had little 
impact on operations. As the National Guard begins to transition out of 
Operation Jump Start, the National Guard will continue to support the 
Border Patrol through ``counter-drug'' missions and by participating in 
annual training projects that are mutually beneficial.
    Question. DHS is steadily moving towards full implementation of the 
Western Hemisphere Travel Initiative. However, as has been mentioned, 
Congress mandated that full implementation cannot take place until DHS 
certifies that it is ready to handle implementation of June of 2009, 
which ever comes first. As of now, is DHS planning on taking until 
June, 2009 before full implementation or do you believe that DHS will 
be able to certify to Congress it is ready for full implementation 
before then? If before then, what timeframe are you looking at for 
certification?
    Answer. In the most recent Consolidated Appropriations Act, 
Congress delayed the WHTI implementation, mandating that WHTI not be 
implemented until at least June 1, 2009. The Department is complying 
with the Act by not implementing WHTI before that date. DHS and CBP 
anticipate meeting all the requirements for certification this summer.
    Question. Certainly the Western Hemisphere Travel Initiative was 
designed to secure our borders and allow us to know who is coming 
across our borders. However, both our northern and southern borders are 
simply too vast to man with border patrol agents alone. I applaud DHS 
for utilizing new technologies such as UAV's (unmanned aerial vehicles) 
and other emerging technologies. While I recognize that the virtual 
border fence, or Project 28, has received some negative reporting from 
the GAO, what does the future look like for this type of ``virtual'' 
monitoring and inspection for use along our northern border? Also, what 
other steps are being done now to ensure that we are able to track 
people coming across the border by foot, atv's or other means whereby 
they can avoid going through border crossings?
    Answer. As part of the fiscal year 2007 Appropriations Act, 
Congress directed that $20 million be used ``to begin addressing needs 
along the northern border.'' A demonstration project was planned and 
has been approved to achieve the following objectives:
  --Develop a prototype that demonstrates an integrated air, land, and 
        maritime security solution in an area of the northern border; 
        areas selected is the St. Clair River/northern Lake St. Clair 
        border zone in the Detroit Sector;
  --Improve situational awareness and increase target detection with an 
        integrated air, land, and maritime tactical picture; and
  --Improve Port of Entry (POE) security by integrating existing 
        cameras and installing additional security fencing to funnel 
        pedestrian traffic into the POE.
    Although successful completion of these objectives may improve 
operational capabilities and provide technical insight for a final 
SBInet solution, the Northern Border Demonstration is not meant to 
uncover the final solution for the Detroit Sector or for the rest of 
the northern border, provide 24/7 surveillance or total situational 
awareness of the AOR, or enable operational control of the AOR. The 
project will demonstrate the technology that will enable coordinated 
CBP A&M and BP operations for control of the northern maritime border. 
The demonstration will include integrating sensors and air assets with 
a C2 Center to create a COP for improved situational awareness. This 
demonstration, combined with the requirements analysis and system 
engineering being conducted in Program Management Task Order (PMTO) and 
its follow-on task order, will be used to update the system-level 
requirements to address the northern border challenges.
    The project will be managed in phases, called spirals. Each spiral 
will develop capabilities and test those capabilities over time with 
agents and officers in the field. This approach reduces risk and allows 
time for the system to mature and better meet the operational needs of 
the people using it.
    Current plans are to deploy the SBInet integrated technology 
solution to two locations in Arizona by the end of CY 2009, barring any 
major shifts in the cross-border threat. CBP has completed technology 
requirement assessments of the Yuma and Tucson Sectors and will look to 
fill those needs first as they are presently the highest threat areas. 
But expanding the integrated tower-based system is not all CBP is doing 
in the interim for technology between our ports of entry. For example, 
CBP currently has 4 Mobile Surveillance Systems (MSS) in operation and 
plans to deploy an additional 36 MSS this year to the Southwest brder 
to serve as primary detection platforms. While some MSS will eventually 
be replaced by a more cost-effective, integrated radar/camera tower 
under SBInet the highly mobile MSS units can be used to ``fill gaps'' 
of surveillance coverage, temporarily replace a sensor tower down for 
maintenance, or rapidly deploy to a ``hot'' area needing extra 
coverage. By October, 2,500 new unattended ground sensors will replace 
and add to our existing numbers, for a total of nearly 8,500 sensors 
deployed across our Southwest and Northern Borders.
    Question. The 2008 Homeland Security Grant Program places IED 
prevention at a top priority but provides little specific guidance for 
equipment purchases and other eligible expenditures (training, plan 
development, etc.). How does DHS intend to ensure that the funds do not 
get spent on large dollar items (i.e. operations center software, 
communications systems, GIS, etc.) and instead are used to enhance the 
capabilities of bomb-squads? Is the Department going to task the Office 
for Bombing Prevention and FEMA to issue specific guidance out on what 
equipment should be a priority for purchase under this program?
    Answer. DHS employs a number of monitoring and tracking systems and 
protocols in order to help ensure that Federal homeland security funds 
are expended in accordance with our grant guidance. With the fiscal 
year 2008 Homeland Security Grant Program (HSGP), DHS is requiring 
grantees to spend a portion of their funds towards three priorities, 
including IED prevention. Grantees will be able to identify proposed 
funding investments relative to IED as part of their grant application 
process. A rigorous peer review component is part of the HSGP 
application process that helps to ensure projects, including those for 
IED prevention, are sound investments. Once awards are made, grantees 
will be required to input their funding activities into the 
Department's Grants Reporting Tool (GRT). The Department will review 
GRT data inputs in order to ensure that grantees are in compliance with 
the IED spending priorities identified in fiscal year 2008 HSGP.
    Each State is directly monitored on an annual basis (and each UASI 
biannually) to ensure compliance with grants guidance regulations and 
also to gauge the overall progress of activities undertaken with 
Federal homeland security funds. Monitoring systems and protocols will 
be updated to ensure that the DHS personnel engage in discussions with 
grantees and systematically track progress (both ongoing and achieved) 
relative to IED deterrence, prevention, and response capabilities.
    FEMA and OBP will be closely engaged at all levels of monitoring to 
ensure both coordination and transparency and measurable outcomes.
    DHS's Office for Bombing Prevention (OBP) is using its National 
Capabilities Analysis Database, which gathers and analyzes State and 
local IED security capabilities, to support FEMA and its grantees in 
identifying investments that will improve needed capabilities. In 
addition, OBP has, since 2003, been working directly with the National 
Bomb Squad Commanders' Advisory Board to assess operational gaps and 
develop roadmaps for technology development to meet those gaps.
    In addition, OBP and FEMA are working in concert to develop 
supplemental guidance which will provide the emergency response 
community with a comprehensive approach to strengthening the 
capabilities needed to deter, prevent against, and respond to the 
threat of improvised explosive devices (IED). Specifically, the 
supplemental guidance will identify appropriate planning, organization, 
equipment, training, and exercise activities that address counter-IED 
capability gaps. DHS expects the supplemental guidance to be released 
within the next few weeks.
    Question. DHS has stopped the training programs previously provided 
by the Officer for Bombing Prevention; we have heard from many first 
responders that the training was important and well received. Is 
another part of the Department providing this training now? If so, how 
many courses have been taught since the programs were transferred? What 
is the level of funding dedicated to this training?
    Answer. Two advanced training courses that were sponsored by the 
Office for Bombing Prevention (OBP) are now sponsored by the State of 
California: Weapons of Mass Destruction/Improved Explosive Device 
Electronics and Underwater Hazardous Device Search. These courses are 
listed in the catalogue of Federal Emergency Management Agency (FEMA)--
approved, State-sponsored training courses, and funding for first 
responders associated with accessing this training is available through 
FEMA's Homeland Security Grant Program.
    Furthermore, OBP created the Underwater Terrorism Prevention 
Program (UTPP), which frequently incorporates the Underwater Hazardous 
Device Search course as part of its planning activity. The UTPP has 
been transferred to the U.S. Coast Guard and is ongoing.
    Question. A large amount of money has gone into research and 
development for explosives detection for TSA and other DHS components; 
however there seems to be little effort underway to develop and field 
equipment for bomb squads and other local responders that may have to 
deal with the potential of a wave of bombings in the homeland. Can you 
tell the committee what specific efforts are underway to develop and 
field equipment to non-Federal entities such as bomb squads; what is 
the dollar value of those efforts; what specific pieces of equipment 
have been fielded? Does the Department have a process for identifying 
technology requirements of local bomb squads and other responders based 
on an operational gap analysis and technology roadmap?
    Answer. Beyond providing State and local governments and private-
sector partners with the information and knowledge to meet the 
Improvised Explosive Device (IED) threat, the Department of Homeland 
Security (DHS) is investing heavily in developing technologies and 
building capabilities. This year alone, more than $1.7 billion is 
available through the Federal Emergency Management Agency (FEMA's) 
Homeland Security Grant Program (HSGP), which has identified IED 
preparedness as one of its three funding priorities. These funds will 
support State and local authorities in purchasing advanced equipment, 
such as robotic platforms, diagnostic tools, and render-safe 
technologies, as well as communications and protective equipment needed 
for a safe and effective response. HSGP funds, along with funding from 
the Transit Security Grant Program, can also be used to build detection 
capabilities, such as training and deploying additional explosives 
detection canine teams or other detection technologies.
    The Department of Homeland Security's (DHS's) Office for Bombing 
Prevention (OBP) is using its National Capabilities Analysis Database 
(NCAD), which gathers and analyzes State and local Improvised Explosive 
Device (IED) security capabilities, to support the Federal Emergency 
Management Agency and its grantees in identifying investments that will 
improve needed capabilities. NCAD uses a task-based capability analysis 
and assessment methodology that is aligned with the Universal Task List 
and Target Capabilities List. In addition, OBP has been working 
directly with the National Bomb Squad Commanders' Advisory Board since 
2003 to assess operational gaps and develop roadmaps for technology 
development to meet those gaps.
    The Department of Homeland Security's (DHS's) Science and 
Technology Directorate (S&T) has been designated to lead the Federal 
effort to develop domestic counter-IED technologies. S&T has set up a 
special Counter-IED Integrated Product Team (IPT), co-chaired by OBP 
and the Secret Service, to leverage existing multi-agency research and 
investments to deter, predict, detect, defeat, and mitigate the impact 
of IED attacks. The IPT process links customers, such as State and 
local first responders, with industry and academic research to ensure 
that needed technologies are being developed and that those 
technologies meet the requirements of their customers. S&T and OBP are 
also working with the Department of Defense to transfer technologies 
developed for the international counter-IED fight to domestic 
applications. In fiscal year 2007, $2.5 million was allocated to the 
Technical Support Working Group to develop technologies to deploy to 
State and local bomb squads. Technologies developed with these funds 
include robotic platforms, electronic countermeasures (ECM) kits, and 
tool characterization. Over the past year, S&T has accelerated and 
bolstered its research and development of counter-IED technologies and 
products. Counter-IED innovations under development and deployed 
include ECM; vehicle-borne IED render-safe tools; blast-mitigation 
protective measures; IED, homemade explosives, and hostile-intent 
detection technologies; and explosives-neutralization methodologies.
    Question. Customs and Border Protection (CBP) has proposed a rule 
to require certain information from general aviation international 
flights and this information must be electronically transmitted to CBP. 
Many pilots--including many in Idaho--fly to and from remote areas with 
no internet access.
    Customs and Border Protection (CBP) has proposed a rule to require 
certain information from general aviation international flights and 
this information must be electronically transmitted to CBP. Many 
pilots--including many in Idaho--fly to and from remote areas with no 
internet access. How does CBP and the Department plan to address this 
issue? Have you met with the general aviation community to address this 
problem? When does CBP plan to issue a final rule?
    Answer. The proposed rule published in the Federal Register on 
September 18, 2007, requires the pilot to submit information 
electronically no later than 60 minutes before an arriving private 
aircraft departs from a foreign location and no later than 60 minutes 
before a private aircraft departs the United States for a foreign port 
or place. The pilot may authorize another party with internet access to 
submit the information on their behalf. In addition, while the pilot 
must submit the information no later than the 60 minutes prior to 
departure, there is no maximum time frame for submission. Thus, a pilot 
may submit the required information to CBP days, even months in advance 
of travel. This would allow the pilot to file the required information 
from less remote locations with internet access well in advance of 
traveling to, or returning from, remote locations that may lack 
internet access.
    CBP has met with the general aviation community to discuss this 
issue. A total of 2,907 comments were received in response to the 
proposed rule, published on September 18, 2007, in the Federal 
Register, during the comment period. CBP is working to address these 
concerns.
    CBP will not issue a final rule regarding Advance Information on 
Private Aircraft Arriving and Departing the United States until the 
rule is reviewed and cleared by the Department of Homeland Security and 
the Office of Management and Budget. As the rule is still undergoing 
review, CBP at this time does not have an anticipated publication date.

                         CONCLUSION OF HEARING

    Senator Inouye. Thank you very much. Mr. Secretary, on 
behalf of the committee, I thank you very much for your 
presence, and for your testimony, and your responses.
    [Whereupon, at 11:59 a.m., Tuesday, March 4, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2009 budget 
request for programs within the subcommittee's jurisdiction.]

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to provide testimony 
to the Senate Appropriations Subcommittee on Homeland Security on the 
security and safety of public transportation systems. I appreciate your 
interest in improving security for the millions of Americans who use 
transit daily, and look forward to working with the subcommittee as it 
develops the fiscal year 2009 appropriations bill for the Department of 
Homeland Security (DHS). I offer this testimony to request $750 million 
in transit security funding in the fiscal year 2009 Department of 
Homeland Security Appropriations bill and provide our comments on DHS's 
2008 Transit Security Grant Program guidance.

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit international association of more than 1,500 public and 
private member organizations, including transit systems and commuter 
rail operators; planning, design, construction, and finance firms; 
product and service providers; academic institutions; transit 
associations and State departments of transportation. APTA members 
serve the public interest by providing safe, efficient, and economical 
transit services and products. More than 90 percent of the people using 
public transportation in the United States and Canada are served by 
APTA member systems.

                            FUNDING REQUEST

    Mr. Chairman, public transportation is a critical component of our 
Nation's infrastructure. Americans take more than 10.3 billion transit 
trips each year. People use public transportation vehicles more than 34 
million times each weekday. This is eighteen times the number of daily 
boardings on the Nation's domestic airlines.
    Both the Administration and Congress have fully acknowledged that 
terrorist threats to transit agencies are real, and have not 
diminished. The Government Accountability Office (GAO) released a 2002 
report which said ``about one-third of terrorist attacks worldwide 
target transportation systems, and transit systems are the mode most 
commonly attacked.'' On February 29, 2008, the Office of Intelligence 
of the Transportation Security Administration (TSA) released a report 
concluding that public transportation in America remains vulnerable to 
terrorist attack. The report States, ``The volume of previous attacks 
and recent plotting against mass transit systems overseas demonstrates 
continued strong terrorist interest in targeting this sector.'' The 
report further States that, ``Previous rail attacks in Madrid, London, 
and Mumbai could inspire terrorists to conduct similar attacks in the 
United States.''
    Safety and security have always been the top priority of the public 
transportation industry. Since 9/11, transit systems have taken many 
steps to further improve security. Public transit agencies with State 
and local governments, have invested billions of dollars on security 
and emergency preparedness programs. While we are pleased that Congress 
recognizes the importance of investing in the safety of public 
transportation, Federal investment in transit security has been minimal 
when compared to other transportation modes. For example, since 9/11 
the Federal Government has spent over $24 billion on aviation security 
and only $898 million for transit security.
    In 2004, APTA surveyed U.S. transit agencies to determine what 
actions were needed to improve security for their customers, employees 
and facilities. In response to the survey, transit agencies around the 
country identified in excess of $6 billion in transit security 
investment needs. State and local governments and transit agencies are 
doing what they can, but it is important for the Federal Government to 
increase support for transit security.
    Last August, President Bush signed into law H.R. 1, the 9/11 
Commission Recommendations Act of 2007. The legislation authorizes $3.4 
billion in transit security funding over a four year period. We ask 
that Congress provide $750 million in the Homeland Security 
Appropriations bill, consistent with the authorized level for fiscal 
year 2009 in H.R. 1. We are extremely disappointed that the 
Administration proposed only $175 million for transit security in the 
fiscal year 2009 DHS budget proposal, which would be a cut of $225 
million from the $400 million that Congress appropriated for transit 
security for fiscal year 2008, and significantly less than the $750 
million authorized in H.R. 1. Federal funding for transit security 
needs should provide for both hard and soft costs as described below 
and be separate from investments in the Federal transit capital 
program.
    In addition, we urge Congress to provide $600,000 to maintain and 
operate the Public Transit Information Sharing Analysis Center (ISAC). 
Funding for this program was authorized under the 9/11 Commission bill 
under Section 1410(d), which provides for the sharing of security 
information between transit agencies and DHS. The ability to share 
vital information is crucial in preventing and mitigating potential 
terrorist attacks.
    We also urge Congress to provide $500,000 to DHS for the APTA 
security standards program. APTA is recognized as a Standards 
Development Organization (SDO) for the public transportation industry. 
H.R. 1 requires that DHS work with the transit industry. We are 
applying our growing expertise in standards development to transit 
industry safety and security, best practices, guidelines and standards. 
Over the last several years, APTA has worked closely with the 
Department of Transportation (DOT), DHS and industry leaders to develop 
standards that help transit agencies use available resources as 
effectively as possible. We request $500,000 in the DHS Appropriations 
bill to continue this important work.

        FISCAL YEAR 2008 TRANSIT SECURITY GRANT PROGRAM GUIDANCE

    Last year, Congress enacted H.R. 1, the 9/11 Commission 
Recommendations Act of 2007. That law authorizes significant increases 
for transit security grants, and gives specific instructions on how DHS 
must distribute funds. APTA was pleased to have the opportunity to form 
a working group among our members to help the Administration deliver 
grants in the most efficient manner, while fully complying with the 
intent of the statute. Regrettably, DHS failed to consider our input. 
In fact, the current distribution process not only ignores the 
industry's recommendations, but in many cases violates the statute.
    First, H.R. 1 included conference report language directing DHS to 
distribute grants directly to transit agencies. However, DHS has chosen 
to ignore this directive. Instead, DHS has distributed transit security 
funds to States who continue to administer the program and retain 3 
percent in management and administrative costs while providing no 
additional value in the distribution of the grant program.
    In addition, the new guidance requires a local cost share. For 
operational costs, the maximum Federal share is 66 percent of the total 
cost. The fiscal year 2009 guidance reduces the Federal share to 50 
percent. The guidance also imposes a 25 percent local match for the 
purchase of equipment, management and administration activities. As you 
know, there is no local cost share requirement authorized in H.R. 1.
    Furthermore, the new grants guidance specifically excludes items in 
H.R. 1 that should be considered for funding such as chemical-
biological detection, and redundant Operation Control Centers. We 
appreciate the flexibility that H.R. 1 provided in allowing a broad 
range of items for consideration of funding, yet DHS is ignoring this 
legislative language and restricting the use of Federal funds.
    APTA appreciates the challenges that DHS faces in implementing the 
new authorizing statute, and hopes that the agency will fully consider 
the transit industry's recommendations in the future. We look forward 
to working with Congress in the upcoming year to ensure that the grants 
distribution process complies with H.R. 1, and allows transit agencies 
maximum flexibility to implement the transit security improvements.

                       SECURITY INVESTMENT NEEDS

    Mr. Chairman, since the events of 9/11, the transit industry has 
invested billions of its own funds for enhanced security measures, 
building on the industry's already considerable efforts. At the same 
time, our industry conducted comprehensive reviews to determine how we 
further improve on existing security practices. This effort has 
included a range of activities, which include research, best practices, 
education, information sharing in the industry, and surveys. As a 
result we have a better understanding of how to create a more secure 
environment for our riders and of the most critical security investment 
needs.
    Our survey of public transportation security identified 
enhancements of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million in increased costs 
for security personnel, training, technical support, and research and 
development have been identified, bringing total additional transit 
security funding needs to more than $6 billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security 
improvements. Priority examples of operational improvements include:
  --Funding current and additional transit agency and local law 
        enforcement personnel
  --Funding for over-time costs and extra security personnel during 
        heightened alert levels
  --Training for security personnel
  --Joint transit/law enforcement training
  --Security planning activities
  --Security training for other transit personnel
    Priority examples of security capital investment improvements 
include:
  --Radio communications systems
  --Security cameras on-board transit vehicles and in transit stations
  --Controlling access to transit facilities and secure areas
  --Automated vehicle locator systems
  --Security fencing around facilities
    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    Mr. Chairman, the Department of Homeland Security issued directives 
for the transit industry in May 2004 which would require that transit 
agencies beef up security and to take a series of precautions to set 
the stage for more extensive measures without any Federal funding 
assistance. Transit agencies have already carried out many of the 
measures that Transportation Security Administration (TSA) has called 
for, such as drafting security plans, removing trash bins and setting 
up procedures to deal with suspicious packages. The cost of these 
measures and further diligence taken during times of heightened alert 
is of particular concern to us. We look forward to working with you in 
addressing these issues.

                               CONCLUSION

    Mr. Chairman, in light of the Nation's heightened security needs 
since 9/11, we believe that increased Federal investment in public 
transportation security is critical. The public transportation industry 
has made great strides in transit security improvements since 9/11 but 
much more needs to be done. We need the Federal Government to increase 
its support for transit security grants that help transit systems 
address the $6 billion in identified transit security investment needs. 
We urge this subcommittee to provide $750 million in the fiscal year 
2009 Department of Homeland Security Appropriations bill. We urge 
Congress to fund the Public Transit ISAC and the APTA security 
standards program as previously described. We urge Congress to include 
legislative language to correct the DHS's implementation of the fiscal 
year 2008 grant program guidance to reflect the authorization law.
    We have also found that investment in public transit security 
programs, resources and infrastructures provides a direct benefit in 
preparation and response to natural disasters as well. We look forward 
to building on our relationship with the Department of Homeland 
Security and Congress to better address these needs. We thank you and 
the subcommittee for allowing us to provide testimony on these critical 
issues and look forward to working with you to improve safety and 
security for the millions of people who use transit every day.
                                 ______
                                 

   Prepared Statement of the Association of State Floodplain Managers

    The Association of State Floodplain Managers (ASFPM) and its 26 
State Chapters represent over 11,000 State and local officials as well 
as other professionals engaged in all aspects of floodplain management 
and hazard mitigation. This includes floodplain management, mapping, 
engineering, hydrology, flood mitigation, forecasting, water resources, 
planning, community development, emergency response and insurance. All 
ASFPM members are concerned with reducing our Nation's flood-related 
losses. Our State and local officials are the Federal Government's 
partners in implementing flood mitigation and flood insurance programs 
and working to achieve our shared objectives. Our State members head 
offices that are designated by the State governors to coordinate the 
National Flood Insurance Program (NFIP) with local jurisdictions.
    In general, the Association of State Floodplain Managers is pleased 
with the funding requested for an on-going flood mapping program and 
with the funding requested for the repetitive flood loss grant programs 
that are funded under the National Flood Insurance Program. We would 
urge the Committee to fully fund the Flood Mitigation Assistance grant 
program at its authorized level of $40 million. In addition, we urge 
that the Pre-Disaster Mitigation grant program under the Stafford Act 
be funded at a level significantly higher than the budget request of 
$75 million.
            flood mitigation assistance program (sec. 1366)
    The budget request includes $35.7 million from the National Flood 
Insurance Fund for the regular Flood Mitigation Assistance (FMA) 
program. The program was authorized at $40 million in the Flood 
Insurance Reform Act of 2004 to incorporate an enhanced capability to 
mitigate repetitive flood loss properties in addition to its support of 
local mitigation planning and other projects.
    In the past, FEMA had determined that FMA could be funded only from 
Federal policy fee income rather than from premium income and funds 
were provided by transfer from the National Flood Insurance Fund to the 
Flood Mitigation Assistance Fund. The explanation for funding the 
program at $34 million in fiscal year 2008 referenced the amount 
available from fee income. For fiscal year 2009, the budget proposes to 
eliminate the FMA Fund and to fund the program directly from the NFIF.
    This would appear to provide for funding from premium income, in 
the same manner that the two repetitive loss mitigation programs are 
funded (Sections 1361A and 1323 of FIRA 2004). The rationale for 
limiting FMA because of the availability of fee income seems to be no 
longer valid.
    ASFPM urges the Committee to provide the full authorized amount of 
$40 million for the Flood Mitigation Assistance Program.

                             FLOOD MAPPING

    The budget request includes $150 million in appropriated funds and 
funds derived from Federal policy fees for a total mapping program 
level of approximately $248 million in fiscal year 2009, thus 
approaching the fiscal year 2008 funding level.
    ASFPM is very pleased that the budget request includes provision 
for a substantial on-going mapping program. The final funding year for 
the 5 year Map Modernization Initiative was fiscal year 2008. While the 
Map Modernization effort made a major contribution to improving the 
Nation's flood risk maps, much mapping work remains to support FEMA's 
risk identification and risk reduction (mitigation) responsibilities 
for working with States and localities to reduce flood losses. Many 
areas require new engineering (hydrology and hydraulics) studies; many 
areas have yet to be mapped; and risk identification in many areas is 
being affected by decertification of levees. Keeping flood maps current 
is a dynamic process since the hazard changes due to development, 
natural events and other topographic changes. Flood insurance reform 
legislation pending in the Congress would add additional mapping tasks 
to FEMA's risk identification activities. It is critical to the 
National Flood Insurance Program and to Federal, State and local flood 
risk reduction efforts that FEMA continue its mapping activities at a 
robust level.
    ASFPM strongly supports the requested funding level for flood risk 
mapping.

                     PRE-DISASTER MITIGATION GRANTS

    ASFPM is concerned about the reduced funding of $75 million 
requested for fiscal year 2009 for the Pre-Disaster Mitigation Grant 
program (PDM). The program was funded at $114 million in fiscal year 
2008 and up to $150 million in some prior years. FEMA reports that this 
nationwide, multi-hazard competitive program regularly draws 
applications that represent needs much greater than the available 
funding can address. There is demonstrated need for much more 
mitigation activity than this program can support, even at $150 
million.
    The Congressionally requested report of the Multi-Hazard Mitigation 
Council (MMC) of the National Institute of Building Sciences released 
in 2006 found an overall benefit-to-cost ratio of 4 to 1 for mitigation 
investment. The ratio was 5 to 1 for flood mitigation projects. The 
Pre-Disaster Mitigation grant program generates local mitigation 
funding through its cost-share. It is evident that mitigation is a wise 
investment and good public policy.
    A significant number of applications submitted each year cannot be 
approved due to lack of funds. These applications are a product of 
focused work at the local level, often with State involvement, to 
develop projects that are consistent with local and State hazard 
mitigation plans and meet the many other important program eligibility 
requirements. FEMA has developed, and then refined, an evaluation 
process for grant applications that is rigorous and involves mitigation 
officials from all over the country participating in review panels.
    The process of developing hazard mitigation plans and of working 
locally to put together mitigation grant applications has the important 
corollary benefit of building local commitment to risk reduction. 
Utilizing a significant portion of limited PDM funds in funding 
directives outside of the competitive grant application process can 
have the unfortunate effect of reducing impetus to utilize that 
awareness and commitment building process at the local level. We urge 
the Committee to avoid use of funding directives and instead to 
encourage the local planning and project development that leads to 
local commitment to hazard mitigation and to the most cost effective 
mitigation projects.
    To enhance the development of eligible and good quality grant 
applications from the many jurisdictions that do not necessarily have 
mitigation expertise locally or the funds to hire such expertise, the 
Committee may wish to consider setting aside a portion of PDM funds for 
allocation to States to support technical assistance to communities. 
Many communities nationwide could improve their hazard mitigation 
activities with even minimal technical assistance
    ASFPM urges increased funding for Pre-Disaster Mitigation grants; 
urges encouragement of local mitigation awareness and commitment by not 
funding projects through directives and suggests consideration of a 
set-aside for allocations to States so that hey can provide technical 
assistance to communities.

                                 OTHER

    FEMA has been working collaboratively with the U.S. Army Corps of 
Engineers on assessment of flood control structures (usually levees) 
and the reflection of that work on FEMA's flood maps. ASFPM notes that 
the interagency collaboration is most effective and important.
    FEMA has embarked on a unification of requirements and applications 
procedures for its five mitigation grant programs. ASFPM supports this 
effort as it will very likely simplify and streamline the grant 
application process for States and communities.
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Byrd, Ranking Member Cochran, and distinguished members of 
the Subcommittee, thank you for allowing IAEM the opportunity to 
provide testimony on fiscal year 2009 Appropriations for the Federal 
Emergency Management Agency.
    I am Larry Gispert, and I serve Hillsborough County on the West 
Coast of Florida as Director of Emergency Management--a position I have 
held for 14 of my 27 years in the field. I have the privilege of 
serving nearly 1.2 million folks who call Hillsborough County and the 
City of Tampa home. I am currently serving as the President of the 
International Association of Emergency Managers.
    I want to express my sincerest gratitude to this subcommittee for 
your support for increasing the funding for the Emergency Management 
Performance Grant Program--the major source for building State and 
local emergency management capacity--and for reforming the Federal 
Emergency Management Agency.
    IAEM has over 4,000 members including emergency management 
professionals at the State and local government levels, tribal Nations, 
the military, colleges and universities, private business and the 
nonprofit sector in the United States and in other countries. Most of 
our members are U.S. city and county emergency managers who perform the 
crucial function of coordinating and integrating the efforts at the 
local level to prepare for, mitigate the effects of, respond to, and 
recover from all types of disasters including terrorist attacks. Our 
membership includes emergency managers from large urban areas as well 
as rural areas.
Emergency Management Performance Grants (EMPG)
    We urge that EMPG funding be increased to $487 million to address 
the historically documented shortfall as indicated by the NEMA biennial 
report; the program be maintained as a separate account; and bill 
language indicate the funding is for all hazards and can be used for 
personnel. We urge you to reject the explanatory language which stated 
EMPG was for State and urban areas.
    The entire emergency management community is grateful to this 
committee for recognizing the importance of building basic emergency 
management capacity at the State and local level. The major source for 
this capacity building is funding from the Emergency Management 
Performance Grant program. We are grateful for your $50 million 
supplemental in fiscal year 2007 and for the increase to $300 million 
in fiscal year 2008 to begin addressing the shortfall. We appreciate 
the fact that you recognize that EMPG is different from the entire host 
of post September 11, 2001 Homeland Security grants. Specifically, EMPG 
has existed since the 1950s. It was created to be a 50-50 cost share 
program to ensure participation by State and local governments to build 
strong emergency management capability, and it is a performance grant. 
We are certainly pleased that 50 Senators signed a letter to the 
committee recommending that EMPG be funding at $487 million.
Principal Federal Official (PFO)
    We urge the committee to include bill language prohibiting the 
funding of any position designated as a Principal Federal Official 
(PFO) or Senior Federal Official in a Presidentially declared disaster 
or emergency.
    We appreciated the Conferees including such language in the fiscal 
year 2008 Act. IAEM has consistently opposed the appointment of PFOs. 
It leads to confusion. Instead, our members want the Federal 
Coordinating Officer (FCO) to have unambiguous authority to direct and 
manage the Federal response in the field. It is absolutely critical for 
State and local officials to have one person empowered to make 
decisions and coordinate the Federal response in support of the State.
Pre-Disaster Mitigation (PDM)
    IAEM supports both pre and post hazard mitigation. The PDM program 
will sunset on September 30, 2008. We will be working with the 
authorizing committees to encourage the continuation of the program, 
and we respectfully request this committee to fund PDM at an 
appropriate level. For the fiscal year 2008 cycle 446 subapplications 
were received from 43 States, 1 territory, and 5 federally recognized 
Indian tribal governments which would have totaled over $317 million 
for the Federal share. However, only approximately $52 million was 
available to fund grants in the competitive program.
Emergency Management Institute (EMI)
    We urge the Committee to establish a separate line item for EMI in 
the FEMA budget so that EMI can have a consistent funding stream. We 
would also urge you to engage in discussions with FEMA on the funding 
needed to develop new courses and update the current ones. We believe 
an estimate would be a minimum of $2,200,000 annually.
    We strongly support the Emergency Management Institute (EMI)--once 
the ``crown jewel'' of the emergency management profession. More 
recently, however, it has fallen on hard times. For decades, EMI was 
charged with establishing and promoting the principles and doctrine of 
the comprehensive emergency management approach. Lack of funding and a 
loss of focus on the primary objectives of the Integrated Emergency 
Management System (IEMS) have left EMI adrift without an up-to-date, 
cohesive, professional EM curriculum
EMI's Emergency Management Higher Education Project
    We urge the Committee to provide additional funding to the Higher 
Education Project for two additional positions and a minimum of an 
additional $400,000 annually for course development, the Higher 
Education Conference, and related activities.
    The Emergency Management Higher Education Project although 
consistently under funded has produced significant improvements in the 
preparation of professional, college educated, emergency managers who 
represent the future of effective disaster policy and practice at the 
over 130 colleges and universities now offering emergency management 
degrees. The financial resources to accomplish these worthy goals are a 
prudent investment in the development of our emergency management 
system.
Post Katrina Reform Act Implementation
    We remain concerned about the role of FEMA within DHS, whether FEMA 
truly has been given all the responsibility for preparedness and 
managing disaster response as the law requires, and whether DHS has 
truly ``bought'' into the all hazards doctrine which is so vital. 
Congress in the Post Katrina Act tried to empower and strengthen FEMA 
within DHS. It bears watching to be certain that this is not undercut 
by Presidential directives not in keeping with the law.
    Congress made it clear when the Post Katrina Reform Act was passed 
that they want a strong FEMA with an Administrator with clear authority 
for managing all aspects of disasters and emergencies. Some specific 
examples from the Act which we believe are not being followed include:
  --Section 611(12)(B) is of particular importance. This amended the 
        Homeland Security Act of 2002 by ``striking the matter 
        preceding paragraph (1)'' which contained the language, ``the 
        Secretary acting through . . .'' and inserted instead the 
        following language. ``In General.--The Administrator shall 
        provide Federal Leadership necessary to prepare for, protect 
        against, respond to, recover from or mitigate against a natural 
        disaster, act of terrorism and other man-made disaster 
        including . . . managing such response. ``Congress acted 
        intentionally to transfer these responsibilities from the 
        Secretary to the Administrator.
  --Section 503 Federal Emergency Management Agency
    --(b)(2) Specific Activities--In support of the primary mission of 
        the Agency, the Administrator--
      --(A) Lead the Nation's efforts to prepare for, protect against, 
        respond to, recover from, and mitigate against the risk of 
        natural disasters, acts of terrorism, and other man-made 
        disasters, including catastrophic accidents.
      --(H) develop and coordinate the implementation of a risk-based, 
        all hazards strategy for preparedness that builds on those 
        common capabilities necessary to respond to natural disasters, 
        acts of terrorism, and other man-made disasters while also 
        building the unique capabilities necessary to respond to 
        specific types of incidents that pose the greatest risk to our 
        Nation
  --Section 503(c)(4)(A) In General.--The Administrator is the 
        principal advisor to the President, the Homeland Security 
        Council, and the Secretary for all matters relating to 
        emergency management in the United States.
  --Sec. 503(c)(5) Cabinet Status--
    --(A) In General.--The President may designate the Administrator to 
        serve as a member of the Cabinet in the event of natural 
        disasters, acts of terrorism, or other man-made disasters.
    --(B) Retention of Authority.--Nothing in the paragraph shall be 
        construed as affecting the authority of the Secretary under 
        this Act.
    We believe that DHS frequently and mistakenly quotes Section 
502(c)(5)(B) regarding the authority of the Secretary and the 
Administrator as being applicable across the entire act when, in fact, 
it is limited in scope only to paragraph (5).
    We strongly request the committee to provide continual oversight of 
DHS on these matters to ensure they are following the clear and direct 
law on these issues.
    Congress also rejected the DHS Stage 2 Reorganization and clearly 
and unambiguously moved all Preparedness functions and personnel to 
FEMA. IAEM believes that Section 506(c)(1) and (2) of the Homeland 
Security Act as amended by the Post Katrina Reform Act clearly 
prohibits the transfer of any asset, function or mission from FEMA 
without a specific Act of Congress. A major function of FEMA is to 
rebuild relationships with State and local officials. Therefore, the 
Intergovernmental Affairs function assumes a much higher level of 
importance. Despite the clear prohibition on moving this function from 
FEMA, we understand there are 17 positions performing this vital role 
still under the National Protection and Programs Directorate (outside 
of FEMA) on a non-reimbursable detail. We urge this committee to insist 
that these positions and funding should be immediately transferred to 
FEMA for intergovernmental.
    Another of our areas of our concern focuses on the Office of 
Operations Coordination--which was created after the Post Katrina 
Reform Act, was signed into law--and whether the role this office will 
perform is consistent with the implementation of the Post Katrina 
Reform Act. Subtitle C of the Post Katrina Reform Act clearly assigned 
the FEMA Administrator responsibility for the National Preparedness 
System, including the National Planning Scenarios and the planning 
system yet these functions appear to have been placed under the 
authority of the Office of Operations Coordination.
    Yet another area of potential concern is a growing internal 
discussion within DHS regarding the perceived differences between 
Incident Management and Emergency Management. Emergency Management is 
the broader, overarching and systematic approach to the issue of 
dealing with all disasters and emergencies, whether natural, 
technological, or homeland security. Incident management, while 
important, is a much more narrowly focused sub-element of response, one 
of the four phases of emergency management (mitigation, preparedness, 
response and recovery). To insist otherwise is to ignore the evidence 
of reality--and, a tacit acknowledgement on the part of DHS that they 
fail to understand the broader implications of the overall emergency 
management system. We urge the committee to reject what appears to be 
``sleight of hand'' by DHS in moving functions clearly and 
unambiguously assigned to FEMA by law outside of FEMA.
Perspectives
    IAEM realizes there are differences in the way we approach things 
based on our perspectives--that of the DHS /OMB view from 50,000 feet 
and that of the local government view from our boots on the ground. An 
example is in the EMPG program. The Guidance for fiscal year 2008 
appears to be overly restrictive by requiring 25 percent devoted to 
planning. The failures manifested during Hurricane Katrina were not 
entirely rooted in a lack of planning. Many would say the failure was 
due to a lack of execution of existing plans. EMPG is authorized by the 
Stafford Act and the authorization is broad for a reason--because one 
size does not fit all.
    We are concerned about the National Planning Scenarios which are 
narrowly focused, primarily on terrorism. As a result, they don't 
reflect the full range of threats to which we are subject. The solution 
to this situation is not to develop more scenarios, but to use the 
scenarios properly--in the development of a single Emergency Operations 
Plan identifying the functions and capabilities common to all 
emergencies as well as the roles and responsibilities of government. 
Utilizing a multi-plan military-style approach is great--if you are the 
military and funded and equipped with the resources of the military. 
State and local governments do not have that luxury.
    It bears watching to be certain that what is important to be done 
to truly improve capacity to respond and recover at the local level is 
not undercut by overly restrictive one-size-fits-all policies, overly 
complex systems and emphasis on things that can be counted.
Conclusion
    In summary, we urge the committee to continue to build emergency 
management capacity by increasing EMPG to $487 million. We urge the 
committee to continue to insist on the appropriate implementation of 
the Post Katrina Act, to protect and strengthen FEMA and to empower its 
Federal Coordinating Officers. We urge continuing support for EMI and 
the vitally important Higher Education Project.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

Introduction
    Thank you Chairman Byrd, Ranking Member Cochran, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland 
Security's (DHS) fiscal year 2009 budget. In my statement, I am 
representing the National Emergency Management Association (NEMA), 
whose members are the State emergency management directors in the 
States, the U.S. territories, and the District of Columbia. NEMA's 
members are responsible to their Governors for emergency preparedness, 
homeland security, mitigation, response, and recovery activities for 
natural, man-made, and terrorist caused disasters.
    In 2007, FEMA declared 63 major disasters; 13 emergency 
declarations; and 60 fire management assistance declarations. Overall, 
40 States and one territory were impacted. The multi-hazards emergency 
management system continues to be the means to practice and exercise 
for devastating acts of terrorism, while at the same time preparing the 
Nation for hurricanes, tornadoes, earthquakes, hazardous materials 
spills, and floods. We respectfully ask for your serious consideration 
of additional Federal support for the only all-hazards Emergency 
Management Performance Grant (EMPG) to build State and local emergency 
management capacity. EMPG is the only State and local matching grant 
program supporting preparedness efforts.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs. NEMA would 
like to address three critical issues regarding the proposed Federal 
budget for the Department of Homeland Security:
  --Concern for addressing the shortfall and total need for the 
        Emergency Management Performance Grant (EMPG) level while 
        requirements increase for State and local governments;
  --Federal support for the Emergency Management Assistance Compact 
        (EMAC); and
  --Significant deficits for improving State and local Emergency 
        Operations Centers (EOCs).
              emergency management infrastructure funding
EMPG is the Only Program for All-Hazards Preparedness
    Natural disasters are certain and often anticipated. Every State 
must be able to plan for disasters as well as build and sustain the 
capability to respond. EMPG is the only source of funding to assist 
State and local governments with preparedness/readiness activities 
associated with natural disasters. At a time when our country is 
continuing to recover from one of the largest natural disasters in 
history and making strides to improve the Nation's emergency 
preparedness/readiness, we cannot afford to have this vital program be 
cut or just maintained. EMPG is the backbone of the Nation's all-
hazards emergency management system and the only source of direct 
Federal funding to State and local governments for emergency management 
capacity building. EMPG is primarily used to support State and local 
emergency management personnel who are responsible for writing plans; 
conducting training, exercises and corrective action; educating the 
public on disaster readiness; and maintaining the Nation's emergency 
response system.
    The State and local government partnership with the Federal 
Government to ensure preparedness dates back to the civil defense era 
of the 1950s, yet increased responsibilities over the last decade have 
fallen on State and local governments. NEMA's 2006 Biennial Report 
shows that the shortfall in EMPG funding has reached $287 million.
State and Local Match
    EMPG is the only all-hazards preparedness program within the 
Department of Homeland Security that requires a match at the State and 
local level. The 50/50 match is evidence of the commitment by State and 
local governments to make public safety and security a top priority. 
According to the NEMA 2006 Biennial Report, States were continuing to 
over match the Federal Government's commitment to national security 
protection through EMPG by $96 million in fiscal year 2005, which is an 
80 percent State and 20 percent Federal contribution.
Appropriate Support Needed to Strengthen Program
    We appreciate all of the efforts of members of Congress and the 
Administration to allow for increases to the EMPG program; however, 
adjusted over the last fifteen years the increases have not kept pace 
with inflation at a time when capacity is supposed to be increasing. 
Continued funding increases are necessary to make up for over a decade 
of degradation of funding and increased state and local commitments. 
The increased flexibility of EMPG is offset by funding shortfalls 
estimated in the NEMA 2006 Biennial Report to be over $287 million for 
all 50 States. The current total need is $487 million. The 9/11 
Implementation Act authorized EMPG at $535 million for fiscal year 
2009.
EMPG as a Separate Account
    The President's budget proposal for fiscal year 2009 suggests 
combining the EMPG account with the other accounts in the State and 
local account. NEMA strongly disagrees with this approach, as EMPG must 
be maintained as a separate line item account as Congress has affirmed 
since fiscal year 2003. Congress agreed at that time that the EMPG 
account needed to be visible and easy to find in the budget because of 
the importance of the program. The separate account is critical because 
the EMPG program is the only all-hazards grant program being 
administered through the DHS/FEMA Grants Office to emergency management 
agencies. Additionally, NEMA suggests that Congress maintain the method 
of distribution for EMPG, similar to the language in the fiscal year 
2006 appropriations; however continuing to allocate the funding through 
the State Administrative Agencies (SAAs) continues to cause delays in 
some States. NEMA supports language that would expressly restore the 
direct allocation and administration of the EMPG grants to State 
emergency management agencies. This will facilitate the process of 
expediting funding to State and local emergency management agencies 
without adding unnecessary steps.
    The fiscal year 2008 Grant Guidance made several changes to the 
EMPG program that are not consistent with the Congressional intent for 
the program. While we have been successful in making sure the grants 
can be used retroactively to the start of the Federal fiscal year, the 
grant guidance still limits the use of EMPG funds for emergency 
operation centers improvements, and requires 25 percent for planning 
purposes. Additionally, another change to the EMPG program last year is 
the 3 percent allowable for management costs. Previously, States could 
use up to 5 percent of the grants to manage the program. This means the 
State has to make a larger contribution to the match to just manage the 
program. We urge Congress to consider these issues when completing work 
on the fiscal year 2009 appropriations bills and to be very specific on 
how FEMA should administer the EMPG program.
          buiding our nation's mutual aid system through emac
    The response to Hurricanes Katrina and Rita resulted in the largest 
deployment of interstate mutual aid in the Nation's history through the 
Emergency Management Assistance Compact (EMAC). EMAC deployed personnel 
comprised of multiple disciplines from all member States to respond to 
Louisiana, Mississippi, Alabama, Florida, and Texas. The process 
enabled National Guard, search and rescue teams, incident management 
teams, emergency operations center support, building inspectors, law 
enforcement personnel, and other disciplines to immediately assist the 
requesting States in need of support. In October 2006, Congress, under 
The Post-Katrina FEMA Reform Act authorized FEMA to appropriate up to 
$4 million annually in grants in fiscal year 2008 to support EMAC 
operations and coordination activities, but no funds were appropriated.
    EMAC has a five year strategic plan to put lessons learned into 
practice. The After-Action process from Hurricane Katrina allowed EMAC 
to examine how to improve the system after unprecedented disasters and 
an unparalleled growth in the use of the system.
    Examples of improvements to be made with current and future funding 
as a result of lessons learned are outlined below:
  --NEMA has been working with first responder disciplines to provide 
        EMAC educational and training materials. This includes training 
        on integration with State Emergency Operations Centers, 
        Incident Command Systems, resource typing, and credentialing;
  --NEMA has established an EMAC Advisory Group that is working to 
        better integrate mutual aid partners into the EMAC system 
        before future disasters occur. The group includes 
        representatives from State and local government associations, 
        the National Guard Bureau, emergency responder associations, 
        public utility associations, the private sector, DHS/FEMA, and 
        the Centers for Disease Controls and Prevention. The 
        discussions and interactions of this group serve to assist in 
        adding local government assets to the scope of resources and 
        other disciplines that can be readily plugged into the system;
  --EMAC has evolved in the tracking of resources through 
        administrative management through NEMA. EMAC is working towards 
        an integrated system to allow for swifter approvals from the 
        requesting and responding States, which will ultimately allow 
        for improved tracking and faster response to requests for 
        assistance; and
  --EMAC will also be providing briefings and managing coordination 
        activities for the Federal Government through the National 
        Response Coordinating Center, Federal Coordinating Officers, 
        Principal Federal Officials, and Emergency Support Functions.
    While Emergency Management Performance Grants and homeland security 
grants are helping to build capabilities, the National Strategy for 
Homeland Security counts on the fact that mutual aid is going to be put 
to use in a disaster. The support of EMAC is critical to helping offset 
the costs of disasters and building costly infrastructure at the 
Federal level that could sit unused until a disaster. In order to meet 
the ever-growing need for and reliance on interstate mutual aid, NEMA 
is seeking reauthorization at $4 million annually for 2009 and beyond 
and an annual $2 million line item for building EMAC capabilities and 
our Nation's mutual aid system.
         improving state and local emergency operation centers
    During emergencies and disasters, emergency operations centers 
(EOCs) serve as the nerve center for State and local coordination. 
Federal agencies as well use these facilities to act as a central point 
for communication during response and recovery phases. After the 2001 
terrorist attacks, Congress provided some funding to States to update 
their EOCs. Additionally, Congress temporarily changed the state-local 
cost share from 50-50 to 75-25 for these funds.
    States continue to require more monies to enhance State primary and 
alternate EOCs. According to data in the NEMA 2006 Biennial Report, it 
is estimated that almost $393 million would be needed to build, 
retrofit and upgrade the facilities. For local EOCs, that number 
increases to $1.1 billion, for a total of almost $1.5 billion. This 
includes the costs to upgrade equipment and software, train personnel, 
and conduct operations during emergency and non-emergency situations. 
We appreciate Congress' recognition of the need for EOC improvements 
through a $15 million appropriation in the fiscal year 2008 
appropriations. The fiscal year 2008 investment is a down payment 
towards addressing this critical shortfall.
    A separate line item is needed in the budget for EOC improvements. 
We respectfully request that Congress should make a $160 million 
commitment to upgrading EOCs as a downpayment to address the 
significant deficits.
    As mentioned earlier, the fiscal year 2008 grant guidance 
eliminated the ability to continue to use EMPG funds for EOC 
improvements, despite the Congressional intent. While the investment in 
EOCs is appreciated in the separate program, Congress must be clear to 
continue to allow EMPG to be used for EOC improvements as well. With so 
many State and local governments who are likely to compete for the $15 
million, EMPG can and should be used as previously allowed for 
retrofits, equipment purchase, renovations, and updates of existing 
EOCs. Maintaining the flexibility of EMPG and having the separate 
program continue as priorities for emergency management.

                               CONCLUSION

    Congress has affirmed their support for ensuring preparedness for 
our Nation's continuous vulnerability against all-hazards with 
additional investments to EMPG, EMAC, and emergency operations centers 
improvements. We must continue to build national preparedness efforts 
with a multi-hazard approach. In this year's appropriations process, 
Congress will make critical decisions that shape the future of 
emergency management in this country. As you consider these matters, we 
ask you to recognize the importance of adequately funding the EMPG 
program in building capacity through personnel resources at the State 
and local level for all disasters. I thank you for the opportunity to 
testify on behalf of NEMA and appreciate your partnership.
                                 ______
                                 

      Prepared Statement of the National Treasury Employees Union

    Chairman Byrd, Ranking Member Cochran, distinguished members of the 
Subcommittee; I would like to thank the Subcommittee for the 
opportunity to provide this testimony. As President of the National 
Treasury Employees Union (NTEU), I have the honor of leading a union 
that represents over 22,000 Customs and Border Protection (CBP) 
Officers and trade enforcement specialists who are stationed at 327 
land, sea and air ports of entry (POEs) across the United States. CBP 
employees make up our Nation's first line of defense in the wars on 
terrorism and drugs. In addition, CBP trade compliance personnel 
enforce over 400 U.S. trade and tariff laws and regulations in order to 
ensure a fair and competitive trade environment pursuant to existing 
international agreements and treaties, as well as stemming the flow of 
illegal contraband such as child pornography, illegal arms, weapons of 
mass destruction and laundered money. CBP is also a revenue collection 
agency, expecting to collect an estimated $29 billion in Federal 
revenue next year according to fiscal year 2009 revenue estimates.
    First, NTEU would like to thank the Committee for including 
language in its fiscal year 2008 Department of Homeland Security (DHS) 
Appropriations bill that provides an enhanced retirement benefit to all 
eligible CBP Officers to address the concern that CBP was losing 
valuable law enforcement personnel to other agencies due to the 
disparity in retirement pay. The final funding bill included $50 
million to cover the fiscal year 2008 costs associated with this 
enhanced retirement benefit. Nothing that the Committee has done since 
the creation of the Department has had a more positive effect on the 
morale of the CBP Officer.
    NTEU was alarmed that the President in his fiscal year 2009 budget 
request sought to repeal this new law and rescind the $50 million 
appropriated in fiscal year 2008 to begin this new program. NTEU 
members are grateful that, despite the President's request, Congress 
remains firmly committed to this new program and fully supportive of 
funding it.
           funding for dhs human resources management system
    NTEU continues to have concerns about funding priorities at DHS. 
The President's 2009 Budget request includes an increase of $29.3 
million for the Office of Chief Human Capital from $18.8 million in 
fiscal year 2008 to $48.1 million in fiscal year 2009 to fund the DHS 
personnel system. In a number of critical ways, the personnel system 
established by the Homeland Security Act and the subsequent regulations 
issued by DHS have been a litany of failure because the law and the 
regulations effectively gut employee due process rights and put in 
serious jeopardy the agency's ability to recruit and retain a workforce 
capable of accomplishing its critical missions.
    When Congress passed the Homeland Security Act in 2002 (Public Law 
107-296), it granted the new department very broad discretion to create 
new personnel rules (5 U.S.C. 9701). It basically said that DHS could 
come up with new systems as long as employees were treated fairly and 
continued to be able to organize and bargain collectively. The 
regulations DHS came up with were subsequently found by the Courts to 
not even comply with these two very minimal and basic requirements. In 
July 2005, a District Court ruled illegal the labor relations portion 
of the proposed DHS personnel regulations. The Appellate Court rejected 
DHS's appeal of this District Court decision and DHS declined to appeal 
the ruling to the Supreme Court.
    Title 5, Sec. 9701(h) states that, after passage of 5 years 
following the completion of the ``transition period,'' DHS/OPM will 
have no authority to issue regulations pertaining to the new human 
resource management system (formerly called MaxHR) authorized by Sec. 
9701, including regulations that would modify, supersede, or terminate 
any regulations that were already issued. In other words, the 
regulations in place at the end of the 5-year period would stay in 
place and no new regulations could be issued without new statutory 
authority.
    Right now, DHS drafted regulations are in place for adverse 
actions, appeals, performance management, and pay and classification. 
Assuming nothing changes between now and the end of the 5-year period 
(January 2009), the adverse action, appeals, performance management, 
pay, and classification regulations would be frozen in place and remain 
applicable.
    NTEU has the following concerns about the remaining MaxHR 
regulations and requests that no funding be appropriated to implement 
any part of the regulations promulgated pursuant to Title 5, Section 
9701.
Classification, Pay, and Pay Administration (Subparts B and C) 
        Classification, Pay, and Pay Administration (Subparts B and C)
  --Secretary has final say over allocation of pay between performance 
        based pay and across-the- board General Schedule pay;
  --Pay-for-performance schemes entail significant risk of 
        discrimination in violation of Title VII and the Age 
        Discrimination in Employment Act;
  --Proposed pay system is vague and extremely subjective and will 
        undermine employee morale.
Performance Management (Subpart D)
  --DHS' proposed Performance Management regulations abandon Title 5, 
        Chapter 43's requirement that a reasonable performance 
        improvement period (PIP) be provided before imposing an adverse 
        action based on unacceptable performance;
  --A PIP provides employees with a chance for rehabilitation and, if 
        successful, obviates the need for the employer to incur the 
        time and expense of hiring and training a replacement.
Adverse Actions and Appeals (Subparts F and G)
  --Proposed regulations unnecessarily extend the current 1 year 
        probationary period;
  --Includes no independent review of Mandatory Removal Offenses--
        Secretary appoints panel;
  --Unreasonably shortens response time for adverse action appeals;
  --Includes mitigation standards that are impossible to meet, but have 
        been ruled ``unripe'' by the District Court.
    Despite Congress' clear intent to stop implementation of the failed 
DHS Human Resources Management System, DHS persists in seeking funds to 
implement these personnel regulations. NTEU urges the Appropriations 
Committee to ensure that no funding can be expended in fiscal year 2009 
to implement this failed, discredited personnel program.

                   CBP STAFFING AT THE PORTS OF ENTRY

    CBP Officer and CBP Agriculture Specialists Staffing.--CBP's own 
staffing model, completed and delivered to Congress last summer, 
concludes that the agency needs to hire 1,600 to 4,000 more CBP 
Officers and CBP AS positions (Washington Post, November 6, 2007) in 
order to perform its dual anti-terrorism and trade and travel 
facilitation mission. The President, however, requested funding to hire 
only 539 additional CBP Officers and no additional CBP AS hires in his 
fiscal year 2009 Budget, far short of the 4,000 additional hires 
needed.
    Also, according to GAO (GAO-08-219, page 31), CBP's staffing model 
``showed that CBP would need up to several thousand additional CBP 
Officers and agriculture specialists at its ports of entry.'' And GAO 
testimony issued on October 3, 2007 stated that, ``as of mid-August 
2007, CBP had 2,116 agriculture specialists on staff, compared with 
3,154 specialists needed, according to staffing model.'' (See GAO-08-
96T page 1.) This is unacceptable. CBP needs to dramatically increase 
Agriculture Specialist staffing levels.
    NTEU also recommends that Congress, through oversight and statutory 
language, make clear that the agricultural inspection mission is a 
priority and require DHS to report to them on how it is following U.S. 
Department of Agriculture procedures on agriculture inspections. The 
report should include wait times for clearing agricultural products and 
what measures could be implemented to shorten those wait times.
    NTEU calls on the Committee to fund staffing levels for CBP 
Officers and CBP Agriculture Specialists at the ports of entry as 
specified in CBP's own workforce staffing model.
    CBP Trade Operations Staffing.--Section 412(b) of the Homeland 
Security Act of 2002 (Public Law 107-296) mandates that ``the Secretary 
[of Homeland Security] may not consolidate, discontinue, or diminish 
those functions . . . performed by the United States Customs Service . 
. . on or after the effective date of this act, reduce the staffing 
level, or reduce the resources attributable to such functions, and the 
Secretary shall ensure that an appropriate management structure is 
implemented to carry out such functions.''
    In Section 402 of the SAFE Port Act, Congress mandated CBP to 
prepare a Resource Allocation Model (RAM) to determine optimal staffing 
levels required to carry out the commercial operations of CBP, 
including commercial inspection and release of cargo. The RAM was 
delivered to Congress in July 2007 and proposes increases from the 
current floor of 2,263 customs revenue function employees, which 
includes Fine, Penalty and Forfeiture Specialists, Import Specialists, 
International Trade Specialists, Customs Attorneys, Customs Auditors, 
Chemists and CBP Technician positions, but notes that the Model is not 
tied to any specific budget request and does not reflect the 
Department's, CBP's, or the President's funding priorities.
    Customs revenues are the second largest source of Federal revenues 
that are collected by the U.S. Government. The Committee depends on 
this revenue source to fund Federal priority programs. The Committee 
should be concerned as to how much CBP trade enforcement staffing 
shortages cost in terms of revenue loss to the U.S. Treasury.
    NTEU urges the Committee to ensure that CBP trade enforcement 
personnel is increased to staffing levels sufficient to ensure 
effective performance of customs revenue functions as determined by CBP 
in its own July 2007 Trade Resource Allocation Model.

                         ONE FACE AT THE BORDER

    In 2006, Congress requested that the Government Accountability 
Office(GAO) evaluate the ``One Face at the Border'' initiative and its 
impact on legacy customs, immigration and agricultural inspection and 
workload. GAO conducted its audit from August 2006 through September 
2007 and issued its public report, Border Security: Despite Progress, 
Weaknesses in Traveler Inspections Exist at Our Nation's Ports of Entry 
(GAO-08-219). An unredacted version of this report is available only to 
Congress.
    The conclusions of the public report echo what NTEU has been saying 
for years--CBP needs several thousand additional CBP Officers and 
Agriculture Specialists, staffing challenges force ports to choose 
between port operations and providing critical training necessary for 
employees to do their jobs, and not having sufficient staff contributes 
to morale problems, fatigue, and safety issues for CBP Officers and CBP 
Agriculture Specialists. It is clear that CBP sees its ``One Face at 
the Border'' initiative as a means to ``increase management 
flexibility'' without increasing staffing levels.
    NTEU again calls for Congress to end the failed One Face at the 
Border experiment and ensure that expertise is retained with respect to 
customs, immigration, and agriculture inspection functions.
    Each year, with trade and travel increasing at astounding rates, 
CBP personnel have been asked to do more work with fewer personnel, 
training and resources. The American public expects its borders and 
ports be properly defended. Congress must show the public that it is 
serious about protecting the homeland by fully funding the staffing 
needs of the CBPOs at our 327 POEs. Thank you for the opportunity to 
submit this testimony to the Committee on their behalf.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Alexander, Senator Lamar, U.S. Senator From Tennessee, Statement 
  of.............................................................     7
American Public Transportation Association, Prepared Statement of   159
Association of State Floodplain Managers, Prepared Statement of..   162

Byrd, Senator Robert C., U.S. Senator From West Virginia:
    Prepared Statement of........................................     2
    Questions Submitted by.......................................    51

Chertoff, Hon. Michael, Secretary, Department of Homeland 
  Security.......................................................     1
    Prepared Statement of........................................    15
    Statement of.................................................     9
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Questions Submitted by.......................................   138
    Statement of.................................................     3
Craig, Senator Larry, U.S. Senator From Idaho, Questions 
  Submitted by...................................................   154

Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by.........................................   152

Inouye, Senator Daniel K., U.S. Senator From Hawaii:
    Opening Statement of.........................................     1
    Questions Submitted by.......................................   130
International Association of Emergency Managers, Prepared 
  Statement of...................................................   163

Lautenberg, Senator Frank R., U.S. Senator From New Jersey, 
  Statement of...................................................     5
Leahy, Senator Patrick J., U.S. Senator From Vermont, Statement 
  of.............................................................     6

Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by...................................................   132

National:
    Emergency Management Association, Prepared Statement of......   166
    Treasury Employees Union, Prepared Statement of..............   169
Nelson, Senator Ben, U.S. Senator From Nebraska:
    Questions Submitted by.......................................   136
    Statement of.................................................     4

Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by...................................................   153
Specter, Senator Arlen, U.S. Senator From Pennsylvania:
    Letters From.................................................31, 32
    Question Submitted by........................................   151
    Statement of.................................................     4
Stevens, Senator Ted, U.S. Senator From Alaska, Questions 
  Submitted by...................................................   149


                             SUBJECT INDEX

                              ----------                              

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Additional Committee Questions...................................    51
Airport Screening Processing Time................................    37
Amtrak Security Funds............................................    37
Analysis and Operations..........................................    63
Border:
    Patrol Support Staffing......................................   142
    Security Technology..........................................    47
CBP:
    Customs Officer Law Enforcement Officer (LEO) Status.........    44
    Staffing Allocation..........................................    41
Checkpoints......................................................42, 45
Chief Information Officer........................................    59
Coast Guard......................................................    84
Criminal Aliens..................................................   146
Debris Removal..................................................28, 147
Departmental Management and Operations...........................    51
DHS Headquarters.................................................    28
Disaster:
    Aid for Washington State.....................................    48
    Assistance for Alaska........................................    34
Domestic Nuclear Detection Office................................   129
Federal Emergency Management Agency............................105, 147
    Grant Funding................................................    35
    Law Enforcement Training Center..............................   128
Fiscal Year 2009 Budget Request..................................    15
Formaldehyde in Federal Emergency Management Trailers............   148
Gulf Coast Recovery Efforts......................................    27
Headquarters Consolidation Project...............................   138
Icebreakers......................................................    33
Immigration:
    And Customs Enforcement......................................   146
    Control......................................................    29
Inspector General................................................    65
Intelligence Sharing.............................................   139
National:
    Bio and Agro-Defense Facility...............................28, 149
    Center for Critical Information Processing...................   141
    Command and Coordination Capability..........................   146
    Guard at Southern Border.....................................    46
    Protection and Programs Directorate.........................93, 146
Northern Border..................................................    42
    And Maritime Sector..........................................   143
Office of:
    Health Affairs...............................................   102
    The Federal Coordinator for Gulf Coast Rebuilding............    65
Pacific Northwest National Laboratory............................    49
Passenger Vessels Service Act Rule...............................34, 50
Planned Customs Officer Staffing--State of Vermont...............    41
Project 28.......................................................    25
Protection, Preparedness, Response and Recovery..................    93
Repatriation of Criminal Aliens..................................    30
Research and Development, Training, and Services.................   128
Science and Technology.........................................128, 149
Secure Borders...................................................    45
Security, Enforcement, and Investigations........................    66
Transportation Security Administration...........................    75
    Surcharge....................................................    25
2010 Olympics Preparation........................................    48
U.S.:
    Citizenship and Immigration Services.........................   128
    Customs and Border Protection...............................66, 142
    Immigration and Customs Enforcement.........................72, 145
    Secret Service...............................................    90
US-VISIT.........................................................   101
USCG Workforce...................................................    26
Visa Waiver Program..............................................   145
Western Hemisphere Travel Initiative.............................    46

                                   - 

</pre></body></html>
